<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   MICHAEL K. SIMPSON, Idaho, Chairman
 JERRY LEWIS, California
 KEN CALVERT, California
 STEVEN C. LaTOURETTE, Ohio
 TOM COLE, Oklahoma
 JEFF FLAKE, Arizona
 CYNTHIA M. LUMMIS, Wyoming         JAMES P. MORAN, Virginia
                                    BETTY McCOLLUM, Minnesota
                                    MAURICE D. HINCHEY, New York
                                    JOSE E. SERRANO, New York

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                     Erica Rhoad, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Public Witnesses.................................................    1
 Public Witnesses--Tribes and American Indian Advocacy Groups.....  273
 Written Testimony from Members of Congress.......................  638
 Written Testimony from Individuals and Organizations.............  644

                                ________

         Printed for the use of the Committee on Appropriations


PART 8--INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2012
                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                   MICHAEL K. SIMPSON, Idaho, Chairman
 JERRY LEWIS, California            JAMES P. MORAN, Virginia
 KEN CALVERT, California            BETTY McCOLLUM, Minnesota
 STEVEN C. LaTOURETTE, Ohio         MAURICE D. HINCHEY, New York
 TOM COLE, Oklahoma                 JOSE E. SERRANO, New York    
 JEFF FLAKE, Arizona                
 CYNTHIA M. LUMMIS, Wyoming         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              David LesStrang, Darren Benjamin, Jason Gray,
                     Erica Rhoad, and Colin Vickery,
                            Staff Assistants

                                ________

                                 PART 8
                                                                   Page
 Public Witnesses.................................................    1
 Public Witnesses--Tribes and American Indian Advocacy Groups.....  273
 Written Testimony from Members of Congress.......................  638
 Written Testimony from Individuals and Organizations.............  644

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 66-982                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\        MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia            PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia             NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri           JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida            LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana             SAM FARR, California
 JOHN R. CARTER, Texas              JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana        CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California            STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                 SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio         BARBARA LEE, California
 TOM COLE, Oklahoma                 ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota         
 CHARLES W. DENT, Pennsylvania      
 STEVE AUSTRIA, Ohio                
 CYNTHIA M. LUMMIS, Wyoming         
 TOM GRAVES, Georgia                
 KEVIN YODER, Kansas                
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2012

                              ----------                              --
--------


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              --
--------

                                          Thursday, April 14, 2011.
    Mr. Simpson. Good morning, and welcome to the committee 
members.
    The Ranking Member is stuck in traffic, which is not 
unusual in this area, and will be a little late in coming in. 
Other members during the day will be in and out, that kind of 
stuff, but welcome to the first of two days of public witness 
hearings. Over the next two mornings, the subcommittee will 
hear from a cross-section of individuals representing a wide 
variety of issues addressed by this subcommittee.
    Each witness will be provided with five minutes to present 
their testimony. We have actually got the clock working today 
because we have to get through all of these and so you will 
have an idea of how much time you have. What it is, is the 
green light the first four minutes, yellow light for the next 
minute and then red light is at the end, and we have to keep 
testimony to that length of time so that we can get through 
them because at about 12:00 we have to be on the floor for the 
C.R. that will be coming up, and the rules of the House are 
that we cannot be in committee when a bill from our committee 
is on the floor. So we will have to adjourn by then. They say 
that the first votes are going to be sometime shortly after 
12:00. I was going to yield to Mr. Moran for any opening 
remarks but he will enter those in the record.
    Let me also say that your full testimony will be entered 
into the record so I would ask you to respect the time and so 
forth, and as I said, members will be coming in and stepping 
out as they have other committee assignments and those types of 
things also. So welcome to all of you.
    Our first witness is the Hon. Glenn Thompson, 
Representative from Pennsylvania's 5th Congressional District.
    Mr. Thompson, go ahead.
                                          Thursday, April 14, 2011.

                 U.S. FOREST SERVICE, WATER MANAGEMENT


                                WITNESS

HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Thompson. Well, Chairman, it is great to be with you 
this morning. Thanks for the opportunity just to weigh in 
briefly on some issues that I think are very important for 
consideration.
    I represent, as you said, Pennsylvania 5th District, a very 
rural district, 22 percent of the land mass of Pennsylvania, a 
lot of natural resources, a lot of energy. We are real proud 
that 151 years ago Col. Drake sunk a well 37 feet, drilled oil 
commercially for the first time anywhere in the world, changed 
the world.
    Mr. Simpson. Thirty-seven feet?
    Mr. Thompson. Thirty-seven feet with a wooden bit.
    And we have a lot of those natural resources--coal, oil, 
natural gas, timber, timber harvesting--and a long history in 
the 5th District and certainly continue to be an economic 
engine for the region.
    Today, Pennsylvania has returned to our energy roots with 
newly realized Marcellus Shale natural gas play, and this 
region has already produced enormous economic benefits in my 
region, which has struggled tremendously to create jobs and to 
maintain population over the past decades. This development is 
not a short-term economic boom. To the contrary, the prosperity 
Marcellus has created will continue for generations. We have 
the Utica Shale under the Marcellus, another play. Upwards of 
80,000 jobs have already been created in Pennsylvania as a 
direct result of the Marcellus Shale, and Pennsylvania 
estimates an additional $600 million in tax revenues alone this 
year. This increase in revenue will also of course increase in 
time, and although the production of the Marcellus is still in 
its infancy, it is already providing 10 percent of the entire 
Northeast natural gas supplies.
    The supplies generated from the domestic production has led 
to decreased commodity pricing while foreign petroleum prices 
continue to rise due to political turmoil in foreign lands.
    Now, natural gas, bear in mind, is not a world market, 
which means that we in the United States can control its price 
through simply supply and demand. It has been estimated the 
Marcellus output will greatly increase in coming decades, 
making this cleaner fuel source more affordable to our Nation's 
families and industries.
    While somebody suggested the industry requires new 
regulatory oversight from Congress or the EPA in particular, 
the fact remains that the Commonwealth of Pennsylvania has done 
a remarkable job regulating Marcellus activities through the 
Pennsylvania Department of Environmental Protection. We have 
some of the toughest environmental laws in the country, and I 
fully support regulation of this industry by the Pennsylvania 
Department of Environmental Protection.
    This subcommittee plays an important role in my district 
and many areas like it around the country. Therefore, I want to 
make the subcommittee aware of my priorities and the great 
needs of my district during these difficult financial times.
    Specifically, with the U.S. Forest Service, Allegheny 
National Forest, just down the road from Col. Drake's well is 
the Allegheny National Forest, or ANF for short. This forest 
nurtures the finest, most valuable hardwoods in the world, and 
the ANF in particular is known for its cherry. The ANF indeed 
is a special forest with a unique history intertwined with 
production of oil and natural gas and timber. It actually was 
an oil field before it became a national forest 87 years ago. 
Pump jacks are a part of its scenery.
    When the forest was created in 1923, mineral estates were 
severed from the Forest Service ownership of the surface, and 
this was done with the clear intention to allow timber and oil 
production to continue and allow for the Forest Service to 
oversee managed sustainable timber harvesting. Now, 
consequently, 93 percent of the subsurface mineral rights are 
still owned by the private sector, which drives the local labor 
market and economy. I found it frustrating to watch as the ANF 
struggled to perform critical functions as their budget was 
continually reduced as a result of Western wildfires. The FLAME 
Fund has been crucial in providing insulation to the budgets of 
our national forest, and I applaud the subcommittee for their 
input in the creation of the fund and support through 
appropriations. I can say that the fund appears to be a success 
because forests such as the Allegheny Forest have not been 
experiencing the historical difficulties wildfires have caused 
in the past financially.
    Perhaps the greatest challenge to the Forest Service 
continues to be unnecessary litigation that continues to 
hamstring the Forest Service from carrying out its basic 
duties. Without a doubt, we all have a duty to ensure the 
Forest Service is adequately performing and the legal avenue 
for the public to address any malfeasance must be intact. 
However, I strongly believe there are some outside the service 
as well as within who are intentionally abusing the system 
based on a radical environmental ideology. These legal battles 
often create inefficiencies and are a drain on the service's 
budget, staff and resources.
    Now, how can the Forest Service or any government agency, 
for that matter, do its basic job when they are incessantly 
involved with frivolous lawsuits? As the chairman of the House 
Agriculture Subcommittee on Conservation, Energy, and Forestry, 
I believe that there is an imperative to address these issues 
and respectfully request your partnership to make necessary 
improvements.
    Forest Service research stations--in addition to providing 
a substantial source of timber, another pillar of the Forest 
Service mission is to maintain forest health. Part of 
maintaining healthy forests is research and subsequent 
application. Pennsylvania and many other states have suffered 
devastating effects as a result of invasive species such as the 
gypsy moth and the emerald ash bore. I brought some along. I 
wish I would have brought you along one of the nice baseball 
bats we make with that ash too. This is the season to use 
those.
    Given the devastation that has occurred in the large 
regions of the country, it is critical that we continue 
research to establish best practices and means of combating 
these species in order to prevent further destruction of our 
forests.
    Fish and Wildlife Service--the U.S. Fish and Wildlife 
Service has been performing excellent research in order to 
assist with the restoration of fish populations around the 
country. They made great strides in the Northeast, particularly 
with the Atlantic salmon, which has been devastated in recent 
decades, and certainly there is a research facility in 
Pennsylvania that is doing incredible work with salmon species 
as well as advanced research in fish genetics and migration 
patterns. And I certainly respectfully request level funding in 
fish and wildlife, particularly for fish-related research.
    And the final area has to do with Payments In Lieu of Taxes 
and Secure Rural Schools. Four of the 17 counties in the 
Pennsylvania 5th District are within the boundaries of the 
Allegheny National Forest. The Payments In Lieu of Tax program 
is essential in this region because there is little or no tax 
base, which means little or no tax revenue for these forested 
counties. PILT is a major source of funding for services such 
as the police force, firefighters, road construction. 
Similarly, Secure Rural Schools programs ensure that children 
who reside in these forest counties receive adequate education 
and therefore I respectfully request full funding for both PILT 
and Secure Rural Schools.
    I want to thank you for the opportunity to testify before 
the committee and I am hopeful that as we move forward that the 
subcommittee will recognize the balance between fiscal 
responsibility and continuing our federal commitments to our 
national forests and citizens residing in forested counties, 
and I would certainly be happy to answer any questions you 
have. I appreciate it, Chairman. Thanks.
    [The statement of Glenn Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.001
    
    [GRAPHIC] [TIFF OMITTED] T6982A.002
    
    [GRAPHIC] [TIFF OMITTED] T6982A.003
    
    Mr. Simpson. Thank you. Thanks for your testimony. We 
appreciate you being here today. Some of us in the West always 
think that all the rural areas are in the West, but it is a 
learning experience for us that Pennsylvania and New York 
actually and other places have some very rural areas and issues 
that are of concern and similar to those of us in the West, so 
I appreciate you being here.
    Mr. Thompson. Well, I am a proud member of the Western 
Caucus.
    Mr. Simpson. And I appreciate it. Thank you.
    Mr. Thompson. Thanks, Chairman.
    Mr. Simpson. You bet.
    Next is Gregory Conrad, Executive Director of the 
Interstate Mining Compact Commission. Welcome.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

                 U.S. FOREST SERVICE, WATER MANAGEMENT


                                WITNESS

GREGORY CONRAD, EXECUTIVE DIRECTOR, INTERSTATE MINING COMPACT 
    COMMISSION
    Mr. Conrad. Good morning. My name is Greg Conrad and I 
serve as Executive Director of the Interstate Mining 
Commission, which is a multi-state governmental organization 
representing the natural resource and environmental protection 
interests of our 24 member states who regulate the mining 
industry and reclaim abandoned mine lands. I am also appearing 
today on behalf of the National Association of Abandoned Mine 
Land Programs, which consists of 30 states and tribes that do 
the AML work.
    Mr. Chairman, these are tough states for state and federal 
budgets, and we realize the deficit reduction and spending cuts 
are the order of the day. As a result, some hard choices need 
to be made about how we spend limited dollars in an efficient 
and effective way. The environmental protection associated with 
mining operations is no exception. While we might want to run 
Cadillac programs that accomplish all of our goals and 
objectives, prioritization is the watchword of the day and we 
have to be mindful of every dollar that is expended on behalf 
of our citizenry.
    One of the tough choices that has to be made with respect 
to programs under the Surface Mining Control and Reclamation 
Act is who will take the lead in implementing the act's 
requirements. Once we agree upon that, it is then incumbent 
upon both state and federal governments to prioritize funding 
decisions to support the lead agencies.
    Congress created a state primacy approach under SMCRA 
whereby state governments were vested with exclusive regulatory 
authority to operate programs for both active mining operations 
and AML restoration following approval of those programs by the 
Federal Government. The act also provides for grants to states 
that meet 50 percent of their program operations under Title V 
and 100 percent under Title IV for AML.
    Once again in fiscal year 2012, we are faced with a 
decision about the extent to which the Federal Government will 
support these funding commitments under SMCRA and the state 
lead concept for program implementation. OSM's budget proposes 
to move us away from those commitments and concepts. The 
Administration would have us believe that the Federal 
Government is in a better position to decide how these state 
programs should be run and that the states should do so with 
less money and more oversight. At the very same time, 
additional mandates and program requirements are being placed 
on the states through new rules, directives, guidelines and 
agreements among federal agencies. In this regard, I would like 
to submit for the record a resolution concerning state primacy 
adopted by IMCC at its annual meeting last week.
    Mr. Simpson. You bet.
    Mr. Conrad. Something has to give, Mr. Chairman. Either we 
agree to support the states as envisioned by SMCRA or we change 
the rules of the game. Undercutting the states through 
unrealistic funding restrictions that jeopardize the efficacy 
of state programs is no way to run a ship. States are 
struggling to match federal dollars and signals from the 
Federal Government that it is wavering in its support 
concerning both dollars and confidence in the states' ability 
to run effective regulatory and AML programs will do little to 
build trust. This is not the time to reverse the course that 
Congress has set for its support of state programs over the 
past few years. And in that regard, we are particularly 
encouraged and appreciative of the recent decisions to support 
state programs in the fiscal year 2011 C.R.
    For 2012, we urge the subcommittee to reject OSM's proposed 
cut of $11 million for state Title V grants and restore the 
grant level funding to $71 million as supported by our funding 
request. We also request that the subcommittee instruct OSM to 
pursue any cost recovery proposal with the states before 
utilizing it as a mechanism to offset cuts to state grant 
funding in its budget. OSM's proposal is completely out of 
touch with the realities associated with establishing or 
enhancing user fees. Based on a recent polling of my member 
states, we found that it would be difficult, if not impossible, 
for most states to accomplish this feat at all, much less in 
one fiscal year.
    With respect to the AML program, we face a more extreme 
situation. OSM is proposing to terminate the AML emergency 
program, eliminate funding to certified states and tribes, and 
completely overhaul the mechanism for distributing AML grants 
to the rest of the states. In doing so, OSM will totally upend 
the work that Congress accomplished just five years when it 
redesigned and reauthorized Title IV of SMCRA. That 
Congressional action was the result of over 10 years of effort 
toward developing a compromise that met the original intent of 
SMCRA and the needs of the affected parties. I would like to 
submit for the record a list of questions regarding this 
legislative proposal by OSM in their budget, which we believe 
must be answered before moving forward.
    The AML program has been one of the key successes of SMCRA, 
and based on Congressional action in 2006, it is well 
positioned to remain so into the future. We therefore urge the 
subcommittee to once again reject the Administration's 
proposals to undermine this vital program and to fully fund 
state and tribal programs and the emergency program. And in 
this regard, I would like to submit for the record two 
resolutions adopted by IMCC and the National Association of 
Abandoned Mine Land Programs along with a written statement 
from the association.
    Thanks for the opportunity to present our testimony.
    [The statement of Gregory Conrad follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.004
    
    [GRAPHIC] [TIFF OMITTED] T6982A.005
    
    [GRAPHIC] [TIFF OMITTED] T6982A.006
    
    [GRAPHIC] [TIFF OMITTED] T6982A.007
    
    Mr. Simpson. Thank you, and those submissions that you 
requested will be taken. We appreciate it. You bring up a real 
challenge that we face not just in this budget but across the 
government in those areas where a lot of the states do programs 
at the direction of the Federal Government and when you start 
reducing funding, it affects the state programs and so we kind 
of pass those problems on to the states, but it is a real 
issue, like I say, not only through Interior but throughout the 
budget, and it is one of those challenges we are going to have 
as we write the 2012 budget.
    Mr. Conrad. We appreciate your support.
    Mr. Simpson. Thank you. We appreciate it.
    Next we have Tom Troxel, the Executive Director of the 
Intermountain Forest Association.
                              ----------                              

                                          Thursday, April 14, 2011.

                 U.S. FOREST SERVICE, WATER MANAGEMENT


                                WITNESS
TOM TROXEL, EXECUTIVE DIRECTOR, INTERMOUNTAIN FOREST ASSOCIATION

    Mr. Troxel. Thank you, Mr. Chairman. My name is Tom Troxel. 
I am from Rapid City, South Dakota, and I am testifying today 
on behalf of the Federal Forest Resource Coalition.
    We have a crisis in our national forests. Between 60 and 80 
million acres of national forest are classified at risk for a 
catastrophic wildfire. In addition, bark beetles have killed or 
damaged 40 million acres of western forest over the last 13 
years and the Forest Service expects those epidemics to 
continue for another five to 10 years. The underlying reason is 
that we are harvesting only 10 percent of the annual growth on 
national forest timberlands, leaving the forest more and more 
overstocked and more susceptible to fires and insect epidemics.
    Research has clearly demonstrated that mechanical thinning 
and active forest management can reduce the size and severity 
of wildfires and bark beetle epidemics. Forest products 
companies provide the lowest cost and most effective tool for 
the Forest Service to improve and maintain the health of our 
national forests. There is a tremendous opportunity to increase 
proactive forest management, improve the health and resiliency 
of our forest, reduce the potential for catastrophic and 
expensive fires and insect epidemics, produce American wood 
products and put Americans back to work. Many rural communities 
close to the national forest have unemployment rates nearing 20 
percent. Investing in the Forest Service's timber program is a 
very effective job creator, generating 16\1/2\ jobs per million 
board feet harvested.
    With the national emphasis on jobs and putting people back 
to work, increased management and timber outputs would provide 
a much-needed boost to rural America as well as improve the 
health and resiliency of the national forest.
    We have several recommendations. Our first recommendation 
is that you reject the proposed Integrated Resource Restoration 
line item. The IRR would inevitably reduce accountability for 
timber outputs, cost and efficiency. Further, not all forests 
need restoration. But even where restoration makes sense, there 
is no compelling reason to overhaul the Forest Service's budget 
structure. We recommend targets for each budget line item and 
an annual report from the Forest Service to the Congress on 
their accomplishments. We recommend increasing the fiscal 2012 
program to 3 billion board feet. This would help satisfy 
increased demand for national forest timber, increase much-
needed management of the national forest plus provide thousands 
of additional jobs. We recommend restoring the proposed $79 
million cut to the roads budget line item and that you reject 
the proposal for no new road construction.
    We urge the committee to authorize the HFRA administrative 
review process for all national forest NEPA decisions as a 
means of increasing their efficiency. We support the Forest 
Service's recent proposal for a pre-decisional objection 
process for forest plan decisions and believe that Congress 
should follow suit for project NEPA decisions.
    We recommend restoring the proposed $9 million reduction 
for hazardous fuels and that 50 percent of the hazardous fuels 
funds be directed to non-WUI areas.
    We urge you to provide adequate funding for the 
catastrophic beetle epidemics for thinning out in front of the 
beetles and for tree removal and fuels reduction where trees 
are already dead. The Forest Service's response to the 
epidemics has been underfunded and mostly after the fact. And I 
brought you some mountain pine beetles and I brought you some 
bumper stickers, what we think about mountain pine beetles in 
the Black Hills of South Dakota.
    We recommend full funding for the collaborative Forest 
Landscape Restoration Act program provided that the program is 
funded with new money and with a separate budget line item.
    Finally, considering the backlog of work on the national 
forest, we recommend that the proposed funding for land 
purchases be redirected to forest management and improving the 
health of the national forest.
    In conclusion, I would like to reiterate the opportunity to 
proactively improve the health and resiliency of the national 
forest, maintain critical forest industry infrastructure, 
produce American wood products, create jobs and put people back 
to work.
    Thank you very much for this opportunity to testify. I 
would be happy to answer your questions.
    [The statement of Tom Troxel follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.008
    
    [GRAPHIC] [TIFF OMITTED] T6982A.009
    
    [GRAPHIC] [TIFF OMITTED] T6982A.010
    
    [GRAPHIC] [TIFF OMITTED] T6982A.011
    
    Mr. Simpson. Thank you for being here today. So the pine 
bark beetle epidemic has gotten worse as we have done less and 
less thinning of the forest and less tree removal?
    Mr. Troxel. Yes, sir. It is continuing to span. The 
epicenter was in Colorado and it is expanding from Colorado to 
Wyoming to South Dakota to Montana and Idaho, and it just 
continues to expand.
    Mr. Simpson. It is a real problem, and when you get out in 
the forest and you stand on top of a mountain and look around 
and look at how vast some of these forests are, trying to 
address it is a huge issue.
    Mr. Troxel. Yes, sir.
    Mr. Simpson. And I look out there at we call, you know, the 
red tree forest, and lightning comes through there and it is a 
tinderbox.
    Mr. Troxel. Right. We do not have nearly the options that 
we would have had if we had done some management when the 
forests were green but there are things we can and should be 
doing. All of those dead trees and all the fuels pose a real 
risk of catastrophic fires, and we ought to be doing everything 
we can now.
    Mr. Simpson. I had a question for years with the Forest 
Service, and I do not know, I am not a forester, but we put out 
98 percent of all fires that start. Fires are a natural part of 
the ecosystem, and it makes you wonder if that builds up the 
fuel so much that when you do have a fire that you do not put 
out, all of a sudden it is a catastrophic fire. I think we need 
more active management of the forest.
    Mr. Troxel. I agree with you, and active management, in a 
lot of places we can do it with mechanical thinning. Some 
places in the back country it makes sense to do with fire.
    Mr. Simpson. I appreciate it. Jeff, do you have anything?
    Mr. Flake. I have the same observations that you have, 
particularly with respect to the ponderosa pine forest Arizona 
has. We have had some good management. Wally Covington at the 
Northern Arizona University and others have been active here, 
so I could not agree more. We had the Rodeo-Chediski fire a few 
years ago and it was far more devastating than it would have 
otherwise been. It was less devastating on areas, particularly 
on the Indian reservations, that had been better managed 
because some of the rules and regulations for the Forest 
Service were not in place on the Indian reservation.
    So I am one who believes in active management and allowing 
commercial interests where you can. That is the only way 
sometimes to recoup some of the money to go further into the 
forest like we need to. So, I am all in favor of moving ahead 
there.
    Mr. Simpson. I appreciate it. Thank you for being here 
today.
    Mr. Troxel. Thank you very much, Congressman.
    Mr. Simpson. Next we have John Shannon, National 
Association of State Foresters.
                                          Thursday, April 14, 2011.

                 U.S. FOREST SERVICE, WATER MANAGEMENT


                                WITNESS

JOHN SHANNON, ARKANSAS STATE FORESTER AND VICE PRESIDENT, NATIONAL 
    ASSOCIATION OF STATE FORESTERS

    Mr. Shannon. Good morning, sir. I am the state forester of 
Arkansas. This is my first time before your subcommittee, and I 
did not know I was supposed to bring a bottle of dead bugs. I 
will be mindful of that.
    Mr. Simpson. They are very impressive.
    Mr. Shannon. If you ever invite me back----
    Mr. Simpson. They will not allow me into Idaho with those. 
They have enough already.
    Mr. Shannon. We have plenty. We have southern pine beetles 
too.
    I am representing the National Association of State 
Foresters, and my testimony today is going to focus on our 
recommendations for the 2012 budget for state and private 
forestry.
    We are the champions for forestry in the country. We take 
care of two-thirds of America's forests, not the U.S. Forest 
Service. We also live in the world of reality. I have had to 
balance the state forestry commission budget for 17 consecutive 
years. You have to make some hard calls, you know. You folks 
are making those hard calls. We get that. So our budget 
proposals this time do not reflect the need for forest 
conservation. We are just trying to keep our noses above water. 
So generally we are recommending that the 2012 budget hold the 
line at the 2010 actual budget level.
    Congress has mandated that the state foresters assess our 
forests and identify priority issues, and we have all completed 
that work and we have all developed state forest action plans. 
It is a big country. Forests differ greatly. But as put 
together these plans state by state, there were five themes 
that were really common across the country, and I would like to 
walk through those because they do tie to the state and private 
forestry budget.
    First is, if we are going to conserve and manage these 
forests, we need to know what we are talking about, and that 
means we need an accurate and current forest inventory, so we 
are asking to hold the line at $72 million for forest inventory 
and analysis.
    The second issue is, boy, there are tremendous challenges 
in forest health, and that is the theme that has already 
developed here today, sir, so I will not review that, but we 
are looking again to hold the line at $60 million for 
cooperative forest health.
    The third common theme is wildfires, and although I think 
the public watching TV thinks these fires burn in remote, dark 
woods, you know, far away somewhere, we know there are scores 
of thousands of American communities that are at risk from 
these wildfires. It is not just saving the woods; it is where 
people live, too. So we are asking to hold the line at $110 
million for state fire assistance, and I can tell you in rural 
states like Arkansas, that is really, really important. And we 
could never pay all the volunteer firefighters we have. That is 
an investment that really is matched tremendously at the local 
level.
    And the Forest Service has through the FLAME Act a reserve 
fund for paying for firefighting. It is $413 million. I hope 
you can maintain that fund, because if that fund is not there 
and the Forest Service needs more money to fight fires, you 
know where they are getting that money from? State and private 
forestry, and that has happened before and it halts work and it 
hurts partnerships, you know, so please keep that reserve fund 
at $413 million.
    We have got to keep forest land forested. That is not a 
given. States that are really growing in population have lost 
hundreds of thousands of acres of forestland, and forest 
landowners, private landowners keep their land forested only if 
it makes economic sense to do so. If it does not, they change 
their land use. And so the first step to really understand the 
economic development of their forestland is to have a forest 
stewardship plan. We provide those for the private forest 
landowners. So we are asking to maintain that Forest 
Stewardship budget at $29 million.
    The fifth and final common theme that arose across the 
country is, we need to establish and maintain forests where 
Americans live, which is not really in remote rural areas 
anymore. Most Americans live in town. And I am not just saying 
shade trees are pretty so we need to invest in those. There is 
measurable value in having a green infrastructure in America's 
cities and an easy one to measure is stormwater runoff, the 
cost control for stormwater runoff. Sir, this is the one line 
item where we are asking for a small increase, up to $32 
million.
    If I can just wrap up by saying that the state foresters 
would really like to begin a discussion with your committee on 
getting us more flexibility to integrate these programs under 
state and private and integrate the use of the funding not to 
just do whatever we would like to do but to focus on the 
federal priorities, which are outlined in the Farm Bill, and to 
focus on the priorities we have identified in our state forest 
action plans, and if you give us more flexibility, and there is 
a long process to get there but if we get there, hold our feet 
to the fire. You ought to heighten the accountability too. You 
ought to require accomplishments and that we measure those 
accomplishments and that we report those accomplishments to 
you. I look forward to working with you.
    [The statement of John Shannon follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.012
    
    [GRAPHIC] [TIFF OMITTED] T6982A.013
    
    [GRAPHIC] [TIFF OMITTED] T6982A.014
    
    [GRAPHIC] [TIFF OMITTED] T6982A.015
    
    Mr. Simpson. Thank you. I look forward to working with you 
on that. I have always been an advocate of more flexibility for 
the agency, and what this committee needs to do is know what 
your goals are with this budget, and next year I will ask you, 
did you achieve those goals, if so, how, if not, why not, and 
those types of things. Sometimes I think we get into too much 
individual line item budgeting. But I appreciate your 
testimony, and I have seen firsthand the FMAT grants and how 
those help communities that would otherwise be broke.
    Mr. Shannon. Yes. Hold us accountable.
    Mr. Simpson. Thank you.
    Next, we have Hank Kashdan, Legislative Director for the 
National Association of Forest Service Retirees.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

                 U.S. FOREST SERVICE, WATER MANAGEMENT


                                WITNESS

HANK KASHDAN, LEGISLATIVE DIRECTOR, NATIONAL ASSOCIATION OF FOREST 
    SERVICE RETIREES

    Mr. Kashdan. Thank you, Mr. Chairman, and on behalf of the 
National Association of Forest Service Retirees, I really 
appreciate the opportunity to be here today for this public-
witness hearing, and we want to especially thank you and the 
subcommittee for keeping the key multiple-use programs of the 
agency intact during your very challenging 2011 negotiations 
you just had, and it was very noticed and very appreciated and 
we thank you for that.
    These multiple-use programs are key to restoring the health 
and resiliency of America's forests and watersheds, and they 
are the crux of the written testimony I provided today. As Mr. 
Troxel, Mr. Thompson and Mr. Shannon pointed out earlier, 
restoring America's forests and watersheds is getting tougher 
and it needs even higher-priority focus, and in our review of 
the Administration's budget for 2012, it does not appear that 
that priority is coming through in the proposal. The Western 
Governors Association, the Government Accountability Office 
have all pointed out the need to increase investments in 
restoration activities. The Departments of Agriculture and 
Interior just recently issued the Cohesive Wildland Fire 
Strategy. In there, they cite the need to increase investments 
in hazardous fuels yet the Forest Service's hazardous fuels 
budget is reduced about $9 million. The Department of the 
Interior's is reduced even more than that.
    And you look at the roads and trails infrastructure, the 
two line items that are really key to funding the restoration, 
this key restoration activity, they are down $93.7 million from 
the 2010 level, and it is often unappreciated that these two 
line items, predominantly the roads line item, are really key 
to restoring watersheds, maintaining roads to standard, 
decommissioning roads that for environmental reasons cannot 
remain on the landscape or that are not needed for their 
original purpose anymore, ensuring access for the public, and 
here in the intermountain list where the beetles are causing 
literally thousands of trees to fall across roads and trees 
every day, you need a good roads budget to keep those roads 
open for access, for protection of the public, and it is a 
really critical function.
    So we look at the proposed Forest Service budget and see an 
$85 million increase in land and water conservation to support 
the America's Great Outdoors initiative, our conclusion is that 
is being proposed at the expense of these key restoration 
programs and so we want to encourage as some of the previous 
witnesses have said to keep that focus on restoration.
    Focusing on restoration, I want to mention the 
Collaborative Forest Landscape Restoration Act. The President's 
budget does propose full funding for that, and we are very 
supportive of that. Throughout the country, we have seen very 
strong collaborative efforts starting to emerge. Some are fully 
functioning, some are emerging. I was reading about a couple in 
the Salmon River just the other day. You know, it was not too 
long ago where the widely divergent publics were only talking 
to each other as part of the appeals process or the litigation 
process. This offers an opportunity to bring those publics 
together, and it is showing some success. We are seeing 
increases in local employment, a good flow of forest products, 
bigger investments in recreation and some optimism in local 
rural communities for a good, sustainable economic future.
    Now, key to that landscape restoration, what we also want 
to note is the stewardship contracting tool. Stewardship 
contracting is up for expiration in 2013. If it were not for 
the support of the Appropriations Committees, we would not have 
stewardship contracting today. It has been slow in coming along 
but I think it is reaching critical mass and we would hope that 
we could continue to see your support as it goes through the 
authorizing process and the appropriations process.
    I would like to just close with something that is not in 
the written testimony that has got the retirees' network quite 
abuzz recently, and that is the issue of travel management. In 
February, there was an amendment that Mr. Herger offered that 
would prohibit the implementation and enforcement of travel 
management plans. We think that may have some unintended 
consequences that are not desirable. Sixty-eight percent of the 
units in the system have completed travel management plans. 
These could not have been done without collaboration with the 
motorized recreation users. To be certain, there are hot spots, 
there is some discontent, but for the most part, we feel that 
motorized recreation users are supportive of this and in fact 
travel management is a friend of that activity.
    So with that, Mr. Chairman, I see I am just about out of 
time so I just wanted to thank you very much for the 
opportunity to be here today, and we are here and ready to 
serve and help in any way we can.
    [The statement of Hank Kashdan follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.016
    
    [GRAPHIC] [TIFF OMITTED] T6982A.017
    
    [GRAPHIC] [TIFF OMITTED] T6982A.018
    
    [GRAPHIC] [TIFF OMITTED] T6982A.019
    
    Mr. Simpson. We thank you, and thank you for your 
testimony. We look forward to working with you as we have these 
more challenging times with reduced budgets. We want to make 
sure that what we do is maintain the essential programs of the 
Forest Service and all of the federal agencies, so we look 
forward to working with you to address those kinds of things. 
Thank you.
    Mr. Kashdan. Thank you.
    Mr. Simpson. Next, we have Jim Lighthizer, President of the 
Civil War Trust. How are you doing? Good to see you again.
    Mr. Lighthizer. Good to see you again, my friend.
    Mr. Simpson. You bet.
                              ----------                              

                                          Thursday, April 14, 2011.

               HISTORIC PRESERVATION, ARTS AND HUMANITIES


                                WITNESS

JIM LIGHTHIZER, PRESIDENT, CIVIL WAR TRUST

    Mr. Lighthizer. Mr. Chairman, I came to first thank the 
committee for its support of the American Battlefield 
Protection Program in the past years. I recognize that 2012 is 
going to be a difficult year for the country, not to mention 
the Congress, and you all have some difficult decisions and 
choices you have to make.
    As you are very much aware, Mr. Chairman, one of the 
differences between the land we save and the other good land 
that other folks save is that we save heritage land, and it is 
impossible to move where the great armies fought. You cannot 
pretend it was someplace else. In other words, history is where 
it happened.
    The other thing I would say, Mr. Chairman, it is the 
sesquicentennial now. It started, I guess, officially yesterday 
or the day before, depending on how you want to count it, and 
we are running out of time. As you know, what we try to save, 
the battlefield land we try to save, has been defined, and we 
estimate in the next five to 10 years it is either going to be 
saved or paved, so we have got to get while the getting is 
good, if you will. This program has been a good program. It has 
got metrics. You can measure its success or lack thereof. It 
has worked well. It is a public-private partnership. We have 
skin in the game, so to speak. We have to raise a dollar to get 
a dollar. I think it has worked very, very well for the 
American public because we are saving heritage. We are saving 
outdoor classrooms, in effect. We are preserving the land so 
that we can teach future generations about what made this 
country what it is today, which I happen to think is a pretty 
good country.
    So we thank you, Mr. Chairman, and thank the committee for 
its past support.
    [The statement of Jim Lighthizer follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.020
    
    [GRAPHIC] [TIFF OMITTED] T6982A.021
    
    [GRAPHIC] [TIFF OMITTED] T6982A.022
    
    [GRAPHIC] [TIFF OMITTED] T6982A.023
    
    Mr. Simpson. Thank you. I appreciate the work you do. I 
look forward to working with you to preserve these areas. You 
are right. You do great work and, as you said, once you lose 
it, it is gone.
    Mr. Lighthizer. Yes, it is gone forever. You cannot get it 
back.
    Mr. Simpson. And we will get out to Antietam one of these 
days.
    Mr. Lighthizer. Please do. You know it is a standing offer.
    Mr. Simpson. I know.
    Mr. Lighthizer. Thank you, Mr. Chairman.
    Mr. Simpson. Next we have Trace Adkins, Grammy-nominated 
country and western singer. How are you doing?
    Mr. Adkins. Fine, sir. How are you?
    Mr. Simpson. Welcome.
    Mr. Adkins. I am proud to be here. This is a sobering 
occasion for me. I am not used to this.
    Mr. Simpson. You are just talking to friends.
                              ----------                              

                                          Thursday, April 14, 2011.

               HISTORIC PRESERVATION, ARTS AND HUMANITIES


                                WITNESS

TRACE ADKINS, GRAMMY-NOMINATED COUNTRY MUSICIAN

    Mr. Adkins. Okay. Well, Mr. Chairman, thank you for the 
opportunity to speak to you. My name is Trace Adkins. I do sing 
country music. I am also a student of history, a descendant of 
a Confederate soldier who fought in the Civil War.
    I have visited many of these hallowed battlefields that Mr. 
Lighthizer spoke of, and through the preservation of these 
sites I was able to stand upon ground where soldiers stood and 
reflect on the sacrifices that were made there.
    I come before you today just to share my personal interest 
in the Civil War and why I believe it is important to preserve 
the last tangible links to this history, the battlefield lands 
where hundreds of thousands of brave soldiers, including my 
great-great-grandfather, fought and died. With this being the 
first year of the 150th anniversary of the Civil War, now I 
think is the opportune time to redouble efforts to further 
protect these hallowed grounds.
    I grew up in Louisiana. I now live in Nashville. So I have 
spent a lot of my life in close proximity to Civil War 
battlefields, and my interest grew out of a conversation that I 
had with my grandfather when I was 11, and he told me about his 
grandfather. He was 73 at the time, my grandfather was, and he 
showed me copies of letters that his grandfather had written 
home while he was serving, and so that piqued my interest and 
spurred me to become a student of history at that time. When he 
died 10 years later, I was 21 and I took that occasion out of 
an homage to him to go to Vicksburg, and I was able to stand in 
the trench where his grandfather, my great-great-grandfather, 
had been. I knew I was within 100 feet of where he had stood, 
and it was a spiritual moment for me. I cannot really express 
it any other way.
    I was fortunate enough to be able to go, as I said, to 
Vicksburg, and Vicksburg is now part of the National Park 
Service system and it has been well preserved, and it is a 
success story. There are many others, but I am fortunate to 
have that.
    The seriousness of the threat to these unique resources was 
brought home to me one winter day a couple of years ago. It 
happened to be on December 15th and I was having to go into 
Nashville, and I was stuck in traffic on I-65 south of town and 
I happened to notice that I was directly across the interstate 
from Overton High School. Overton High School is a school that 
sits on top of Overton Hill. December 15th happened to be the 
anniversary of the Battle of Nashville, and on December 15, 
1864, it was said later about that battle that you could walk 
from the bottom of that hill to the top of that hill stepping 
on dead soldiers. It was that kind of carnage. And as I was 
sitting there stuck in traffic, I wondered if I were to get out 
of my truck right now and start knocking on people's windows 
and asked them if they know what happened on that hill right 
there 140-some-odd years ago how many of them would know, and I 
think it is a sad commentary that probably very few, if any of 
them, would have had a clue.
    So these historic landscapes are treasures. They are 
American treasures, and preserved battlefields are cultural and 
historic landscapes that serve as a constant reminder of the 
sacrifices our ancestors made to make this country what it is 
today. And the protection of these battlefields will leave a 
legacy of commitment to preservation and conservation. These 
lands will be open spaces for the public to enjoy preserved in 
their natural and pristine state.
    The tourism that comes from these sites, it is very 
important to many of these communities, and so I think that 
this kicks off the sesquicentennial of the Civil War and I do 
not think there is a better time for us, like I said, to 
recommit to the preservation of these sacred lands, and I 
appreciate you listening and for having me here today, and I 
really appreciate Jim Lighthizer for all the work that he does 
and it has been an honor for me to be associated with the Civil 
War Trust and all the work that they do. Thank you, sir.
    [The statement of Trace Adkins follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.024
    
    [GRAPHIC] [TIFF OMITTED] T6982A.025
    
    [GRAPHIC] [TIFF OMITTED] T6982A.026
    
    [GRAPHIC] [TIFF OMITTED] T6982A.027
    
    Mr. Simpson. Thank you, Trace. They do good work, and I 
appreciate your commitment to this also. I tell people whenever 
they come here to Washington, people from Idaho, they always 
ask us where they should go and what they should visit, and I 
say if you have a day, go to Gettysburg but take your shoes 
off.
    Mr. Adkins. Yes.
    Mr. Simpson. It is one of those things that is just 
amazing, and there are so many of those around the West. I am 
just surprised that coming from Tennessee and Louisiana that 
you refer to this as the Civil War. Being from Idaho, you know, 
I have a place over in Arlington, VA, and I learned right away 
that there was no Civil War, there was a War of Northern 
Aggression.
    Mr. Adkins. And a war for southern independence.
    Mr. Simpson. That is right.
    Mr. Adkins. In mixed company, I try to use politically 
correct terms. But in conclusion, I would like to say that as a 
concerned citizen, I think that these Civil War battlefields 
serve as a monument to what happens when political wisdom fails 
us and our disagreements are allowed to escalate beyond reason, 
and I think they are horrific reminders of what could happen. I 
just think it is very important for us as a Nation to preserve 
these places. Thank you, sir.
    Mr. Simpson. Thank you. Thank you for your testimony and 
for being here today. I appreciate it very much.
    Next we have Margaret Graves, President of the Partners in 
Preservation.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

               HISTORIC PRESERVATION, ARTS AND HUMANITIES


                                WITNESS

MARGARET GRAVES, PRESIDENT, PARTNERS IN PRESERVATION

    Ms. Graves. Thank you, Chairman Simpson, for the 
opportunity to testify. I am Margaret Graves and I am the 
President in Partners in Preservation.
    Our prior speaker spoke about the importance of our 
national historic sites, and given the current budget crisis, 
we are at risk of losing this incredible heritage if we do not 
use innovative solutions like historic leases to help the 
National Park Service address the myriad challenges it faces as 
the primary steward of our historic built environment.
    According to the National Trust for Historic Preservation, 
2,811 historic structures of national significance are in poor 
condition within the National Park Service system. Fiscal 
common sense requires the National Park Service to embrace 
preservation-minded partners like Partners in Preservation. The 
National Park Service Organic Act directs the National Park 
Service to conserve historic objects and to provide for their 
enjoyment and to conserve them for the benefit of future 
generations. This represents a significant challenge for the 
National Park Service.
    The National Park Service is responsible for conserving 
27,000 historic structures and 84 million acres of land. Their 
deferred-maintenance budget is currently estimated to be $10.8 
billion, $3 billion of which is for structures listed on the 
National Register of Historic Places. This is more than leaky 
rooftops. This represents the potential loss of our heritage 
for our children and our grandchildren. Government funds alone 
are insufficient to meet the challenges. Private funds are 
needed.
    Historic leases offer the opportunity to attract private 
capital to the Park Service's challenges. They shift the 
maintenance obligations to the lessee. In some cases, the 
lessee is required to pay rent. In some cases, the condition of 
the building is so poor that the lessee invests in 
rehabilitation in lieu of paying rent.
    According to an MPCA report, for fiscal year 2009, 26 parks 
reported leasing revenue of $4.3 million. In fiscal year 2007, 
48 parks leased a total of 147 historic structures. This is 
just a small fraction of the structures eligible for leasing. 
In my written testimony, I have provided a list of the parks 
that have granted leases to date.
    As members of the Appropriations subcommittee with 
jurisdiction over the National Park Service budget, you have 
the opportunity to encourage the National Park Service to 
pursue more historic leases or risk the loss of future historic 
resources. The legal framework in place and many benefits have 
been recognized of historic leases, primarily that 
underutilized park structures are preserved and rehabilitated 
with private funds, costing taxpayers nothing and alleviating 
the burden on the National Park Service. They have been 
underutilized. Why? In part, because park-level superintendents 
have limited knowledge of historic leases and the benefits they 
offer.
    Cumberland Island National Seashore offers a textbook 
example of how a historic lease could preserve historic 
resources. On Cumberland Island, the National Park Service is 
responsible for the preservation of 82 individual historic 
structures. These range from African American chimneys left 
from burned slave cabins to a 22,000-square-foot mansion. They 
also are responsible for 47 known archaeological sites, and 
because Cumberland Island National Seashore is an island not 
connected to the mainland by a bridge, every item has to come 
by boat.
    In fiscal year 2009, the National Park Service spent $1.69 
million on maintenance expenses. Approximately half of that 
money came from their operating budget and the other half came 
from one-time funds. These funds, while generous in that 
particular year, are likely to be reduced going forward, given 
the budget crisis. They have inadequate staff to accomplish all 
of the maintenance tasks at hand. Partners in Preservation is 
willing to invest approximately $1 million in the preservation 
of two National Register historic structures which are 
otherwise at risk for demolition by neglect due to lack of 
funding. Other structures on Cumberland Island have been 
demolished by neglect because of lack of money. If a historic 
lease is granted of these structures, it is a win-win-win, a 
win for the public, a win for the Park Service and a win for 
future generations.
    Our Nation's heritage is at risk of being lost if the 
National Park Service does not pursue historic leases more. If 
the National Park Service embraces historic leases and grants 
them more frequently, they will have had the ability to 
preserve far more of our history. The alternative is to leave 
future generations a crumbling legacy of diminished historic 
resources and a loss of national heritage. Thank you.
    [The statement of Margaret Graves follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.028
    
    [GRAPHIC] [TIFF OMITTED] T6982A.029
    
    [GRAPHIC] [TIFF OMITTED] T6982A.030
    
    [GRAPHIC] [TIFF OMITTED] T6982A.031
    
    Mr. Simpson. Thank you. Thanks for your testimony and the 
work you do. We appreciate the private sector being involved in 
much of this.
    Ms. Graves. They can be a great partner.
    Mr. Simpson. That is right. Thank you.
    Next we have Trent Clark, Public Relations Affairs Director 
and representing the Federation of State Humanities Councils. 
Welcome. He is from Idaho. Imagine that. Trent and I have been 
friends for many, many years, and I appreciate you being here 
today, Trent.
                              ----------                              

                                          Thursday, April 14, 2011.

               HISTORIC PRESERVATION, ARTS AND HUMANITIES


                                WITNESS

TRENT CLARK, PUBLIC AND GOVERNMENT AFFAIRS DIRECTOR, FEDERATION OF 
    STATE HUMANITIES COUNCILS

    Mr. Clark. Thank you very much Congressman, and let me 
extend to you the greetings and well wishes of the other 
members of the Idaho Humanities Council Board, many of whom are 
friends and folks you know very well.
    I was going to say for the benefit of the other members I 
might introduce myself, but as you know, I also in my day job 
represent Monsanto, who employs directly and indirectly roughly 
3,000 Idahoans in southeast Idaho. But it is my privilege to be 
a volunteer on the Idaho Humanities Council.
    I am here today representing the state humanities council, 
and as that organization supporting the humanities budget 
request of $167.5 million for the National Endowment for the 
Humanities. I am here specifically to justify and explain the 
value that is achieved to the taxpayers out of the $47 million 
of that budget that is allocated to the endowment's federal-
state partnership. That is the money that goes out to the 50 
states and six territorial councils. In doing that, one thing I 
hope you do understand is, there is tremendous bang for the 
buck achieved when that money is distributed out across the 
Nation. For every federal dollar that is invested in that 
public federal-state partnership, there are 5\1/2\ dollars that 
are added then to it, so you get tremendous bang for the buck.
    The remaining question then is with that highly leveraged 
impact, what are you achieving? Well, here is my answer, and 
there are five specific achievements. First of all, the council 
programs lift our sights above the day-to-day grind to focus us 
on important questions like where have we been and where are we 
going. In Idaho, for example, we just had a council meeting 
where we distributed $85,000 in grants to projects all across 
the State of Idaho, and those range from everything like the 
museum up in Bonners Ferry. Have you been there, Congressman, 
where a local artist has painted portraits of all of the great 
figures of Bonners Ferry? And one can go to that museum and 
basically learn the history of the community just by reading 
the captions under all of these portraits. In Malad, we funded 
the Welch Festival which, as you know, is about Malad's only 
cultural event. I mean, it is the peak of society in Malad, 
Idaho. And I am really looking forward to something we just 
voted to fund, and that is a recollection piece on the Fort 
Bridger Treaty, which as, you know, Congressman, that Fort 
Bridger Treaty and the history of it, the three times that it 
was abrogated by the Federal Government and then the other 
three times that we as a Nation walked in and renegotiated the 
treaty actually explain why the culture of Fort Hall is the way 
that it is today, and a good recollection of that history is 
critical for us to understand how to deal with the Sho-Ban 
Nation in this day and age. So those are the kinds of things 
that are funded.
    The second achievement that we get through the council 
programs is a reach into communities that are remote and 
otherwise really difficult to penetrate with humanities 
content. I mentioned Malad, for instance, the fact that if it 
were not for our council funding we would not have a Welch 
Festival in Malad. In 2010, council programs reached an 
estimated 5,700 communities, and many of them are in these 
rural areas where if it were not for the council-supported 
projects, those projects are the communities' annual humanities 
education experience.
    Let me give you an example. The Kansas Humanities Council 
funded a project called Kansans Tell Their Stories, and through 
64 grants in 55 different communities, the program then engaged 
over 314,000 Kansans in this dialog about where their history 
comes from, and they participated either in person or online in 
oral histories, research projects, museum exhibits. They even 
had television series, podcasts and special speaker 
engagements.
    In Kentucky, the Kentucky Chautauqua serves a very similar 
purpose because through that program they bring characters 
portraying famous historical figures into classrooms and into 
gatherings where they can sort of examine the history through 
the eyes and the minds of those particular characters. One such 
character, for instance, is Lt. Anna Mac Clarke--no relation of 
mine--but was the first African American officer to command 
white troops, and kids now in Kentucky are able to hear this 
point of view. In fact, through those presentations, 35,346 
Kentucky schoolchildren have had a chance to learn a little bit 
about their history.
    Achievement three: Councils preserve and strengthen local 
institutions. That 5\1/2\ dollars for every dollar invested I 
talked about, that actually comes with tremendous grassroots 
outreach. It is one of the ways that Congress supports what I 
consider to be one of the greatest assets of the modern world, 
and that is that we have communities with museums and 
libraries, and those museums and libraries are really the 
source of the information for the information age. These local 
organizations receive a lot of their funding through the state 
councils, and I can give you an example of Utah where there are 
255 museums where the museum curators have been able to learn 
interpretation and the ability to put together informative 
exhibits because of the Utah Council of Humanities funding.
    Well, I may be out of time, Congressman, but I just would 
like to conclude by saying that I want to confirm what the 
National Endowment for the Humanities Chairman Leach had to say 
about the mission and role of the humanities funding, and that 
is to inspire and sustain the essential element of a free 
society and self-government, which is civil discourse. As our 
Nation steps up to answer the challenges we face today, we will 
need more of that discourse, not less, and for that reason, we 
ask you to support us in carrying out that mission by helping 
us fund the very activities that uplift Americans in every 
corner of the Nation, in all walks of life, to focus on the 
humanities in their community, their state and their Nation. 
Thank you, Congressman.
    [The statement of Trent Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.032
    
    [GRAPHIC] [TIFF OMITTED] T6982A.033
    
    [GRAPHIC] [TIFF OMITTED] T6982A.034
    
    [GRAPHIC] [TIFF OMITTED] T6982A.035
    
    Mr. Simpson. Thank you, and thanks for your testimony. One 
of the concerns--I have been a fan of Jim Leach's for a long 
time. I have served with him here in Congress and we spent 
hours together talking about a variety of things, both in my 
office and in his, and in this C.R. that we are passing, 
obviously the arts and humanities got cut somewhat. We were 
able to prevent some of the dramatic cuts that we were fearful 
would happen. Is there concern that as resources go down from 
the state humanities councils that those grants that go to 
states will be reduced rather than the Washington, D.C., 
bureaucracy, if you want to call it that, that it will be fed 
back to the states, the cuts? Is there concern about that?
    Mr. Clark. Well, there is concern primarily because there 
is so much value to be achieved through the partnership 
process. I mean, just from the examples I have given you, 
Congressman, the on-the-ground effect of the National Endowment 
for the Humanities is so leveraged in these local grants. It 
would be a shame to lose that leveraging by not having those 
funds flow down into these small rural programs.
    Mr. Simpson. Thanks. Thanks for being here today, Trent. I 
appreciate it very much.
    Mr. Clark. Thank you.
    Mr. Simpson. Next we have Dr. Michael Brintall, the 
President of the National Humanities Alliance.
                              ----------                              

                                          Thursday, April 14, 2011.

               HISTORIC PRESERVATION, ARTS AND HUMANITIES


                                WITNESS

MICHAEL BRINTALL, PRESIDENT, NATIONAL HUMANITIES ALLIANCE

    Mr. Brintall. Mr. Chairman, thank you for having me. I am 
here on behalf of the National Humanities Alliance. Our members 
are 104 scholarly associations, professional associations, 
institutions that represent tens of thousands of scholars, 
professors, curators, other professionals working in the 
humanities. I am the elected president. I am a political 
scientists and I am also the Executive Director of the American 
Political Science Association.
    We as the federation urge the subcommittee to fund the NEH 
at the fiscal year 2010 level of $167.5 million. Our written 
testimony includes some discussion of that. And in response to 
the points you are raising, the NEH is a small agency that does 
a very big job and in fact does three big jobs. We have been 
hearing about those here. It protects and preserves cultural 
resources, it facilitates broad public engagement with the 
Nation's heritage, and it supports basic scholarly research and 
education in the humanities, and that is the point I want to 
emphasize here, but it does all of this on a remarkably small 
budget, and we cannot risk cutbacks that would enfeeble any one 
of those activities nor I think compel a situation that would 
compel sacrificing one for the others. So even modest cuts can 
have crippling effects when they are spread across those roles.
    I started my career wanting to be a city planner. I thought 
the cities needed help. I thought the solution would be easy 
and that planning and civil engineering would fix things up. I 
went to MIT in 1968 to study city planning. As I began to study 
the urban issues, I discovered that urban affairs was really a 
humanities problem. Urban issues are grounded in neighborhoods. 
Sometimes they followed folk traditions. Progress required 
mechanisms for people to work together with civility. 
Everything was planned with local history. We could learn a lot 
from other places and times about how local government can 
respond creatively.
    So in the end, my studies shifted to humanities and social 
sciences with the same interest in helping cities but no longer 
thinking it would be easy. The humanities alert us to hard 
problems and then they help us to address them. As I started 
those studies, I happened to spend a summer on a ranch in the 
West, and this had a big effect on me too, and it was not 
Idaho, it was Montana----
    Mr. Simpson. Close enough.
    Mr. Brintall. Close enough. Where I debated urban issues 
with ranchers and was schooled in values of individual 
responsibility and property rights, and I saw how we all have a 
common stake as a Nation in each other's so-called local 
concerns. I came away from this academic and this real-world 
introduction to the humanities with a deep respect for shared 
ideas and the gathering of evidence about them and for public 
engagement across the country and across diverse issues, and I 
realized that this individual experience that I had is what the 
NEH really affords the whole Nation.
    Public support made a big difference in those studies as 
they do for many scholars. I had veterans benefits, for which I 
am deeply grateful. I had other Federal Government support for 
my graduate work. I am deeply appreciative that the public had 
invested in the promise of my career and in turn my career as a 
scholar, as a teacher and as a public official has been shaped 
by a conviction that I was charged with a public 
responsibility. If the NEH is afforded the resources it needs 
to support new generations of scholars and teachers, I can 
attest that they too will repay the investment for a lifetime.
    The humanities are essential in their own right but they 
are also essential partners for economic and scientific 
progress and for our national security. Let me give one quick 
illustration. General David Petraeus holds a PhD in political 
science. He recently received one of the highest honors in the 
American Political Science Association for his career. In his 
remarks, he emphasized that national security is a humanities 
problem. He emphasizes the study of humanities for young 
officers around him, urging they know and study history, 
language, and local cultures in order to meet our contemporary 
national security challenges.
    With its broad mission, the NEH is the focal point for 
national attention on the role the humanities can play for the 
Nation, aligning scholarship and teaching with preservation and 
public engagement. In framing this mission, NEH Chairman Jim 
Leach has described the leadership role of the NEH in two 
important ways: that it builds infrastructure for ideas, just 
as we do at the National Science Foundation and with other 
research agencies, and it leads in the democratization of 
ideas, expanding scholarly knowledge of our history and culture 
in ways that are shared with active public engagement.
    We are grateful for the strong bipartisan support that this 
subcommittee has shown the NEH in the past, and we hope you 
will consider the strongest possible support for it in 2012.
    [The statement of Michael Brintall follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.036
    
    [GRAPHIC] [TIFF OMITTED] T6982A.037
    
    [GRAPHIC] [TIFF OMITTED] T6982A.038
    
    [GRAPHIC] [TIFF OMITTED] T6982A.039
    
    Mr. Simpson. Thank you for your testimony. We will 
certainly look at that. As I have said many times, I am a fan 
of the NEH and the NEA and sometimes they need defending. I am 
interested, though, that you were a political science major and 
David Petraeus was. I was a political science major in college 
when I first went and I did not know what to do with political 
science, how I was going to make a living, so ultimately I went 
into dentistry and look at where I ended up.
    Mr. Brintall. I am glad it stuck.
    Mr. Simpson. It is kind of strange. You wanted to be an 
urban planner. My first job in politics, I was on the city 
council, a local city council, and you are right, that is where 
the rubber hits the road, and someone once advised me, if you 
are ever going to do anything else in politics, you have to get 
off the city council because if you are there long enough, you 
are going to make everybody mad.
    Thank you for being here today. We appreciate your 
testimony.
    Next we have Ken Burns, who probably needs no introduction, 
a famous award-winning documentary filmmaker. Just this last 
weekend on PBS they had your Civil War series on again that 
they were reshowing. It is one of the first series I ever 
bought when it first came out because it was such a great--if 
you were not a student of the Civil War before that series, you 
certainly made a lot of students across the country of the 
Civil War. And also, thank you for your series on the national 
parks. It is very important, and I have talked with the 
National Park Service and others, that we teach future 
generations about our national parks, where they came from and 
why they are there because they really are the crown jewels. So 
thank you for being here today.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

                          ARTS AND HUMANITIES


                                WITNESS

KEN BURNS, AWARD-WINNING DOCUMENTARY FILMMAKER

    Mr. Burns. It is my pleasure, Mr. Chairman, and I thank you 
for the tremendous honor of having the opportunity to spend a 
few minutes with you today.
    Mr. Simpson. You bet.
    Mr. Burns. Let me say from the outset, as a film producer 
but also a father of four daughters increasingly concerned 
about the too-often-dangerous landscape of our popular culture 
that I am a passionate, lifelong supporter of the NEH and its 
unique role in helping to stitch our exquisite and often 
fragile culture together and in helping to foster creativity 
and scholarship and transmission of the best of that culture to 
future generations.
    Few institutions provide such a direct grassroots way for 
our citizens to participate in the shared glories of their 
common past, in the power of the priceless ideals that have 
animated our remarkable republic and our national life for more 
than 200 years and in the inspirational life of the mind and 
the heart that an engagement with the arts and humanities 
always provides. It is my wholehearted belief that anything 
that threatens this institution weakens our country. It is as 
simple as that.
    For more than 30 years, I have been producing historical 
documentary films celebrating the special messages American 
history continually directs our way. The subjects of these 
films range from the construction of the Brooklyn Bridge and 
the Statue of Liberty to the life of the turbulent Southern 
demagogue Huey Long, from the graceful architecture of the 
Shakers to the history of our national parks, from the sublime 
pleasures and unexpected lessons of our national pastime and 
jazz to the searing, transcendent experiences of the Civil War 
and the second World War, from biographies on Thomas Jefferson 
and Lewis and Clark to Frank Lloyd Wright, Elizabeth Cady 
Stanton and Mark Twain. I even made a film on the history of 
this magnificent Capitol building and the much-
maligned institution that is charged with conducting the 
people's business.
    Mr. Simpson. That would be the Senate.
    Mr. Burns. Throughout my professional life, I have been 
fortunate to work closely with the National Endowment for 
nearly every film that I have done. I first received an NEH 
grant in 1979 as I embarked on my first project for public 
television, that same film about the Brooklyn Bridge. At this 
very early stage of my professional life, the experience of 
competing successfully for an NEH grant helped me set high 
standards of excellence in filmmaking but also writing and 
scholarship and even budgeting. Over the years, I would apply 
many times to the NEH for support under a variety of projects; 
working with NEH staff and humanities scholars assigned to the 
projects ensured that my projects stayed true to rigorous 
intellectual standards and reached a broad, receptive audience 
of tens of millions of Americans. This interaction has been a 
powerful influence on my work. Without a doubt, my films would 
not have been made without the endowments. My series on the 
Civil War, for instance, would not have been possible without 
early and substantial support from the NEH, support, Mr. 
Chairman, which I have long ago repaid. The NEH provided one of 
the project's largest grants, more than a third of its budget, 
thereby attracting other funders. This rigorously earned 
imprimatur helped me to convince private foundations, 
corporations and other public funders that my films were worthy 
of their support.
    But above and beyond these facts, there is a larger 
argument to be made, one that is rooted in our Nation's 
history. Since the beginning of this country, our government 
has been involved in supporting the arts and the diffusion of 
knowledge, which was deemed as critical to our future as roads 
and dams and bridges. Early on, Thomas Jefferson and other 
Founding Fathers knew that the pursuit of happiness did not 
mean a hedonistic search for pleasure in the marketplace of 
things but an active involvement of the mind in the higher 
aspects of human endeavor, namely education, music, the arts 
and history, a marketplace of ideas.
    Congress supported the journey of Lewis and Clark as much 
to explore the natural, biological, ethnographic and cultural 
landscape of our expanding Nation as to open up a new trading 
route to the Pacific. Congress supported numerous geographical, 
artistic, photographic and biological expeditions to nearly 
every corner of the developing West. Congress funded through 
the Farms Security Administration the work of Walker Evans and 
Dorothea Lange and other great photographers who captured for 
posterity the terrible human cost of our Depression and Dust 
Bowl, the latter project I am working on that just received a 
grant from the National Endowment for the Humanities.
    With Congress's great insight, NEH was born and grew to its 
startlingly effective maturity, echoing the same time-honored 
sense that our government has an interest in helping to sponsor 
communication, art and education just as it sponsors commerce. 
We are not talking about a free ride but a priming of the pump, 
a way to get the juices flowing, a collaboration between the 
government and the private sector, which if you will permit me, 
reminds me of a story. In the late 1980s, I was invited to a 
reception at the White House and had the great honor of meeting 
President Ronald Reagan. I told him I was a PBS producer 
working on a history of the Civil War. His eyes twinkled with a 
palpable delight as he recalled watching as a young boy the 
parades of ever-aging Union veterans marching down the main 
street of Dixon, Illinois, on successive Fourth of Julys. Then 
in almost an admonishment, he spoke to me about the need, no, 
the responsibility, he said, for a private sector-governmental 
partnership when it came to public broadcasting and the 
humanities. His Administration, by the way, as you know, was 
very supportive of these longstanding institutions. I told him 
that nearly a third of my budget for the Civil War series came 
from a large American corporation, a third from private 
foundations and a third from the National Endowment for the 
Humanities, an agency then expertly led by Lynne Cheney, the 
wife of our former Vice President. He smiled and held me by the 
shoulders the way an affectionate uncle might do and his eyes 
twinkled again. ``Good work,'' he said, ``I look forward to 
seeing your film.'' And after it was first broadcast in 1990, 
he sent me the loveliest of notes about how much he and Nancy 
had enjoyed it.
    Mr. Chairman, the new proposals to defund or severely cut 
the Corporation for Public Broadcasting and the National 
Endowments for the Humanities and Arts will literally put us, 
me, out of business, period, and somewhere, I imagine, it will 
erase that twinkle in Ronald Reagan's eyes. Thank you, Mr. 
Chairman, for the chance to express my thoughts this morning.
    [The statement of Ken Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.040
    
    [GRAPHIC] [TIFF OMITTED] T6982A.041
    
    [GRAPHIC] [TIFF OMITTED] T6982A.042
    
    [GRAPHIC] [TIFF OMITTED] T6982A.043
    
    Mr. Simpson. Thank you, Ken. I appreciate your being here 
today. Thanks for your testimony. Again, thanks for the great 
work you have done. You, through the humanities, as you 
mentioned, have brought a lot of enlightenment and education to 
the American people.
    Mr. Burns. Thank you. There has been an argument in film 
schools about whether films actually got people to do anything, 
but the increased attendance at Civil War battlefields, the 
spike in attendance at the national parks after our series was 
aired after some flatlining or declining attendances is very 
heartening.
    There was a round of cuts in the early 1990s that were made 
in the endowments. We still received significant grants but 
they represented 5 or 6 percent of our budgets as opposed to a 
third, and so any further cuts are going to just further 
jeopardize our ability to communicate these, I think, important 
shared stories.
    Mr. Simpson. That is true. There were some significant cuts 
in the early 1990s, and if you look at it, we are barely 
getting back up to where we were at that time, let alone the 
loss that you have had over the years because it has not 
advanced since that time. And it is something that I know that 
Mr. Moran when he was chairman of the committee, Mr. Dicks when 
he was chairman of this committee and now I have all been 
concerned about and trying to make sure that both the Endowment 
for the Humanities and the Arts do not suffer those cutbacks 
that occurred because then it will be years to rebuild it 
again. So we are trying to do everything we can.
    As I said, when people come to me and ask where to go in 
Washington and I tell them go up to Gettysburg, I always tell 
them you need to either get a book or get the video of the 
battle to learn just a little bit about it before you go there, 
and when I say to them, you need to take your shoes off, they 
look at me kind of strange, and I say just go, you will 
understand, and they come back and they say I get it.
    Mr. Burns. And that is why the importance of saving these 
places and telling these stories is essential to the 
continuation of our republic. It is strange that the past 
should ensure our future but that is exactly what takes place 
when we celebrate these places and these moments.
    Mr. Simpson. I appreciate it. Jim.
    Mr. Moran. I certainly associate my thoughts with those of 
the chairman, and I want to again publicly thank Chairman 
Simpson for his advocacy of NEA and NEH in a very difficult 
period of time. Thank you for all the work you have done, Mr. 
Burns. Mr. Simpson and I think very similarly, and I have been 
in a little easier position. I have to tell you this is a good 
time when the C.R. comes on the Floor today, the reason why we 
have a much more reasonable level of funding for NEH and NEA is 
due to this gentleman right here. So he deserves a great deal 
of credit. And of course, his reward is the kind of product 
that you produce.
    So it is terribly important for all Americans to understand 
their history, understand their culture, and now that we have a 
sesquicentennial celebration--recognition of the Civil War is 
hardly a celebration, but your work is again the hallmark, the 
foundation that others look to for how to depict that. Almost 
every show I see on the Civil War, whether it is the background 
music or some of the photos, part of the video, they continue 
to refer. It is an historical reference today and will serve to 
be, I suspect, for the 200th recognition. Thank you, and I 
cannot imagine a better representative of what NEH accomplishes 
than your work, Mr. Burns.
    Mr. Burns. I thank you very much, Congressman, for those 
kind words, and just would repeat again what I said in my 
testimony which is that it was the initial grant from the 
National Endowment for the Humanities, fully a third of our 
budget, that permitted us and that rigorously earned grant to 
attract the corporate support, to attract the foundation 
support, and when we disrupt any of that fragile tripod, then 
we run the risk of losing the whole business. So the continued 
support now at 6, 7, 8 percent of our budgets is in some ways 
even more critical.
    Mr. Moran. You are doing one on the Great Depression, the 
Dust Bowl?
    Mr. Burns. We just finished one on Prohibition that enjoyed 
endowment support, and just have received a grant to complete a 
film on the Dust Bowl and are working on several other projects 
that I think will be of interest.
    Mr. Moran. Thanks, Mr. Chairman.
    Mr. Simpson. Thank you.
    Mr. Burns. Thank you, sir.
    Mr. Simpson. Next we have Ed Ayers, President of the 
University of Richmond, American historian, History Guys radio 
show personality, Digital Humanities pioneer. Anything else I 
should add?
                              ----------                              

                                          Thursday, April 14, 2011.

                          ARTS AND HUMANITIES


                                WITNESS

ED AYERS, PRESIDENT OF UNIVERSITY OF RICHMOND, AMERICAN HISTORIAN

    Mr. Ayers. No, that sounds good. All those are a little 
generous. As a matter of fact, I think of myself as 
representing sort of the everyman academic that carries on a 
large part of what the NEH is trying to do. My eloquent 
predecessors have said important things. I want to give you an 
image of 1985, my first NEH grant, $11,500, paid half my 
salary. I bought a $400 car and drove 12,000 miles from one 
Motel 6 to another across the American South to write a history 
of the people in the three generations after emancipation, and 
it was a finalist for the National Book Award and Pulitzer 
Prize a little while later. And then five years later, the NEH 
when nobody else thought there might actually be some use for 
this crazy World Wide Web thing, then only two or three years 
old, for education, and they funded something called the 
``Valley of the Shadow: Two Communities in the American Civil 
War,'' about the same time that Ken Burns's series was coming 
out, and it is still alive 15 years later and it has reached 
people in Latin America, China. Millions of people every year 
have gone to this to actually explore history for themselves by 
seeing all the primary documents on that.
    And we are now working on a project at the University of 
Richmond where we are trying to make it possible to visualize 
what the emancipation of 4 million people actually looked like. 
You cannot wrap your mind around something the size of 
continental Europe, when did that happen, how did people become 
free, and so we are mapping all the progress of the Union 
armies and where the slave population was, documenting every 
instance we have of someone becoming free and putting it all in 
this big database.
    And you were kind enough to mention our radio show, 
``BackStory with American History Guys,'' which just downloaded 
its millionth podcast, and we have only been on two and a half 
years, and once again the NEH stepped up when nobody else knew 
that there might be a market for three guys talking about 
American history, the issues it raises today. We just did a 
three-part series on the American Civil War and people called 
in from all the other United States and actually from abroad, 
because people want to talk, not just listen or watch. They 
want to read and discuss those things.
    And that is the final thing that I am doing, working with 
the American Library Association and the NEH to put together 
reading groups that will be in libraries all across the United 
States from my native Appalachia to the reservations of the 
West to inner cities all across the country, and there 
presenting people with the raw materials of what the Civil War 
was, having them figure it out for themselves.
    You have heard a lot about leveraging, and that is a point 
that I would really like to emphasize, NEH stepping up and 
working with the ALA to make these things possible that would 
not have happened otherwise.
    Now, I have another perspective. I was on the National 
Council of the Humanities starting in 2000, and over the five 
years I worked on the council, I read hundreds of proposals. 
Everything that the NEH funds and the range of what they do is 
really remarkable, from museum installations and television 
shows to editions of the Founding Fathers and teachers 
institutes, the amount of imagination and good will just seeing 
those is both heartening and heartbreaking because not many of 
those can be funded. This is a very rigorous process. I mean, 
this is like the NSF or the NIH and the amount of budgeting and 
documentation are acts of scholarship in themselves, and here 
people come together with no compensation to judge these. Then 
the council looked at them all, the chairman, and what I want 
to emphasize is that the government's money, the people's money 
is so carefully stewarded. People watch and think what is the 
return on this, and I had a chance to see what that looks like 
in the process of actually making.
    The NEH works in a remarkable way, for it leverages what 
you have heard about, local initiatives, local curiosity and 
local investment. The multiplier effect is really impressive. I 
have seen what it does for schools. I have seen what it does 
for historical societies. I have seen what it does for 
libraries and museums. It is a catalyst for the imagination and 
investment for people throughout the United States. It touches 
every kind of community. I have gone to tiny, little 
schoolhouses and talked to people where that would be the only 
chance they would have to have a book discussion or to talk 
about Ken Burn's series. The staff of the NEH stretches its 
dollars as far as they can possibly stretch.
    Something people do not realize: The United States invented 
the modern concept of the humanities about 100 years ago. The 
idea of pulling together all the studies of the human record 
into one place is an American invention, and from the beginning 
the idea was that the humanities should be useful rather than 
ornamental, a very American kind of cast to this, why would you 
want to understand these things, and very often the answer is, 
to foster democracy, to connect with a broad range of American 
people, and the NEH builds on this great tradition.
    I know we face great challenges including those of budgets, 
and we all understand the need to examine how those budgets are 
used. Those who invest in humanities are not asking for a large 
amount of money in the grand scheme of things but we do help 
you to sustain what is in fact one of the best investments this 
country has ever made.
    I am very grateful for the chance to speak with you today.
    [The statement of Ed Ayers follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.044
    
    [GRAPHIC] [TIFF OMITTED] T6982A.045
    
    Mr. Simpson. Thank you for being here. We appreciate your 
testimony. I agree with you, it is a great investment that we 
make. Thank you.
    Mr. Moran. Excellent testimony. Thank you, Mr. Ayers.
    Next we have--and I am going to mispronounce this, I am 
sorry--Azar Nafisi. Is that right?
    Ms. Nafisi. Yes.
    Mr. Simpson. You are next. Thank you.
    Mr. Moran. I have actually read her book.
    Mr. Simpson. She is the author of ``Reading Lolita in 
Tehran.''
    Ms. Nafisi. Yes, and I had the honor and pleasure of being 
with Congressman Moran when he defended culture in Iranian 
youth in Aspen Institution.
    Mr. Simpson. All right.
                              ----------                              

                                          Thursday, April 14, 2011.

                          ARTS AND HUMANITIES


                                WITNESS

AZAR NAFISI, IRANIAN EMIGRE AND AUTHOR OF ``READING LOLITA IN TEHRAN''

    Ms. Nafisi. Thank you very much, Mr. Chairman and 
Congressman Moran for giving me this rare privilege and 
opportunity to tell you why from the moment I left my country 
of birth, Iran, and came to this country I discovered the 
National Endowment for Humanities is a natural home for, and 
because I have this unique experience of living in a country 
where its government from its very inception 30 years ago, the 
Islamic Republic, waged an all-out war against individual 
rights and human rights in terms of an all-around assault on 
women, minorities and culture and alongside of it, it declared 
war on humanities, on culture, on imagination as sort of a part 
of Western conspiracy and cultural invasion by the West, 
especially at that time you had the honor of being the great 
Satan, especially invasion by America, the great Satan. And you 
know, in 2009, before Egypt, before Tunisia, before Libya when 
hundreds of thousands of Iranian people came into the streets 
to protest the rigged presidential elections, the assault again 
turned to humanities. They said that this was a Western 
conspiracy to lead our people astray and so they shot down all 
the humanities. They threatened to shut down all the humanities 
departments at the universities, and for all practical 
purposes, they have almost done that.
    So I often wonder when we think of Iran, we immediately 
think of Mr. Ahmadinejad with this sort of cynical grin, you 
know, as if he has just broken the neighbor's window and gotten 
away with it, but, you know, if you look at it through the 
alternative eyes of imagination, through the alternative eyes 
of culture, through the alternatives eyes of history, we 
discover not our differences but how the Iranian and the 
American people have in fact in common, a country with 3,000 
years' history, a country that had the first constitutional 
revolution in Asia, a country with its women like Sojourner 
Truth, like Harriet Beecher Stowe, like Elizabeth Cady Stanton, 
for over 100 years ago fought for their rights. At the time of 
the revolution in 1979, Iranian women were active in all walks 
of life. We had two women ministers, one minister for women's 
affairs. My own mother was one of the first women who went into 
the congress in 1963, 11 years before Switzerland had given 
women the right to vote.
    So what I am trying to say, and you might say, okay, you 
know, what does all this have to do with humanities. I want to 
tell you that humanities was the first victim alongside of all 
this. They lowered the age of marriage from 18 to 9. They 
brought punishment of stoning to death for what they called the 
crimes of adultery and prostitution. They also excised Olive 
Oyl from most of the scenes in Popeye because you did not know 
that she was a loose woman and she was having an illicit 
relationship. In the same manner, they took Ophelia out of most 
scenes of the Russian version of Hamlet for the same reason. So 
you see, for me, before I came into this great country, I had 
already made my home through the first book that I read from 
America was the Wizard of Oz and Huck Finn which is still my 
companion and Frederick Douglass and Abraham Lincoln and 
Emerson, who translated the two classics of Iranian literature, 
and Walt Whitman and Saul Bellow. When my children, who had 
watched the forbidden videos of Marx Brothers and Laurel and 
Hardy, when they came to this country they had already felt 
that home and you can see why National Endowment for Humanities 
was really my home. It was a place where I felt that I can 
continue to be part of this great country and at the same time 
be a citizen of the world. Like millions of people, sir, I came 
to this country not to fill my pockets, not to make money. I 
came to this country because it was founded on a dream, because 
it was founded on this courage to believe that what is imagined 
can also be actualized.
    You know, I think of the monuments in this great city. I 
think of the three monuments to the three Presidents who talked 
about to be enlightened means to join the great republic of 
humans, of Jefferson, whose Library of Congress reflects the 
ideals of the Declaration of Independence, of Lincoln, whose 
language is filled with the poetry of the Bible and Shakespeare 
and of Martin Luther King who on the steps of the Lincoln 
Memorial reignited the dream, the passion for that dream and 
gave his life in order to make it possible. I think of the 
women's movement. I think of the civil rights movement. And 
when I think of all of this, I think how could they be possible 
without our love of humanities.
    They tell me that at a time of economic crisis we should 
not talk about this. At times of economic crisis, this is what 
really we should be talking about, the unity, the identity, the 
cohesiveness, the pride of American people regardless of what 
ideology or political party they belong to is in this legacy 
and in this heritage, and that is why I want my children and my 
children's children to be brought up in a place where they can 
be both a citizen of this great country and a citizen of this 
world.
    And so for me--and I am going to finish very fast, sir, if 
you allow me. I brought two watches in order to finish fast and 
I still did not make it. So let me just go very fast. I wrote 
my dissertation on the proletarian writers of the 1930s, so I 
know that at a time of crisis, in fact through writers' 
projects, through federal arts projects, we might not have been 
able to give too much money to humanities but we certainly 
respected them and put them at the forefront of the struggle 
against the economic and political crisis, and that is what we 
need to do, and that is why I will read from this and end. The 
work of National Endowment for Humanities is vital because it 
keeps open the channels of debate, questioning and curiosity, 
because it keeps alive what we might call the democratic 
imagination, and now more than ever it is important for 
Americans to focus on our Nation's poetry and its poetic soul, 
on the dream that brought this Nation together to be reminded 
of this country's great cultural heritage. What more suitable 
representation of the people who came to this land from all 
parts of the world, bringing with them the customs and cultures 
of their countries of birth, hoping to create a home that can 
embody them all.
    So, sir, it is in this spirit that I ask you to ratify the 
budget for the National Endowment for Humanities. Thank you for 
your patience.
    [The statement of Azar Nafisi follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.046
    
    [GRAPHIC] [TIFF OMITTED] T6982A.047
    
    [GRAPHIC] [TIFF OMITTED] T6982A.048
    
    [GRAPHIC] [TIFF OMITTED] T6982A.049
    
    Mr. Simpson. Thank you. Thank you for your testimony and 
for your eloquence.
    Ms. Nafisi. It is a pleasure. This will be my home, and 
this is why I am here. If it were not for Mark Twain, I do not 
know where I would be.
    Mr. Simpson. Thank you very much. We appreciate it. Jim?
    Mr. Moran. Yes, extraordinarily compelling statement. Thank 
you so much, and I think anybody listening to you understands 
why they really ought to read ``Reading Lolita in Teheran.'' It 
is so insightful.
    Ms. Nafisi. Thank you, sir, and I tell you, your best 
weapon against tyranny is not military but it is the culture of 
democracy, and people in Iran are going to jail and being 
tortured because they read Saul Bellow and Walt Whitman, so I 
think our children here should take a lesson from that.
    Mr. Moran. I wish they would. Thank you so much.
    Mr. Simpson. You cannot leave the room, though, until, I 
had a staff member that wants you to sign her book.
    Next we have Mark Hofflund, who is a friend of mine. I 
would hate to follow her.
    Mr. Hofflund. I tell you, Mr. Chairman, I am the son of a 
woman with dual citizenship. I lost her. She passed away about 
a year ago. And I think I heard her voice today for the first 
time in your testimony, so I am incredibly moved.
    Ms. Nafisi. Thank you.
    Mr. Simpson. Well, thank you for being here, Mark. As you 
heard me say before when we were talking about the Civil War, 
that when people from Idaho come out to Washington they ask me 
where to go and I always say Gettysburg, they need to go up 
there and see it. Well, if any of you come to Idaho from 
Washington, you need to go to the Idaho Shakespeare Festival. 
Mark is the Managing Director of it, and we have been friends 
for many years and he does a fantastic job and really, summer 
in Boise would not be the same without the Shakespeare Festival 
and the work you do. He has also been on the National Endowment 
for the Arts Council, and we appreciate that, and thanks for 
being here today, Mark.
                              ----------                              

                                          Thursday, April 14, 2011.

                          ARTS AND HUMANITIES


                                WITNESS

MARK HOFFLUND, MANAGING DIRECTOR, IDAHO SHAKESPEARE FESTIVAL

    Mr. Hofflund. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Moran, members of the 
subcommittee, good morning. As Managing Director of Idaho 
Shakespeare Festival, Chair of the Idaho Commission on the 
Arts, and a board member of the National Assembly of State Arts 
Agencies, I wish to testify on behalf of the National Endowment 
for the Arts requesting $167.5 million in level funding, and to 
share a story you made possible.
    While this is an Idaho story, similar stories are found in 
every state. My opportunity emerged when the chairman of the 
NEA paid a visit to Idaho strengthening the Nation's first 
ongoing infrastructure for the arts, not the arts historically 
had been missing from our Nation. Things of beauty, culture, 
science, art and imagination were so ingrained in the Founders, 
some would say the pursuit of happiness articulated this common 
appreciation right after life and liberty. As for legislative 
infrastructure dating to the Founders, imagine for a moment 
what it may have been like to sign a Declaration of 
Independence, declare war, wage war, elect a decade of 
forgotten presidents under Articles of Confederation before 
ratifying a Constitution and electing a reluctant George 
Washington, not an easy first decade and one with great 
challenges ahead.
    So under the circumstances, it could seem remarkable for 
the founders to leave a few thoughts on the arts. Perhaps a 
vision for the future was provided by George Washington in 
words now reaching down centuries: ``The arts and sciences are 
essential to the prosperity of the state and to the ornament 
and happiness of human life. They have a primary claim to the 
encouragement of every lover of his country and mankind.'' In 
retrospect, the history of the United States is replete with 
public investments in art and architecture.
    In our day, another great general having led us through 
World War II signed legislation creating the National Cultural 
Center Act commemorated in the naming of the Kennedy Center's 
Eisenhower Theater. In the 1960s with the Nation enduring civil 
unrest not seen in a century, President Johnson created and 
President Nixon funded the National Endowment for the Arts. 
With cities smoldering, leaders being assassinated, college 
students rioting, some getting killed by the public servants 
meant to protect them, a Cold War heating up, despite all this, 
Roger Stevens founded and the second chairman Nancy Hanks grew 
the NEA in both reputation and funding, ever mindful that in 
dollar comparisons to our national needs for defense, for 
poverty programs, for health, for welfare or for education, the 
requirements for the arts are miniscule, as Ms. Hanks wrote.
    During civil famine, the seeds of a federal-state arts 
infrastructure sprouted like spring wheat when 55 state and 
territorial arts agencies began receiving grants from the NEA, 
and when governors and legislatures took this as incentive to 
multiply the funding and steer not only new cultural 
opportunities but greater decision-making to the regional and 
local levels. President Carter, Chairman Biddle and Congress 
strengthened the federal-state partnership, developing federal 
recognition of American artists through the National Heritage 
Awards. President Reagan, Chairman Hodsoll and Congress 
established the NEA Jazz Masters, the National Medal of Arts, 
the Mayor's Institute on City Design and a groundbreaking study 
on arts education called Toward Civilization. As Reagan said, 
we honor the arts not because we want monuments to our own 
civilization but because we are a free people.
    With this history, three succeeding Presidents, their NEA 
leaders and Congress navigated the most perilous times at the 
NEA and emerged in all three cases with an arts budget on the 
rise and an increasing federalism. Not only would Jane 
Alexander visit all 50 states under President Clinton but Dana 
Gioia would spend as much time traveling domestically and 
abroad as he spent in Washington, D.C., strategically improving 
the NEA under George W. Bush with reciprocal support from 
Congress. As Bush and Gioia left office, not only was Congress 
funding the NEA at greater levels and with stronger 
Congressional support but its opponents had changed their minds 
about the agency as Gioia worked throughout federal and state 
government to catalyze the development of artistic excellence 
and accessibility for millions of younger Americans, thousands 
of educators, scores of journalists, members of the military 
and their families, towns and cities across America which 
libraries, newspapers, schools, civic organizations, businesses 
and a broad section of citizen volunteers collaborated in 
programs ranging from the Big Read to Poetry Out Loud to 
Operational Homecoming to Shakespeare in American Communities, 
ultimately reversing a three-decade decline in American 
literary participation. With equality and excellence, Gioia 
formed partnerships in every Congressional district.
    The NEA is about public engagement, public education, 
public excellence. It neither enforces public values nor 
entitles public goods. It is a rare public infrastructure for 
which cost may be an object but not a specific requirement. The 
more we provide, the better we all become. In the hands of good 
public servants from all walks of life, it functions like the 
biblical talents that when not buried can be used to return 
manifold wealth, prosperity and national growth. Transcending 
factionalism, it is not about Democrats, Republicans, 
Libertarians or any other vein past or yet to come of the 
American spectrum, it is about how all of us of all faiths, 
backgrounds and politics best practice a culturally diverse and 
politically united federalism.
    Finally, it returns us to the roots of our Founders as an 
essential emblem of creating a system of self-government. We 
are amid such defining times today. The marks of our success 
will be seen in how we separate federal chaff from federal 
wheat and thereby fill the storehouse for future generations 
not with federal deficit but with federal bounty. I would 
humbly submit that the NEA is an agency of federal bounty and 
that with continued funding, thank you, Mr. Chairman, Ranking 
Member for your actions of the past week, people not only from 
Idaho, indeed, from all over America will help you fill the 
storehouse. Thank you, sir.
    [The statement of Mark Hofflund follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.050
    
    [GRAPHIC] [TIFF OMITTED] T6982A.051
    
    [GRAPHIC] [TIFF OMITTED] T6982A.052
    
    [GRAPHIC] [TIFF OMITTED] T6982A.053
    
    Mr. Simpson. Thank you, Mark, for being here today. We 
appreciate it very much. Thanks for your testimony in support 
of the NEA and your history of where we have come from and what 
we have been through with the NEA, so I appreciate it very 
much. As you know, I am a fan.
    Mr. Hofflund. We would not be here without you, Mr. 
Chairman.
    Mr. Simpson. And Mr. Moran is the same way. Jim.
    Mr. Moran. I cannot add to what Mike has said. Not only 
does he provide words of encouragement, he also walks the walk 
in terms of getting the money. I know that is why you are here, 
but these are very extraordinarily articulate and meaningful 
statements. We thank you.
    Mr. Hofflund. Thank you, sir. I will tell you that I come 
here at my own expense, and I am staying with a former 
Congressman from my district, a great admirer of you, and he 
asked me to please give you his highest regards, Representative 
Orville Hanson. He is letting me stay with him while I am in 
Washington, D.C.
    Mr. Simpson. Well, thanks for being here, and we will see 
you at the Shakespeare Festival.
    Next we have Elena Daly, Vice President of DC Affairs, 
Public Lands Foundation.
                              ----------                              

                                          Thursday, April 14, 2011.

                     BLM, PUBLIC LANDS, WILD HORSES


                                WITNESS

ELENA DALY, VICE PRESIDENT FOR DC AFFAIRS, PUBLIC LANDS FOUNDATION

    Ms. Daly. Good morning. Thank you, Mr. Chairman. We at PLF 
would like to thank you for the opportunity to present your 
committee with our views regarding the Bureau of Land 
Management's budget request for fiscal year 2012.
    As a national nonprofit organization comprised principally 
of retired but still dedicated BLM employees, the PLF has a 
unique body of experience and expertise in the realm of natural 
resource management, and as retirees, we believe we offer an 
objective and non-bureaucratic solution to some issues, 
although I am feeling very bureaucratic after listening to the 
last very articulate panel.
    We support BLM and its programs but we are independent in 
our views and our requests, and we strive to improve the 
effectiveness of BLM by encouraging professionalism in its 
employees and increasing both public understanding and proper 
scientific management of public lands.
    Some of the most significant management challenges for the 
BLM stem from, as you know, particularly with Boise, rapid 
growth and population development in the West, the urbanization 
issue, and we find that with this urbanization comes increased 
demands on the public lands, not only for recreation but for 
traditional uses and products as well, and this really 
complicates an agency with a mission as diverse as the Bureau 
of Land Management. The public lands provide the Nation with 
opportunities for expanding the development of renewable energy 
as well as traditional needs for oil, natural gas, coal, non-
energy minerals, grazing land and timber. Recreation, wildlife, 
wild horses, cultural resources and special places are also 
significant attributes of those lands. Management activities 
for BLM contribute to the vitality of state and local 
economies, generating an expected $4.5 billion in revenues for 
2012, mostly from energy development.
    We also recognize that the Nation is facing some real 
challenges as you all look at budgets and need, and in that 
light, we are pleased at several of the aspects of the overall 
budget request. In particular, we are pleased to see increases 
for the National Landscape Conservation System and the 
processes associated with the restoration of abandoned mine 
lands. The NLCS is a compilation of unique and incredible 
landscapes designated for outstanding cultural, ecological and 
scientific values and range from red rock deserts, rocky 
coasts, deep river canyons and high mountains and arctic 
tundra. Management of this particular group of lands has long 
been underfunded.
    We believe the AML fee combined with the proposed budget 
increase will provide a process to begin reclaiming both the 
safety and environmental hazards that remain after 150 years of 
hardrock mining on millions of acres in the West.
    We are also pleased to see increases for land acquisition, 
renewable energy, the Secretary's Cooperative Landscape 
Conservation Initiative and Youth in the Great Outdoors, and we 
support the budget proposals to recoup the costs of inspection 
and enforcement activities for mineral leases from new fees.
    We are also pleased to see the Secretary's proposal to 
eliminate the sunset date for the Federal Land Transition 
Facilitation Act and to allow lands identified in newer BLM 
land-use plans as suitable for disposal.
    However, we do have a couple of concerns. One is in land-
use planning. Land-use planning for BLM is foundational to 
decision-making. A reduction in monies to provide up-to-date 
plans hampers on-the-ground management because you do not have 
the latest information at the very time when the West is 
developing so rapidly. The reduction of $8.2 million in this 
program will have lasting impact on those lands administered by 
the bureau. Land-use planning is the primary tool we have for 
effecting long-term decision-making and giving up that 
opportunity gives us some concern.
    Alaska Conveyance--the reduction of $17 million from this 
program will be devastating to the BLM and Alaska and to the 
U.S. government's commitment to that state, to the native 
corporations and to individual allottees who have been waiting 
now over 40 years to have these land issues resolved. This 
would result in a 20 percent reduction in land transfer 
capability and a reduction in force and the loss of many of the 
638 survey contracts that go to native peoples in Alaska.
    And everybody's favorite, wild horses and burros. We are 
pleased that the Administration has requested sufficient funds 
to support the efforts for this program but are concerned about 
the unsolvable issues that continue to haunt the efforts at 
management. We would like to see Congress step in at some point 
to address this through legislation so that the problems can be 
surmounted. We would like to see the differing opinions, 
whether it is the wild horse advocates, the government, 
ranchers, whomever those people may be, come together and 
really talk about what is manageable in this program and what 
makes sense. The funding for long-term maintenance is just not 
sustainable.
    So we hope these comments and concerns assist you. We 
appreciate the time and your attention. Thank you very much.
    [The statement of Elena Daly follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.054
    
    [GRAPHIC] [TIFF OMITTED] T6982A.055
    
    [GRAPHIC] [TIFF OMITTED] T6982A.056
    
    Mr. Simpson. Thank you, Elena. We appreciate that. And you 
are right, there are several problems we have got to address, 
and we appreciate you being here and pointing those out. Thank 
you. Jim.
    Mr. Moran. Yes, just to thank Ms. Daly as well. She did not 
mention it, but she headed the National Landscape Conservation 
System. But we want to thank you for your leadership in that 
area.
    Mr. Simpson. Next, we have Brady Robinson, the Executive 
Director of Access Fund, Outdoor Alliance.
                              ----------                              

                                          Thursday, April 14, 2011.

                            OUTDOOR ALLIANCE


                                WITNESS

BRADY ROBINSON, EXECUTIVE DIRECTOR OF THE ACCESS FUND, OUTDOOR ALLIANCE

    Mr. Robinson. Hi.
    Mr. Simpson. How are you doing today?
    Mr. Robinson. I am good. Thank you. Mr. Chairman, honorable 
members of the committee, and Mr. Moran, thank you for this 
opportunity to talk to you today.
    Mr. Simpson. You bet.
    Mr. Robinson. My name is Brady Robinson, and I am the 
executive director of the Access Fund. We are the national 
nonprofit organization dedicated to climbing and mountaineering 
access and conservations on the climber. We are also a founding 
member of the Outdoor Alliance, which is a coalition of six 
national member-based organizations devoted to the conservation 
and stewardship of our Nation's public lands and waters through 
responsible human-powered outdoor recreation.
    The Outdoor Alliance represents the interests of millions 
of Americans who hike, paddle, climb, mountain bike, ski, and 
snowshoe on our Nation's public lands and waters. Our 
collective direct membership is over 100,000 and we have a 
network of 1,400 clubs covering every state in the country.
    I have personally dedicated my career to getting people in 
the outdoors. Before coming in the Access Fund, I spent over a 
decade working for Outward Bound. And through my interactions 
with thousands of Outward Bound students, I have personally 
witnessed the transformation and rejuvenation that occurs when 
people--particularly young people--have the opportunity to 
unplug and connect with the outdoors.
    The Outdoor Alliance has extensive experience working with 
federal land managers across the country concerning recreation 
and conservation policies. Our experience shows that adequate 
funding for the Park Service, the Forest Service, and the BLM 
is required to support public access to these public lands and 
rivers. And while federal land managers are currently 
integrating recreation, conservation, and restoration programs 
to more effectively manage our public lands for the benefit of 
all Americans, it is clear that budget cuts to these agencies 
would mean less access to and less conservation out of our 
public land. Underfunded and understaffed land managers, when 
forced to make resource protection and visitor use decisions 
are more likely to close or highly restrict public access. And 
this problem concerns not only Outdoor Alliance members but 
also hunters and anglers and other user groups.
    My organization, the Access Group, is seen as dynamic at 
numerous locations across the country such as Williamson Rock 
and Angeles National Forest, Christmas Tree Pass at the Lake 
Mead National Recreation area and Castle Rocks in Idaho at the 
BLM Burley Field office. The Outdoor Alliance believes that 
with the guidance and momentum of the America's Great Outdoors 
Initiative, the agencies are poised, if adequately funded, to 
enhance the public enjoyment of high quality public lands and 
waters like never before.
    Nationwide active outdoor recreation contributes $730 
billion annually to the U.S. economy and supports nearly 6.5 
million jobs. Mr. Chairman, according to the Outdoor Industry 
Association, active outdoor recreation supports 37,000 jobs in 
Idaho, generates $154 million in annual state tax revenue, and 
produces $2.2 billion annually in retail sales and services 
across Idaho. That is more than five percent of the gross state 
product.
    We endorse a budget that will support this segment of our 
economy and adequately fund the Department of Interior and 
Department of Agriculture, activities that provide adequate 
outdoor recreation access to public lands and waters. And we 
offer specific budget recommendations for fiscal year 2012, 
which can be found in my written testimony.
    As an example of what can happen to public access when 
agencies have inadequate funding, look to the Red River Gorge 
in the Daniel Boone National Forest. Located in southwestern 
Kentucky, the Red River Gorge contains one of the largest 
concentrations of high-quality climbable rock in the United 
States and attracts visitors from around the world. However, 
the Forest Service does not have the resources to balance all 
its obligations and still provide for the proper management of 
these world-class climbing opportunities. Inadequate funding 
for environmental assessments has prevented the Forest Service 
from stewarding existing recreational sites and opening new 
sites. The Forest Service is unable to assess areas that are 
temporarily closed due to cultural and natural use conflicts, 
which results in de facto long-term closures.
    Climbers, mountain bikers, and other user groups bring 
much-needed economic activity to this rural area. Without 
sufficient funding, the U.S. Forest Service cannot afford to 
conduct the studies or administer the processes which allow for 
public access. As a result, would-be users, the local economy, 
and the natural resources themselves suffer. And unfortunately, 
this is all too common. The American people need open public 
lands for recreation in both rural and urban areas for our 
economy, for our physical, mental, and spiritual health, and to 
instill an appreciation of our beautiful lands and waters in 
our children.
    We at the Access Fund have developed positive working 
relationships with the agencies but we are not their 
apologists. We are not interested in big government 
bureaucracies, excessive regulation, or unneeded services. 
However, these agencies need basic levels of funding to fulfill 
their important missions.
    I can only imagine the incredible pressures that all of you 
are under to get government spending under control and I 
appreciate the need for austerity and for discipline. Our 
recommendations represent the minimum funding level we believe 
is necessary to keep our Nation's great outdoors open and 
stewarded for the benefit of the American people
    Thank you, Mr. Chairman and committee members, for the 
opportunity to appear before you today. And I stand ready to 
answer any questions you might have.
    [The statement of Brady Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.057
    
    [GRAPHIC] [TIFF OMITTED] T6982A.058
    
    [GRAPHIC] [TIFF OMITTED] T6982A.059
    
    [GRAPHIC] [TIFF OMITTED] T6982A.060
    
    Mr. Simpson. Thank you. We appreciate your testimony and 
the work you do.
    Mr. Robinson. Thank you.
    Mr. Simpson. Jim----
    Mr. Moran. Another graduate of Outward Bound, which hails--
Senator Mark Udall, a former colleague, is one of your alumni I 
guess and the most prominent. It is a great program.
    Mr. Robinson. Yes. He has been very supportive.
    Mr. Moran. Yeah.
    Mr. Robinson. Thank you.
    Mr. Simpson. Thank you. Next, we have Bill Chandler, Vice 
President of Government Affairs for the Marine Conservation 
Biology Institute.
                              ----------                              

                                          Thursday, April 14, 2011.

                 MARINE CONSERVATION BIOLOGY INSTITUTE


                                WITNESS

BILL CHANDLER, VICE PRESIDENT FOR GOVERNMENT AFFAIRS, MARINE 
    CONSERVATION BIOLOGY INSTITUTE

    Mr. Chandler. Good morning, Mr. Chairman.
    Mr. Simpson. Good morning. How are you doing?
    Mr. Chandler. It is a pleasure to be here, Moran, Members 
of the subcommittee.
    I represent Marine Conservation Biology Institute. It is a 
nonprofit conservation organization based in the Seattle, 
Washington area. We have been involved in the conservation of 
our Pacific islands and Pacific island territory since 2005. I 
would like to emphasize to the subcommittee that when President 
Bush created the four national rain monuments out there that he 
did during his term, he significantly increased the 
responsibilities of the Fish and Wildlife Service. The service 
now has lead responsibility or sole responsibility for about 
225,000 additional square miles. Altogether, these monuments 
have increased the size of the refuge system by about one-
third, which is sort of a startling number except, you know, 
they do not have billions of hunters and fishermen trying to 
get into the refuges out there, but it is a very large area.
    These monuments are home to millions and millions of 
seabirds, rare and abundant corals, some endangered species, 
and in essence they represent a beacon of what pristine 
ecosystems are supposed to look like for other nations of the 
world that are trying to restore their own highly damaged coral 
island systems throughout the Pacific. In other words, this is 
a great benchmark--and there are not many left--to show the 
world what these natural systems really look like and how they 
are supposed to function.
    To adequately meet its responsibilities, we estimate that 
the Service needs an additional $18 million but I am not going 
to ask for all of that today. This would allow them to do 
several things that are not happening right now--for example, 
to hire adequate management personnel, to develop plans for the 
monuments which are, I should point out, two years behind. They 
have already missed their deadline date for having the 
management plans prepared along with NOAA. It would enable them 
to procure transportation to get out to these islands. They 
need to keep developing plans and implementing them to restore 
a lot of the damage that occurred on the islands in the past 
from military occupations during World War II. And they need to 
keep the Midway Airfield open and maintained because Congress 
directed that they do that a number of years ago. And finally, 
they have to provide enforcement to these areas, consulting 
with the Coast Guard and NOAA in order to make sure that 
illegal fishing does not occur in our waters. And there is a 
problem in that regard. I should also say that the 18 million 
estimated need does not cover any damages associated with the 
tsunami that swept over some of these places like Midway.
    We are recommending in 2012 a funding level of about 9.03--
or just let us round it off to $9 million--for just the 
monument activities of the Service out there. And this level of 
funding would provide an additional $.5 million for Midway 
operations, which they need, and the rest would cover the 
following: managers for two of the monuments that do not have 
them now, a public planner so that they can get these 
management plans teed up and done, continued invasive species 
removal work at a 2 or 300,000 level, and most important--and 
what I want to emphasize this morning above all else--is travel 
cost to get a contractor bidding party out to two islands in 
the remote islands monument to prepare bids to give estimates 
on what it would take to get two shipwrecks off those reefs.
    And the problem with the shipwrecks is that they are not 
just sitting there. They are leaching iron. The iron is causing 
the explosive growth of a couple of nuisance species which are 
killing corals. And at Palmyra Island alone the Fish and 
Wildlife Service several years ago documented 250 acres of 
pristine corals have been killed and they are going to keep 
dying until they get these shipwrecks out and remove the source 
of the leaching iron.
    I have some pictures that I think most graphically show the 
subcommittee what has been going on there and I will give--you 
can just flip through these really quickly. The first one is 
the wreck that showed up on Kingman in 2007. It is now 
disintegrated and its iron parts, as I mentioned, are leaching 
iron into the Kingman Reef area. The second picture you see 
shows the Palmyra wreck, and all of that dark blue area in the 
field is where the corallimorph has taken over and killed the 
corals. And it is spreading. The next photo shows what the 
corallimorph looks like. It is an anemone-like species that has 
basically eliminated the natural corals that are there. And 
then finally, another shot of the devastation that is 
occurring.
    I will also point out to the subcommittee that the Fish and 
Wildlife Service has been aware of this problem for a number of 
years but has failed to act. Inaction means more corals are 
going to die and these monuments are going to be further 
degraded. We frankly find this unacceptable and we hope that 
the committee will give serious consideration to spurring 
meaningful action on this matter this year.
    And my conclusion after studying this for quite a bit is 
that the first thing that we need to do is we need to spend 
$60,000 or so to have the Fish and Wildlife Service fly out a 
team of salvage contractors so that they can go to the wrecks, 
figure out what it is going to take, and give the Fish and 
Wildlife Service an honest estimate about what it would take to 
move these wrecks.
    In conclusion, I would say that overall the Fish and 
Wildlife Service needs more resources to deal with their added 
responsibilities out here. These places are important even 
though people do not live on most of them. And we would hope 
that this would receive favorable consideration by the 
subcommittee. That concludes my testimony and I would be happy 
to answer any questions regarding this particular issue or any 
issue out there.
    [The statement of Bill Chandler follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.061
    
    [GRAPHIC] [TIFF OMITTED] T6982A.062
    
    [GRAPHIC] [TIFF OMITTED] T6982A.063
    
    [GRAPHIC] [TIFF OMITTED] T6982A.064
    
    Mr. Simpson. Thank you for your testimony. I am sorry I had 
to step out for just a second, but it is an interesting subject 
that quite honestly I had not spent a lot of time thinking 
about. So I appreciate you bringing it to our attention.
    Mr. Chandler. You are quite welcome. I realize that deep 
blue water is not a big thing that the Fish and Wildlife 
Service has dealt with before, but now they have to because 
they have been mandated to do so by four presidential 
proclamations.
    Mr. Simpson. There is not a lot of deep blue water near 
Idaho. I appreciate it.
    Mr. Chandler. Well, you will have to get them to take you 
out to Midway----
    Mr. Simpson. Yeah.
    Mr. Chandler [continuing]. Mr. Simpson. That is a fabulous 
trip and it will really give you real appreciation of what is 
going on out there and what the needs are.
    Mr. Simpson. I appreciate it. Jim, do you have anything?
    Mr. Moran. Just that $900 million is a lot of money. But 
thank you for your testimony.
    Mr. Chandler. Well, the 900 is for the whole refuge 
system----
    Mr. Moran. I understand.
    Mr. Chandler [continuing]. Not for the monuments, sir.
    Mr. Moran. Right. Yeah. Thank you.
    Mr. Simpson. Next, we have Barbara King, private citizen, 
BLM Land Transfers.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

                           BLM LAND TRANSFERS


                                WITNESS

BARBARA KING, PRIVATE CITIZEN, BLM LAND TRANSFERS

    Ms. King. Mr. Chairman and members of the subcommittee, 
thank you very much for the opportunity to testify this 
morning. My name is Barb King and I am here to testify against 
funding the BLM Land Exchange program until land exchange 
regulations regarding public notification in 43 C.F.R. Part 
2200 are revised and written in plain English according to 
President Obama's Executive Order 13583 and the Plain Writing 
Act of 2010, sponsored by Congressman Moran.
    Based on personal experience, I speak unofficially for two 
groups of landowners whose property values are at risk because 
regulations do not specifically require mailing them BLM formal 
notices of an exchange. The Notice of Exchange Proposal informs 
the public that an exchange has progressed beyond the 
feasibility stage and the Notice of Decision announces the 
approval of an exchange in the public comment period.
    Interior Secretary Salazar should explain to this 
subcommittee why adjacent landowners to BLM properties proposed 
for disposal and all prospective end owners of the BLM land 
known to an exchange facilitator are not considered 
``appropriate'' to notify in the regulations Subpart 2201 and 
also why BLM land managers ignore the BLM land exchange 
handbook, especially chapters four, five, seven, and nine 
relating to this notification issue.
    Adding these two groups of people to BLM's notification 
list by regulation would end the Department of Interior's 
systemic lack of transparency about this issue and would be in 
keeping with Secretary Salazar's 82-page Open Government Plan. 
Because of this troubling 2009 Government Accountability Office 
report on the program, #09-611, Congressional House Resolution 
111-80 directed the Secretary to ensure that BLM's national 
land exchange team documents in the exchange case file the full 
disclosure of facilitators' contracts and related agreements.
    Showing his indifference to the directive, the Secretary 
simply reissued to BLM field officers the existing 
unenforceable full disclosure policy in the handbook. Failure 
to notify all of these parties will perpetuate BLM's 
longstanding problem with appraisals when a patentee resells 
the former BLM land at a profit at the expense of the Federal 
Government and other landowners. Given the news stories, the 
GAO reports, departmental reorganizations, and congressional 
inquiries for over a decade, Secretary Salazar should take 
every step possible to improve this program. Clearly enforcing 
the full disclosure policy is one of them.
    Since the Secretary will not do that, it should be required 
by regulation and the team made accountable for enforcing it. 
Specifically, the team should document that all prospective end 
owners were added to the BLM's mailing list, they were listed 
on appraisal request forms, the appraiser offered them equal 
opportunity to attend site inspections, and they received the 
Notice of Decision. All of this is necessary to ensure accurate 
appraisals, fair return to taxpayers, and a protection of 
private property values.
    I respectfully encourage members of this subcommittee and 
all Congressmen and Senators who advocate for land exchanges to 
read the GAO and House Appropriations Committee reports and 
then read Secretary Salazar's response to them. Having done 
that, I believe you will support legislation requiring these 
revisions. As long as this program is run with contempt for 
public inquiry and congressional scrutiny, it should not be 
funded. And that is the opinion of a taxpayer when we are 
looking at asking taxpayers in 50 states to fund projects in 8 
states.
    Mr. Chairman and members of the subcommittee, thank you so 
much for this opportunity.
    [The statement of Barbara King follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.065
    
    [GRAPHIC] [TIFF OMITTED] T6982A.066
    
    Mr. Simpson. Thank you. You posed some interesting 
questions that I do not have the answer to, obviously. Mr. 
Moran.
    Mr. Moran. No, I agree.
    Mr. Simpson. We will pose those questions to the right 
people.
    Ms. King. Okay. Thank you very much.
    Mr. Simpson. I appreciate it. Thank you for your testimony. 
Next, we have Madeleine Pickens, founder of Saving America's 
Mustangs. Welcome, Madeleine.
                              ----------                              --
--------

                                          Thursday, April 14, 2011.

                       SAVING AMERICA'S MUSTANGS


                                WITNESS

MADELEINE PICKENS, FOUNDER, SAVING AMERICA'S MUSTANGS

    Ms. Pickens. Thank you. I am honored, Chairman, to be here, 
and Congressman Moran. It is really interesting here today 
listening to everybody and their monuments and Fish and 
Wildlife. They all have so much. And I am here representing the 
American mustang. And it is extraordinary that we have to get a 
life of our own, but I think we are here.
    And I stand here as an immigrant to the United States. I 
was born in Iraq. I was fortunate because I dreamed of coming 
here. I fell in love with America. I used to go to movies with 
my father and watch westerns and I could not wait to get here. 
So many of you in this room were born here. You were born rich. 
You have a great history. I think too many of you have 
forgotten what it is all about.
    And so I present to you--I have Chief Arvol Looking Horse, 
19th generation keeper of the sacred white buffalo calf pipe of 
the Lakota, Dakota, Nakota Nation of the Sioux, and his wife 
Paula, as well as Travis Jackson, Junior. And he represents the 
Seminole Nation from Oklahoma. We are pleased to be also 
accompanied by wounded Army veterans Brian Field and Clay 
Rankin, along with their service dogs Justice and Harley. These 
are some of our great American heroes. And we have Stacy Dagel 
here. She represents all of the American citizens who were not 
able to attend this hearing. And all of these special people 
have traveled from all over the Nation to be here in support of 
our wild horses. I am here to realize another dream--on behalf 
of our American mustang--a permanent home for them called 
Mustang Monument in Nevada.
    Wild horses and burros are unfortunately a frustration and 
management dilemma for the Bureau of Land Management. These 
wild animals were designated by Congress as living American 
historical symbols by the Wild Horse and Burro Act, PL 92-195. 
How have these national living symbols of American history been 
devalued as less deserving than a national historic stone 
monument? Why are these wild animals a frustration and dilemma 
to the Bureau of Land Management? It is because the multiple-
use culture of the Agency encourages commercial and political 
interest to prevail over the interest of wild horses and burros 
on public lands. I am sure that if our national historic 
monuments or parks were managed by Bureau of Land Management, 
these public properties, too, would be subject to short-term 
commercial and political interest.
    Through the creation of Mustang Monument, a historic living 
museum, thousands of wild horses and burros could be managed by 
the Department of Interior with an emphasis on protection for 
and public interaction with these magnificent living symbols of 
American history. Surely this approach is in keeping with the 
spirit and intent of Congress. A living versus stone historic 
monument is a difficult concept for management. But both are 
equally important to sanctify and preserve our American history 
and culture for future generations of American people.
    A living monument is the missing key to the proper 
management of horses and burros removed from HMA areas, Horse 
Management Areas, which honors the intent and spirit of 
Congress, as ordered in PL 92-195. Over the course of the past 
three years, I have had numerous conversations and meetings 
with Bureau of Land Management Personnel in Washington and 
Nevada. They all agree the demand for adopting wild horses and 
burros is inadequate to keep up with animals gathered annually. 
Fertility control has its place, but it is not slowing the need 
to gather thousands of animals annually. The cost of confining 
gathered horses in feedlots is out of control. The living 
conditions inhumane and the Agency needs millions of dollars 
more each year to feed the growing herds of wild animals in 
captivity. And the Agency needs new authority to implement a 
new solution.
    So the existing Wild Horse and Burro Program is not 
sustainable. Every year the program costs the taxpayers 
millions of dollars more. Every year the Agency gathers 
thousands of horses which are not adoptable. And every GAO 
report on the Wild Horse and Burro Program states the same 
conclusion. The program needs to be fixed.
    We have broken out the current cost of the BLM program with 
a significant cost savings with my sanctuary proposal. And I 
believe you all have that there. With my proposal, the 
government stands to save $607 million. It is amazing. You 
know, when you gather these horses off the range and many of 
them are mares, they are in foal. Those babies are born in 
captivity. When they are born in captivity, you feed them every 
day hay and water. They live another 10 to 20 years. You know, 
people forget that. When they live on the range, they have a 
shorter life. But that is nature. That is how it is supposed to 
be. So not only have you gathered them, but you have now 
guaranteed yourself another 10 to 15 years of looking after 
them. You have got to do something about it. I have a chart 
here that you all have that you can take and see.
    Quite candidly, the leadership within the Department of 
Interior and Bureau of Land Management feel their hands are 
tied, tied by the language within the Taylor Grazing Act and 
Wild Horse and Burro Act. And these fine men and women are 
waiting for you to provide new direction and authority so they 
can create these public-private partnerships. Employees within 
the Bureau of Land Management cannot lobby Congress for this 
new authority but they sure would like your approval to relax 
the Taylor Grazing Act and the Wild Horse and Burro Act and 
create a new opportunity to combine large tracts of public 
lands administered by the Bureau of Land Management with 
private lands as new homes for the wild horses and burros.
    I have discussed this plan with the BLM and they agree with 
the concept. Both Secretary Salazar and Director Bob Abbey have 
been involved working out the details to ensure the plan is 
ecologically sound, economically feasible, and socially 
attainable. And without fail, every western movie I saw as a 
child always had the same ending. The cowboy would rush in and 
save the day. It is now in your hands to be the right cowboy 
and turn this program around.
    By unanimous decision in 1971 Congress made it clear that 
the wild horse is an American icon and we call it the American 
mustang. We have with us and I have right here 72,000 emails 
and letters from the public stating how horrified they are with 
what the BLM is doing and asking for a moratorium on the 
roundups immediately. This volume of letters is exponentially 
high and needs to be justly delivered to the BLM by way of your 
ruling. The American public is counting on this Appropriations 
Committee to take action today and give our mustangs back their 
right to live on the range.
    Please remember my website everybody here, 
SavingAmericasMustangs.org. Join us. We have a huge army of 
support now and I am delighted to be here today. I know I am 
talking to the right cowboy.
    [The statement of Madeleine Pickens follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.067
    
    [GRAPHIC] [TIFF OMITTED] T6982A.068
    
    [GRAPHIC] [TIFF OMITTED] T6982A.069
    
    Mr. Simpson. Thank you for being here, Madeleine. You know, 
we sat in the office and talked about this. There are, as you 
mentioned, challenges in doing it. The Taylor Grazing Act would 
need to be changed, a few things like that which this committee 
cannot do but the Natural Resources Committee is the one that 
does that work. You point out a true problem that has got to be 
solved.
    Ms. Pickens. You know we can solve it. You know we all care 
about the horse. Unfortunately, it got degraded to nothing. And 
I think together we can do this. So you know, we were broke two 
years ago and you came up with billions upon billions of 
dollars to the banks and handed it out overnight, so I am sure 
this is a whole lot cheaper to fix. And I have already bought 
land. I bought land in Nevada. We have got, you know, over half 
a million acres now. We just need to change it from cattle 
grazing to horse grazing. So you know, when we all come forward 
as Americans here, join us. Help us. You are the people with 
the voice. You can be our John Wayne.
    Mr. Simpson. Thank you.
    Mr. Moran. Well, thank you, Cowboy Simpson.
    Ms. Pickens. It is okay.
    Mr. Moran. As you know, I would love to see your plan work, 
Ms. Pickens, and I appreciate your tenacity and your dedication 
to the American mustang. And we will see what we can do.
    Mr. Jackson. Mr. Moran.
    Mr. Moran. Yes, sir?
    Mr. Jackson. Would you honor me to say a few words, please?
    Mr. Moran. Mr. Simpson is the chair.
    Mr. Simpson. Briefly, yeah.
    Mr. Jackson. Okay. My name is Travis Jackson, Junior. One 
hundred and fifty one years ago our people were moved from the 
East Coast to now what is Oklahoma. It is a shame that God's 
creatures, your Bible, does not say anything about, you know, a 
difference between men. It is just God's creatures. We all have 
the right to live. We all have the right to survive. One 
hundred and fifty one years ago, someone else wanted our land 
and they moved it away from us. We now live in Oklahoma. But 
our heart is still. We believe in you. We believe in your God. 
Show us that we are right. Thank you, sir. Thank you very much.
    Mr. Simpson. Cynthia, did you have----
    Mrs. Lummis. You know, I do. And Mrs. Pickens, I know that 
this is your raison d'etre. But I can tell you that a number of 
the well-meaning concepts that have been implemented by your 
group is damaging the grass resource that is the very lifeblood 
of the mustangs that you so desperately want to help. I come 
from a state that has a large number of these wild horses, 
Wyoming, and we are very reverent when it comes to the Pryor 
Mountain herd and other wild horse lands. But there are so many 
horses that they are destroying the grass resource and when the 
grass resource is gone, it is gone not only for the horses but 
for other species--mankind, elk, deer, buffalo, and other 
species that are integral to a vibrant ecosystem.
    These ecosystems are fragile. The topsoil is very thin and 
these horses that are not native to this land but were brought 
in and are feral to this land, when they are too numerous, tamp 
the soil down in a way that requires a change in the way the 
land is managed. And that is because the horse hoof is a solid 
hoof. The buffalo, elk, deer hoof is a split hoof. So when you 
have the native grazers of those lands, which are the elk, 
deer, buffalo, they knead the soil when they graze and walk. 
And horses tamp it down. So when the horses are too numerous, 
when it rains, they are tamping the soil and then the rain runs 
off. And you can look at studies of grazing ungulates that will 
show the damage that can be done when wild horses are too 
numerous. There are places in Wyoming where they are too 
numerous.
    So I appreciate your coming forward with solutions as 
opposed to saying the horse is more sacred than other species; 
therefore, we want to elevate them above all other species in 
terms of the management of species. But I would also argue that 
it is important to address these issues realistically. And the 
Bureau of Land Management is a land management agency. And they 
are looking out for the best interests of the land because the 
land has to be protected in order to be a vibrant resource for 
all species, native and feral horses as well.
    So I would be happy to work with you because I think some 
of the solutions that you have pushed thus far have been 
detrimental. But I also think that some of the ideas that you 
have going forward could be helpful. So although you and I 
disagree somewhat fundamentally on what should be the role of 
the wild horse in relation to other species, I think we can 
agree that the current status quo is unacceptable and that 
there needs to be some changes. And I hope that you would be 
willing to work with me.
    Ms. Pickens. I look forward to, actually, if you do not 
mind I will give you a call and I will come by because I am not 
quite sure what you are referring to what we do not agree with. 
So I am delighted to have met you today. And I will call upon 
you if I may, I would love to chat with you and go over the 
whole thing because I am very confident that there is always a 
solution to everything in life.
    I actually have a statement perpetuating the myth that wild 
horses are desecrating the public lands. One hundred years ago 
we had two million horses roaming the plains. Perhaps they 
could have desecrated the lands there. Today, we are left with 
probably 20 to 30,000 horses. There is no way, as I fly across 
this country every week and look below me, there is not enough 
of them out there to desecrate the land. Some states only have 
a few hundred. How could they be destroying the lands? In 
states like Nevada, where nearly half of the wild horses 
reside, allocate more than 10 to 1 acres for cows versus 
horses. So yet your horses bear the brunt of the myth about 
overgrazing and to continue to tell people that they are dying 
and starving when it is obvious that all gathers that nearly 
all the horses are in good condition is another one of those 
overblown statements that does not pass the straight-face test.
    You know, all this stuff about desecrating the land, I do 
not know where it came from. I have done so much research. It 
is just the saddest thing. And that is why I would be willing 
to fly out there with you and let us spend some time together 
and get over all of these myths.
    Mr. Simpson. Well, I appreciate that. And you two get 
together and work this out if you would because we have used 
much, much more than the five minutes that was accommodated.
    Ms. Pickens. We deserved it.
    Mr. Simpson. Did you have a brief statement you wanted--a 
brief something you wanted to say? Go ahead.
    Mr. Looking Horse. I am the keeper of the sacred pipe and 
we are from the sacred Black Hills, the heart of mother earth. 
We use horses in our ceremony and we have like proof that the 
horses were here during the dinosaur time but that we just know 
that people like ourselves--but we are the first nations here. 
We have ceremonies. We maintain the environment through our 
ceremonies, through our sacred sites, and we follow the animal 
nation. And right now the white animals are showing their 
sacred color, which is white, and that is why we are coming 
forth, stepping forward to protect the wild horses, all the 
horses, because in our ceremonies they are very sacred to our 
ceremonies and that is why I come here because we need the 
horses on this sacred land here.
    Mr. Simpson. Thank you. Thank you. I appreciate your 
testimony today. Next, we have Congressman Dan Burton from 
Indiana's 5th Congressional District.
                              ----------                              

                                          Thursday, April 14, 2011.

                            BLM, WILD HORSES


                                WITNESS

HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

    Mr. Burton. Thank you. Mr. Chairman, I apologize for my 
tardiness. I was a little late getting here so I did not hear 
all of Ms. Pickens' testimony. It is because I had three 
committee hearings at the same time. And as you know, what we 
try to do as Members of Congress--and I know you would 
appreciate this as well--is we try to make sure that Members of 
Congress can testify as early as possible so that they can make 
their other obligations in the Congress.
    Mr. Simpson. Yes, I know.
    Mr. Burton. And so I am a little disappointed that we were 
not able to solve that because we have got two governors 
sitting up in one room I am supposed to question. We have----
    Mr. Simpson. Well, I apologize to the gentleman. The 
schedule was put out earlier. If there had been a conflict that 
we had known about, we would have made those arrangements. It 
is hard to interrupt in the middle of the scheduled hearing. 
But I understand your comments.
    Mr. Burton. Thank you.
    Mr. Simpson. I appreciate them. I will take them into 
advice.
    Mr. Burton. Thank you, Mr. Chairman. I look forward to the 
day that you can come before my subcommittee.
    Let me just say, Mr. Chairman, that there are 37,000 wild 
horses on BLM lands and more than 30,000 additional horses that 
are being held in short- and long-term holding facilities. It 
is costing tons of money. I think it has gone from $20 million 
a year to a $75 million request by the President this year. And 
it is going up. And as you know, we have budgetary problems and 
we are trying to figure out ways to economize. Now the Bureau 
of Land Management, after you were kind enough to allow us to 
have an amendment to the H.R. 1 for $2 million, it sent a 
message to the Bureau of Land Management. And on March the 
25th, BLM issued a request for proposals to establish wild 
horse ecosanctuaries to be established on private lands.
    Now, it is interesting that Ms. Pickens has been working on 
this for many years and she proposed this very same program 
three years ago and the Bureau of Land Management turned a deaf 
ear and would not even talk to her about that or at least give 
her a fair hearing on it. And now because we have shone a 
little light on the subject, they are asking for almost exactly 
what she was proposing three years ago. She is really concerned 
about the wild horses and she is more than willing to put her 
money where her mouth is. She has bought two ranches out there 
and she has got permits for another 4 or 500,000 acres. And I 
think she stated very clearly--to answer your questions--that 
instead of millions of horses like we used to have on the 
plains, we have just maybe 30, 40,000 out there now. And for 
them to do damage to the ecosystem stretches credulity.
    And I know that many of the ranchers and others are very 
concerned about their cattle and their grazing lands and 
everything, and I think that is something that should be looked 
into and should be worked on. But at the same time to put these 
horses in pens, to move them hundreds and hundreds of miles 
away from their habitat to these pens and pay up to $2,500 a 
year per horse to take care of them when Ms. Pickens could do 
it for much, much less if an agreement could be reached. And in 
addition, she has indicated she would take steps to make sure 
that the herds do not expand so it would not hurt the 
ecosystem. And she can do that through various methods to make 
sure that they do not reproduce.
    So I will submit this for the record, Mr. Chairman, but I 
really believe that we are talking about something that should 
be dealt with. The Bureau of Land Management should deal with 
it. It would be economically advantageous for the United States 
of America because it would cost a lot less money. It would 
save the horses. I do not think it would damage the ecosystem. 
And there are people out there who are willing, in addition to 
Ms. Pickens, who are willing to get together with her and form 
associations that will pay almost all of the freight for this. 
So it is more of a political thing than it is a cost thing as 
far as to the government, other than what they are already 
spending, which is about $70-some million a year. And with 
that, I will submit the rest of my statement for the record, 
and if you have any questions, I would be glad to answer them 
for you.
    [The statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.070
    
    [GRAPHIC] [TIFF OMITTED] T6982A.071
    
    Mr. Simpson. Well, I appreciate that. And I appreciate your 
concern about what we are spending on this wild horses program. 
Everybody is concerned about the increased cost that we have 
been spending on wild horses and burros and how we can address 
it. And I have looked at the proposal by Ms. Pickens with some 
interest. There are some challenges in that it would take a 
change in the Taylor Grazing Act, in probably the Wild Horse 
and Burro Act, and those types of things, which we cannot do 
here. But I hope that the BLM will sit down and if they have 
got problems with it or questions about it, at least raise 
those so we will know what those issues are and maybe they can 
be addressed.
    Mr. Burton. And let me just say one more thing, Mr. 
Chairman. You are in a position of authority, along with Mr. 
Moran, and I would appreciate it if you could talk to the 
leadership at the Bureau of Land Management and ask them to 
really get serious with Ms. Pickens and take a hard look at her 
plan because they have just said publicly that they wanted to 
come up with something very similar to that.
    Mr. Simpson. Yeah.
    Mr. Burton. And try to make sure that they are willing to 
work with her to help solve this problem.
    Mr. Simpson. I have no problem doing that. I would like to 
know so that if--they may come up with an answer to me and I 
go, gee, I had not thought about that and you make absolute 
sense. I do not know. I would like to know what their concerns 
are and stuff and, you know, so I have the right answers.
    Mr. Burton. Okay.
    Mr. Simpson. Because we all want to deal with this issue 
that is getting more and more expensive I think and taking up a 
larger share of our budget. So I appreciate it and thank you 
for your interest in it.
    Mr. Burton. Thank you, sir.
    Mr. Simpson. You bet. Hearing will be adjourned for today.
                                            Friday, April 15, 2011.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

    Mr. Simpson. The committee will come to order. I am in 
order, since I am the committee today. We are going to have a 
hectic schedule today because we are going to be interrupted by 
votes about every hour or so on the various budget proposals 
that are over there, and we just had our first vote, which is 
why we are five minutes late, and I talked to Mr. Moran, who is 
on his way to vote and he said he will be back in just a few 
minutes and to go ahead and start.
    So good morning, and welcome to a second day of public 
witness hearings. This morning the subcommittee will hear from 
a cross-section of individuals representing a wide variety of 
issues addressed by this subcommittee. Each witness will be 
provided with five minutes to present their testimony. Members 
will be provided an opportunity to ask questions of our 
witnesses, but in the interest of time, the chair would request 
that we keep things moving along. It is likely that we will 
have House floor votes but we will do the best we can to get 
through this morning.
    I am happy now to yield to my friend, Mr. Moran, who is not 
here. Thank you, Mr. Moran, for your opening statement. He will 
be back shortly.
    Our first witness today is Shelley Roberts, CEO of the 
Idaho Rural Water Association. How are you doing, Shelley?
    Ms. Roberts. Good. How are you?
    Mr. Simpson. Good.
                              ----------                              

                                            Friday, April 15, 2011.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

SHELLEY ROBERTS, CEO, IDAHO RURAL WATER ASSOCIATION

    Ms. Roberts. I would like to thank you and the members of 
the subcommittee for the opportunity to appear before you to 
discuss the Environmental Protection Agency's technical 
assistance of training and source water protection initiatives 
that directly benefit rural America. My name is Shelley Roberts 
and I am the CEO of Idaho Rural Water Association representing 
over 350 small and rural communities that have to comply with 
all EPA regulations. There are similar associations throughout 
all the states.
    Before I begin, I would like to thank you and your staff 
for all the support and guidance you have offered. We are very 
grateful.
    My purpose in appearing before you is to simply emphasize 
the importance of providing small drinking water systems 
training and technical assistance in complying with the ever-
expanding requirements of the Safe Drinking Water Act. Of the 
billions of dollars provided to EPA by the subcommittee each 
year, small rural communities will tell you they see and feel 
the most benefit from the dollars provided to rural water 
programs. It is simple: Small communities want to ensure 
quality drinking water. Local water supplies are operated by 
people who are locally elected and whose families drink the 
water every day. However, they need assistance in a form they 
can understand. Funding provided to rural water programs across 
the country and in Idaho allow for spending to be more results-
oriented, non-regulatory, less bureaucratic, more effective and 
less expensive.
    Currently, 92 percent of the 50,000 community water systems 
in our Nation serve populations of less than 10,000. We urge 
you to continue funding the training and technical assistance 
and source water protection initiatives at the authorized level 
of $15 million.
    In Idaho, we have nearly 2,000 EPA-regulated drinking water 
systems of which only 20 serve populations over 10,000 people. 
That means that 1,947 water systems in Idaho serve small 
communities. There are similar comparisons on other states. I 
have witnessed a direct correlation between this assistance and 
increased compliance and sustainable activities for the 
utilities in Idaho. EPA has also made similar findings across 
the country. In the long run, water systems that are maintained 
and properly managed actually save the community and the 
Federal Government money.
    The Federal Government mandates operators to be certified 
and receive continuing education each year. The only place 
small communities can receive that training is through state 
rural water associations. Last year, Idaho Rural Water offered 
38 training sessions throughout Idaho and had nearly 1,100 
attendees. In your district alone, we provided training to 318 
water officials representing 115 different communities. As our 
communities learned about the potential EPA funding cut, we had 
an immediate outcry from our members, community leaders and 
even other state and federal agencies. This stack of letters 
here represents just a small portion of the communities that 
will be adversely impacted both financially and technically as 
a result of loss of EPA funding this year. Our phones are 
ringing off the hook with people trying to enroll for classes 
that are being closed due to space limitations.
    One example of the onsite assistance Idaho Rural Water has 
provided occurred in Hazelton in southern Idaho. The Hazelton 
low-income housing facility has only 40 water connections and 
is typical of the over 10,000 communities assisted each year by 
state rural water associations. The Hazelton Housing Authority 
was struggling to find a licensed operator and approached Rural 
Water for help. Rural Water provided one-on-one personal 
training to help someone at the housing authority pass the test 
so that the small housing facility could continue to serve 
these families. There are many, many examples just like this 
where small communities turn to Rural Water to help when all 
other resources have been exhausted and communities are trying 
their best to remain in compliance with state and federal 
regulations.
    We urge you to continue to fund this small part of EPA's 
budget. Just one-half of 1 percent of their budget benefits 
thousands of communities and millions of people that depend on 
it for safe drinking water. Thank you for your time.
    [The statement of Shelley Roberts follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.072
    
    [GRAPHIC] [TIFF OMITTED] T6982A.073
    
    Mr. Simpson. Thank you. I appreciate your testimony. You 
will find, I think, that this committee and I in particular 
have been very supportive of the work you do and the Rural 
Water Association is very important to us, and the difficulty 
we have, as you know, has been this earmark ban. It has always 
been looked at as an earmark in the past, and now trying to 
figure out how to fund it without having it labeled an earmark 
is the challenge that we are having in that, but we are working 
on it and I will try to make sure that we continue the funding 
for this program so that you can do the important work you do 
out in the rural communities. So I appreciate it very much.
    Ms. Roberts. Yes, and we thank you for all your support.
    Mr. Simpson. You bet. Thank you.
    Next we have Dr. Anthony Szema, the Assistant Professor of 
Medicine and Surgery, Stony Brook School of Medicine. Welcome.
                              ----------                              

                                            Friday, April 15, 2011.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

DR. ANTHONY M. SZEMA, ASSISTANT PROFESSOR OF MEDICINE AND SURGERY, SUNY 
    STONY BROOK SCHOOL OF MEDICINE

    Mr. Szema. Thank you, Congressman Simpson, for the 
invitation to testify. I am Dr. Anthony Szema, the Assistant 
Professor of Medicine and Surgery at the State University of 
New York at Stony Brook School of Medicine. My board 
certifications are in pulmonary diseases, critical care 
medicine, internal medicine and clinical adult and pediatric 
allergy and immunology, and my undergraduate degree is in 
industrial and management engineering from Rensselaer 
Polytechnic Institute in Troy, New York.
    Between 2004 and 2009, I was an NIH K08 Mentored Clinical 
Scientist Award recipient, and although I am chief of the 
allergy section at the Northport Veterans Affairs Medical 
Center in Northport, New York, I am testifying today on behalf 
of the American Thoracic Society, which is an independently 
incorporated international education and research scientific 
society focusing on respiratory, critical care and sleep 
medicine. The American Thoracic Society has 14,000 members who 
help prevent and fight respiratory disease around the globe 
through research, education, patient care and advocacy 
initiatives. It was founded in 2005, and we want to decrease 
morbidity and mortality--death--from respiratory diseases, 
life-threatening acute illnesses and sleep-related breathing 
disorders. So as such, we have a keen interest in the impact 
that the Environmental Protection Agency's regulatory 
enforcement actions have on public health.
    I have four points. First is the EPA's standard-setting 
power plant air toxic rule. The EPA is in the process of 
setting a number of important public health standards under the 
auspices of the Clean Air Act. Most recently, the EPA released 
a proposed rule that will for the first time address toxic air 
pollution released from coal- and oil-fired power plants. The 
proposed rule will remove tons of toxic pollutants including 
mercury, lead, nickel, dioxins and acid gases from the air we 
breathe. All are known to have immediate and long-term health 
effects including health effects of children. Today, more than 
60 percent of power plant operators have acted responsibly and 
installed pollution control equipment to reduce these toxic 
emissions. The proposed rule will require all power plants to 
install readily available, modern pollution control technology 
by 2016. The American Thoracic Society strongly supports this 
proposed rule and urges Congress to allow the EPA to move 
forward with implementation of the Power Plant Air Toxic Rule.
    Number two: EPA standard-setting on ozone and particulate 
matter. The American Thoracic Society expects the Obama 
Administration to release two additional important public 
health standards that will address ozone and particulate matter 
air pollution. Both these pollutants are regulated by the Clean 
Air Act and have a significant impact on our Nation's health. 
Hundreds of studies have demonstrated that exposure to ozone 
and particulate matter air pollution is bad for your health. 
These pollutants cause premature death, asthma attacks, chronic 
obstructive pulmonary disease exacerbations, ischemic heart 
disease exacerbations, emergency room visits, missed school and 
work days, and as a dentist, you know periodontal disease 
associated with cigarette smoking. There is conclusive research 
that demonstrates that the current EPA standard for ozone and 
particulate matter need to be tightened. We at the American 
Thoracic Society urge the subcommittee to recognize this 
important body of work and provide the EPA with the resources 
it needs to issue and enforce revised standards for ozone and 
particulate matter air pollution.
    Number three: EPA National Ambient Air Quality Standards 
monitoring. In addition to establishing standards for air 
pollution limits, the EPA is also charged with developing and 
maintaining a network of monitors which measure the level of 
pollution in our Nation's air. Unfortunately, we know the 
current monitoring is inadequate. There are not enough monitors 
to accurately gauge air pollution associated with highways and 
other areas that are congested with automobiles and this means 
we are underestimating the air pollution to which we are 
exposed and hence underappreciating the risk that air pollution 
poses to America's health. Fortunately, there are new 
technologies available including satellite monitoring, which 
can greatly enhance the accuracy and comprehensiveness of the 
EPA's monitoring efforts. The American Thoracic Society 
strongly urges Congress to provide the EPA with the funding 
necessary to evaluate and revamp its current clean air 
pollution monitoring network.
    Number four: EPA and climate change. The American Thoracic 
Society is disappointed in the direction that Congress is 
headed when it comes to issues related to climate change. Our 
children and grandchildren will pay the price for Congress's 
inability to address climate change. Climate change will bring 
severe adverse human health effects. Research has demonstrated 
the spread of malaria to higher elevations due to rising 
temperatures. Studies have demonstrated that high 
concentrations of carbon dioxide, or CO2 gas, from higher 
temperatures and a length in spring season will mean a more 
severe prolonged allergy season, including those with allergic 
asthma. High temperatures will also increase heat-related 
deaths in both major cities and rural areas. The EPA has 
composed reasonable policies that would begin to address 
climate change. If Congress attempts to remove, delay or 
circumscribe the EPA's authority to address this significant 
public health issue, the American Thoracic Society would like 
to send a univocal, unambiguous message that obstructionism 
will only increase the problem and add to the toll on human 
health and raise the economic cost associated with addressing 
climate change. We at the American Thoracic Society also 
believe that the success of the EPA Clean Air Act holds 
valuable lessons for Congress and the EPA as well as both 
bodies should consider how to deal with climate change. The 
technology used to reduce traditional pollutants like ozone and 
particulate air matter can also be used to address greenhouse 
gas emissions.
    The American Thoracic Society continues to play an active 
role in addressing global climate change, and in May 2010 the 
organization hosted a workshop on the respiratory health 
effects of global climate change chaired by Dr. William Ron of 
New York University. We expect the workshop report to be 
finished shortly, and will provide, number one, guidance to the 
known and likely respiratory health effects of climate change, 
and number two, pose valuable research questions to further our 
understanding of how climate change is impacting human health.
    Congressman Simpson, respectfully, on behalf of the 
American Thoracic Society, I appreciate the opportunity to 
comment on the fiscal year 2012 budget of the Environmental 
Protection Agency before you and Congressman Moran on the 
Committee of Appropriations, Subcommittee on Interior, 
Environment, and Related Agencies.
    [The statement of Anthony M. Szema follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.074
    
    [GRAPHIC] [TIFF OMITTED] T6982A.075
    
    [GRAPHIC] [TIFF OMITTED] T6982A.076
    
    [GRAPHIC] [TIFF OMITTED] T6982A.077
    
    Mr. Simpson. Thank you for your testimony. My guess is, 
just offhand, I do not know this, but my guess is just offhand, 
you guys did not like the dump truck of H.R. 1. Thank you for 
your testimony. We appreciate it.
    Do you have anything, Mr. Moran?
    Mr. Moran. No.
    Mr. Szema. Clean air is good, dirty air is bad.
    Mr. Simpson. Our next witness is Ryan Schmitt, Chairman of 
the Board of the National Utility Contractors Association.
                              ----------                              

                                            Friday, April 15, 2011.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

RYAN SCHMITT, CHAIRMAN OF THE BOARD, NATIONAL UTILITY CONTRACTORS 
    ASSOCIATION (NUCA)

    Mr. Schmitt. Chairman Simpson, Ranking Member Moran and 
honorable members of the subcommittee who are here in spirit, 
my name is Ryan Schmitt. I am the President of Petticoat-
Schmitt Civil Contractors in Jacksonville, Florida. Our company 
does water and sewer projects throughout northeast Florida and 
southeast Georgia. I appreciate the opportunity to participate 
in this hearing on behalf of NUCA. NUCA is the oldest and 
largest national trade association, representing the utility 
construction and excavation industries. NUCA also serves as the 
chair of the Clean Water Coalition, a coalition of 37 
organizations representing contractors, designers, suppliers 
and manufacturers, labor and other organizations who support 
sound environmental infrastructure.
    I am here today to convey NUCA's support for the inclusion 
of $3.5 billion for the EPA's State Revolving Fund programs in 
the fiscal year 2012 Interior/Environment appropriations 
measures. Specifically, we ask the subcommittee to include $2.1 
billion for the Clean Water SRF and $1.4 billion for the 
Drinking Water SRF. These investment levels would restore the 
fiscal year 2010 levels and would provide critical funding for 
these economically sound programs in a time when our country is 
in dire need of increased infrastructure investment.
    The construction industry continues to face the highest 
unemployment rates than any other industry sector. The Bureau 
of Labor Statistics report for March indicated unemployment in 
construction is now over 20 percent and over 2 million 
construction workers out of work. My home State of Florida has 
lost 350,000 construction jobs in the last five years, which 
represents over 52 percent of the available construction 
workforce. This staggering statistic has drastically affected 
the overall economy of our region, and this alleged turnaround 
that some people speak of is nowhere to be seen and we do not 
see it coming. It is very discouraging to continually report to 
my employees that we have got no upcoming work on the books.
    Although SRF projects are recognized for their success in 
enhancing public health and environmental protection, it is 
their economic benefits that are largely overlooked. Clean 
water projects help the economy by creating jobs, generating 
economic activity and expanding the local tax base. It is 
important to note that the jobs offered in this industry are 
good, high-paying jobs that are provided right here in America. 
These cannot be shipped overseas.
    In 2009, the Clean Water Council released a study on job 
creation and enhanced economic activity that comes with 
investment in water and wastewater. The study, titled ``Sudden 
Impact,'' which I have right here, shows that a $1 billion 
investment in water and sewer projects results in one, the 
creation of 27,000 new jobs with average annual earnings of 
over $50,000; two, total national output for demand of products 
and services in all industries with $3.46 billion; three, 
personal household income between $1.01 and $1.06 billion; and 
lastly, approximately $82.4 million in local and state tax 
revenue.
    The need to invest in America's underground environmental 
infrastructure is well known, clearly documented and has broad 
support. According to the EPA, $298 billion is needed in the 
next 20 years to support America's need for wastewater 
infrastructure and $334 billion over the same time period is 
needed for the drinking water infrastructure.
    You know, what is out of sight and out of mind to most 
people is clearly visible to NUCA members like myself, and the 
view from the trenches is not pleasant. Right now, my company 
is working on a water and sewer project just outside of 
downtown Jacksonville, and we happen to be working in front of 
a very nice restaurant, a restaurant you might visit you were 
dining with our mayor, as he likes to frequent this 
organization.
    Mr. Simpson. Not anymore.
    Mr. Schmitt. As you can see from those pictures, in this 
section of pipe, a water pipe, mind you, that was taken out of 
service that provided water to that restaurant, there was over 
one inch of tuberculated material built up in that existing 
water line.
    Now, fortunately, the patrons have been safe because this 
fine restaurant put in a filtration system for their water. 
However, why is it in a developed country that we have got to 
filter our water systems and why do countless American families 
who cannot afford a filtration system have to work from 
tuberculated water mains? Well, the answer is, they do not have 
to. A robust SRF program can provide the drinking water and 
wastewater systems that Americans deserve. A healthy SRF plays 
a key role in enhancing public health, safety, protecting the 
environment and maintaining a strong economic base. Currently, 
the SRF programs face just under a $1 billion cut in the 2011 
Continuing Resolution and many in Congress are calling for 
reinstating the 2008 spending levels next year. That would mean 
almost $2 billion would be cut from the SRF program over two 
years. That is a 67 percent reduction in the Clean Water SRF 
and a 40 percent cut to the Drinking Water SRF since 2010. To 
that end, NUCA strongly encourages the subcommittee to include 
$2.1 billion and $1.4 billion to the Clean Water SRF and 
Drinking Water, SRF, respectively.
    Thank you for the opportunity to submit testimony for the 
record.
    [The statement of Ryan Schmitt follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.078
    
    [GRAPHIC] [TIFF OMITTED] T6982A.079
    
    [GRAPHIC] [TIFF OMITTED] T6982A.080
    
    [GRAPHIC] [TIFF OMITTED] T6982A.081
    
    [GRAPHIC] [TIFF OMITTED] T6982A.082
    
    [GRAPHIC] [TIFF OMITTED] T6982A.083
    
    [GRAPHIC] [TIFF OMITTED] T6982A.084
    
    Mr. Simpson. Thank you for your testimony. We appreciate it 
very much. Surprisingly, I agree with what you said. The 
problem is, we have the dual problems of infrastructure needs 
throughout this country and not just water and sewer, but I 
have given the speech many times--it would take too long to 
give it now--but locks and dams and harbors and inland waterway 
maintenance, the grid system, roads and bridges, our whole 
infrastructure is crumbling and we have to do something about 
it, and we have got to find a better way to fund it. That is 
what I have been working on with some other members, how are we 
going to fund this in the future.
    Actually, when you look at the needs, a $1 billion cut is 
barely a dent in the overall needs. We have got to find a 
better way to address it in the future so that we have the 
resources to address this kind of stuff, and the reason the 
public does not cry out about this is that nobody thinks about 
it when they turn on their water tap and water comes out. They 
never think about how it gets there. Nobody ever thinks about 
what happens when they flush their toilet. So it is a big 
problem. I think it is the biggest challenging facing the 
country in the future, to tell you the truth. So I appreciate 
your testimony.
    Mr. Schmitt. Yes, I concur. The EPA is talking about $35 
million a year and here we are talking about, you know, $3.5 
billion a year.
    Mr. Simpson. That is right.
    Mr. Schmitt. It is a huge spread.
    Mr. Simpson. Yes, that is right. I appreciate it.
    Mr. Schmitt. Thank you for your support.
    Mr. Simpson. Jim.
    Mr. Moran. I agree with the chairman very much. It does 
occur to me that so many people do not mind paying $2 for a 
plastic bottle of bottled water when a very modest assessment 
on the water that they pay for from the municipal sources would 
enable us to rebuild our infrastructure, which is in drastic 
need. I do not know why we do not do that. What we have, of 
course, is a revolving fund. The municipalities borrow that 
money from the state fund and then pay it back. I said on the 
Floor yesterday, it is beyond me why these governors, some of 
them, were so critical of federal spending and support of our 
cuts and the revolving funds and yet it is money out of their 
pockets that is desperately needed to rebuild our water 
infrastructure. Just as we need our plumbing in our own home to 
be working functionally, the public's plumbing under the ground 
needs to be working functionally as well. This is a devastating 
picture, but I suspect it is not all that unique.
    But I agree with the chairman. We have got to figure out a 
better way of financing. Thank you very much for your 
testimony.
    Mr. Schmitt. Thank you.
    Mr. Simpson. Thank you.
    Our next witness is Richard Opper, President and Director 
of the Environmental Council of the States, Montana Department 
of Environmental Quality. Is that right?
    Mr. Opper. That is correct.
    Mr. Simpson. Thank you.
    Mr. Opper. Good morning, Mr. Chairman.
    Mr. Simpson. How is the weather in Montana?
    Mr. Opper. It is not as much of a springtime as I am 
experiencing here.
    Mr. Simpson. Imagine that.
    Mr. Opper. I am finally starting to thaw out, Mr. Chairman.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                    ENVIRONMENTAL PROTECTION AGENCY


                                WITNESS

RICHARD OPPER, PRESIDENT/DIRECTOR, ENVIRONMENTAL COUNCIL OF THE STATES, 
    MONTANA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Opper. Good morning to you, and good morning, 
Representative Moran, and thank you for having me here, and as 
you said, I am here to testify on behalf of the states and 
territorial environmental agencies that are members of ECOS, 
the Environmental Council of States, and I am lucky to be the 
Director of the Montana Department of Environmental Quality. I 
often say Montana is the most beautiful state in the country, 
but you being from Idaho, you might take some exception to 
that.
    Mr. Simpson. A little bit.
    Mr. Opper. And I do not want to get off on the wrong foot.
    Mr. Moran. The only other guy I have heard say that is Rep. 
Rechberg.
    Mr. Simpson. Montana is a gorgeous, gorgeous state, and I 
have never understood why on the eastern part of our State of 
Idaho they did not just take that line and go straight north.
    Mr. Moran. There you go.
    Mr. Opper. There actually is a story about that.
    Mr. Simpson. I know. I know there is.
    Mr. Opper. The story being that we bought off the surveyors 
with a lot of alcohol.
    Mr. Moran. Is that a true story?
    Mr. Opper. Well, I do not know if it true or not but I am 
sure spreading it, and I have heard it many times.
    Mr. Moran. It is a gorgeous state, but Idaho is too.
    Mr. Simpson. They thought they were on the continental 
divide and they missed it.
    Mr. Opper. They missed it, and they missed it because they 
were drunk, so you know what the currency is in my state. I 
think I digress.
    I just have two points to make. They are fairly simple. One 
is that I think you should understand that what seems to you 
perhaps like cuts to EPA very often translate to cuts to the 
states instead. In fact, in the past we have seen as much as 
105 percent of the cuts that Congress imposed on EPA came out 
of the portion of EPA's budget that goes to the States. Now, 
this current EPA has shown a willingness to share some of that 
pain in the budget cuts. They are absorbing some themselves, to 
their credit, but still, the bulk of the cuts that you impose 
on EPA tend to go to the states.
    The second point I want to make is, if you want to get the 
best environmental protection for the fewest number of dollars, 
you need to make sure that EPA can continue to fund the states 
to do their work, and I will explain very briefly here. So the 
money that you allocate to EPA really goes into a couple of 
pots. Some of it goes directly to EPA to fund that agency's 
work. Another portion of it, it varies from year to year, but 
it is less than half, does go to the states to enable them to 
do their work. As we have heard, the State and Tribal Grants 
program, STAG money that goes to the states really is divided 
into two different areas. Some of it goes into the SRF program 
so that we can invest in infrastructure, the kind we discussed 
earlier for drinking water and wastewater facilities, usually 
in the form of low-interest loans. The other portion of EPA's 
STAG budget that goes to the states is for the categorical 
grants that pays the states to oversee the programs that are 
delegated to us from the Federal Government from EPA.
    So, again, it is important that this categorical grant 
portion of EPA's budget be maintained so the states can do 
their work. The states do almost all of the permitting, they do 
almost all of the enforcement, inspections, data collection for 
EPA. We do almost all of it, and we do it for a reason. We do 
it because we are better, we are cheaper and faster than the 
Federal Government, and I think everybody acknowledges that 
including EPA. That is why they delegate so many of their 
programs to us. A typical federal employee makes about 50 
percent more than a state employee who has similar 
qualifications, does the same kind of work, which begs the 
question, why am I working for the state. I do not know. Also, 
the state through their fee programs, through their general 
fund tend to pay about 80 percent of the programs and 20 
percent comes from the Federal Government. That is a typical 
state. So what this means is, there are some states that are 
thinking of giving programs back to the Federal Government. 
Idaho is one of them actually. Montana has given a program back 
to EPA and we saw some disastrous results, which I could tell 
you about if we had more time. But the Federal Government 
really cannot afford to take these programs back because the 
states contribute so much. If we give it back to the Federal 
Government, it is going to cost the Federal Government five to 
six times as much to run these programs as it costs the states. 
It is not efficient. We are a bargain.
    So I am going to cut this a little bit short. You know, I 
am happy to answer any questions for you. The states for some 
reasons I cannot explain at this point for the next couple of 
years are probably able to absorb cuts to the SRF program or 
the STAG grant. The states are more able to do that than they 
are able to absorb cuts to the categorical grants. Any more 
cuts to the categorical grants are going to come at an expense 
to the environment. That is an important point you need to 
understand.
    Anyway, I am here to urge you to adopt EPA's 2012 budget 
for the sake of efficiency, for the sake of prudent management 
and for environmental protection. It is a good budget when it 
comes to the categorical grants. So that is all I have, and I 
am certainly available to answer any questions.
    [The statement of Richard Opper follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.085
    
    [GRAPHIC] [TIFF OMITTED] T6982A.086
    
    [GRAPHIC] [TIFF OMITTED] T6982A.087
    
    [GRAPHIC] [TIFF OMITTED] T6982A.088
    
    Mr. Simpson. I appreciate your testimony. I have talked 
with Toni Hardesty out in Idaho about this same thing.
    Mr. Opper. I am crazy about Toni, by the way. She is 
marvelous.
    Mr. Simpson. She does a great job. And I rely on her for a 
lot of information about how things are working, but you are 
right, there are Members of Congress who are upset with EPA, 
that is a mild way to put it, and consequently they would like 
to just eliminate their budget. Unfortunately, as we discovered 
as we tried to put together both H.R. 1 and this latest one 
that we thought, you cannot do that because oftentimes you are 
not getting at what you want to get at. What happens is, just 
as you said, those cuts are passed down to the states and then 
those programs that actually go out and repair this kind of 
stuff and do the air quality monitoring, et cetera, et cetera, 
that is where the cuts occur, and that is what we do not want 
to do. So it has got to be more strategic than what some 
members want to do, but as you saw in the last, I guess when 
H.R. 1 was proposed, there were, I think it was 22 amendments 
or something like that that were aimed directly at the EPA that 
passed. I think that was a lot of venting by members that were 
upset with things that had happened in their region or their 
area or whatever, and hopefully we will be more thoughtful when 
we bring the Interior budget down this year, and we will 
certainly take into consideration your testimony and what you 
said, because we do not want to hurt the programs that are 
being done I think effectively and efficiently by the states.
    Mr. Opper. Well, thank you for recognizing that, Mr. 
Chairman. I appreciate that very much.
    Mr. Simpson. You bet. Jim.
    Mr. Moran. The testimony was very good. The conversational 
tone is particularly effective too, incidentally. Thank you.
    Mr. Opper. I know no other way.
    Mr. Simpson. That is the way all Montanans are. Thank you.
    Next is Craig----
    Mr. Schiffries. Craig Schiffries.
    Mr. Simpson. Okay, Mr. Schiffries, Director of Geoscience 
Policy at Geological Society of America.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                         U.S. GEOLOGICAL SURVEY


                                WITNESS

CRAIG SCHIFFRIES, PH.D., DIRECTOR FOR GEOSCIENCE POLICY, GEOLOGICAL 
    SOCIETY OF AMERICA (GSA)

    Mr. Schiffries. Chairman Simpson, Mr. Moran, members of the 
subcommittee. Thank you for the opportunity to testify today 
about the U.S. Geological Survey. My name is Craig Schiffries 
and I serve as Director for Geoscience Policy at the Geological 
Society of America.
    The Geological Society of America urges Congress to 
appropriate at least $1.2 billion for the U.S. Geological 
Survey in fiscal year 2012. The USGS is one of the Nation's 
premier science agencies. It addresses many of society's 
greatest challenges including mineral and energy resources, 
natural hazards, climate change and water availability and 
quality. Quite simply, the USGS benefits every American every 
day. The magnitude 9.0 earthquake and tsunami that devastated 
Japan on March 11th emphatically demonstrates the value of 
robust natural hazards monitoring and warning systems and the 
need for increased funding for the USGS.
    Science and technology are engines of economic prosperity, 
environmental quality and national security. Federal 
investments in research pay substantial dividends. According to 
the National Academies report, Rising above the Gathering 
Storm, as much as 85 percent of the measured growth in U.S. 
income per capita was due to technological change. In 2010, the 
National Academies issued an updated report, Above the 
Gathering Storm Revisited, which says it would be impossible 
not to recognize the great difficulty of carrying out the 
Gathering Storm recommendations such as doubling the research 
budget in today's fiscal environment. However, it must be 
emphasized that actions such as doubling the research budget 
are investments that will need to be made if the Nation is to 
maintain economic strength to provide citizens health care, 
Social Security, national security and more. One seemingly 
relevant analogy is that a non-solution to making an overweight 
aircraft flightworthy is to remove an engine. Likewise, the 
National Commission on Fiscal Responsibility and Reform headed 
by Erskine Bowles and Alan Simpson said cut and invest to 
promote economic growth and keep America competitive. We should 
cut the red tape and unproductive government spending that 
hinders job creation and jobs. At the same time, we must invest 
in education, infrastructure and high-value research and 
development to help our economy grow, keep us globally 
competitive and make it easier for businesses to create jobs.
    Earth science is a critical component of the overall 
science and technology enterprise. Strong support for earth 
science in general and the U.S. Geological Survey in particular 
are required to stimulate innovations that fuel the economy, 
provide security and enhance the quality of life.
    Science and scientific integrity advanced through the 
combination of two recent developments at the U.S. Department 
of the Interior. Secretary Salazar issued a new five-year 
strategic plan that for the first time elevates science to one 
of five mission areas for the entire department. The Interior 
Department also issued a comprehensive scientific integrity 
program. These developments are cause for optimism but the 
Geological Society of America expects that the elevation of 
science to a mission area will guide investments that are 
reflected in improved budget requests for the U.S. Geological 
Survey.
    The U.S. Geological Survey addresses many of society's 
greatest challenges, and I would like to mention just two 
today. A failure to prevent natural hazards from becoming 
natural disasters will increase future expenditures for 
disaster recovery and response. Recent natural disasters 
provide unmistakable evidence that the United States remains 
vulnerable to staggering losses. The magnitude 9.0 earthquake 
and tsunami that devastated Japan on March 11th, the magnitude 
7.0 earthquake that killed more than 200,000 people in Haiti 
last year, and the small volcanic eruptions in Iceland that 
disrupted global air traffic last year provide compelling 
evidence that the United States needs to take further actions 
to reduce risks from natural hazards. An improved scientific 
understanding of geological hazards will produce future losses 
through better forecasts of their occurrence and magnitude. We 
urge Congress to increase funding for the USGS to modernize and 
upgrade its natural hazards monitoring and warning systems.
    Widespread deployment of new energy technologies can reduce 
greenhouse gas emissions, mitigate climate change and reduce 
dependence on foreign oil, and minerals and energy resources 
are inextricably intertwined because many new energy 
technologies such as wind turbines and solar cells depend on 
rare earth elements and other critical minerals that currently 
lack diversified sources of supply. China accounts for more 
than 95 percent of the world production of rare earth elements 
although it has only 36 percent of the identified world 
reserves, according to the USGS. A renewed federal commitment 
to innovative research, information and education on mineral 
and energy resources is needed to address these issues.
    President Obama's fiscal year 2012 budget request for the 
USGS is $1.118 billion, a decrease of $15 million, or 1.3 
percent, below the USGS budget request for fiscal year 2011. 
Now, that is a slight increase in the total USGS budget request 
for fiscal year 2012 compared to the fiscal year 2010 enacted 
level. The 2012 budget request contains $89.1 million in budget 
cuts in core science programs that would be offset by increases 
in other areas. The proposed budget cuts would have significant 
negative impacts on the scientific capabilities of the USGS. 
Proposed reductions in the fiscal year 2012 budget request 
include $9.6 million for mineral resources, $8.9 million for 
national water quality assessment, $4.7 million for earthquake 
hazards.
    It appears that responsibilities for Landsat satellites 
have been transferred from NASA to USGS without a corresponding 
transfer of budget authority. A $48 million increase for 
national land imaging would be offset by decreases for core 
USGS programs. This trend cannot continue without compromising 
the mission of the U.S. Geological Survey. The Geological 
Society of America urges Congress to appropriate at least $1.2 
billion for the USGS in fiscal year 2012. The USGS budget has 
been nearly stagnant in real dollars since 1996. The USGS 
budget for 2010 was below the USGS budget for 2001 in real 
dollars, and during this time natural hazards, mineral and 
energy resources, and water availability and quality have 
become increasingly important to the Nation.
    Thank you for the opportunity to provide testimony about 
the U.S. Geological Survey. The Geological Society of America 
is grateful to the House Interior Appropriations Subcommittee 
for its leadership in strengthening the USGS over many years. 
We urge you to strengthen the USGS further again this year. I 
would be happy to answer any questions.
    [The statement of Craig Schiffries follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.089
    
    [GRAPHIC] [TIFF OMITTED] T6982A.090
    
    [GRAPHIC] [TIFF OMITTED] T6982A.091
    
    [GRAPHIC] [TIFF OMITTED] T6982A.092
    
    Mr. Simpson. Thank you for your testimony. I am kind of a 
fan of the USGS and what they do. They are a great 
organization. I think they are being run well, and I was not 
very happy with the request in the President's budget for 2012 
either, but we will be looking at it. I am concerned about the 
Landsat satellite and transfer, as you said, the responsibility 
with no money that goes along with it. We will be looking at 
that, and also we may have some additional responsibilities we 
wish for the USGS to take on, but we will not do that without 
corresponding resources for them to do it.
    Mr. Moran. I am in complete agreement with the chairman. 
The Landsat responsibility being shifted to USGS without an 
appropriate corresponding shift of financial resources was 
wrong, and we cannot afford these kinds of cuts to scientific 
research that USGS performs so ably. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you for your testimony.
    Mr. Schiffries. Thank you very much.
    Mr. Simpson. Patrick Natale, Executive Director of the 
American Society of Civil Engineers, as opposed to the uncivil 
engineers.
    Mr. Natale. Some engineers are not.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

        ENVIRONMENTAL PROTECTION AGENCY, U.S. GEOLOGICAL SURVEY


                                WITNESS

PATRICK NATALE, P.E., EXECUTIVE DIRECTOR, AMERICAN SOCIETY OF CIVIL 
    ENGINEERS

    Mr. Natale. Mr. Chairman, good morning, Representative 
Moran. It is a pleasure to be in front of Representative Moran, 
my Congressman.
    Mr. Simpson. He is mine too, actually. Although I vote in 
Idaho, I do live over in his district.
    Mr. Natale. I appreciate both of your comments, your 
comments that you made earlier about the importance of 
infrastructure. That is what ASCE has been talking about for 
many years. My name is Patrick Natale. I am the Executive 
Director of the American Society of Civil Engineers and I am a 
registered professional engineer in New Jersey. I actually live 
in New Jersey and Alexandria. I am really pleased to be talking 
about these issues that are before you today about EPA funding 
and the USGS funding. I think these are critical to our future 
and to the health and well-being of our citizens of this 
country.
    The concerns that we have with some of the budget cuts that 
are in the proposed budget could be devastating for water 
infrastructure, as we talked about. You heard some great 
examples earlier by the prior speakers. But looking at the cuts 
of what the Clean Water Act and the Safe Drinking Water Act are 
being reduced to $700 million and $842 million, respectively, 
or a cut of 66 percent in one and 39 percent in the other. That 
is huge cuts to critical issues that impact our health, safety 
and welfare, which is pretty important to all of us. Each year 
as we do not do something, we are making the condition worse. 
Infrastructure, as we wait to repair it, the conditions later 
on are even worse.
    When we did a report card in 2005, we found the needs for 
infrastructure to be $1.6 trillion to improve infrastructure in 
all areas. When we did the report card again in 2009, the price 
tag went up to $2.2 trillion. That was the cost of non-action 
or not enough action. We need to be paying attention to these 
critical areas, and we feel that there is a lot of data out 
there besides our report card. The report that was put together 
by the Bush Administration in 2002 looking at the need for our 
systems that was presented to EPA indicated that there was a 
need for system improvement in investment going forward.
    We feel that this is a time when the Federal Government 
needs to be stepping up participation, not reducing it. We are 
going backwards at a time that is critical to our success. And 
it is one of these things, you wait, pay now, or pay a lot more 
later on. We need to be paying attention to those things. We 
have seen reports that indicated the need for the Nation to 
invest $298 billion as of January 2008 in clean water needs, 
and we are not funding that. We have needs for replacing 
wastewater treatment plants. The pipes need repairing. We saw a 
great example of that a few moments ago. We need to buy new 
pipes, install new pipes, and we have to look at issues of 
combined stormwater, what the impacts of that are, and invest 
in stormwater management. What are we doing to make this a 
better country and keep the concerns of our citizens intact?
    We need to be looking at investing more money. Over the 
next 20 years, the numbers can be staggering, but a comment was 
made earlier about the bottled water versus tap water. You are 
paying 4,000 times the cost of bottled water to drinking water. 
A slight increase in funding would be very valuable to improve 
the quality of the supply and we could avoid some of the 
conditions that we have here.
    Our system is aging. We need to invest in that. We believe 
that the importance of doing this will help the citizens going 
forward and we can grow the Nation. We heard a lot of good 
examples before about the employment that is provided by doing 
infrastructure projects. And the thing I really like about it, 
they are domestic jobs when we do employment. So I think it is 
a really good opportunity. With the Nation facing $400 to $500 
billion investment gap in wastewater and drinking water in the 
next 20 years, now is not the time to cut, now is the time to 
invest in our future, and I do not like to use the spending 
word, I like to use ``invest,'' because this is about 
investing. The infrastructure that we have built in the past, 
we are living off it today and we are benefiting from that.
    I understand the concerns that Congress has dealing with 
the budget gap and dealing with the deficit but it is not the 
time to cut back. ASCE recommends an appropriation of $2 
billion for the Clean Water SRF and appropriation of $1.5 
billion for the Drinking Water SRF in 2012.
    Now, briefly, a couple of comments on the USGS, and I think 
we heard some really good comments about that by the last 
speaker, but we really feel it is important that USGS collects 
a lot of important scientific data that helps us make some good 
decisions, us as a country, on vital water resources, 
prediction of earthquakes and volcanoes, and looking at other 
biological conditions in that country. That data is critical to 
help us go forward. And we heard earlier about the reductions 
of where they are. We believe that we ought to be maintaining 
the integrity of our scientific data collection so that we can 
improve again the quality of service. ASCE recommends that the 
appropriations of $1.2 billion should be in the fiscal year 
2012 budget for the USGS.
    Mr. Chairman, that concludes my remarks. I will be glad to 
answer any questions.
    [The statement of Patrick Natale follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.093
    
    [GRAPHIC] [TIFF OMITTED] T6982A.094
    
    [GRAPHIC] [TIFF OMITTED] T6982A.095
    
    [GRAPHIC] [TIFF OMITTED] T6982A.096
    
    Mr. Simpson. Thank you, Patrick. I appreciate your 
testimony. As we said earlier, we do not disagree with you. It 
is a matter of the budget deficit is real and we have to deal 
with that, and we have to find a better way to fund this, a 
long-term funding source.
    Mr. Natale. Absolutely. ASCE next week are putting together 
a group of a lot of different parties together. We are bringing 
labor, we are bringing environmental groups in, we are bringing 
the U.S. Chamber, and we are going to be doing a visioning 
session of what is infrastructure looking like in the future, 
and we think this will be really good data for the country to 
take a look at and where do we go from here, how do we get 
there, and your concerns about funding, that is one of the 
issues we need to talk about. There are funding opportunities 
but we need to be thinking out of the box and we need to break 
the barriers. We cannot constantly say no new income. You are 
not going to do it. Let's do it wisely. So we are hoping that 
within the next couple of weeks we will have more data to 
provide to the Congress so you can make some good decisions 
going forward.
    Mr. Simpson. We know that there are problems. It is trying 
to find an acceptable funding source. We have been working on 
some things which include some revenue enhancements, but I will 
tell you, they are not very popular, but some of the things we 
are going to do are not going to be very popular but it has got 
to be done. I appreciate it. Thank you. Jim.
    Mr. Moran. Put me on that bill when you are ready. And 
frankly, this is better testimony than we get from the agency 
for these programs. It brings home the need and the relative 
pittance that we are providing, albeit important. It does not 
seem as though it is an area we should be cutting, but again, I 
appreciate your speaking up. I wish some of the governors would 
speak up as much because it is money out of their pocket when 
we cut these programs. It is a state revolving fund. But 
anyway, this is very good testimony. Thank you.
    Mr. Natale. Thank you.
    Mr. Simpson. Thank you.
    The next witness is Conrad Anker, who manages athlete 
programs for North Face. How are you doing?
    Mr. Anker. Things are well. Greetings.
    Mr. Simpson. You bet. Good to see you.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

             BUREAU OF LAND MANAGEMENT, PUBLIC LANDS, LWCF


                                WITNESS

CONRAD ANKER, MANAGES ATHLETE PROGRAMS FOR NORTH FACE, LWCF COALITION

    Mr. Anker. Mr. Chairman and members, thank you for the 
opportunity to speak on behalf of funding for the Land and 
Water Conservation Fund. I join with the LWCF Coalition, 
business and civil leaders, sportsmen and recreationists, 
conservationists and many others across the Nation in urging 
you to provide vital funding for LWCF in fiscal year 2012.
    America can simply not afford to lose the national 
recreational and other public opportunities LWCF provides or 
the activity it injects in the American economy. This program 
touches every state and every American. It protects our most 
treasured places from our Civil War heritage at Fredericksburg 
and Spotsylvania to the Sawtooth National Recreation Area to 
the California desert, working ranches, state, local parks and 
trails.
    I am a professional mountain climber by trade. From 
multiple ascents to Denali, the highest point in America, to 
Everest, the highest point on our planet, I have experienced 
nature in its raw and unbridled form. I find no greater joy 
than being in a far and remote place preparing for a 
challenging ascent. I have had the good fortune to combine my 
personal passion for the outdoors with my career. For the past 
27 years, I have worked with the North Face, an outdoor apparel 
equipment company based in California with annual sales of $1.4 
billion and over 425 employees. We have a retail store in 
Boise, Idaho. Today I manage the athlete program, which 
encourages and supports outdoor participation. The North Face 
is very aware that the attributes of nature are part of our 
brand DNA. It is important to our industry that we have places 
for our customers to enjoy our products.
    In the past 11 years, the North Face has led Vanity Fair 
Corporation, the parent company, in growth. In these tough 
economic times when families need to cut back, people are 
willing to invest in outdoor recreation. Families understand 
that being outdoors is a wise investment that reaps benefits to 
their health and well-being. In turn, this spending supports 
jobs and drives economic vibrancy in our communities.
    The outdoor industry is one of America's fastest growing 
economic sectors. Without a metric like housing starts for the 
construction industry, its contributions to the health of the 
American economy are not widely recognized. Our industry is 
highly recession resistant, contributing over $730 billion to 
the American economy each year and generating $88 billion in 
annual state and federal tax revenues. Over 6.5 million 
American jobs are supported by the active outdoor recreation 
economy. The outdoor sector is a major part of the U.S. economy 
and America still dominates this globally and provides 
sustained economic growth in communities, rural and urban, 
across America.
    Whether one is climbing Mount Everest, visiting a national 
park, fishing a favorite stream, the personal motivation is the 
same. We go outdoors to challenge ourselves and to come back 
refreshed. Everywhere I go, I meet people who seek the 
connection to the outdoors to sustain and inspire them in their 
daily lives. Outdoor experiences inspire and nourish the human 
spirit. In children, these experiences foster creativity and 
confidence that nurture the entrepreneurial spirit and a 
lifetime of fitness instilled by early access to outdoor has 
incalculable quality of life and public health benefits to 
individuals and our society as a whole.
    Each year, the Land and Water Conservation Fund protects 
the integrity of our public lands. It funds the highest 
priority now-or-never purchases over our national parks, 
forests, refuges, national trails corridors and other public 
lands. It provides critical access to public lands and water 
for recreation, hunting and fishing. It leverages state and 
matching dollars to provide close-to-home recreation through 
statewide LWCF grants for parks, ball fields, trails, Forest 
Legacy grants, working forest and timber jobs while ensuring 
public access to recreation.
    LWCF is the only conservation offset from oil and gas 
drilling in federal waters. With over $6 billion annually in 
offshore royalties, I urge you to honor the longstanding 
Congressional intent to dedicate a small portion of these 
revenues to their intended purpose. Significant cuts to LWCF 
experienced in the fiscal year 2011 budget will affect outdoor 
recreation projects and jobs and communities across the 
country. Please cut in fiscal year 2012 to reverse these cuts.
    America's public lands heritage, be it a corner park or 
Yosemite, is critical to supporting the American spirit of 
innovation, dedication and motivation. In the words of Theodore 
Roosevelt, of all the questions which come before this Nation 
short of the actual preservation of its existence in a great 
war, there is none which compares in importance to the great 
central task of leaving this land even a better land for our 
descendants than it is for us. In these challenging economic 
times, ensuring access to the outdoors is ever more essential 
to maintain our quality of life and supporting our communities. 
LWCF is not only a wise economic investment but one that we 
must make for ourselves and our children. Thank you.
    [The statement of Conrad Anker follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.097
    
    [GRAPHIC] [TIFF OMITTED] T6982A.098
    
    [GRAPHIC] [TIFF OMITTED] T6982A.099
    
    [GRAPHIC] [TIFF OMITTED] T6982A.100
    
    Mr. Simpson. Thank you. Thanks for your testimony. I 
appreciate it very much. Obviously if I did not think that 
outdoor recreation and the Land and Water Conservation Fund 
were very important, I would not live in Idaho. It does have 
some challenges. Some people are concerned that it is buying 
more land in states that are already heavily owned by the 
Federal Government, and that is something we have to get 
around. But I appreciate your testimony.
    Mr. Moran. I do as well, and am dropping a bill today that 
would charge a fee for plastic bags because they have such an 
adverse impact upon the environment, and the revenue would go 
to Land and Water Conservation Fund. I know there are other 
ways of finding revenue for it, but just as we do with water 
infrastructure, I do think we are going to have to find other 
sources of revenue that are directly related because Land and 
Water Conservation Fund is terribly important. We have $900 
million in the fiscal year 2012 budget but in order to get that 
the administration had to squeeze money from other programs 
that are very important as well. But thanks for your testimony.
    Mr. Simpson. And I can tell you that having talked to 
Secretary Salazar, this is one of his top priorities, so we 
will work with him.
    Mr. Anker. Great. Addressing inholdings is a great way of 
making it more efficient. A copy of my book.
    Mr. Simpson. Okay. I appreciate it. Thank you.
    Mr. Moran. Thank you.
    Mr. Simpson. Next we have Jim Blomquist, Chairman of the 
Board of the Wilderness Land Trust.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                BUREAU OF LAND MANAGEMENT, PUBLIC LANDS


                                WITNESS

JIM BLOMQUIST, CHAIRMAN, BOARD OF DIRECTORS, WILDERNESS LAND TRUST

    Mr. Blomquist. Mr. Chairman and Ranking Member Mr. Moran, 
my name is Jim Blomquist. I am a volunteer chair of the 
Wilderness Land Trust. Our president, it is his wife's 60th 
birthday and they had a longstanding commitment to go to Costa 
Rica, so it is hard to stand in the way of such a celebration, 
so I agreed to come here to Washington.
    We are just a small nonprofit. We have two staff and two 
consultants. Our board is bigger than our organization. And 
what we do is focus on buying from willing sellers inholdings 
in designated federal wilderness areas or ones that are 
congressionally proposed that are close to fruition. You know, 
we do not want to get ourselves into buying land in places that 
are years and years away from designation. And I am really here 
to thank you for in the last few years putting in a line item a 
fund to support inholdings acquisition. That item, having money 
in the budget available to agencies for them to decide which 
projects to go forward, but that is vital to our work. What we 
have learned in years of working with local landowners who 
would like to sell their properties that are located within 
wilderness areas, what we have learned is that acquisition 
opportunities really come sort of in a generational basis, you 
know, this was grandfather's land, you know, there is a lot of 
emotional attachment, this is the land that was, you know, in 
Idaho, these are lands that are originally homesteaded, and 
parting with those lands is not an easy decision often and it 
is not something that you can sit back and say oh, this will 
come along in a couple years when we have the money or we have, 
you know, people paying attention to it. And so a group like 
ours, you know, we try to remain close to all the people who 
own such lands and make it clear to them that we are available 
to help if they are interested in selling it and moving it into 
ownership by the United States, and it has really been a great 
benefit.
    A few years ago, there was no such fund. There was no such 
money available. It was all done through specific 
appropriations, and it was much more difficult to do, and we 
really appreciate that. What we have been asking for is a fund 
about $3 million to $5 million for each of the federal land 
management agencies, one that would include all sorts of 
inholdings acquisitions. We just do wilderness. But there are 
probably other reasons and other properties. That is what we 
really focus on.
    But we appreciate your support. We hope that you will 
continue in this effort in the future. It has really made a big 
difference in wilderness. You know, we see this effort as 
really keeping the promise that wilderness is. Inholdings 
sometimes cost agencies additional money because they have to 
deal with the fact that there are other landowners in the area. 
Landowners often become really frustrated because they have 
some view of what they would like to do that is really 
inconsistent with what the agency wants to do and it, you know, 
has the potential to degrade the wilderness experience, and the 
reason we have set aside these wilderness areas is because they 
provide solace and opportunity to get out by yourself.
    I know you are a wilderness user, you know, that you do not 
really get in Washington, D.C. And so when we can free a 
wilderness area from a potential threat of a development or 
land that could be developed, it really delivers that promise 
that wilderness has. You know, we have protected areas that are 
very remote that require a drive on a road miles and miles 
through the wilderness. There was one in California where it is 
a several-mile ride up to a hunting cabin. We just acquired 
that. We hope to be able to turn that over to the United States 
soon. And then we have had some that are, you know, at the 
beginning of the wilderness area, right at the edge of it, 
which would provide public access to the area and provide the 
best access. And so it is a range of areas, range of reasons 
why people sell. You know, we try not to get into the middle of 
the wilderness fight. That is for other people. But we try to 
make sure that the wilderness areas that we have are managed 
the best they can.
    So thank you very much. I really, really appreciate it.
    [The statement of Jim Blomquist follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.101
    
    [GRAPHIC] [TIFF OMITTED] T6982A.102
    
    [GRAPHIC] [TIFF OMITTED] T6982A.103
    
    [GRAPHIC] [TIFF OMITTED] T6982A.104
    
    Mr. Simpson. Thank you. I appreciate the work you do. There 
are some inholdings in a variety of areas that need to be taken 
care of, and the Owyhees that you mentioned is----
    Mr. Blomquist. We own several parcels right now.
    Mr. Simpson. And that was an important part of the deal 
when they made the Owyhee Canyon lands the wilderness area that 
it is, but there are other areas also that are not wilderness 
areas. If you go down the South Fork of the Snake River in 
Idaho, you can imagine what it would like look had we not been 
able to do some land purchases along there and some 
conservation easements and other types of things. There would 
be cabins all down that. And I understand why because I would 
like to have one there. But you would not want to destroy what 
you see when you go down that, so I appreciate you. Thank you.
    Mr. Moran. Thank you.
    Mr. Simpson. Next is Alan Rowsome, Director of Conservation 
Fund for The Wilderness Society.
                              ----------                              

                                            Friday, April 15, 2011.

                    LAND AND WATER CONSERVATION FUND


                                WITNESS

ALAN ROWSOME, DIRECTOR OF CONSERVATION FUNDING, THE WILDERNESS SOCIETY

    Mr. Rowsome. My name is Alan Rowsome. I am Director of 
Conservation Funding for The Wilderness Society, and on behalf 
of our 535,000 members and supporters, I would like to thank 
the chairman, Ranking Member Moran and the rest of the 
subcommittee for their efforts on the Interior/Environment 
budget for fiscal year 2012. I would also like to thank all 
your hardworking and dedicated staff for their efforts over the 
past several months, and we know this has been a trying time. 
Our fiscal situation makes yours a difficult job with very 
difficult choices, and we thank you for all that you do.
    Because these are tough times, it is critically important 
to make the right investments in conservation programs that 
support our national recreation economy and local communities 
all across the country while at the same time protecting our 
land, water and wildlife for future generations.
    One of the programs that best exemplifies these investments 
is the Land and Water Conservation Fund. It is The Wilderness 
Society's highest priority within the Interior budget. LWCF is 
paid for from offshore oil revenues but has been consistently 
underfunded over its 46-year history, this despite the fact 
that LWCF has been hugely successful in every state and every 
Congressional district while garnering significant bipartisan 
support nationwide. LWCF is a critical tool the agencies can 
use to maximize efficiencies and to save critical management 
dollars. Here are two quick examples.
    The acquisition of the Rocky Fork tract in Tennessee's 
Cherokee National Forest has reduced firefighting costs, 
noxious weed treatments, watershed restoration, boundary 
management, reduced risk of trespass and encroachment, and 
lowered costs from road and trailhead closure construction and 
maintenance. All told, these cost savings would likely amount 
to over 500,000 management dollars.
    The block of wetlands ACEC in Colorado is an example of 
cross-agency collaboration between BLM, the Park Service and 
the Fish and Wildlife Service to protect critical habitat for a 
number of threatened species. Acquiring this tract would help 
ensure that these species are kept off the endangered list, 
saving significant agency management dollars as well as keeping 
this area open to recreation and other local economic uses.
    These projects are examples of LWCF success that need 
continued investment to alleviate threats, cut costs and 
protect important lands and waters. We support the President's 
request to fully fund LWCF in 2012 and look forward to working 
with the committee to keep LWCF strong.
    And if I can make my first of probably several gratuitous 
pitches here, my first opportunity to witness LWCF at work was 
in fact on a float down the Upper Snake South Fork with members 
of your staff, members from Senator Crapo's and Senator Risch's 
staff, and what a great example of how this program can work 
and be successful, and there are examples of that all across 
the country.
    The Wilderness Society also urges full funding for the 
Collaborative Forest Landscape Restoration Plan to support 
projects like the Selway Middle Fork in Idaho, which was one of 
the 10 projects selected last year. It is a 1.4-million-acre 
project that was collaboratively developed with the involvement 
of diverse interest groups. Restoration activities include 
commercial logging and community fire protection, road upgrades 
and decommissioning, and culvert replacement and noxious weed 
treatments. This project will bring 400 much-needed jobs to 
Idaho and provide timber to local mills.
    We also support the Administration's fiscal year 2012 
increase of $50 million for the National Landscape Conservation 
System to provide for greater visitor safety and to allow for 
resource management work to be completed in a more timely 
manner at places like Morley Nelson Snake River Birds of Prey 
National Conservation Area in Idaho and Canyons of the Ancients 
National Monument in Colorado, which hosts the highest 
concentration of archaeological sites in the country.
    We were disappointed that the fiscal year 2011 spending 
bill cut funding in behalf for the Forest Service's Legacy Road 
and Trails Remediation program. Cuts like this in the future 
will imperil projects like in Idaho, where tribes, advisory 
committees and land managers are working together to restore 
habitat for economically important cutthroat and steelhead 
trout populations. Work was performed by private contractors, 
creating family wage jobs and decommissioning high-risk roads 
helped limit both environmental damage and long-term 
maintenance.
    Also disappointing in the fiscal year 2011 budget was the 
inclusion of a funding limitation on the BLM's new wildland 
policy. We are very appreciative of the chairman's support of 
wilderness in Idaho and we hope to work with you to ensure this 
provision is not included in the fiscal year 2012 budget.
    Finally, TWS is a strong proponent of transitioning our 
country to a sustainable energy economy by developing our 
energy resources quickly and responsibly. We believe renewable 
energy is an appropriate use of the public lands when sited in 
areas screened for habitat, resource or cultural conflicts. 
This past year, the Department approved nine solar energy 
projects which combined will provide over 7,300 jobs. Cuts to 
the Department's renewable energy program would put projects 
and jobs at risk.
    We know the committee has tough decisions ahead and we 
appreciate all of your work on behalf of the lands, waters and 
wildlife that all Americans enjoy and are part of our shared 
heritage, so thank you for the opportunity to testify and I 
would be happy to take any questions you have.
    [The statement of Alan Rowsome follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.105
    
    [GRAPHIC] [TIFF OMITTED] T6982A.106
    
    [GRAPHIC] [TIFF OMITTED] T6982A.107
    
    [GRAPHIC] [TIFF OMITTED] T6982A.108
    
    Mr. Simpson. Thank you for your testimony. I appreciate it 
very much. Let me just say since you mentioned the Wild Lands 
policy, let me give you about a two-second why the funding 
prohibition was included in H.R. 1. In talking with the 
Secretary, I understand what he is trying to do but I think it 
will make it more difficult to actually resolve some of the 
wilderness debates that are going on across the country, and I 
sat with the Secretary and talked to him about that. I think he 
was pretty well aware that this was coming. There are other 
members, particularly western members, who have some concerns 
about it. My concerns are that we need to get on with resolving 
some of these debates about the wilderness study area and what 
is going to be wilderness and what is not and all that kind of 
stuff which, as you know, I have been working on in Idaho, and 
I think putting that policy in place makes it harder to resolve 
those debates. So I am willing to and want to work with you to 
see if we can figure out a way to do this that makes sense.
    Mr. Rowsome. Yes, I think we would like to do that. I think 
there are a number of ways that we could come together and work 
on it along with the BLM, so I look forward to working with 
you.
    Mr. Simpson. I appreciate it. Thank you.
    Mr. Moran. As you know, we deferred to your judgment 
yesterday on the C.R., but I am sure we will continue to 
revisit the policy with regard to Wild Lands. It is good 
testimony. Thank you.
    Mr. Simpson. We were going to make everything south of the 
Potomac here Wild Lands but they would not go for that.
    Mr. Rowsome. We would support that. That would be great.
    Mr. Simpson. Thank you.
    Next we have Tom Kiernan, President of the National Parks 
Conservation Association. How are you doing? Good to see you.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

              NATIONAL PARKS AND THE NATIONAL PARK SERVICE


                                WITNESS

TOM KIERNAN, PRESIDENT, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Kiernan. Thank you, Mr. Chairman. Great to be here. 
Thank you very much, Mr. Chairman, Ranking Member Moran. It is 
wonderful to be here. Since 1919, NPCA has been the leading 
voice of the American public in protecting our national parks, 
so on behalf of our over 600,000 members and supporters, it is 
great to be here to testify.
    I want to first make a comment about the overarching 
budgetary challenges that obviously you are facing, and I want 
to foremost thank you. Within the budgetary constraints that 
you are dealing with, you have prioritized national parks and 
the National Park Service operating budget as best you can, and 
we want to applaud that. We understand that you get it about 
the importance of the Park Service operating budget, so thank 
you, and frankly, thank you for your work going forward. We 
know you will do the very best you can in protecting the Park 
Service operating budget.
    I also want to acknowledge within the recent budgetary 
challenges the shutdown, how virtually it seemed to us every 
article out there talking about the shutdown referred to the 
impact on national parks and that the parks, the Washington 
Monument, Grand Canyon, et cetera, would be closed. The parks 
are so very special, and where did President Obama go Saturday 
morning to say the government was at work? He was at a national 
park at the Lincoln Memorial, so they are very special. As Ken 
Burns said in his seven-part documentary, they are uniquely 
American, uniquely democratic. They are the soul of America.
    So within that context, we want to talk about the operating 
budget a bit more and then put in a plug for LWCF and the RTCA. 
The operating budget is NPCA's highest priority. You will 
recall well it was four, five or six years ago where the parks 
faced over an $800 million annual funding shortfall. We had a 
period at which National Park Service rangers were endangered 
species in our national parks. We had dirty and broken 
restrooms. We had visitors centers that were closed. We had 
dangerous roads. We had deteriorating historic artifacts. And 
with that backdrop, President Bush proposed the idea of a 
centennial initiative from 2008 through 2016. He proposed $100 
million increase each year to enhance and better protect our 
national parks. So in fiscal year 2008, that was approved by 
Congress. In fiscal year 2009, another $100 million increase. 
In 2010, President Obama continued that proposal, and that as 
well was approved.
    As a result of those increases, we were able to see in a 
number of parks a return of park rangers, if you will. Just as 
one example in Shenandoah, their permanent staff was 
historically around 50. It had dropped to 26. It had been cut 
in half. But with those increases, it started coming back. What 
we want to most have happen is avoid going back to that era 
when we had rangers as endangered rangers and shut visitors 
centers. That is what we want to avoid.
    So going forward, we are looking for $100 million increase. 
We understand that that is very, very unlikely, so most 
importantly, we want to avoid any further cuts that would get 
back to a period at which you see cartoons in newspapers about 
the only time people seeing a park ranger is at the entrance 
gate taking the fee. That is what we want to avoid.
    In addition to the benefit for the visitors and for the 
parks with the operating budget, it also does lead to 
significant economic activity in rural America. Every dollar 
that is invested in the parks yields at least a $4 increase in 
economic activity surrounding the park. There was a recent 
study done that the Idaho Statesman reported on March 14th that 
showed at Yellowstone, over 5,000 private sector sectors 
outside of the park, at Craters of the Moon, over 100 jobs 
outside of the park, Grand Teton, over 6,000 jobs in the 
private sector as a result of Park Service funding and 
activity. So America's parks create American jobs.
    A third reason on the operating budget, the importance of 
it, is just look at the polling of the American public. A 
couple years ago, Harris did a poll asking the American public 
the most admired federal agencies. The National Park Service, 
the number one most admired agency by the American people ahead 
of the armed forces, ahead of Social Security. The American 
people in other polls went on to say even in the tough fiscal 
times that we have right now, a strong bipartisan majority, 73 
percent, believe it is important that the parks are fully 
restored in time for their centennial in 2016.
    So that is our strong support for the operating budget. I 
do want to echo some previous testimonies on the Land and Water 
Conservation Fund. We do support full funding there and would 
just emphasize that funding of the Land and Water Conservation 
Fund does enable purchases from private inholders inside the 
parks, willing sellers. By doing that, you reduce the 
management burden on the national parks. It improves their 
ability to control invasives, to deal with wildfires, to make 
recreational access, and a good example that you know is the 
Grand Teton land exchange that is before you. By making that 
exchange possible, it will reduce the long-term management 
burden on the parks, making it more efficient and more 
effective.
    I do want to put, as I said, that plug in for some of the 
small programs, the Rails to Trails Conservation Assistance 
program, RTCA, small dollar amount, huge impact, so I would you 
would go for an increase there.
    In closing, I would just mention parks have been referred 
to as the 394 branch campuses of the world's greatest 
university. What we want to do is have a situation where that 
world's greatest university has the faculty that it needs. We 
do not want to go back to a scenario where the world's greatest 
university does not have faculty.
    So thank you very much for your great work and how much we 
look forward to continue working with you to protect the parks.
    [The statement of Tom Kiernan follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.109
    
    [GRAPHIC] [TIFF OMITTED] T6982A.110
    
    [GRAPHIC] [TIFF OMITTED] T6982A.111
    
    [GRAPHIC] [TIFF OMITTED] T6982A.112
    
    Mr. Simpson. Thank you. Thank you for the work you do. You 
know I am a supporter of the parks as I think everybody on this 
committee, and we will do what we can. These are challenging 
budget times but we will do what we can to make sure that we do 
not go back to, as you said, a time when the rangers are 
endangered species.
    Mr. Kiernan. Exactly. Thank you very much.
    Mr. Simpson. Thank you. Other questions? Thank you.
    Mr. Kiernan. Thank you very much.
    Mr. Simpson. Tom Cassidy, Director of Federal Land Programs 
for the Nature Conservancy. How are you doing, Tom?
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                    LAND AND WATER CONSERVATION FUND


                                WITNESS

TOM CASSIDY, DIRECTOR OF FEDERAL LAND PROGRAMS, THE NATURE CONSERVANCY

    Mr. Cassidy. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate this opportunity to present The 
Nature Conservancy's recommendations for fiscal year 2012 
appropriations.
    The Nature Conservancy is an international nonprofit 
conservation organization working around the world to protect 
ecologically important lands and waters for nature and people. 
I will highlight today only a few aspects of my written 
testimony.
    Plainly, this an unusual budget year and a very challenging 
fiscal environment. The conservancy recognizes the need for 
fiscal austerity. However, we do not believe that conservation 
programs should suffer from disproportionate and extreme 
reductions. Our budget recommendations this year, and this is 
different, do not exceed the budget request except for a few 
instances in which we recommend fiscal year 2010 funding 
levels. We look forward to working with you, Mr. Chairman and 
members of the committee, as you address the ongoing needs for 
conservation investments that are necessary to sustain our 
Nation's heritage of natural resources and the economic 
vitality of communities across the Nation.
    We are an enthusiastic supporter of the President's request 
to fully fund the Land and Water Conservation Fund and the mix 
of programs it supports. We are especially interested in the 
competitive stateside program and would like to acknowledge the 
version of this program that was proposed last year by Ranking 
Member Moran. We are hopeful that increased funding for LWCF 
can also be the catalyst for the kind of cooperative and 
community-based conservation programs that are called for in 
the President's America Great Outdoors initiative.
    Our priorities this year include continuing phased 
acquisition of projects at Hell's Canyon National Recreation 
Area, the Montana Legacy project and Arizona's Shield Ranch. We 
are also pleased to support the Administration's proposal for 
significant increases, for significant investments in 
conservation easements on the working ranches of the Flint 
Hills Conservation Area in Kansas and also the Rocky Mountain 
Front Conservation Area. Both projects exemplify landscape-
scale conservation through the cost-effective means of 
conservation easements.
    This year's Forest Legacy priorities include Idaho's 
Boundary Connections project and continuing the phased 
acquisition of Kentucky's Big Rivers Corridor and New York's 
Follensby Pond.
    We also support the President's request for the Cooperative 
Endangered Species Conservation Fund. The conservancy and its 
partners have used this program to secure key habitat for 
numerous threatened endangered and at-risk species and thus 
help avoid conflicts over ESA issues. This program has been 
used to provide permanent habitat protection through 
conservation easements on high-priority private lands such as 
in northern Idaho's Kootenai Valley.
    Fish, wildlife and their habitats are and will continue to 
be profoundly impacted by climate change regardless of our 
success in reducing greenhouse gas emissions. If we are to get 
ahead of such change to avoid disastrous losses in critical 
habitat and the species that depend on that habitat, we must 
develop the place-based science to make informed cost-effective 
management investments. We welcome the President's and this 
committee's commitment to both the USGS Climate Science Centers 
and the Landscape Conservation Cooperatives.
    Now, there is one program for which we seek funding that is 
not in the President's budget, and that is the National 
Wildlife Refuge Fund, and we agree with you, Mr. Chairman, that 
the Administration's proposal to eliminate the discretionary 
funding of that program should be reversed, and we would 
recommend funding at the fiscal year 2010 enacted level.
    Now, EPA's programs make important contributions to the 
Nation's conservation agenda. National estuary, wetland and 
watershed programs protect vital resources essential to 
community health and economic prosperity. The agency's targeted 
geographic programs support scientific research, planning and 
cost-effective actions to improve water quality and restore 
aquatic ecosystems. We support the request for the water 
ecosystem and geographic programs including the Great Lakes, 
Chesapeake Bay and also Puget Sound.
    So thank you for the opportunity to present our 
recommendations, and I would be delighted to answer any 
questions you may have.
    [The statement of Tom Cassidy follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.113
    
    [GRAPHIC] [TIFF OMITTED] T6982A.114
    
    [GRAPHIC] [TIFF OMITTED] T6982A.115
    
    [GRAPHIC] [TIFF OMITTED] T6982A.116
    
    Mr. Simpson. Thanks, Tom. I appreciate you being here 
today. We look forward to working with you as we put together 
the 2012 budget once we know what our numbers are going to be. 
I suspect they are not going to be pretty, but we look forward 
to working with you to make sure we address the high priorities 
within these agencies.
    Mr. Cassidy. Thank you, Mr. Chairman.
    Mr. Moran. Thank you, and thanks for all you do, Tom, on 
behalf of the Nature Conservancy. It is a great organization 
with great people.
    Mr. Cassidy. Thank you, Congressman.
    Mr. Simpson. Next we have John Turner, past President and 
CEO and former Director of the Conservation Fund. How are you 
doing today?
    Mr. Turner. Good morning.
    Mr. Simpson. Good morning.
                              ----------                              

                                            Friday, April 15, 2011.

                         THE CONSERVATION FUND


                                WITNESS

JOHN TURNER, PAST PRESIDENT AND CEO, FORMER DIRECTOR, THE CONSERVATION 
    FUND, FWS

    Mr. Turner. Mr. Chairman and Congressman Moran, a long-time 
friend, Congresswoman Lummis, I certainly appreciate the 
opportunity to appear before you this morning with other 
colleagues from the land conservation community.
    I am honored to represent The Conservation Fund, a national 
advocacy nonprofit that has rather a unique mission statement, 
conservation and economic development, but with federal, state 
and local landowner partners we have protected some 7 million 
acres across this great country of ours in the last 35 years.
    As a native Westerner, my testimony attempts to draw 
attention to what are some very special projects in eastern 
Idaho, Montana, Wyoming with some in Texas and the Southwest, 
and I might interject, Mr. Chairman, you asked about the 
concern in the West about the expansion of federal lands. I 
think one excellent tool, it is my hope that this Congress 
could reauthorize the Federal Land Transaction Facilitation 
Act, which allows the federal agencies to take fragmented 
pieces of land and sell those, use those receipts to buy 
priority conservation lands.
    I would mention some other projects but as addicted fly 
fisherman and old river guide, I would like to draw attention 
this morning to three ongoing projects that are helping to 
protect three of the finest riparian river corridors and wild 
trout fishery found anywhere on the globe, and you mentioned 
one, Mr. Chairman, the Henry and South Fork of the Snake where 
a decade of work has protected some 14 miles of that great 
stretch. Second would be the North Platte River near Casper, 
Wyoming, which has more big wild trout per mile than anyplace 
in the country. And the third would be the Upper Snake River 
and associated lands in Grand Teton National Park. These are 
ongoing efforts where years of work have been done and we have 
willing landowners and great opportunity.
    I do want to take this opportunity to personally invite 
you, Mr. Chairman, or any members of the committee to come out 
and visit that landscape, perhaps get in a drift boat and float 
these wonderful river stretches.
    Mr. Simpson. I want to go see that one that has more trout 
per mile than any other stream. Are they smart trout?
    Mr. Turner. They are smart trout.
    Mr. Simpson. Uh-oh.
    Mr. Turner. It is certainly one of the great fisheries is 
the South Fork of the Snake that I am pleased to enjoy.
    Mr. Moran. Until Chairman Simpson gets there, and then they 
don't have the most trout.
    Mr. Simpson. It is a humbling experience to go out and try 
to outsmart a fish and lose.
    Mr. Turner. Well, thank you for sharing that resource with 
those of us in Wyoming as we are happy to share the Tetons with 
you and your constituents.
    Mr. Chairman, I do want to take this morning's opportunity 
to comment on what I think you appropriately drew attention to, 
the severe fiscal crisis facing this country and the daunting 
challenge this committee has in funding our federal need. It is 
my hope that we can as a Nation sustain the country's great 
land conservation legacy. But personally, I do not see how we 
can afford to sustain this great tradition without seriously 
addressing what Chairman Ryan calls the main drivers of our 
deficit challenge and these drivers, I agree, are the major 
entitlement programs of the country. As one of the few who 
might appear before you here on the panel that has finally 
aspired to the chronological category of senior citizen and one 
that believes himself to be a fiscal conservative and 
conservationist, I strongly support the long-term efforts to 
make major revisions to Social Security and Medicare and 
Medicaid. I simply think we must do this if we believe we can 
continue to invest adequately on behalf of today's and 
tomorrow's children in conserving watersheds, wildlife habitat, 
parklands, forests, outdoor recreation and working landscapes, 
farms and ranches and open space.
    As we are all aware and has been mentioned, many of these 
programs represent dedicated funding sources and embrace the 
economically sound strategy of taking revenues from our non-
renewable, depletable equity base and reinvesting these 
receipts into renewable equities such as parklands, watersheds, 
wildlife resources, forests, recreation areas and working 
landscapes. These renewable equities then provide economic and 
job benefits for decades and hopefully centuries to come.
    In summary, Mr. Chairman, I would hope we could all agree 
that conserving natural landscapes and wild resources for their 
own intrinsic value and making these available to all our 
citizenry was uniquely an American idea. This wonderful legacy 
defines us truly as Americans. It has been one of our great 
gifts to the global community. With your help, it is my hope 
that we can continue this unsurpassed legacy for future 
generations. Thank you.
    [The statement of John Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.117
    
    [GRAPHIC] [TIFF OMITTED] T6982A.118
    
    [GRAPHIC] [TIFF OMITTED] T6982A.119
    
    [GRAPHIC] [TIFF OMITTED] T6982A.120
    
    Mr. Simpson. Thank you, and I will see you out on one of 
those streams.
    Mr. Turner. I look forward to joining you out on the river.
    Mr. Simpson. We will do it. Thank you.
    We next have Jeff Trandahl, the Executive Director of the 
National Fish and Wildlife Foundation. Welcome back.
                              ----------                              

                                            Friday, April 15, 2011.

                   NATIONAL FISH AND WILDLIFE SERVICE


                                WITNESS

JEFF TRANDAHL, EXECUTIVE DIRECTOR, NATIONAL FISH AND WILDLIFE 
    FOUNDATION

    Mr. Trandahl. Thank you. It is always good to see you, and 
it is wonderful actually following a gentleman from Wyoming, 
being a boy from South Dakota, and welcome to the subcommittee.
    I just want to start off and say I know it has been a very 
bumpy ride the last couple of months for everybody here on the 
subcommittee and the staff, and we appreciate and we want to 
thank you guys because despite all the challenges out there, 
the best that could be done has definitely been done and, you 
know, there is a tough road ahead and we are all here in 
partnership to work with everybody to try to make it all come 
together.
    As most of you are very familiar, we are a foundation that 
was actually created by you, Congress, back in 1984 at a very 
similar financial time where the government was losing 
resources and the concept was to set up a foundation that could 
go out and privately leverage up alongside those federal 
resources in order to accomplish a lot of goals all of us wish 
to see done.
    I am mainly here to basically reaffirm three items in the 
President's budget that has come before you. One is $8.5 
million in the Fish and Wildlife Service budget, $3 million in 
the Bureau of Land Management budget and $3 million in the 
Forest Service budget which would come to the foundation. By 
law, we are required to leverage that money at least one to 
one. As most of you know, we managed last year about $40 
million in federal money. We leveraged it up to about $180 
million. So we are actually achieving at more than a three to 
one. A lot of you are also familiar in terms of what we did 
down in the Gulf, all with 100 percent private dollars, nearly 
$25 million that we were able to put in during the response 
itself in order to prevent wildlife losses down there, which 
was great.
    The other thing I would say to the subcommittee is, I am 
always the optimist, and the foundation, as you know, has been 
growing the last five years. We have been growing roughly about 
20 percent a year. And as the economy is coming back, even 
though the economy went down there, we continue to grow and we 
continue to see incredible, incredible private philanthropic 
dollars that are out there, and that seed money that you 
provide us, we feel very confident not only can we continue to 
build and move this thing forward but just even a few months 
ago I actually achieved the largest individual private 
contribution we have ever gotten into the foundation, and that 
was a $20 million gift from a private individual, and that is 
going to focus on a conservation need that a lot of us do not 
know much about which is seabirds, but they are one of the most 
imperiled species on earth and we have seen about a 90 percent 
decline in the Pacific over the last decade, and if we do not 
address the issue now, which the Fish and Wildlife Service and 
NOAA clearly do not have the resources to do, it will become an 
enormous issue economically so that one gift we will be able to 
leverage into $25 million to $30 million from the foundation 
and hopefully we will do what we have been able to do in the 
past, which is to take a large environmental issue like that, 
check the box, get the recovery under way and everybody move 
forward without anything having to be disrupted.
    With that, I will turn it over to you to drill me with 
questions.
    [The statement of Jeff Trandahl follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.121
    
    [GRAPHIC] [TIFF OMITTED] T6982A.122
    
    [GRAPHIC] [TIFF OMITTED] T6982A.123
    
    Mr. Simpson. Thank you, and I know that the foundation does 
a great job in leveraging money and getting private sources, 
and of course, we need a lot more of that, frankly, in a lot of 
different areas if we are going to fund a lot of these programs 
because, as you mentioned, the budget situation in this country 
is not pretty and is not anticipated to be pretty for a while. 
I appreciate it, Jeff. Thank you very much.
    Mr. Trandahl. And I should mention one last little thing, 
which is our reauthorization is up in the other committee. I am 
working very hard to get the committee to get it done, and we 
were trying to get it done in the last Congress and obviously 
we were not able to get it accomplished, so I am with the staff 
again next week and hopefully we get it on the calendar and we 
do not see an issue in terms of the reauthorization.
    Mr. Simpson. Good. Thank you.
    Mr. Trandahl. Thank you, gentlemen.
    Mr. Simpson. Next we have Gary Werner, the Executive 
Director of the Partnership for the National Trails System. How 
are you doing this morning, Gary?
    Mr. Werner. Fine.
    Mr. Simpson. Good.
    Mr. Werner. Good to see you again.
    Mr. Simpson. Good to see you.
                              ----------                              

                                            Friday, April 15, 2011.

                   PUBLIC LANDS, BLM, NATIONAL PARKS


                                WITNESS

GARY WERNER, EXECUTIVE DIRECTOR, PARTNERSHIP FOR THE NATIONAL TRAILS 
    SYSTEM

    Mr. Werner. And I thank you, Mr. Chairman and Congressman 
Moran, Congresswoman Lummis for the opportunity to testify. 
Just as a reminder, I have for you--as you know, I represent 35 
organizations that are your partners in the grand experiment of 
the National Trails System, and I am here to thank you, first 
off, for the strong support you have provided financially to 
the Park Service, the Forest Service and the Bureau of Land 
Management for helping to manage and administer those trails 
over the last dozen years or more but also the equally 
important guidance that you have provided at a number of 
junctures to the agencies about how they could be better 
partners.
    As you know, the National Trails System is a rather unique 
public-private venture that Congress has authorized. Over the 
last 40 years, you have authorized 30 National Scenic and 
Historic Trails that span more than 50,000 miles through 49 
states, and we represent your private partners in that venture. 
I am happy to say that in 2010, our organizations organized, 
motivated and guided citizen volunteers to contribute 1.1 
million hours of volunteer labor valued at over $24 million. 
Our organizations contributed another greater than $12 million, 
a total of almost $37 million of our effort for these trails. 
Congress was able to appropriate about $29 million to the three 
agencies for their part. So we are truly here as your partners 
with a hand out saying we are here to help.
    The other thing that you know is that unfortunately this 
wonderful system is mostly incomplete and so we need critical 
assistance, financial assistance in several areas. One is the 
operations funding for the Park Service, the Forest Service, 
the Bureau of Land Management. In our testimony, we are asking 
for a modest increase for each of those agencies.
    One of the ways that we do much of our work, and we were 
very happy to see that the Administration decided once again 
that the value of the Challenge Cost Share programs for the 
National Park Service, the Bureau of Land Management and the 
Fish and Wildlife Service is really tremendous. We over the 
years have worked mostly Park Service Challenge Cost Share and 
the leverage is supposed to be one to one. I think our average 
has been about three to one. We have oftentimes had projects 10 
to one. It is money that, as others have said, provides seed 
money, gets a lot of projects done in local communities but it 
also provides an opportunity for the communities to come out 
and get involved and make their contributions. So what we are 
suggesting is a modest increase in the amount of money beyond 
what the President is asking for, of up to $4.5 million for 
Challenge Cost Share with $1.5 million of that coming for the 
National Trails System. In the past you have guided money that 
way toward the trails.
    Secondly, of equal importance, as a number of people have 
mentioned already, is the Land and Water Conservation Fund to 
complete critical gaps in the trails. We fully support the 
effort to try to fully fund it this year as the Administration 
is proposing. What we are specifically asking for is a total of 
about $50 million spread across the Forest Service, the Park 
Service and the Bureau of Land Management that would among 
other things help protect places like City of Rocks Reserve in 
Idaho and a key section of the Nez Perce Trail in Hell's 
Canyon, a section along the Platte River near Casper for the 
Oregon-California Pony Express Mormon Pioneer Trail plus others 
in other states. We do not have any in Virginia because the AT 
is complete through much of Virginia. But it is critical that 
you continue to support those investments and help us complete 
the trails.
    The other two things I would like to ask you about are 
things that do not necessarily require expending more money but 
they do require providing guidance to the agencies. The Bureau 
of Land Management budget, as you know, is divided up into sub-
activity accounts. They have no sub-activity account for 
trails, and so to fund their efforts for the National Scenic 
Trails--and they have more miles of historic trails on the 
public land than any of the other agencies--they have to take 
from 18 to 20 different sub-activity accounts and it is an 
accounting nightmare for them, it is an accounting nightmare 
for us to try to match money and, you know, make things work, 
make plans to leverage. So we would ask you to, as I think you 
did last year, direct the Administration to come up with a sub-
activity account for the National Trails System and for the 
Wild and Scenic River System.
    The last item I want to mention is one that came up very 
strongly in the last few weeks with the budget issues in fiscal 
year 2011, and that is the travel ceilings for the agencies. 
These long-distance trails spanning thousands of miles based 
upon relationships with many units of government and nonprofit 
partners require the ability to come and sit down as we are 
doing now face to face and talk to establish the kind of trust 
and ongoing partnerships. If the federal folks involved with 
the trails cannot travel, they quite simply cannot do the work 
that they need to do, and I am hoping that you might provide 
some guidance to the agencies that maybe the trails are 
different than parks that are all in one place and maybe it 
makes sense not to restrict travel from a park, but if you have 
got to trail along thousands of miles of trails, maybe you 
should not be held to the same standard, if you will.
    In closing, I want to thank you all again and I do have 
some additional--this is a report on some of the Challenge Cost 
Share programs. This is a report we have done the last several 
years on youth activities that we are doing in the trails 
systems. And finally, this is our latest national newsletter, 
which gives you a kind of short capsule of things that are 
happening along the trails across the United States.
    We are very proud that we are your private sector partners 
in a public-private venture for public benefit, and we thank 
you again for the longstanding support the committee has given.
    [The statement of Mr. Werner follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.124
    
    [GRAPHIC] [TIFF OMITTED] T6982A.125
    
    [GRAPHIC] [TIFF OMITTED] T6982A.126
    
    [GRAPHIC] [TIFF OMITTED] T6982A.127
    
    Mr. Simpson. Thank you. Thanks for your testimony.
    Next we have John Calvelli, Executive Vice President of 
Public Affairs at the Wildlife Conservation Society.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

JOHN CALVELLI, EXECUTIVE VICE PRESIDENT OF PUBLIC AFFAIRS, WILDLIFE 
    CONSERVATION SOCIETY

    Mr. Calvelli. Thank you, Mr. Chairman, Ranking Member, 
Members of Congress. Thank you so much for giving me the 
opportunity to testify today. My name is John Calvelli. I am 
the Executive Vice President of Public Affairs at the Wildlife 
Conservation Society. WCS is one of those venerable 
institutions founded in 1895 with the help of Teddy Roosevelt 
as a science-based conservation organization with the mission 
of saving wildlife and wild places around the globe. Today WCS 
manages the largest network of urban wildlife parks in the 
United States led by our flagship, the Bronx Zoo. Our fieldwork 
now helps save 25 percent of the earth's biodiversity in over 
60 countries around the world.
    I do want to make a brief note that if you are looking for 
dumb trout, we run the largest private protected area in Tierra 
del Fuego in Chile, and I, who am a terrible fisher, did catch 
something relatively large, so Mr. Chairman----
    Mr. Simpson. It is a long ways to go.
    Mr. Calvelli. It is a long ways to go but they are really 
dumb, sir.
    We believe this work is necessary to protect the planet's 
natural capital that is the foundation of future prosperity. 
Today I would like to describe the critical role that domestic 
and international conservation play in increasing our Nation's 
economic and national security while reaffirming our global 
position as a conservation leader.
    WCS has been an active partner in supporting America's 
conservation tradition with our grant program funded by the 
Doris Duke Foundation, which is helping to leverage funds from 
the Fish and Wildlife Service's state wildlife grant. We have 
helped through the Doris Duke Foundation to give about $14 
million to more than 46 states including Idaho--another blatant 
comment--on behalf of Idaho for wildlife corridor protection. 
WCS recommends maintaining fiscal year 2010 funding of $95 
million in fiscal year 2012 for state wildlife grants. The 
Interior Department estimates that nature-based activities 
supported by federal programs like state wildlife grants could 
generate $14.1 billion in fiscal year 2012 for American 
communities.
    We believe that public land management should be science 
based with an emphasis on landscape-level conservation. WCS 
supports the Administration's request of $31 million for the 
USGS Climate Science Centers, which will bring scientists and 
stakeholders together to develop landscape-level management 
strategies. These strategies are important in balancing energy 
development and wildlife conservation in places like Alaska's 
National Petroleum Reserve. I do want to state up front that we 
were founded by members of the business community. We 
understand the importance of business. We also understand that 
the National Petroleum Reserve was created those many years ago 
to find petroleum but through fate and through nature, that 
area is also very important for migratory birds, and what we 
are looking for is some type of focus on specific areas so that 
we can create protected areas so that we can support subsidence 
hunting in the local areas, preserve important bird and mammal 
habitats while promoting energy development and respecting 
first nation practices.
    Conservation can bring nations together for a common cause, 
building diplomatic relationships and preventing conflict. The 
2010 International Tiger Summit in Russia was the first ever 
heads of state summit dedicated to a single species that 
signaled a strong commitment from the international community. 
Just a note, there are actually more tigers in Texas than there 
are in the wild at this point. The Fish and Wildlife Service's 
Multinational Species Conservation Fund exemplifies this 
commitment with its Rhino-Tiger Fund, which has helped WCS 
develop a regionally targeted strategy to give tiger 
populations a chance to recover. We recommend restoring fiscal 
year 2010 funding levels for the Multinational Species 
Conservation Fund with an additional $1 million for tigers 
totaling $12.5 million. This program enjoys broad American 
constituent support with more than 50 million members of the 
coalition and over $25 million generated in private investments 
in fiscal year 2009 alone. So as you can see, these programs 
have great support, but more than that, they also leverage 
significant federal funds.
    Broader ecosystem protection is critical to the 
preservation of species. WCS recommends funding the Wildlife 
Without Borders program at $7.4 million of which $1 million is 
for the Critically Endangered Species Fund would ensure the 
conservation of scores of endangered birds and animals.
    The Forest Service International Program provides technical 
support in forest management in the world's most unstable 
regions. It also represents the U.S. forest products industry 
in international trade agreements and combats illegal logging, 
which costs American businesses $1 billion annually. WCS 
requests a restoration of this line item in fiscal year 2012 
with funding maintained at the fiscal year 2010 level of $9.8 
million.
    I conclude with a conservation success story thanks to 
America's investment in global, economic and environmental 
sustainability. Having endured decades of Khmer rule and 
significant human loss, Cambodia is moving towards stability. 
In 2009, WCS helped Cambodia transform a former logging 
concession into protection forest safeguarding threatened 
animals and benefiting local hunters and farmers who have 
retained access to the forest to balance conservation with 
sustainable development. We focus on law enforcement, community 
engagement and long-term monitoring and research while the 
Cambodian government targets major crimes. The Fish and 
Wildlife Service's initial investment has leveraged significant 
funding from other sources, making this project possible. 
Biodiversity conservation in places like Cambodia and also in 
places like South Sudan are integral to finding long-term 
solutions to reduce dependence on foreign aid and empowering 
its citizens to benefit from ecosystem services.
    Thank you for the opportunity to testify, and 
unfortunately, although I came here from New York, the capital 
of marketing, I have no materials. I saw all of our friends 
providing materials to you. But we are at your disposal to 
answer any questions, and please feel free to come for a tour 
of the Bronx Zoo when you are in New York next.
    [The statement of John Calvelli follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.128
    
    [GRAPHIC] [TIFF OMITTED] T6982A.129
    
    [GRAPHIC] [TIFF OMITTED] T6982A.130
    
    [GRAPHIC] [TIFF OMITTED] T6982A.131
    
    Mr. Simpson. Thank you. Questions, comments?
    Mr. Moran. No. Very good testimony. Excellent. Thank you.
    Mr. Simpson. We appreciate it. Thank you.
    Mr. Moran. And a great program.
    Mr. Simpson. Next, we have Desiree Sorenson-Groves, Vice 
President for Government Affairs, National Wildlife Refuge 
Association. Hi, how are you doing?
    Ms. Sorenson-Groves. I am good. How are you?
    Mr. Simpson. Excellent.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

DESIREE SORENSON-GROVES, VICE PRESIDENT, GOVERNMENT AFFAIRS, NATIONAL 
    WILDLIFE REFUGE ASSOCIATION

    Ms. Sorenson-Groves. So I am Desiree. I am with the 
National Wildlife Refuge Association and I am speaking on 
behalf of myself and also over 190 refuge friends organizations 
including Friends of Southeast Idaho Refuges, Friends of 
Potomac Refuges and numerous ones all over the country. We are 
working on Wyoming. And we also serve as the chair of the 
Cooperative Alliance for Refuge Enhancement. It is called CARE, 
a very diverse group of conservation and hunting organizations 
from Audubon to Ducks Unlimited to the NRA to Defenders of 
Wildlife, and as you can imagine, we do not agree on much.
    But the one thing we do agree on is refuge funding, and in 
fact, Chairman Simpson, you might remember a couple years ago 
we came in to visit you, and as we were walking past the wolf 
in the back of your office, you asked the folks from Defenders 
and the Safari Club how does that work, and you might remember 
the gentleman from the Safari Club looked at you and said, you 
know, sir, we do not agree on much but the one thing we do 
agree on is refuge funding, we see eye to eye. And that pretty 
much sums up the refuge system. It is unlikely you will find a 
more diverse constituency for probably any federal program. I 
mean, that is just the way it is.
    We thank you for the past increases leading up to fiscal 
year 2010, which is $503 million, which enabled the refuge 
system to emerge from dark days of refuge closing. And I have 
got to tell you, you know, Tom's comment about Park Service 
endangered species, Park Service employees, well, at the refuge 
system, they were extinct. So it was pretty bad, pretty dark 
days. And now fiscal year 2010 is the highest point in refuge 
funding but that is still 45 percent less than what the refuge 
system truly needs. The true need for the refuge system is 
actually $900 million annually. So they are still operating 
under, you know, incredible challenges.
    So we do not know what the fiscal year 2011 number is yet. 
They are still working that out. But any cut however small has 
a serious impact on refuges, especially when you are talking 
about an agency that has no fat to cut. The truth is, actually 
refuges need a small increase every year just to maintain what 
they are doing. That used to be $15 million annually. Now with 
the budget freeze, that has gone to $8 million, and that is our 
request, is an $8 million increase for fiscal year 2012.
    Now, we understand that that is pretty tough given these 
kind of times but that is not even the true need. If you look 
at the management capability needs from fiscal year 2010, it 
would be $15 million for fiscal year 2011 and then another $8 
million for fiscal year 2012. So for the first time in our 
history as the CARE coalition, we are, in our minds, asking for 
a cut, and we have never done that before. That was some 
serious arguments around the table, let me tell you.
    So we know that fiscal year 2012 is going to be tough but 
we wanted to give you kind of a sense of what would happen on 
the ground, especially if you went back to fiscal year 2008 
numbers. I know that is something that you guys are thinking 
about. Well, that is about a 20 percent in funding for the 
refuge system. Hundreds of staff would be eliminated. Fifty-
four visitors centers would close, 11 would not open. Hunting 
on 48 refuges, fishing on 45 would be eliminated, and the 
system's inventory and monitoring program we just started would 
be curtailed. And that is particularly troublesome, considering 
when the oil spill was coming a year ago, none of the refuges--
well, none of the refuges nationwide have a comprehensive 
inventory. They do not know what they have. I mean, this is 
kind of mind-boggling because it is because of funding costs, 
they just do not have the ability to figure out what they have. 
So it is hard for them to know what they should manage more. To 
this date, the only refuges in the entire system, 553 refuges, 
that actually have a comprehensive inventory are the ones that 
were in the path of the oil. That is it. And if we had not had 
that, then when we talk about, you know, getting compensation 
from BP, there is no way that they could prove it.
    But the truth is, when it comes to that, the people who are 
most impacted are the users of the refuge system. Friends and 
volunteers provide 20 percent of all the work done on national 
wildlife refuges. That is the equivalent of 648 full-time 
staff, and that is from, you know, Fish and Wildlife Service is 
only--refuge system is only about 3,500 staff, so it is an 
enormous impact on the grounds. And those are some of the 
programs that will get curtailed. They are the first things to 
go.
    The other people on the ground, I wanted to bring a couple 
pictures. This is from Mayor Dennis Fife. He is from Brigham 
City, Utah, and I think this photo kind of sums it up. This is 
the archway and it says welcome to Brigham, gateway to the 
world's greatest wild bird refuge. They love their refuge. And 
in his words, you know, business owners in his city depend on 
the refuge because people use their stores, their restaurants 
and everything there. Doug Wood, he is a professor at--this is 
not Doug Wood, by the way. He is a professor at Southeastern 
Oklahoma State University. He uses the Tishomingo National 
Wildlife Refuge to teach his students how to do research, his 
biology students, and so right here they are birding 
prothonotary warblers, which at this refuge are on the very 
edge of their range. If he was not doing this, the refuge staff 
would not be getting information about these species, and you 
know, the folks would not be learning. And then last I have Tim 
Reynolds. He is from Rigby, Idaho, a hunter and a bird watcher, 
interestingly enough, and he is really concerned about budget 
cuts because at the Camas Refuge, which is where he goes, it 
costs between $60,000 and $90,000 annually to manage the 
wetlands for waterfowl, and with budget cuts, the refuge system 
is already thinking about managing only for upland habitat, not 
for wetlands, so the hunting is going to go. The birds will go. 
So it's just one of those impacts.
    Refuges are economic engines in these local communities. 
They provide $4 in economic return for every $1 that you guys 
appropriate, which is pretty significant, and they are a cheap 
date. They only cost $3.36 per acre to manage, which is the 
least amount of any public land management agency.
    So I thank you for considering our request, and I hope all 
of you go to a national wildlife refuge over your recess.
    [The statement of Desiree Sorenson-Groves follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.132
    
    [GRAPHIC] [TIFF OMITTED] T6982A.133
    
    [GRAPHIC] [TIFF OMITTED] T6982A.134
    
    [GRAPHIC] [TIFF OMITTED] T6982A.135
    
    [GRAPHIC] [TIFF OMITTED] T6982A.136
    
    Mr. Simpson. Thank you. We appreciate your testimony. 
Thanks for being here today.
    Mr. Moran. You got it all in. Nice job.
    Mr. Simpson. We have got a series of three votes.
    Mr. Lewis. Mr. Chairman, if you will, I am going to be 
running all over the place as you are, but later in testimony 
Mr. Moran and you will be hearing Doug Headrick from my 
district in southern California. He specifically will be 
talking about the Santa Ana sucker that you heard me chat with 
the Secretary about the other day.
    Mr. Simpson. Yes, you mentioned that sucker.
    Mr. Lewis. The one thing that we want to make certain is we 
do not go down the pathway of the pattern we experienced with 
the Delta smelt, and all that we can do to respond to Doug's 
request, I would appreciate. Thank you.
    Mr. Simpson. Thank you.
    Mr. Moran. I would love to hear from The Wildlife Society 
and the Defenders of Wildlife, but I do not know, how much time 
do we have?
    Mr. Simpson. We have got three votes. We have five minutes 
left in this one.
    Mr. Moran. Of course, that was about two minutes ago.
    Mr. Simpson. Yes, and then two 5-minute votes, and as soon 
as that 5-minute vote is over, we are probably talking about 
quarter til, being back here.
    Mr. Moran. I am not going to be able to be back.
    Mr. Simpson. I will be.
    Mr. Moran. Then okay.
    Mr. Simpson. We have five more people to testify, so if you 
will be patient with us for the next 25 minutes, 20 minutes 
while we go over and cast our votes for truth, justice and the 
American way of life.
    [Recess.]
    Mr. Simpson. Next we have Laura Bies, the Director of 
Government Affairs for The Wildlife Society. How are you doing 
today?
    Ms. Bies. Doing well. How are you guys?
    Mr. Simpson. Good.
                              ----------                              --
--------

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

LAURA BIES, DIRECTOR OF GOVERNMENT AFFAIRS, THE WILDLIFE SOCIETY

    Ms. Bies. Thank you for the opportunity to testify. My name 
is Laura Bies. I am the Director of Government Affairs with The 
Wildlife Society. We represent over 10,000 professional 
wildlife biologists and managers who are all dedicated to 
excellence in wildlife stewardship through science and 
education, and I talk about some of our priorities today and 
then obviously you can refer to my written testimony for more 
detail.
    While we fully understand the limits of the current fiscal 
situation, we feel Congress also has a responsibility to ensure 
that the investments of previous generations in wildlife 
management and conservation are not squandered. Our land and 
natural resource management agencies have built a strong 
foundation of responsible science-based wildlife management and 
conservation over the past century and they need the resources 
to continue this important work, especially in the face of 
threats such as invasive species, urban sprawl and increasing 
development, and climate change.
    Within the U.S. Fish and Wildlife Service, one of these 
programs is the State and Tribal Wildlife Grants program. It is 
the only federal program that supports states in preventing 
wildlife from becoming endangered and it is also the primary 
program supporting the implementation of comprehensive wildlife 
conservation strategies or state wildlife action plans. These 
detailed conservation actions are needed on the ground in every 
state to keep common species common. We recommend that Congress 
appropriate $95 million for State and Tribal Wildlife grants.
    The National Wildlife Refuge System provides an invaluable 
network of lands for wildlife conservation in addition to 
unmatched opportunities for outdoor recreation. Many years of 
stagnant budgets have increased the operations and maintenance 
backlog of the system. Refuge visitors often show up to find 
visitors centers closed, hiking trails in disrepair and habitat 
restoration programs eliminated. As a member of CARE, the 
Cooperative Alliance for Refuge Enhancement, which Desiree 
spoke about, we recommend that Congress provide $511 million 
for operation maintenance of the National Wildlife Refuge 
System.
    Our Bureau of Land Management lands support over 3,000 
species of wildlife, more than 300 federally proposed or listed 
species, and more than 1,300 sensitive plant species. However, 
the BLM currently only has about one biologist per 591,000 
acres of land and the costs they face for endangered and 
threatened species recovery continue to rise.
    In addition, the wildlife and the threatened and endangered 
species management programs have been forced to pay for the 
compliance activities of BLM's energy, grazing and other non-
wildlife-related program which erodes their ability to conduct 
proactive conservation activities on those lands. Given the 
underfunding of the BLM's wildlife programs combined with the 
tremendous expansion of energy development across the BLM 
landscape that we have seen in recent decades, we recommend 
funding of $40 million for BLM's wildlife management program.
    The Wildlife Society appreciates BLM's commitment to 
addressing the problems identified with wild horse and burro 
management on their lands. The President has requested an 
increase of $12 million for this program to implement a new 
strategy for management and also act on recommendations 
provided by the Inspector General. We are concerned, however, 
about the BLM's emphasis on fertility control and their 
proposal to reduce the number of horses removed from the range. 
Horses are already above the appropriate management levels as 
set by BLM in most of these areas so we feel the proposal to 
reduce the number of horses removed from the range is ill-
conceived. The request of $75.7 million should be provided to 
BLM if they continue to remove these excess horses from the 
range and also focus additional resources on habitat 
restoration.
    Within the U.S. Geological Survey, the cooperative fish and 
wildlife research units play a key role in conducting research 
on renewable natural resource questions, expanding into 
education of graduate students, providing technical assistance 
on natural resource issues, and providing continued education 
for natural resource professionals like our members. In 2001, 
Congress fully funded these units which allowed productivity to 
rise to record levels. Since then, however, budgetary 
shortfalls have caused an erosion of available funds. This has 
resulted in a current staffing vacancy of nearly one-quarter of 
the professional workforce within those units. To fill these 
current vacancies, restore the seriously eroded operational 
funds and to enhance national program coordination, $22 million 
should be appropriated for the cooperative fish and wildlife 
research units.
    We appreciate the fiscal year 2010 funding of $15.1 million 
for the National Climate change and Wildlife Science Center. 
The center is going to play a really pivotal role in addressing 
the impacts of climate change on fish and wildlife by providing 
essential scientific support, and we recommend funding for this 
center at $25 million.
    Finally, we ask Congress to provide additional funding to 
fight white nose syndrome in bats. The current loss of bat 
populations from white nose syndrome is one of the most 
precipitous wildlife declines really in the past century in 
North America and would likely have significant ecological and 
economic impacts. We request a total funding of $11.1 million 
for white nose syndrome research, monitoring and response 
spread among the various federal agencies that are involved in 
this effort.
    Thank you for considering the views and the recommendations 
of the wildlife professionals and we are available to continue 
working with you and your staff throughout the process.
    [The statement of Laura Bies follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.137
    
    [GRAPHIC] [TIFF OMITTED] T6982A.138
    
    [GRAPHIC] [TIFF OMITTED] T6982A.139
    
    [GRAPHIC] [TIFF OMITTED] T6982A.140
    
    Mr. Simpson. Thank you. We look forward to working with you 
on this and finding out what a white nose bat is. I appreciate 
it. Thank you.
    Ms. Bies. Thank you.
    Mr. Simpson. Next, we have Mary Beth Beetham, Legislative 
Director of the Defenders of Wildlife.
                              ----------                              

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

MARY BETH BEETHAM, DIRECTOR OF LEGISLATIVE AFFAIRS, DEFENDERS OF 
    WILDLIFE

    Ms. Beetham. Thank you very much for the opportunity to 
testify. I really appreciate it. Defenders of Wildlife has more 
than 1 million members and supporters around the country, and 
we are dedicated to the conservation of wild animals and plants 
in their natural communities.
    Even in these challenging budget times, Defenders continues 
to believe that investments in the protection of wildlife are a 
wise choice for our Nation. To protect wildlife, its habitat 
must be protected, which in turn protects healthy natural 
systems that provide clean air, clean water, food, medicines 
and other products we all need to live healthy lives. Federal 
programs that protect imperiled species, migratory birds, 
refuges, forests and other lands essential to wildlife 
conservation, as I am sure you well know, are therefore all 
going to ultimately support the health and well-being of the 
American people.
    The devastating Deepwater Horizon oil spill offered a 
valuable but unfortunate lesson in the importance of a healthy 
Gulf Coast ecosystem for the families and the communities 
dependent upon it. Moreover, the American public cares deeply 
about wildlife conservation as they demonstrate by opening 
their pocketbooks and spending about $120 billion every year on 
wildlife-associated recreation.
    The programs that Defenders highlights in our written 
testimony are the ones under the subcommittee's jurisdiction 
that we think are the most important for wildlife conservation, 
and we know these are challenging budget times so we are asking 
that you do as much as you can to protect them. I would like to 
take just a few minutes to highlight what we think are some of 
the compelling needs just as examples.
    The National Wildlife Refuge System, as Desiree already 
mentioned, anchors our Nation's wildlife conservation efforts 
yet flat or declining budgets will force its return to a 
massive restructuring program that will harm basic functions 
such as restoring habitats, controlling illegal activities and 
invasive species, and working with visitors. The special agents 
of the U.S. Fish and Wildlife Service Office of Law Enforcement 
are on the front lines between protected plants and animals and 
the poachers and the smugglers who traffic in them. The annual 
illegal wildlife trade is valued at $10 billion annually and 
that is second only after the illegal trade in drugs and arms 
yet the special agents force currently falls 23 percent below 
its authorized level and even 16 percent below its previous 
high water mark.
    As our Nation pursues the needed expansion of renewable 
energy development, it is also important that that move forward 
in such a way that wildlife protections are protected and there 
is no net loss of any wildlife populations. Yet even for a 
species as iconic as the golden eagle, there is not currently 
enough information to ensure that wind turbines can be sited in 
such a way that will prevent harm.
    BLM and Forest Service lands, as has already just been 
previously said, are becoming increasingly important to the 
conservation of wildlife in our country, each supporting more 
than 3,000 species. BLM must survey at least 400 caves, which 
they have not even begun to do yet, for the presence or absence 
of bats in order to begin to address white nose syndrome, which 
is a devastating disease that has killed more than a million 
bats across the country and is continuing to spread, and why we 
should care about white nose syndrome? Well, bats are 
beneficial in many ways including as voracious eaters of 
insects that are pests.
    The Forest Service Wildlife and Fish program falls nearly 
$16 million below its 2001 inflation-adjusted level, so that 
program is having a hard time. And they also have 19 percent 
fewer biologists and botanists than they had in 1995. And while 
we support the Administration's Integrated Resource Restoration 
initiative, we support the stated goals of the Integrated 
Resource Restoration initiative. We do have concerns about the 
adequacy of the science-based management objectives that the 
agency has put forward so far and also the conservation 
standards that have also been put forward at this point, 
especially given that they plan to merge the wildlife and 
fisheries program into Integrated Resource Restoration.
    And finally, we support the Administration's continued 
emphasis on landscape-level conservation that is intended to 
build resilience to broad-scale economic stressors like climate 
change, drought, wildfire, invasive species and other impacts. 
However, as I know I have heard you say many times and we have 
spoken to you about this previously, we believe that these 
efforts really need to be effectively and efficiently 
coordinated and we need to make sure there is not duplication 
going on in order for them to be really effective, and they 
also really need to be lifting the boats of the basic operating 
programs of the agency such as providing them with the 
inventory and monitoring resources that they need. And the 
impacts, and while these landscape-level projects and 
conservation efforts are moving forward, the impacts of large 
undertakings such as the expanded development of renewable 
energy should be getting considered as they are planning all 
their landscape-level efforts, not separately.
    So thank you very much. We appreciate the opportunity and 
we look forward now that we are on to fiscal year 2012, we 
hope, we look forward to working with you because we know it is 
going to be a challenging year.
    [The statement of Mary Beth Beetham follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.141
    
    [GRAPHIC] [TIFF OMITTED] T6982A.142
    
    [GRAPHIC] [TIFF OMITTED] T6982A.143
    
    [GRAPHIC] [TIFF OMITTED] T6982A.144
    
    Mr. Simpson. Well, thank you for your testimony, and we do 
look forward to working with you as we try to make a budget 
that makes sense with what limited resources we are going to 
have in this coming year.
    Ms. Beetham. Thank you.
    Mr. Simpson. Nina Fascione. Is that even close?
    Ms. Fascione. It was very close, actually, just about right 
on. Thank you.
    Mr. Simpson. Thank you, the Executive Director of the Bat 
Conservation International.
                              ----------                              

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

NINA FASCIONE, EXECUTIVE DIRECTOR, BAT CONSERVATION INTERNATIONAL

    Ms. Fascione. Yes, and this, sir, is, I am afraid, a dead 
bat with white nose syndrome, so I am here----
    Mr. Simpson. It is not a white nose bat, it is white nose 
syndrome?
    Ms. Fascione. It is a fungus that is devastating bat 
populations in the United States. It is a newly described newly 
emerging disease that was first discovered outside of a cave in 
Albany, New York, in 2006, so it is brand new. It has killed 
more than a million bats by far, as you have heard, although my 
personal opinion is that it has destroyed at least an order of 
magnitude larger than that. As you can imagine, bats are hard 
to count and so the numbers are not accurate.
    Mr. Simpson. How does it kill them?
    Ms. Fascione. It is a cold-loving fungus that impacts 
hibernating bats, as they are hibernating in caves and mines in 
the winter, and as anybody who has ever had athlete's foot 
knows, when you get a fungus, it is very itchy and irritating. 
It wakes the bats up from hibernation. Their immune systems 
kick in and they start burning up their fat reserves. So these 
bats are waking up twice as much as they would normally without 
the fungus, and frankly, the cause of death is likely 
starvation or dehydration. It is causing strange bat behavior 
like bats flying around in the middle of winter when they 
should be hibernating or during the day, and it is killing 
them.
    It is impacting these hibernating bats. It has so far 
impacted nine species in 18 states. We heard this two days ago, 
Kentucky added to the unfortunate list of states that have 
white nose syndrome. In the United States, we have 46 species 
of bats. Twenty-five of those are hibernating species. So more 
than half of our bats in the United States could be impacted by 
this disease. And you heard my predecessor saying that 
scientists really are calling this the most precipitous decline 
in wildlife in North America.
    A little bit more about the economic benefits of bats. They 
really do provide enormous benefits to humans. They eat bugs 
and they happen to have a preference for bugs that eat crops, 
the cotton bollworm and insect pests that destroy potato, 
cotton and corn crops. They are enormously beneficial to 
farmers, and in fact, a study that came out just two weeks ago 
in the journal Science, a prestigious journal by really some of 
the Nation's top bat biologists, estimated that bats save 
farmers in the United States between $3.7 billion and $5.3 
billion a year. With the loss of bats at this rate, farmers can 
start seeing impacts within the next four to five years. It is 
going to mean their costs go up in pesticides and obviously 
more pesticides means more chemicals in our environment, so it 
is really an unfortunate situation all around.
    In fact, I said the number one million is probably 
conservative, but if you just take that one million figure, one 
million bats would eat 700 tons of insects a year.
    Mr. Simpson. I like bats.
    Ms. Fascione. So two of the species that are impacted of 
the nine are endangered federally listed, the gray bat and 
Indiana bat. The gray bat in fact was doing well under the 
Endangered Species Act. We were working to delist it until this 
disease came along. Ninety percent of the gray bat population 
is in less than ten caves, so if those caves get hit with the 
fungus, they are likely goners. And these impacts of these 
species and other potential species that might be potentially 
listed could have impacts on mining, forestry, construction, 
transportation and even tourism, so there could be very wide-
ranging impacts of possible future listings for bats or frankly 
cave invertebrates that are impacted with the loss of bats in 
the cave ecosystems.
    Many agencies, frankly all the agencies, have been looking 
at this disease because it is so far-reaching, and in fact, I 
brought a map to share with you as well. So the Fish and 
Wildlife Service has been the lead agency on this and they have 
been working on understanding the disease, how it spreads, 
surveillance, monitoring and stopping the spread, which will 
require public education and outreach. We are requesting $11.1 
million to continue working on this disease, and we believe 
that this is a case of where an ounce of prevention is worth a 
pound of cure because of these economic benefits from bats and 
the loss which could be so devastating.
    The impacts are going to be at both state and federal 
levels. We understand this is a very tight economic time but 
this request is really--the agencies have been pouring funding 
into this already by necessity. This increase is actually just 
$4.8 million above what they have been doing, and again, is 
well worth it in the long run.
    So thank you very much for the opportunity to talk about 
this disease, and I will share these maps. One is of our 
current white nose syndrome range and then we just this week 
created a map with--the gray area is Car System in the western 
United States, so these are areas where bats will be 
hibernating. The brown area is where two of the most common 
species reside, which basically shows that this could spread 
through the entire Nation including those areas in the West, 
and because you said you like bats, this is the newest issue of 
our magazine where we highlight different species. Hopefully 
you think some of them are pretty cool.
    [The statement of Nina Fascione follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.145
    
    [GRAPHIC] [TIFF OMITTED] T6982A.146
    
    [GRAPHIC] [TIFF OMITTED] T6982A.147
    
    [GRAPHIC] [TIFF OMITTED] T6982A.148
    
    Mr. Simpson. They are weird looking.
    Ms. Fascione. They are weird looking, some of them. Some of 
them are quite cute and they are very important.
    Mr. Simpson. How do you fight that?
    Ms. Fascione. Again, as anybody who has had athlete's foot 
knows, it is actually very hard to fight a fungus, particularly 
bats are colonial. You know, they live in these huge 
populations in caves. It is going to be very hard to treat 
this. You cannot treat with a fungicide or you risk killing 
other cave biota. So far, agencies and private landowners have 
been doing decontamination protocols, keeping people out of 
caves when necessary or when people need to go in caves, doing 
a full decontamination protocol. The disease is spread bat to 
bat. So it is going to be a tough task to stop this. You cannot 
obviously vaccinate bats, and that is what we need to find out.
    Mr. Simpson. I appreciate it. Thank you.
    Ms. Fascione. Thank you, sir.
    Doug Headrick, General Manager of the Santa Ana Sucker Task 
Force, as Mr. Lewis said that this is a subject he has brought 
up many times with the individuals testifying, so welcome.
                              ----------                              

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

DOUG HEADRICK, GENERAL MANAGER, SAN BERNARDINO VALLEY MUNICIPAL WATER 
    DISTRICT/SANTA ANA SUCKER TASK FORCE

    Mr. Headrick. Thank you very much, Chairman Simpson.
    As Congressman Lewis mentioned, I am here today 
representing the 12 inland California agencies that have banded 
together in the face of what we believe is regulatory overreach 
by the U.S. Fish and Wildlife Service.
    Unfortunately, our region has the distinction of having the 
highest unemployment rate in the entire United States, but in 
the midst of this economic turmoil, the service under some 
heavy political and legal pressure by the Center for Biological 
Diversity threw out their carefully determined Critical Habitat 
designation from five years ago and greatly expanded that 
territory late last year.
    The Santa Ana sucker is a small fish, maybe about six 
inches long. It was listed as threatened in 2001, and since 
that time, members of our task force have worked cooperatively 
with the service and others to conduct studies, monitor the 
species and also identify restoration projects, and so far we 
spent well over $1 million to do that.
    However, after all this cooperative work was in place, in 
December 2009 the service announced that they were planning to 
overturn their previous rule based on a closed-door settlement 
agreement that was signed between the service and the Center 
for Biological Diversity. Those of us that were going to be 
most impacted by this decision were not involved in that.
    So back in 2005, after a lengthy public comment and review 
process, the service established the critical habitat for this 
fish. At that time the service intentionally excluded areas of 
the river that are dry for obvious reasons, finding that these 
areas were not essential to the conservation of the species, 
which is the finding required, and that the enormous cost to 
our economy far outweighed any possible benefits to the fish. 
But we believe the new designation, the new expanded 
designation, disregards the scientific and economic realities 
which should have been central to their decision. In short, the 
service did not follow its own rules or federal law.
    Let me underscore if I could that none of the newly 
designated areas currently nor in the past ever supported a 
sustainable population of this fish, mainly because they are 
dry nine to 11 months a year. Even before water diversion 
started over 100 years ago, based on the climate, these reaches 
of the river would go dry during dry times. Amazingly, the 
service included these ephemeral streams in the new critical 
habitat for the fish. The new untested claim is that the gravel 
that is on the bed of these dry streams, it might be needed in 
the future for the fish that live downstream. As you know, 
water supply reliability in California is a big issue, 
especially when it is tied to the Sacramento Delta, as we are 
through the state water project. The new designation critical 
habitat, directly opposes our efforts to reduce our reliance on 
that water source. We have been working to undertake stormwater 
capture programs to expand our water supplies without impacting 
species. These are projects that capture water that would have 
flowed to the Pacific Ocean during flood events, not helping 
humans or fish. This new designation puts these projects in 
jeopardy and makes us look back to the delta for our water 
needs.
    For example, several years ago Congress authorized funding 
for the Seven Oaks Dam. It is mainly a flood control project. 
However, Congress also authorized spending to alter the dam's 
design to allow us to capture more water. After that, the 
California State Water Resource Control Board spent several 
years evaluating the project, the water capture project behind 
Seven Oaks Dam, to try to determine the impacts it might have 
on the species and determined that with mitigation that we have 
implemented, the water diversion would not harm the fish. 
Should this habitat expansion be allowed, our access to this 
valuable water supply could be nullified, violating Congress's 
clear intention.
    How much water is at risk? This is essentially the amount 
of water that would serve about a million Californians every 
year. To replace this water with the value of water in 
California today would cost over $2 billion over the next 25 
years. That is assuming we could actually find it.
    Our region, with its 13 percent unemployment rate, can 
really ill afford the uncertainty caused by this ruling. When 
combined with the Delta smelt, which we are all familiar with, 
this recent ruling essentially could stop all economic growth 
in our region. Despite this chilling result and the fact that 
the issue was repeatedly raised with the Fish and Wildlife 
Service, they chose not to even evaluate the economic issue.
    Earlier this week, the task force that I represent took the 
first step to try to reverse this decision by the service. We 
formally filed what is called a 60-day notice outlining all the 
deficiencies of the ruling. Now we hope that the service will 
take the 60 days provided by law to reverse their decision and 
reestablish the critical habitat to what it was originally 
determined to be. I ask that the committee please undertake an 
active role in oversight of the service and its use of the 
Endangered Species Act as a regulatory tool. Thank you.
    [The statement of Doug Headrick follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.149
    
    [GRAPHIC] [TIFF OMITTED] T6982A.150
    
    [GRAPHIC] [TIFF OMITTED] T6982A.151
    
    [GRAPHIC] [TIFF OMITTED] T6982A.152
    
    Mr. Simpson. Thank you, and thank you for your testimony. I 
feel fairly certain that there are a couple members on this 
committee that will keep us well informed of what is going on, 
Mr. Lewis and Mr. Calvert. So thanks for your testimony and 
thanks for being here today.
    Mr. Headrick. Thank you very much.
    Mr. Simpson. You bet.
    Andy Oliver, Coordinator of the Multinational Species 
Coalition.
    Ms. Oliver. I am batting cleanup here. Hopefully I will hit 
a home run.
    Mr. Simpson. There you go.
                              ----------                              

                                            Friday, April 15, 2011.

                        WILDLIFE AND WILDERNESS


                                WITNESS

ANDY OLIVER, COORDINATION, MULTINATIONAL SPECIES COALITION

    Ms. Oliver. Mr. Simpson, Chairman Simpson, thank you so 
much for the opportunity to testify today on behalf of the 
Multinational Species Coalition on the Multinational Species 
Conservation Fund of the Fish and Wildlife Service, and I just 
wanted to thank you and your staff for all of the hard work 
that has gone into providing this opportunity to testify for 
all of us. The work that has gone into this as a new 
participant really, you know, made it very easy and feasible 
and seamless for all of us so that you could hear the many 
voices that you have heard over the last four days.
    My name is Andy Oliver and I serve as the brand-new 
Coordinator of the Multinational Species Coalition, a broad-
based coalition comprised of 32 organizations representing 
sportsmen, conservationists, zoos, circuses, veterinarians, 
animal welfare groups and their more than 15 million members, 
which is a huge number. I was shocked when I heard that. I want 
to thank you for your past and consistent support for these 
small but vital programs, and in fiscal year 2012 we 
respectfully request your support for funding the Multinational 
Species Conservation Fund at $12.5 million and the Wildlife 
Without Borders program at $7.4 million.
    Wildlife conservation programs are a modest but essential 
piece of the United States engagement with the developing 
world. Through the Multinational Species Conservation Fund, the 
United States supplements the efforts of developing countries 
that are struggling to balance needs of their human populations 
and wildlife. The Multinational Species Conservation Fund helps 
to sustain wildlife populations, address threats by controlling 
poaching, reducing human-wildlife conflict, and protecting 
essential habitat. By working with local communities, they also 
improve people's livelihoods, contribute to local and regional 
stability, and support U.S. security interests in impoverished 
regions.
    Over the past two decades, these popular and highly 
effective programs have provided seed money for public-private 
partnerships that conserve wild tigers, elephants, rhinos, 
great apes and marine turtles in their native habitat. The 
Multinational Species Conservation Fund and the Wildlife 
Without Borders programs have long enjoyed broad bipartisan 
support and we urge you to continue that support going forward. 
Multinational Species Conservation Fund serves the dual purpose 
of protecting wildlife populations and essential habitat for 
local communities. They are an excellent investment for the 
Federal Government, consistently leveraging three or four times 
as much in matching funds from corporations, conservation 
groups and national governments.
    Recognizing our challenging budget situation, the 
Multinational Species Coalition hopes you will consider 
including funding for the five funds that make up this small 
but vital program at $2 million each for the African elephant, 
Asian elephant and marine turtle funds, $2.5 million for great 
apes, and $4 million for the combined rhino-tiger fund. These 
funding levels are consistent with fiscal year 2010 
appropriations for all of the funds except rhino-tiger, for 
which we request a $1 million increase to bring it in line with 
the African and Asian elephant and marine turtle fund, so $2 
million for rhinos, $2 million for tigers, and capitalize on 
the global awareness and commitments made at last year's 
International Tiger Summit that Mr. Calvelli mentioned earlier.
    The need for your support of these funds has never been 
greater. My written testimony includes many examples of many of 
the success stories made possible by the Multinational Species 
Conservation Fund. I think that you heard from Mr. Calvelli 
about the situation with tigers and so I will not elaborate on 
that further, but that is just one example of the great work 
that is done through these funds for all of these wildlife 
species.
    Just a few words about the Wildlife Without Borders 
program. The Wildlife Without program addresses some of the 
world's most pressing challenges to wildlife. Faced with 
emerging disease threats that pass between animals and people--
you heard about the bats--extracted industry practices and 
pressures from local communities for nature to provide for 
their livelihoods, this program allows for greater investment 
in addressing cross-cutting threats to ecosystems and wildlife. 
The program is making a lasting impact through capacity-
building and technical support and training and local community 
education. It is just doing terrific work, and the small 
investment really makes it worth it.
    We hope you will consider the proven success and very 
positive impacts of these programs in relation to their modest 
cost and the broad-based and enthusiastic support of 
constituents. We urge the committee to fund the programs at the 
levels outlined earlier.
    Thank you again for the opportunity. We really appreciate 
it. We look forward to working with you, and I am happy to 
answer any questions that after four days of this you may have.
    [The statement of Andy Oliver follows:]

    [GRAPHIC] [TIFF OMITTED] T6982A.153
    
    [GRAPHIC] [TIFF OMITTED] T6982A.154
    
    [GRAPHIC] [TIFF OMITTED] T6982A.155
    
    [GRAPHIC] [TIFF OMITTED] T6982A.156
    
    Mr. Simpson. Thank you for being here today and for your 
testimony, and we appreciate it very much.
    Most of you here may wonder when you leave if what you say 
to us makes any difference in what we do. I suspect most people 
who testify before Congress wonder if that is the case. But it 
does make a difference in what happens because we do take your 
testimony into consideration and the concerns when we are 
trying to put together a budget, whether it is in times when we 
increased funding or flat funding or with decrease in funding. 
So it is important that we have the views of your organizations 
and people in the country of what their priorities are and what 
we need to be doing.
    So I do appreciate all of you being here today and for your 
testimony and we look forward to working with all the different 
organizations that have an interest in various parts of this 
Interior and Environment budget. So thank you all.
                                              Tuesday, May 3, 2011.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS 

                  PUBLIC WITNESSES--NATIVE AMERICANS 

    Mr. Cole. We are going to go ahead and start. We will have 
members coming in and out through the morning, but we certainly 
want to try and stay as much on time as we can. I am presiding. 
Chairman Simpson will be here at some points and some points he 
will not, but if we could have our first panel come forward, 
please.
    If we could have Mr. Tortalita.
    Mr. Tortalita. Good morning.
    Mr. Cole. Thank you.
                              ----------                              

                                             Tuesday, May 3, 2011. 

                            PUEBLO OF ACOMA 

                                WITNESS 

LLOYD TORTALITA

    Mr. Tortalita. Good morning. My name is Lloyd Tortalita, 
and I am from Pueblo of Acoma in New Mexico. Not Mexico, but 
New Mexico. A lot of people do not know that New Mexico does 
exist, and I am from Pueblo of Acoma. I am a Vietnam veteran. I 
am also a uranium worker, 20 years of working in the uranium 
mines. Also the best title I have right now is being grandpa.
    And as a tribal elder, the young people that I am speaking 
for, I am from Pueblo of Acoma. It is my concern my young 
people are growing up because of the type of world that we live 
in and what is happening in the world. So mostly my testimony 
is geared towards those individuals that are being affected by 
things like uranium mining, industry ruin, and I suffer, and 
you know, a lot of things that we are doing now, the national 
budget, is requiring a lot of money.
    As a Vietnam veteran I did not know that I was going to get 
diabetes from Agent Orange, did not know that I was going to be 
suffering what I am suffering now. I look good and healthy but 
inside I am not anymore. Same way with uranium. You know the 
recall compensation that has been going through, 
reauthorization back in 2000, when I was governor of Pueblo of 
Acoma, I testified before Congress in trying to pass that, got 
it passed, and now we have a lot of individuals that are 
suffering from that or families are suffering because we did 
not know when we went to work for them. The United States said, 
we need your help; we need you to go to Vietnam, and I got 
drafted, got sent to Vietnam, and now we are paying for it. My 
skin is not what it used to be.
    I did not know I was getting diabetes, did not know some of 
my friends were burying an individual, one of our veterans from 
the American Legion Post 116. I am also a chaplain at that. We 
are burying one of our individuals because of colon cancer, and 
he got it from being in Vietnam from Agent Orange and 
everything else. They are burying him right now. I should be 
out there as a tribal elder, and you know, we are losing a lot 
of our elders.
    Now these baby boomers who were the ones that were in 
Vietnam are the ones that are suffering, are the ones that are 
supposed to be the grandpas and grandmas teaching our young 
people our tradition and culture of Acoma and throughout our 
country.
    And, you know, we come here, I come here sometimes, this 
year, again, I am privileged to come back because I am the 
former governor, and I have testified a couple of times before 
Congressman Yates, Congressman Dicks, and now in front of 
Congressman Cole. And but it is an honor to be here, and again, 
some of the things that I will be talking about I am not going 
to see it probably within 10 years. You know, I came here 
asking for money to build a community center for my people. It 
took 10 years to get it built. It is built now, and it is done, 
and we are addressing diabetes and everything else, and some of 
the things that are happening to our young people.
    Education is another one. We are still fighting for 
education, Native American education, education for our young 
people, the Bureau of Indian Affairs, the Bureau of Indian 
Education. It is not happening, and a lot of things are not 
happening as we all know.
    You hear a lot of people come before you, and one of the 
biggest subjects is Johnson-O'Malley. I know you are very aware 
of it. I know because I have talked to you before. Johnson-
O'Malley is a program that is there for our young people, our 
young Native students that most are, as you know, were in rural 
settings, way out there in the middle of nowhere, where there 
is really no transportation, no roads. In my testimony you will 
probably read later on, talking about roads. Our roads are 
falling apart, and our hospitals are, this and that.
    And so we are in a bad situation with bridges and roads, 
hospitals, I mean, Indian Health Service, VA hospitals, those, 
same way with the Johnson-O'Malley. You know, we are fighting 
for $24 million, get it back to what it was, and I have 
pictures that you can look at in the back of my testimony here 
that shows that my program is successful, that we are doing 
what we need to do and also at one time or another we also had 
an office within the central office here in Washington of JOM, 
but Save America's Treasures was another one. Acoma dating back 
to 1,200.
    And then like I said, budget. I mean, we are down. IHS 
hospitals, Acoma-Canoncito, 50 percent or 50 positions are 
open. How are we going to provide medical services? VA 
hospitals, takes all day for individuals to get there, but we 
are suffering from all that stuff.
    So we are just here to ask for help, and it is all written 
out. It is all there, so please read what I am telling you, 
but, you know, we have all this, and water is another example, 
coming off of Mount Taylor, you do not have any good water 
coming off of there. All of it, right now they are saying they 
are putting chemicals into the ground which directly affects 
our irrigation.
    Irrigation system is another one that we worry about. So 
please if you could, pay attention to some of this. Johnson-
O'Malley is the biggest thing. I mean, it is all there, 24 
million, a position in Washington, student, and freeze it and 
educate our young people like they need to be educated.
    And I know I am running out of time, but the red light is 
on, but, you know, thank you very much for listening to me, and 
it is all written out, and I just urge and ask Congress to read 
and help us. Thank you very much.
    [The statement of Lloyd Tortalita follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.001
    
    [GRAPHIC] [TIFF OMITTED] T6982B.002
    
    [GRAPHIC] [TIFF OMITTED] T6982B.003
    
    [GRAPHIC] [TIFF OMITTED] T6982B.004
    
    Mr. Cole. Well, first of all, thank you for your service 
and not only to our country but to your tribe as well and the 
many things you have done. Your testimony will be entered.
    This committee has a really strong bipartisan tradition of 
trying to work on these things, and in a tough budget time it 
actually has. We actually exceeded the President's request for 
2011. We have met it in previous years, and again, that has 
been bipartisan. We recognize the problems you are talking 
about are very real, and certainly Chairman Simpson has made a 
real effort in a period of budget cuts to make sure that on 
Native American programs we have been able to avoid those and 
actually add a little bit to what was done in 2010.
    So I cannot predict what is going to happen going forward. 
We live in an era of trillion and a half dollar deficits, and 
that is not sustainable, but I can assure you this committee is 
going to do everything it can on a bipartisan basis to protect 
and build on these really critical programs.
    So, again, thank you for being here.
    Mr. Tortalita. Thank you very much, and you can see 
pictures of my state cross country champions.
    Mr. Cole. I was going to say I am pretty impressed with the 
state champs.
    Mr. Tortalita. The after-school van. If they did not have 
the transportation service to the schools, we would have never 
gotten the state championship. It is really a good program 
that, again, this is the Johnson-O'Malley Program.
    Mr. Cole. It is awfully impressive.
    Mr. Tortalita. Thank you very much.
    Mr. Cole. Thank you. Thank you for your testimony.
    And if we could, we will move on to Mr. Dasheno.
                              ----------                              

                                             Tuesday, May 3, 2011. 

                          SANTA CLARA PUEBLO 


                                WITNESS 

WALTER DASHENO

    Mr. Dasheno. Chairman Simpson, Ranking Member Moran, and 
Congressman Cole, and members of the subcommittee, my name is 
Walter Dasheno. I am the governor of the Pueblo Santa Clara, 
and thank you for this opportunity to present to you on the 
fiscal year 2012 budget.
    Santa Clara Pueblo is a federally recognized Indian tribe 
located 25 miles north of Santa Fe, New Mexico. We are only one 
of two tribes in New Mexico that have ventured into self-
governance compacts with the Bureau of Indian Affairs. Santa 
Clara Pueblo's experience as a self-governance tribe mirrors 
that of many other self-governance tribes.
    Overall, the program has been a great success. Self-
governance works because it promotes self-sufficiency and 
accountability, strengthens tribal planning and management 
capacities, invests in our local resources to strengthen 
reservation economies, allows for flexibility and a firm 
sovereignty.
    Santa Clara is happy to see that the President's budget 
proposes continued investment in the self-governance program 
with a modest increase in the IHS budget of 263,000 for 
administrative costs and a larger increase in the self-
governance line in the BIA budget of 7.32 million for a total 
of 155.84 million from the fiscal year 2010-2011 continuing 
resolution level. And this is an increase of approximately 5 
percent.
    Overall, the Federal Government obligates over 425 million 
to some 225 federally-recognized tribes through the self-
governance compacts. Notwithstanding this increases in the 
self-governance program, in reality overall funding for self-
governance tribes does not keep pace with non-self-governance 
tribes. It has been the experience of self-governance tribes 
that when others have received funded increases, self-
governance tribes do not or did not receive their relatively 
fair share. I would urge this committee to examine closely this 
issue. Santa Clara budget matters illustrate some of the 
national concerns that we have.
    Santa Clara publicly submitted grant applications to 
various feasibility studies for a range of energy projects. 
Both the Department of Energy, Office of Tribal Affairs, and 
the BIA Office of Indian Energy and Economic Development have 
been very helpful, and their programs should receive more 
funding.
    Santa Clara desperately needs a new and expanded health 
clinic. Santa Clara does not believe that the in-house service 
has the funding to pay the cost for constructing a new 
facility, and so it plans to finance its own facility if 
necessary. Still, Congress should support funding for more 
hospital construction and also continue to support and provide 
favorable grants and loans and loan guarantees for tribes that 
seek to construct their own facilities.
    Invested in irrigation infrastructure, Rio Grande Pueblos 
Irrigation Infrastructure Improvement Act funding. This act 
authorizes the funding of projects to correct deficiencies 
identified by a Secretarial study. The implementation of this 
act will favorably affect public traditional lifestyle and 
culture which for hundreds of years has been based on the 
culture, agriculture, and irrigated lands. So far almost no 
money has been spent implementing this act.
    In late 2009, Santa Clara Pueblo completed construction of 
a 10,800 square foot regional adult daycare center that will be 
able to serve a growing population of tribal seniors. Although 
the center has been completed, the adult daycare program has 
not yet been implemented due to severe funding restraints. 
Congress needs to expand funding for programs that serve Indian 
elders.
    The Santa Clara Pueblo wastewater systems are also in an 
advanced state of decay and threaten community health and the 
water quality of the Rio Grande. The system was largely 
constructed in the 1960s and '70s and has out-served its actual 
use life. The need to upgrade wastewater and water facilities 
is common throughout Indian Country.
    Santa Clara urges funding through the Army Corps of 
Engineers from the Espanola Valley Watershed Study to address 
ecosystem restoration and critical health and human safety 
concerns, specifically flooding along the Espanola River 
Valley.
    Finally, Santa Clara urges increased funding for the BIA 
Real Estate Services, which support cadastral surveys, lease 
compliances, and energy and mineral development issues. Current 
funding only meets about one-quarter of the need, holding up 
critical tribal projects. I must add, by the way, that the 
Southwest Region is blessed with the outstanding BIA Real 
Estate officer in Johnna Black.
    Finally, although not immediately affected, Santa Clara 
does support passage of the statuary fix which the subcommittee 
worked so hard on last year.
    In conclusion, as you work on the budget, please feel free 
to reach out to our DC Council, Greg Smith, who is well versed 
in all of these matters. Thank you for this opportunity to 
present the budget perspective of Santa Clara Pueblo. And I am 
on time.
    [The statement of Walter Dasheno follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.005
    
    [GRAPHIC] [TIFF OMITTED] T6982B.006
    
    [GRAPHIC] [TIFF OMITTED] T6982B.007
    
    [GRAPHIC] [TIFF OMITTED] T6982B.008
    
    Mr. Cole. It was like to the second. Did you practice?
    Mr. Dasheno. No, I did not, but certainly, Mr. Chairman, 
and Mr. Cole, I support what Governor, former Governor 
Tortalita has said. We need to put our hand out to the 
veterans. That is an organization that is widely needed and 
also to the elderly. We met with some people yesterday, but 
there is very little involvement of support from the national 
programs that support Indian issues for the Native elderly, and 
we have some recommendations that we will come back with.
    So with that, congratulations. Thank you very much, and the 
United States has to be something to be proud of in the passing 
of what has happened over the weekend. So thank you.
    Mr. Cole. I think all of us, regardless of our points of 
view, take a great deal of pride in what our military did, and 
again, thank you for your service. Thank you for mentioning 
veterans.
    I see Mr. Calvert is here. I do not know if you have any 
questions of either of our guests.
    Mr. Calvert. Mr. Chairman, I apologize for being a little 
late but----
    Mr. Cole. I am just happy to have the company.
    Mr. Calvert. Thank you.
    Mr. Cole. Thank you very much.
    If we could, we will move onto Faye BlueEyes. Welcome.
    Ms. BlueEyes. Thank you.
    Mr. Cole. We will go ahead and hear your testimony and then 
have questions.
                              ----------                              

                                              Tuesday, May 3, 2011.

                 DZILTH-NA-O-DITH-HLE COMMUNITY SCHOOL


                                WITNESS

FAYE BLUEEYES

    Ms. BlueEyes. Mr. Chairman, members of the subcommittee, my 
name is Faye BlueEyes, and I am the program director for 
Dzilth-Na-O-Dith-Hle School, which is a school on the Navajo 
Reservation in Bloomfield, New Mexico.
    Our school has been in continuous service since 1968, and 
operates a K-8 educational program and a dorm program for 
students 1 through 12. Two hundred students are enrolled in our 
school, and 51 students are in the dorm. Our mission is to make 
a difference in the educational progress of our students, and 
we believe that all of our students are capable of achieving 
academic success.
    But we struggle with chronic under-funding of virtually 
each and every one of our educational and related programs. 
Though we operate with authorization from the Navajo Nation, we 
are a separate tribal organization, carrying out the federal 
trust responsibilities to educate Native American children 
under the Indian Self-Determination Act.
    Our buildings are more than 40 years old with serious 
deficiencies in our aging electrical, heating, and plumbing 
systems. We have to continually cope with major problems such 
as leaking sewer lines and in November, '09, we discovered a 
major leak in an underground gas line which threatened to cause 
an explosion at our school.
    Recently, the electrical panel in our gym caught fire and 
had to be disconnected. The gym does not have a sprinkler 
system, so we were fortunate to catch the fire early and avoid 
serious injury to our students.
    The Bureau has a process for evaluation school construction 
projects and placing them on a priority list for funding, but 
no new projects have been added to the list since 2004.
    Our school and many of the Native American schools are in 
dire need of school replacement, so we urge Congress to direct 
the Bureau to reopen the process by which schools can submit 
applications for replacement school construction projects and 
to restore 61 million to the school construction account.
    The deferred maintenance backlog for school buildings is 
well over 250 million, yet the Bureau requested only 50.7 
million in the fiscal year 2012 budget, a mere fraction of what 
is required to make a significant dent in the maintenance 
backlog.
    Funding of 76 million for facilities' maintenance and 110 
million in facilities' operation funding is but a modest first 
step in addressing these long-neglected needs. The very real 
health and safety risks that can be reduced by adequate O&M 
funding seems short sided.
    Funding for tribal grand support costs of 72 million in 
contrast to the 46 million in the fiscal year 2012 budget 
request, this is the amount calculated by NCAI as needed to 
fully fund the indirect cost requirements of current tribally-
controlled schools and provide 2 million in start-up funds for 
newly-converting schools. Tribal grant support costs are funds 
provided to tribally-operated schools to cover the 
administrative costs associated with the operation of a school.
    One-hundred twenty-four of the 183 Bureau-funded schools 
are operated by tribal school boards. In fiscal year 2010, the 
funding met only 61 percent of the need, the lowest rate to 
date. The Bureau estimates the 3 million increase requested for 
fiscal year 2012 will fund 65 percent of need, but we believe 
the 65 percent projection is highly optimistic.
    The consequence of insufficient funding means that we 
absorb more administrative expenses and scale back on prudent 
management activities. It is hard to comprehend that non-school 
BIA and IHS contractors have received huge increases in the FY 
'10, budget when tribally-controlled schools have received no 
increase in funding since 2004.
    Then the fiscal year 2012 budget requests an increase of 
25.5 million for BIA non-school contractors and 50 million 
increase for IHS contractors while the increase requested for 
schools is only 3 million. This disparity in the funding is 
unexplained.
    Good education costs money, and it is our hope and 
expectation the Congress will recognize the tremendous needs 
that exist in our Bureau-funded schools and the potentially-
disastrous impact of budget reductions. Please join us in 
supporting a quality educational program for all Native 
students.
    We are grateful for any assistance you can provide. Thank 
you.
    [The statement of Faye BlueEyes follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.009
    
    [GRAPHIC] [TIFF OMITTED] T6982B.010
    
    [GRAPHIC] [TIFF OMITTED] T6982B.011
    
    [GRAPHIC] [TIFF OMITTED] T6982B.012
    
    Mr. Cole. Thank you very much for your testimony. Just a 
quick question or two.
    In addition to the federal funds you receive, do you have 
any other sources of funding?
    Ms. BlueEyes. We are totally dependent on federal funds.
    Mr. Cole. Has there been any effort to look for other 
funding?
    Ms. BlueEyes. Well----
    Mr. Cole. And I do not want to suggest that is my preferred 
solution. I understand the challenges you are dealing with.
    Ms. BlueEyes. Well, we are going to have to start trying to 
find some funding elsewhere, but we are not one of the rich 
casino tribes, so we have nowhere to turn but the Federal 
Government.
    Mr. Cole. And just for the record, would you give the 
committee an idea of what the per capita income in your area 
is?
    Ms. BlueEyes. It is like $14,750.
    Mr. Cole. So quite challenging to raise much local revenue.
    Ms. BlueEyes. Yes, and no tax base either.
    Mr. Cole. Absolutely. Well, thank you very much for your 
comments. Do not leave. There may be other people with 
questions.
    Ms. BlueEyes. Okay.
    Mr. Cole. We will certainly begin with Mr. Moran, my good 
friend who has a passionate interest in this and who has done a 
lot of great work in these areas for Native Americans.
    Mr. Moran. Thank you, Chairman Cole. I will not ask any 
further questions. I think that is the issue, your dependency 
upon the Federal Government and our ability to come through 
with your most basic necessities.
    Ms. BlueEyes. Yes.
    Mr. Moran. I do thank you for traveling so far as have all 
the other witnesses and just speaking for myself, I certainly 
intend to work with Mr. Cole and his leadership, Mr. Calvert 
and Chairman Simpson in trying to do as much as we can for the 
American Indian tribes, particularly those that do not have the 
kinds of resources that other tribes may have.
    Ms. BlueEyes. Thank you.
    Mr. Moran. So thank you.
    Ms. BlueEyes. Thank you.
    Mr. Cole. Mr. Calvert.
    Mr. Calvert. No further questions other than to thank the 
gentlelady for coming today, and certainly we will work with 
Chairman Cole and Mr. Moran and others to help out Indian 
Country.
    Ms. BlueEyes. Thank you very much.
    Mr. Cole. Thank you very much for your testimony.
    If we could next, President Shelly, Navajo Nation.
    Mr. President, how are you?
    Mr. Shelly. I am okay. Fine. Thank you.
                              ----------                              

                                              Tuesday, May 3, 2011.

                             NAVAJO NATION


                                WITNESS

BEN SHELLY

    Mr. Shelly. I would like to say first off that, you know, 
this is a wonderful country, the United States of America, and 
we have a policy which is the constitution, United States 
Constitution. Within that constitution we have under a 
commercial clause the treaty clause and also property clause, 
and I believe that with the constitution is our founding father 
made policies, and I think we need to obey that.
    Mr. Chairman, members of the subcommittee, good morning. I 
am Ben Shelly, President of Navajo Nation. To fight for overall 
prosperity of our community we ask your committee to work with 
us and support the following priorities in your Interior 
budget; infrastructure development, energy, health, public 
safety, and education. The Navajo Nation.
    At the Navajo Nation we have a unique relationship with the 
Federal Government. We hope to further our relationship as 
recognized by the Navajo Treaty of 1868. Your committee can 
help fulfill that treaty obligation and other promise made over 
our history.
    Navajo support job creation, infrastructure energy 
development. Infrastructure development is a key to job 
creation. For this reason the Navajo Indian Irrigation Project, 
NIIP, needs full funding. NIIP stimulates the economy and the 
regions. In the proposed 2012 federal budget NIIP funding was 
reduced to $4 million. That is embarrassing. Without consulting 
with the Navajo Nation, Congress had passed a law and promised 
to fund NIIP in its entirety, which is estimated at a cost of 
$500 million to complete.
    Congress should restore the funding to the NIIP to $26 
million per year for the next 10 years. The Navajo Nation 
supports other infrastructure projects, the Navajo-Gallup water 
pipeline. This is an infrastructure project that will supply 
water to residents in the region and stimulate farming and 
agriculture. Additionally, the Nation is working to develop a 
vast energy resource for job creation.
    Support hospital facility construction priority. Health 
facility construction funding is critical in our remote but 
populated area. The Nation had five projects on the existing 
IHS health construction priority listing whose costs estimated 
in a total of $1 billion. Funding shortfall would delay the 
building of these necessary projects. We support funding this 
line item in 2010 level.
    Public safety and justice service. Two hundred-ninety 
Navajo Nation law enforcement officers patrol over a vast 
reservation that is equal to the size of West Virginia. There 
is one police officer for every 1,000 residents, and each 
patrolling the region of 5,000 square miles. Public safety 
requires full funding at approximately $55 million. Further, 
the proposed 2012 federal budget includes costs to facility 
construction, which funds jail replacement and employee's 
housing. These cuts will impact the safety of our community. We 
support funding at 2010 level.
    Education. Facility and school construction programs were 
eliminated in the proposed 2012 federal budget. The Nation has 
many substandard school facilities that need replacement to 
provide a safe learning environment. School construction 
dollars need to be restored to 2010 funding level. Annually the 
Navajo Nation receives about 13,000 applicants and only half 
are awarded funding to assist with the higher education costs. 
We request an additional $25 million for these education costs. 
Full restoration of the Pell Grant, and Carl Perkins Fund and 
others ensure the Navajo student contributes to the American 
workforce.
    Conclusion, the annual federal budget provides essential 
needs to Indian Country, however, since drastic cuts are made 
to the proposed 2012 federal funding, we insist that this 
subcommittee and other members of Congress hold the Navajo 
Nation and other nations harmless from additional cuts for the 
2012 budget. We request that this subcommittee honor your 
treaty obligation and support our budget recommendation for 
fiscal year 2012.
    Thank you very much. I still have time.
    [The statement of Ben Shelly follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.013
    
    [GRAPHIC] [TIFF OMITTED] T6982B.014
    
    Mr. Cole. I am fairly impressed. Mr. Chairman, I will tell 
you.
    Mr. Shelly. I am a BIA-educated person. How far I went. 
Could you imagine these college kids nowadays?
    Mr. Cole. Rather than use my time as the acting chairman, I 
want to immediately defer to the real chairman of this 
committee, Mr. Simpson, by whose courtesy I sit in this chair 
today, so I recognize that and appreciate that. Mr. Chairman, 
do you have any opening questions?
    Mr. Simpson. No. I really do not, but I want to thank you 
for being here and your testimony, and I apologize for our 
earlier schedule of having the Indian tribes come and testify a 
couple of weeks ago, I guess it was, or three weeks ago when we 
were scheduled, but we were in the middle of a little bit of a 
debate about the budget, and we were not sure we were going to 
be open the next week, and all that kind of stuff, and so we 
decided it was best to cancel them rather than have everybody 
here and then us be closed. So we know that is an imposition to 
all of you that came to testify, and thank you for coming back 
as we rescheduled this.
    Mr. Shelly. Yes. Can I say something on that? We were ready 
for the shutdown, but when we done that, we would also look at 
our finance we depend on mostly, we found out three-fourths, 
well, let's say about 80 percent of our budget is dependent on 
Federal Government, and we are going to turn that around. We 
are going to try to change it to where it is about equal. We 
are trying to work with energy policies and others to make that 
happen.
    All it is this Code of Federal Regulations prevent us to do 
things. We need to change, be more flexible with that and 
working with the Interior and Congress that maybe energy 
policies so that we can use our natural resources to create 
jobs, economics, and so on.
    So we are working on that so we realize that depending on 
the Federal Government should not go on forever. We need to 
stop that somewhere.
    Mr. Simpson. Thank you.
    Mr. Shelly. Thank you. All right.
    Mr. Cole. No, no. We are not done yet.
    Mr. Shelly. We are not done? Oh, I am sorry.
    Mr. Cole. I am sure there will be other questions. I want 
to call on Mr. Moran for any questions.
    Mr. Moran. That is fine, Mr. Cole. Thanks.
    Mr. Cole. Mr. Calvert, do you have any?
    Mr. Calvert. No questions at this time. Thank you.
    Mr. Cole. I have one question actually. What would have 
been the consequences for you and for the Navajo Nation had 
there been a Federal Government shutdown?
    Mr. Shelly. Probably what we would have done is that the 
one that our probably police, fire department, some direct 
services are going to keep running. The one that is under 638, 
some of those would probably keep running, and I would say 
shutting it down we probably would be in operation to keep the 
Nation running about 30 percent. Everybody else would be off.
    Mr. Cole. From an already pretty low level.
    Mr. Shelly. Yeah. Very low. So we had some general fund 
that picks up that 30 percent, too, so we do not have much, but 
we could have used that to run it.
    Mr. Moran. Will you yield, Mr. Cole?
    Mr. Cole. Certainly will.
    Mr. Moran. So two-thirds of the activities on the 
reservation would be unfunded, would have shut down?
    Mr. Shelly. Well, most of them will be. It depends on what 
kind of grant it is, what kind of funding it is to base on 
that.
    Mr. Moran. I wanted to make sure I understood that. Thank 
you.
    Mr. Cole. Yes. It is very uneven across Indian Country. It 
is obvious tribes that have other sources of incomes can 
continue to operate, but the more dependent you are to the 
Federal Government, the more challenging these kind of 
shutdowns are.
    Mr. Shelly. It is. It is. We realized that, and we are 
working on it heavily, and we want to turn that around somehow 
and creating jobs is very important to us and revenue. We have 
so much to offer with our natural resources. We have the sun, 
the wind, and just let us go. Take care of some of that Code of 
Federal Regulations that keeps us down, lift that for us, we 
can run with it.
    Mr. Cole. If I can ask you one more question, maybe one or 
two more actually, Mr. President. You mentioned in your 
testimony and just alluded to the fact you have some energy 
projects that you think are important and would help you 
increase your self-sufficiency. Can you quickly tell us what 
those are and what the obstacles are for developing those kind 
of resources?
    Mr. Shelly. Let me put it this way. I did it in my 
testimony with Subcommittee on Energy with Indian Affairs. 
These are bipartisan groups that when we went before I 
mentioned something like Indian tribes are so heavily over-
regulated. We are not playing the same level game as any other 
energy company. Like state, if we want to drill oil, it takes 
forever to get a permit because of the federal regulations. Yet 
a private business driller that is going to drill oil it does 
not take them long to get the permits, but there is a lot of 
difference.
    Mr. Cole. Well, we would certainly like to work with you 
and see what we can do to streamline that process so you have 
more control over the resources in your own Nation and are able 
to use them as you see fit as opposed to how others may see 
fit.
    Mr. Shelly. It has to happen. You know, education, we have 
been, you know, taking our kids, give them an education, what 
we can muster in money to get them through. They are back. I 
have got one here. He is my energy policy advisor. Sam Wood. 
Look how young he is. Sam, get up. He is my energy policy. He 
is going to be doing all the policy for us. He has been working 
with Young, Chairman Young on the Subcommittee on Energy. He 
will be working with them, so he provides some draft from us.
    They wanted to do it. I told him, I said, himself, I said, 
do not do it yourself. Let me get involved and let the Nation 
get involved because we know what we want done. So we are 
working with them. Maybe we can put it together and make it 
happen.
    Mr. Cole. I would very much like to see any recommendations 
or proposals that you have that would assist you.
    Mr. Shelly. We want to work with you. I will make sure that 
Sam works with you on that to give you something we are working 
on at energy. We will do that. And, again, I would like to say 
really recognize Native America. We offer so much. We fulfill 
our agenda with the United States Government. We have always 
done that. What is I hear this past Sunday, Geronimo E-KIA? 
There was youth and----
    Mr. Cole. Geronimo is actually buried in my district, and I 
will tell you the Fort Sill Apaches were not happy at the use 
of that particular nickname.
    Mr. Shelly. I know. I got a lot of emails and Facebook that 
says they are questioning that, and the code talker. We have 
one left out of 29 code talkers, and a lot of us like to, I 
will tell you right now to tell you the truth, a lot of us if 
the language, the Navajo language was never used, a lot of us 
will not be here.
    Mr. Cole. Again, as one of my Fort Sill Apaches pointed 
out, they would have never gotten Geronimo. He came in 
voluntarily. Thank you very much, Mr. President. Appreciate it.
    I am sorry. I did not see you come in Mr. Flake. I 
apologize. Questions or comments?
    Mr. Flake. No.
    Mr. Shelly. See, he is part of the subcommittee.
    Mr. Cole. Well, it is good to have him on your side of the 
table. He may be in a much higher body not too long from now.
    Mr. Shelly. He is a good man.
    Mr. Cole. Mr. President, thank you very much for your 
testimony. We appreciate it very much.
    And if we could, we will move onto Ms. Garcia.
    Oh. I am sorry. We just have you in a different panel, but 
that is fine. We would be more than happy to take your 
testimony right now. Thank you very much. I am sorry.
    Mr. Maxx. I have to sit here with my president.
    Mr. Cole. Well, it is good to do what they tell you to do.
                              ----------                              

                                              Tuesday, May 3, 2011.

        NAVAJO HOPI LAND COMMISSION OFFICE OF THE NAVAJO NATION


                                WITNESS

RAYMOND MAXX

    Mr. Maxx. Chairman and members of the subcommittee, thank 
you for the opportunity. My name is Raymond Maxx. I am an 
executive director of Navajo Hopi Land Commission Office. It is 
an entity of the Navajo Nation. Thank you for the opportunity 
to provide testimony on what is one of the most vexing matters 
in modern federal Indian policy and a true tragedy for the 
Navajo Nation.
    When I was very young, my family lived in District 6, an 
area that was declared exclusively Hopi. Although we had lived 
there for generations, we were forced to leave. At the time the 
Federal Government provided no benefits for moving. We just had 
to move.
    We relocated to the Big Mound Area in what was known as a 
joint use area, owned together by Navajo and Hopi according to 
court decree. In the late 1970s when we had just about 
reestablished ourselves and our livelihood after land a federal 
mediator divided the joint use area, and we found ourselves 
again on Hopi land. We moved to the nearest portion of the 
Navajo Reservation, the Bennett Freeze area.
    I do not think my parents fully understood at the time as a 
matter of federal law you would almost never get permission to 
fix your home in the Bennett Freeze, that you would not make 
additions, that no federal travel or state programs would 
assist your community through building of infrastructure 
essential to the health and well-being of any community.
    As a result, the Bennett Freeze area was locked into the 
poverty of 1966, when the freeze was imposed. The final 
agreement to resolve the travel land dispute and end the freeze 
provided that most of the disputed area belonged to the Navajo 
Nation. For the thousands of Navajo families who lived there 
this means that the freeze served no real purpose other than to 
bring them misery and hardship.
    In his proposed fiscal year 2012 budget President Obama has 
set aside 1.2 million to begin redeveloping the former Bennett 
Freeze area. In the budget justification the Administration 
notes that more than 12,000 Navajo people lived in an area 
where subject to the 41-year freeze on development. During the 
freeze era the Navajo people were prohibited from building new 
homes, schools, health facilities, constructing electricity, 
water, roads, et cetera, and community economic development 
projects.
    While the President's budget request is welcomed, it is 
intended to be spent largely on land use and agricultural 
purposes. While these purposes are important, the number one 
need in this area based on extensive independent study 
completed last year is improving housing. I would propose that 
an additional 5 million in BIA funds be set aside for immediate 
critical housing repairs and construction and that this 
committee direct the BIA and HUD to come by with a larger 
housing construction plan for this area.
    This committee should establish a trust fund for 
reconstruction of the former Bennett Freeze area with an 
initial investment of 10 million. For the former Bennett Freeze 
area to recover, there must be a sustained reconstruction 
program implemented over a decade or more.
    Congress should authorize the Office of Navajo Hopi 
Relocation near to oversee their reconstruction activities with 
the Navajo Nation having the option of assuming control of 
these activities that affect Navajo people and lands as well as 
the option of assuming control of the trust fund proposed 
above.
    Office of Navajo Indian Relocation, we would ask that the 
budget, which in recent years has ranged from 8 to 9 million, 
be increased to 50 percent, increased by 50 percent to 
accelerate the provision of benefits for those many families 
who relocated but have not received their benefits.
    And in conclusion, although the Navajo Hopi land dispute 
and the Bennett Freeze are painful issues, I thank the 
committee for this opportunity to provide testimony on the path 
forward to assure that the many Navajo families who have 
suffered under these federal actions can have hope for a better 
life.
    Thank you, and if you have questions, I am ready to 
respond.
    [The statement of Raymond Maxx follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.015
    
    [GRAPHIC] [TIFF OMITTED] T6982B.016
    
    [GRAPHIC] [TIFF OMITTED] T6982B.017
    
    Mr. Cole. Mr. Maxx, thank you very much for your testimony. 
I think we have heard about this issue before. It has been a 
matter of considerable concern.
    I just have one question before I defer to my colleagues. 
You mentioned the Administration's proposed $1.2 million to 
begin to address the problem. Have there in previous years been 
much in the way of funding to help deal with this freeze issue?
    Mr. Maxx. There has been no federal funding until now with 
this Administration. They are creating a line item to address 
the Bennett Freeze issues, and the Bennett Freeze is like third 
world within the Navajo Nation. We are like 30, 40 years behind 
the mainstream Navajo, and you know, we need help to get back 
on our feet with, you know, support and funding to rehabilitate 
homes and infrastructure.
    Mr. Cole. I just wanted to get into the record that to the 
Administration's credit they have actually proposed doing 
something, and nothing else had been done up to this point, but 
obviously, we have a terrific problem then.
    Mr. Maxx. Uh-huh.
    Mr. Cole. If I could, I will go to Mr. Moran for any 
comments or questions he might have.
    Mr. Moran. On the face of it, it seems probably unjust to 
the Navajo who were displaced. I do not know enough about it to 
offer thoughtful comments, let alone questions. I do intend to 
discuss this with you, though, Mr. Cole, if you do not mind, 
get your perspective but I remember we did do something last 
year, and I do think it is the kind of thing we need to focus 
on and see if we cannot rectify. Thank you.
    Mr. Cole. Absolutely. Mr. Chairman.
    Mr. Simpson. I would just say that I am in the same boat 
that Mr. Moran is. I have tried to understand this and what the 
heck the policies were that created this situation and how we 
get out of it and how we remedy it. It is a subject that, I do 
not know, I need a book or something, a little history book, 
that will give me the basis of how the genesis of all this and 
from that I would then be able to hopefully have a better 
opinion about what is going on, and now we might be able to 
help you solve the problem.
    So if you guys have any information, I read all night long, 
so I would love to sit down and educate myself a little bit 
more about the policies that created this situation.
    Mr. Moran. Well, if Mike is going to read all night long, I 
will just wait until he reads it up, save myself some time.
    Mr. Cole. Mr. Maxx, would you care to comment on either of 
these two remarks just in terms of helping educate the 
committee a little bit?
    Mr. Maxx. The freeze was implemented in 1966, and----
    Mr. Simpson. But why?
    Mr. Cole. There was a dispute between the Hopi and the 
Navajo Nation.
    Mr. Maxx. The land dispute between the Navajo and the 
Hopis.
    Mr. Cole. And it took 41 years to make a decision.
    Mr. Maxx. And through court actions and back and forth the 
two tribes sat down, and, you know, settled the dispute, and 
that was in 2006. Since then, you know, we have been, you know, 
reaching out, you know, for development funds, and you know, 
the people in the area, they have been, you know, in probably 
worse state than depression for 40 years and----
    Mr. Simpson. Because your economic development was frozen?
    Mr. Maxx. Yes. Everything was frozen.
    Mr. Simpson. Until a decision was made?
    Mr. Maxx. Yeah.
    Mr. Calvert. Would the gentleman yield on that for a 
second? When you say frozen, does it mean that the funding 
levels were frozen at a certain amount for a period of time and 
the amounts for your neighbor, the Navajo, the rest of the 
Navajo Nation, had gone up? So, basically you were held at a 
lower amount for a longer period of time and that put you in 
that dire financial situation you were talking about?
    Mr. Maxx. It is not the funding that was frozen. It was 
the----
    Mr. Cole. They were not allowed to construct homes and 
such.
    Mr. Maxx [continuing]. Development.
    Mr. Calvert. It was development?
    Mr. Maxx. Yeah. Even if we were to receive funding, you 
know, we could not develop anything because we had to get 
permission from the Hopi Tribe and federal agencies.
    Mr. Calvert. Thank you.
    Mr. Maxx. Yeah, and I have this information maybe I can 
forward.
    Mr. Calvert. Please do.
    Mr. Maxx. And, you know, distribute it among the committee. 
That would be more information. We also have a bill that we 
would like to get introduced and then some pictures and more 
information that would, you know, address all the phases of the 
land dispute. There is a District 6 and the relocation and then 
the Bennett Freeze, and you know, this bill would, you know, 
encompass the whole, you know, the phases of the land dispute. 
And this land dispute has been going on for over 100 years.
    Mr. Simpson. Is the land dispute resolved now since 2006, 
or whatever it was?
    Mr. Maxx. The Bennett Freeze is resolved, and there is 
still some litigation outstanding in the relocation era, so it 
is almost resolved. Hopefully we can get past that and start 
rebuilding.
    Mr. Cole. Right.
    Mr. Maxx. With the support of the leadership here, you 
know, we can do that.
    Mr. Cole. Mr. Calvert, do you have any additional 
questions?
    Mr. Calvert. No additional questions.
    Mr. Cole. Mr. Flake.
    Mr. Flake. No.
    Mr. Cole. Thank you very much for your testimony, and thank 
you particularly for the submission of the additional 
information. Very helpful.
    Mr. Maxx. Thank you very much.
    Mr. Cole. Thank you. If we could, we are going to bring our 
next two witnesses up together. Martha Garcia and Nancy 
Martine-Alonzo. Thank you. It is good to have you here. I will 
be happy to let you choose who should speak first.
    Ms. Garcia. Okay. I will go first.
    Mr. Cole. Please identify yourself for the record, please.
    Ms. Garcia. Okay.
                              ----------                              

                                             Tuesday, May 3, 2011. 

               RAMAH BAND OF NAVAJO/RAMAH NAVAJO CHAPTER 


                                WITNESS 

MARTHA GARCIA

    Ms. Garcia. My name is Martha Garcia. I am the Ramah Navajo 
Chapter Development Officer. Our President, Rodger Martinez, is 
not able to be here with us today because he has a conflicting 
schedule with the reschedule hearing date, but thank you for 
the opportunity. Mr. Chair, Mr. Simpson, and members of this 
committee, I am just really happy for me to come before almost 
a full committee. Over the years I have been coming here and 
presenting testimony, and this is the first time that I am 
really honored to be presenting before five members of this 
committee.
    Today I am focusing on the need for additional fundings to 
address the unmet needs of our Ramah Navajo community, and our 
needs as we have presented earlier $2,670,610 is our need, but 
then between the rescheduled dates, the Bureau of Indian 
Affairs came in and started working with us, so that has come 
down to $2,400,000 plus, so it pays to make that extra effort 
to come before the committee and work with you.
    So I just have to request the first one is the Bureau of 
Indian Affairs Office of Justice Service funding for the 
operations and maintenance of the detention facilities. Ramah 
Navajo Chapter has been submitting proposals over the years 
requesting for construction funds to build a detention 
facility. Our law enforcement detention center has been about 
the size of this room for many years since the '70s, and 
finally when the ARRA Fund came through we were very much 
surprised and very happy to have received an award of $3.8 
million to construct a detention facility. And it will be 
completed in the year 2012, which is only a year away.
    But in the meantime now we need to staff the new detention 
facilities, and that is our request. It is a startup cost to 
pay for the equipment, furniture, and whatever that is needed 
to put the detention facilities up to standard and also to 
staff that. We would need to staff that, so there is a one-time 
funding request and then a recurring fund, and I know that 
within the budget request there is an increase being proposed 
of $10.4 million to address the need to staff many detention 
facilities across the Indian Country.
    And we would like to ensure that our request, and we 
support that effort to have this done so that we can be part of 
that, and our request is at $1.8 million, and in regard to that 
part of it, we hope that it would become a recurring fund so we 
would continue to maintain and operate the detention 
facilities.
    Our second request that we have been coming here for and 
slowly we are making progress is to fund the Natural Resources 
Training Facilities in the amount of $600,000. It was more in 
the previous year. We were very fortunate that we were able to 
get $150,000 from the State of New Mexico over a year ago. This 
past year we were not very fortunate because they also had 
budget problems.
    But with that we are able to at least construct the 
framework of the training facilities, and we just need to have 
it completed, and then we are also asking, again, for increase 
in the staff for the operation, which is a trust responsibility 
of the Federal Government, and we have been working very 
closely with our local BIA agency to implement the program as 
it is needed.
    And the last request that I was going to make, that has 
been fulfilled and it is in process, and that is also to put in 
a building, replace the building that real estate and natural 
resources have been using for over 30 years, and it previously 
was used by the Bureau of Indian Affairs when they were running 
the programs. But now we are having a building being brought in 
and be set up, and we will have that implemented and run a full 
service as we would like to see it done. We have had some 
issues and problems because of the current building. It cannot 
accommodate wireless services and all that, but now we are able 
to do that and be able to put in the service so that we can 
have closer ties with the central and our title plant in 
Albuquerque.
    So that has worked out, and I would like to thank Congress 
for helping us over the years. There has been many positive 
exchange that has happened, and starting back in the '70s, and 
I remember coming before the committee at the time and been 
doing that for a number of years, and I have seen many positive 
results that has truly benefited our people out there.
    So with that I thank you.
    [The statement of Martha Garcia follows:] 

    [GRAPHIC] [TIFF OMITTED] T6982B.018
    
    [GRAPHIC] [TIFF OMITTED] T6982B.019
    
    [GRAPHIC] [TIFF OMITTED] T6982B.020
    
    [GRAPHIC] [TIFF OMITTED] T6982B.021
    
    Mr. Cole. Thank you for your testimony.
    Ms. Martine-Alonzo. I love those squash blossoms. They are 
gorgeous.
                              ----------                              

                                              Tuesday, May 3, 2011.

                       RAMAH NAVAJO SCHOOL BOARD


                                WITNESS

NANCY MARTINE-ALONZO

    Ms. Martine-Alonzo. Thank you very much. Mr. Chair, Mr. 
Simpson, and members of the subcommittee, my name is Nancy 
Martine-Alonzo. I am President of the Ramah Navajo School 
Board, and we have been in operation for 41 years, and we 
started out almost with direct Congressional funding, so I 
thank you on behalf of our community for all the years that we 
have been able to benefit from that. We have graduated over 800 
students, and many of our students have gone on to become very 
successful doctors, lawyers, CPAs, and all walks of life, and 
it is truly a blessing to see that.
    We are here to speak on several priorities that we have, 
but the number one need that we have is our ARRA Funding was 
appropriated to repair and maintain one of the elementary 
buildings, and in the process of that project we uncovered 
structural damage from water, damage from black mold, and also 
termites in the building. And so the building needs to be 
replaced now.
    However, you have heard other testimonies that talked about 
the lack of construction dollars, and so we are here to request 
that you consider approving and putting construction dollars 
back in the funding, and we need about $5.6 million for that 
elementary school. Right now our children are displaced. They 
are using some of the middle school and high school for 
classroom spaces, and so we are in very tight quarters, and we 
operated that way for a year, and we really would like to be 
able to put our children back in appropriate classroom 
settings.
    The second funding need that we have is for water and 
sewer. Our facilities are over 35 years old and over the years 
we have expanded our facilities, and so there is more consumers 
on the water and the sewer system and just due to the aging 
material, you know, we need to replace and update all of the 
infrastructure that is there, and so our request is for $2.5 
million to take care of that.
    And then in addition to that we also are requesting $3.5 
million for our elderly community center. We know that we have 
a large population of elderly who need more care now in their 
later years, and many of them do not wish to be sent to nursing 
homes outside the communities. And so one of the solutions is 
to have a community center where we can provide more or less 
part-time daycare for some of our elders where they can receive 
kind of a one-stop service for their health and for other 
needs. And so that is something that is a priority as well.
    In addition to that, we are just asking for continued 
support and funding for the ISEP dollars, the money that is 
dedicated for the core education programs and the 638 contract 
schools, and we also are in need of the indirect costs because 
we do need funds to be able to operate our schools and operate 
our clinics and all of the 638 projects that we have we have 
not received, you know, the full 100 percent funding for that. 
We have received about 50 or 60 percent every year, and we 
would like to see that move up to a higher number. Of course, 
eventually 100 percent because that was the law, but we have 
not realized that for a long, long time.
    We are also asking for funding for the tribal schools. We 
have a lot of young people that do not belong to colleges, but 
they do go to our tribal colleges for vocational or for two-
year programs, and that is a real critical need. So any funding 
that you can provide in the area to continue the support of our 
young people so that they can, in turn, become productive 
citizens of our tribal reservations as well as the global 
society, we would really appreciate that.
    And so we thank you for all of these, and we provided 
written testimony. We have also provided additional documents 
explaining all of the areas in detail. So thank you very much.
    [The statement of Nancy Martine-Alonzo follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.022
    
    [GRAPHIC] [TIFF OMITTED] T6982B.023
    
    [GRAPHIC] [TIFF OMITTED] T6982B.024
    
    [GRAPHIC] [TIFF OMITTED] T6982B.025
    
    Mr. Cole. Thank you for your testimony. I actually have no 
questions.
    Mr. Moran.
    Mr. Moran. No. I am fine. Thank you.
    Mr. Simpson. Just out of curiosity, the committee 
appropriates money in general categories for, say, school 
construction. Any idea where the elementary school you are 
talking about that you need $5.4 million I think you said for, 
where that would fall?
    I assume the BIA has a priority list for school 
construction.
    Ms. Martine-Alonzo. Yes.
    Mr. Simpson. Any idea where that falls within that priority 
list and what it would take to get to that level?
    Ms. Martine-Alonzo. Our elementary school is pretty high on 
the repair and maintenance. That is why we were able to get the 
ARRA dollars, but at the time it was not determined for a 
replacement. And so it was not on the list anywhere up at least 
the top, and you have been funding, I think you have ten more 
that you have slated to fund, and that is still in progress. I 
think four of them are still in the pipeline.
    But you had committee work that has been going on now for 
about maybe 18 months where there is a committee that is 
working on criteria for reassessing the schools and putting 
them in another priority listing, and more than likely our 
school would not rise to that because we probably do not fit in 
any of that category because these conditions were discovered 
through the error, through the repair and maintenance process. 
And so it is not anywhere neatly on a list anywhere.
    So the only way that it could get done is if you were able 
to ask the BIA and asking them to focus on that school, what 
the status is, and what did they need, because when we talked 
to BIA on it, we have been working with them because that is 
what ARRA funds require us to do is to work closely with them. 
We have a year's time to finish all the projects. We are slated 
to finish by May 31, and we are pretty much on schedule to do 
that.
    And so in doing that the BIA has said we do not have any 
new construction dollars immediately in this budget or in the 
next budget, and we do not have any other ARRA funds that are 
coming back as surplus anywhere. So we just really do not have 
any answers for you, and the jury is still out on whether or 
not we will get our building repaired right away, I mean, 
replaced right away.
    And that is why our only option is to come to this 
committee to see if you could help us with that. Thank you.
    Mr. Simpson. I appreciate that. It is true not only with 
school construction but with detention facilities and other 
justice facilities that we put things in a category when we 
appropriate money, and sometimes there are needs out there that 
if you are not on that priority list or in a certain place, 
even if we increased money for that fund, it might not get down 
to you.
    Ms. Martine-Alonzo. Yes.
    Mr. Simpson. So I appreciate your testimony. Thank you.
    Ms. Martine-Alonzo. Thank you.
    Mr. Cole. There must be other cases like this where ARRA 
funding----
    Mr. Simpson. I suspect they are all over.
    Mr. Cole  [continuing]. Found places that we thought we 
could repair and then learned later that we could not. That 
would be something worth checking into from an administration 
standpoint, if they are running into this problem elsewhere 
because I would suspect your situation is not totally unique.
    Ms. Martine-Alonzo. I am sure.
    Mr. Simpson. Well, and the other thing we found, Mr. 
Chairman, is that as you well know, some of the ARRA funding 
did construction for some things, it does not do any good to do 
construction if you do not have the resources to actually put 
the personnel in the justice center or in the health clinic or 
whatever you have built out there, and that is some of the 
challenges we are facing.
    Mr. Calvert. Just one comment, Mr. Chairman. Excuse me. Go 
ahead, Mr. Moran.
    Mr. Cole. Well, Mr. Moran has already had his time, but Ms. 
McCollum just arrived and has not had an opportunity, so I 
wanted to go to her next.
    Ms. McCollum. Well, thank you, and I just got back from the 
State Department where we were talking about maternal child 
health internationally and I said there are some things we can 
do for women right here in this country, and I fully engaged 
members of the panel to talk about what we can do for maternal 
child health.
    But you are here on school construction right now, and I do 
have a question. I know that there has been a survey that has 
taken place on some of the Navajo reservation land with the 
uranium dust, and is the school in that belt or that zone where 
there has been some observation and reexamination of radiation 
contaminant from the mining?
    Ms. Martine-Alonzo. The Ramah Navajo reservation land is 60 
miles from grants from the area where the uranium mining has 
taken place.
    Ms. McCollum. Okay. So Mr. Chair, I was just wondering if 
that was also on impact, that this school was looking at. I was 
being creative in other ways that we might approach other 
people for help.
    Thank you.
    Mr. Cole. Thank you. Mr. Calvert.
    Mr. Calvert. Just a comment. You know, property manager, 
sometimes when you do not spend the money on repair and 
maintenance over the years and you build up this maintenance 
criteria to the point where you cannot fix it anymore, I 
suspect that this is going on throughout the BIA management 
community.
    Ms. Martine-Alonzo. In many cases, yes. Uh-huh.
    Mr. Calvert. And there are probably a lot of facilities 
could have been enjoyed for a further period of time if, in 
fact, they had gone ahead and upheld their obligation to do the 
repairs and the maintenance in a timely fashion. So we end up 
spending a lot more money because we do not do the maintenance 
and the operations in the first place.
    And since the gentlelady brought up uranium, I was just 
curious, do the Navajo Nation enjoy a particular royalty from 
that mining? Are there any benefits from that at all that you 
get? Is that on Navajo property?
    Ms. Martine-Alonzo. I would defer that question to 
President Shelly if he is still in the house.
    Ms. McCollum. Mr. Chair, for the most part I would say a 
big no. They have had water pollution, they have had housing 
issues with dust moving forward, and might be something that 
the Chairman and Mr. Cole, at some point we can get an update.
    We worked with the Bush Administration in government reform 
to get everybody in the room talking to each other, because 
everybody was pointing the agency finger about who was 
responsible for the cleanup, and that is why I was wondering if 
the school was impacted, but I would say for the most part it 
is a big not positive for the Navajo reservation, but they 
should speak for themselves.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Cole. Mr. Flake.
    Mr. Flake. No questions.
    Mr. Cole. Thank you, ladies, for your testimony. Appreciate 
it very much.
    Ms. Martine-Alonzo. Thank you very much.
    Mr. Cole. Mr. Honyaoma, Todd, Vice President of the Native 
American Grant School Association. Good to see you.
    Mr. Honyaoma. How are you?
    Mr. Cole. Very good.
                              ----------                              

                                              Tuesday, May 3, 2011.

                NATIVE AMERICAN GRANT SCHOOL ASSOCIATION


                                WITNESS

TODD HONYAOMA

    Mr. Honyaoma. Good morning, Honorable Chairman Simpson and 
Chairman Cole, and honorable members of the committee.
    My name is Todd Honyaoma. I am a Hopi Tribal member, member 
of the Spider Clan as you can see. I am President of Hotevilla-
Bacavi Community School located on the Hopi Indian Reservation 
east of Flagstaff, and I am the former Vice Chairman of the 
Hopi Tribe also. And I have here with me my big man, my body 
guard, Jeff Mike from Navajo Nation, Pinon Community School.
    I serve as the Executive Board of Vice President for Native 
American Grant School Association. We consist of 17 school 
members throughout the southwest, including Navajo Nation in 
Arizona, New Mexico, Hopi Nation, White Mountain Apache, and 
also the Gila River Pima tribes would consist of those schools, 
grant schools.
    I am here today to present NAGSA's statement to draw 
Congressional attention to the impacts of declining under-
funding of BIA-funded schools, especially our grossly-under-
funded travel grant support costs.
    In the fiscal year 2012 proposed budget on travel-operated 
schools the United States Government has a binding treaty, 
trust responsibility, and a legal obligation to educate all 
Native American children forever. The right to attend good 
schools should be the birthright of every child in America. The 
government recognizes that it would provide the highest quality 
education and basic necessities to Indian tribes forever.
    We are expressing our concern about the current budgeting 
crisis affecting all federal agencies and particularly to 
address the impact of potential budgeting shortfalls on BIA-
funded schools such as our member schools.
    Travel grant support costs. We were promised 100 percent 
funding, formerly known as the Administrative Cost Grant, to 
cover the operation or indirect costs for the operation of our 
schools. This funding is applied to the cost of schools for 
administrators, business management, human resources 
department, payroll, accounting, insurance, background checks, 
other legal reporting, recordkeeping requirements, including 
annual audits.
    We receive only 61 percent of our administrative costs. 
Some other tribal contractors such as Indian Health Service, 
IHS, receive a higher percentage. Now, why are we different?
    We want full funding. If you were to fund us tomorrow, we 
would ask for 72 million. Transportation, dirt roads, as you 
may know, Hopi, Navajo, we operate our busses on nothing but 
dirt roads. The majority of our roads are dirt roads, and when 
it gets muddy, it gets muddy, a foot deep. We bus our students 
long distances, 20, 30 miles on dirt roads. Let us set up 
after-school activity bus runs, and with high fuel costs today 
in Hopi we have our average $4.15 a gallon at this point. 
Diesel is a whole lot different story for buses. If we were to 
be funded tomorrow, we would ask for 61 million in that area.
    New school replacements. Our school is over 60 plus years 
old. When you sit in there, there is cracks in the walls. You 
can sit in there, and you can see right outside the wall on the 
other side. I usually jokingly say if there is a social dance, 
you can kick back in the school and watch them dance on the 
other side. That is how big the cracks are.
    Asbestos is another issue. We had a lot of patchwork done 
to our school. We could go down the hallway, there is asbestos 
in there, but sheetrock is covering it right at this point, and 
that is very dangerous for our students.
    New school construction was zeroed out. We would like this 
to be restored. NCAI, National Congress of American Indians, in 
its budget fiscal year 2012 budget request estimated that it 
would take 2.4 million just to keep pace with the growing need 
for facility construction and repairs, but we are only asking 
that you restore 61 million at this time.
    In closing, you promised us that you would be solely 
responsible for funding Native American schools at their 
highest quality. You are not coming close to keeping that 
promise. This promise has been broken. We are not asking for 
Welfare entitlement or any such thing. We are asking the 
Federal Government to honor their past due, and this is past 
due treaties, agreement, declarations, Presidential 
declarations that we have done.
    And with that I want to bless you all. May the Creator 
bless everybody, all of us here today.
    [The statement of Todd Honyaoma follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.026
    
    [GRAPHIC] [TIFF OMITTED] T6982B.027
    
    [GRAPHIC] [TIFF OMITTED] T6982B.028
    
    [GRAPHIC] [TIFF OMITTED] T6982B.029
    
    Mr. Honyaoma. I am going to put the floor over, give him 
the floor. Do you have anything to say?
    Mr. Mike. Well, I just wanted to say good morning to 
Chairman Cole, Chairman Simpson, and the members of the 
subcommittee here, and I just wanted to go ahead and follow up 
on Mr. Honyaoma here based on his testimony here that we do 
rely on the Federal Government quite a bit for our educational 
needs, but that is only because it states that in the NCLB, No 
Child Left Behind.
    And it also is a trust responsibility that the Federal 
Government has up this point, and we are trying to have the 
Federal Government live up to their responsibility of educating 
our young ones, our Native American children so that we may be 
able to have the same quality education as everybody else in 
the United States of America.
    So I just wanted to follow with Mr. Honyaoma that way. 
Thank you.
    Mr. Cole. Well, thank you both for your testimony. I do 
have a question. It just might be helpful for the committee. I 
would be very interested on what your funding per student is 
versus the average in Arizona. What would be the differential 
for a child going to a BIE school and one that you operated 
versus, you know----
    Mr. Honyaoma. Currently right now we are sort of like 
fluctuating back and forth because of the rolling average.
    Mr. Cole. Uh-huh.
    Mr. Honyaoma. They are considering per capita versus ADM, 
average daily membership count that we used to have. BIA is 
still trying to figure out what they want to do, and they are 
the one that does the figures to the tribes. And we are doing 
ours, but we still think that BIA should be the one to come up 
with a policy of some sort. Okay. This is what we are going to 
go under, but they are throwing things at us, and we are saying 
that, no, it is no use. It is good that we have the 
opportunity, but when it comes to the Bureau, I do not know 
where it goes. I am pretty sure it never gets here, which I 
hate to say.
    But I sat on a transportation committee for the Hopi Tribe, 
and we understand some green book does all the evaluations and 
all the reports. That never makes it to Congress. So my 
thoughts are after seeing that everything that we do on tribal 
nations through the Bureau never gets to the highest. Maybe 
that is the reason why we are getting real low funding.
    Mr. Cole. Again, if you can help us on this with the staff, 
I would love just to see the difference on a roughly per-pupil 
basis what the funding that the children that are going to the 
schools you are talking about are getting and what, you know, 
in the broader community a statewide average would be. Just 
make it very striking what the difference is.
    Mr. Honyaoma. And we submitted a package. It should be in 
there. If not, we will follow right back up as soon as possible 
with those figures for your information.
    Mr. Cole. Yes. Please do.
    Mr. Honyaoma. Yes. With the other states comparison.
    Mr. Cole. Thank you. Ms. McCollum.
    Ms. McCollum. That is a great question. It really is, and 
different states have different pockets of money the way that 
they calculate it. I know in Minnesota we took transportation 
out of the per-pupil unit to account for it differently, and as 
states have cut their budgets, they have often cut their 
transportation budgets, but you cannot cut your transportation 
budget.
    Mr. Honyaoma. No, we cannot.
    Ms. McCollum. You cannot start telling kids even though 
roads are dangerous to walk because it is too far. Could you 
maybe comment for a second on Head Start and your interactions 
with Head Start Programs, which is funded in a different pot of 
money than this committee has but maybe the impact of Head 
Start, lack of Head Start, waiting list to Head Start to give 
the children that you serve a boost when they start in the 
traditional grade schools?
    Mr. Honyaoma. Well, in the past I will put myself back in 
my former vice chairman role in the Hopi Tribe.
    Ms. McCollum. That is why I figured I could ask you.
    Mr. Honyaoma. But what we did was Head Start is completely 
different from first grade on up to eighth grade. So they had 
their own pot of funding, and the director of the Head Start 
monitored all of those programs, but what money that we had 
available from the Hopi Tribe as a whole and that was not used 
for other things, like for example, transportation, teacher, we 
are very bad with buildings. Our Hopi Reservation consists of 
nothing but trailers for Head Start, and that was very back. 
They were falling apart. So we ended up having to foot their 
bills, and we tried asking the Bureau to supplement or 
replenish us back what we have tried to put out, but so far 
until the day I got out of office we have never got anything 
back.
    And that hurts me because that is our roots. Head Start is 
our roots of the foundation of our lives. They are the ones 
that are going to lead us into the future, and I think we need 
to focus a lot of our attention on that and our veterans. We 
had talked about that today, because if it was not for them, we 
would not be here in this free country.
    Ms. McCollum. Thank you.
    Mr. Honyaoma. But there is a lot to do with that.
    Ms. McCollum. Thank you, Mr. Chair. I bring this up because 
I and I am sure you have had some of the same conversations, 
monies that the tribes might have put into schools where we 
were short, where the Federal Government was short on the 
funding, they struggled between do we put it into Head Start, 
or do we put it into traditional K-12, and when you know how 
important Head Start is, early childhood with all the 
information coming out, it is starting to become even a deeper, 
deeper struggle for many of the Native American communities.
    Thank you, Mr. Chair.
    Mr. Honyaoma. And it is affecting all the tribes.
    Mr. Cole. Thank you. Mr. Chairman.
    Mr. Simpson. No.
    Mr. Cole. Mr. Calvert.
    Mr. Calvert. Not at this time, but thank you.
    Mr. Cole. Mr. Flake.
    Mr. Flake. Yes, sir. With regard to limited funding again, 
in Arizona there is a mix of funding that goes to a lot of 
these schools you are referring to. Is there any state funding 
that is pulled down?
    Mr. Honyaoma. No. As far as I am concerned there is no 
state funding. It is nothing but Bureau operated, but I can 
tell you this. Back when I was in office we had a situation 
with our state. They were accusing us of double-dipping because 
states had competitive funding, grant funding, and we applied 
for that as schools. We got the money, and the state 
legislature started saying, well, you are double-dipping, 
Indian tribes, because you get money from the Federal 
Government, plus you are asking for money from the state.
    But to me they funnel through the same process. Just like 
Federal Highways Administration. Well, it is the state and the 
Bureau, and that is all we were trying to do is take advantage 
of the opportunity for grants to further enhance our education, 
our students, but that was when we were criticized. So, no, we 
do not get anything from the state.
    Mr. Flake. I recall that. That is why I brought it up. So 
you did receive funding for a time under that or not?
    Mr. Honyaoma. Just a short time.
    Mr. Flake. Okay.
    Mr. Honyaoma. And that was it, and after that everything 
closed up.
    Mr. Flake. Okay. Thank you.
    Mr. Cole. There are real problems here just in the sense 
that tribal governments do not have the power to tax. Obviously 
we have very low per capital income anyway, so, I would love to 
see statistics on, the amount of dollars per kid on a 
reservation and the amount of dollars per kid immediately off 
the reservation, because there is a federal trust 
responsibility. I do not know how you could argue we would be 
spending less money on the kids that we are responsible for 
than the state surrounding is putting for its children.
    And yet I am sure you would find out again and again that 
this is not just a minor differential. It would be a factor of 
two or three times in many cases, and there is just no way, 
schools can operate at that kind of disadvantage and be able to 
provide those children with the education that they deserve.
    Mr. Mike. And just to add to what you are saying as far as 
the disparity between the funding, you would have to understand 
the impact of environment that our schools are located and our 
homes are located. Just for our school, Pinon Community School, 
is only a kindergarten school, but we have a residential as 
well, but the kindergarten, we go door to door to their homes 
and bring them in and take them back every day.
    Then on top of that it gets really hard during winter 
season, during seasons where some of these roads become 
impassible. That is where this transportation costs come in, 
and a lot of times it is not enough to cover all of that as far 
as some of our buses, even the four-wheel drive, they are stuck 
halfway in mud ruts, and so we have children on there and kind 
of safety issues, things like that.
    Mr. Cole. I know Chairman Simpson has plans for August and 
later to actually make some trips into Indian Country so the 
committee has a better opportunity to see these things 
firsthand. So hopefully we will have an opportunity sometime in 
the not too distant future to do that, and I know in several 
areas we will.
    Mr. Mike. Well, I welcome you to come over to our area.
    Mr. Cole. I would very much like it. I have had the 
privilege of certainly going through Navajo Country but not in 
official capacity. Just enjoying the beauty of the land but 
honestly seeing the challenges you face geographically, too. 
They are enormous.
    Mr. Mike. Yeah.
    Mr. Honyaoma. And I just wanted to leave you with this, 
that our school, Hotevilla-Bacavi, has been meeting adequate 
yearly progress since its inception in 2000. We just made AYP 
again last year, so with that I would like to invite all of you 
to come out and look at our school and look at our reservation, 
how they look, so you have a better idea.
    But, again, we take this opportunity to thank you for that, 
and we look forward to working with you, and we will get you 
that information as soon as possible.
    Mr. Cole. Thank you very much, and I appreciate your 
testimony. Thank you.
    Mr. Honyaoma. Thank you.
    Mr. Cole. I am going to take chairman's prerogative or 
temporary chairman's prerogative and invite the three 
Oklahomans up here that we have altogether. So Harold Dusty 
Bull and Joy Culbreath and Melanie Knight, if all three of you 
could come.
    If I may, Mr. Chairman, these are three people I know quite 
well because they have certainly been in my office, and they 
represent tribes in my state, and they have been here before, 
before this committee, so I want to thank all three of you for 
being here. I do not know any three people who work harder in 
Indian Country not only for their respective tribes but to 
defend the interests of all tribes and advance them here, and 
they have different things to talk about, so Madame Secretary, 
perhaps we just start with you and work across the line, and if 
you would, just for the benefit of the committee, introduce 
yourself and certainly let them know what your title is with 
the Cherokee Nation and what you do.
    Ms. Knight. Certainly.
                              ----------                              

                                              Tuesday, May 3, 2011.

                            CHEROKEE NATION


                                WITNESS

MELANIE KNIGHT

    Ms. Knight. Thank you, Chairman Cole, Chairman Simpson, 
members of the committee. I am Melanie Knight. I am Secretary 
of State with the Cherokee Nation, and I am here to present on 
behalf of Cherokee Nation today.
    Cherokee Nation just for benefit of those of you that do 
not know us well, we were one of the first tribes to enter a 
treaty with the United States in 1785. Two hundred years later 
we entered into agreements under the Indian Self-Determination 
and Education Assistance Act, which was for us a new era of 
partnership with the United States.
    No single enactment had a more progressive affect on tribes 
and specifically the Cherokee Nation than the Indian Self-
Determination and Education Assistance Act. In three decades we 
have assumed control of many door-opening affairs in Indian 
health service programs, including healthcare, education, law 
enforcement, land and natural resource management, and 
protection. It serves a mechanism to shift back control to the 
Nation in the sovereign light of ours to control and administer 
these essential services, manage our own natural resources, 
control our economic future, and increase self-sufficiency and 
economy as a Nation.
    Presently the Cherokee Nation is thriving in our 14-county 
jurisdiction in Northeast Oklahoma. We have approximately 
305,000 citizens worldwide, and we are the largest employer now 
in Northeast Oklahoma, and we employ 8,500 people there. About 
5,000 of those employees are employed in our various 
businesses, and those businesses range from hospitality, 
information technology, environmental services, and the 
aerospace sector. So we have grown quite a bit since the advent 
of self-determination.
    Strong, cohesive Cherokee communities are also existing and 
help us preserve, adapt, and prosper in today's economic 
climate and help preserve our culture and language in those 
communities.
    So funding for both the Indian Health Service and Bureau of 
Indian Affairs is important to our progress and important to 
help maintain that progress as we move forward. So I will 
discuss just a few of those things today.
    Under our self-governance compact with the United States we 
construct and maintain water lines. We also operate a 
sophisticated network of eight outpatient clinics and also WW 
Hastings Hospital in Tahlequah, Oklahoma. We provide primary 
medical care, dental, optometry, radiology, mammography, 
behavioral health, and health promotion and disease prevention 
services.
    Hastings Hospital in Tahlequah is a 60-bed inpatient 
facility. We have 300,000 outpatient visits in that facility 
each year. We fill over 335,000 prescriptions in that facility 
annually, so it is quite a large workload for one facility.
    The IHS Joint Venture Program has become a very important 
program for us. It demonstrates a shared commitment between the 
Indian Health Service and tribes to help expand facilities in 
Indian Country where otherwise we may not be able to, and it 
has become especially effective in the Oklahoma area. The 
Cherokee Nation and other tribes in Oklahoma have joined 
together to support that this be funded on an annual basis more 
consistently, that we provide adequate funding for the Indian 
Health Service side, which is the program side of the house, 
the tribes commit to build the facility, and that we fully fund 
the contract support costs that go along with that program. It 
helps advance facility building out in Indian Country.
    In addition to the well-documented disparate funding 
between the IHS and other federally-funded health systems, 
funds among the IHS areas are funded equivocally as well. The 
Indian Healthcare Improvement Fund assists us in achieving 
parity among the Indian Health Service areas for funding. We 
join other tribes in recommending that the Indian Healthcare 
Improvement Fund be addressed, be addressed on a time-limited 
basis so that we can raise parity for the Oklahoma area and 
others like it that are among the lowest funded in the Nation.
    Given the deficit in funding for Indian health in general 
we recommend, of course, that all funds appropriated to Indian 
Health Service be specifically exempted from the rescissions 
that may come about during the appropriations process.
    In regard to Bureau of Indian Affairs Services, the Nation, 
of course, operates a full range of those services now from 
Sequoia Schools, child wellness programs, child abuse services, 
adult and higher education, housing, law enforcement, and so 
forth, and these programs since the advent of self-
determination have become important building blocks in us 
achieving self-sufficiency and being able to develop the 
economy of our jurisdiction. So they are important to continue 
to fund those programs.
    One of the most important budgetary issues that is facing 
Indian Country is a severe under-funding of contract support 
costs in both the Bureau of Indian Affairs and Indian Health 
Service. It negatively affects almost every tribe in the United 
States. Nearly every tribe has some form of a contract that is 
negatively affected. The issue is specifically significant 
because each dollar that we do not recover in contract support 
costs which is a legally-required and a cost to be covered 
affects direct programs one for one.
    So if the Nation sustains a shortfall, presently our 
shortfall is about $4.2 million a year, that results in $4.2 
million in direct healthcare that must be diverted to cover 
these costs, because of course, they are fixed costs, must be 
paid. The Nation has no option but to pay them, and so direct 
care is affected by that. The IHS projects a total shortfall of 
153 million. So when you look across the country, $153 million 
in direct care is affected by the failure to fund contract 
support costs.
    In addition, the BIA is under-funded by another $62 
million, so that means funds going to law enforcement, courts, 
and other programs are affected as well.
    Now, I would like to give you just short example of how it 
affects us.
    Mr. Cole. We are running out of time.
    Ms. Knight. Okay. In 2010, we made a little bit of 
progress. We were able to recover an additional $8 million 
based on the increase in contract support cost that was 
approved. With that $8 million it meant 124 jobs, health jobs 
that we were able to hire for our health system, pharmacists, 
healthcare providers, dental staff, and so forth, and that 
generated another $8 million in third-party revenue for our 
health system. So you can see how this has a direct 
relationship on patient care.
    So with that I will wrap up my comments, but thank you for 
your time, and I would be happy to answer any questions you 
have for me today.
    [The statement of Melanie Knight follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.030
    
    [GRAPHIC] [TIFF OMITTED] T6982B.031
    
    [GRAPHIC] [TIFF OMITTED] T6982B.032
    
    [GRAPHIC] [TIFF OMITTED] T6982B.033
    
    Mr. Cole. Thank you, Madam Secretary.
    Ms. Culbreath, good to see you again. I will tell you early 
just to warn you I will be talking with Chief Pyle later today 
about water issues in Oklahoma, and I am going to tell him how 
you do.
    Ms. Culbreath. Tell him I hacked it up.
    Mr. Cole. He will not be surprised.
    Ms. Culbreath. He would appreciate that.
                              ----------                              

                                              Tuesday, May 3, 2011.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

JOY CULBREATH

    Ms. Culbreath. Thank you so much that I could be here 
today. On behalf of Chief Gregory Pyle of the Great Choctaw 
Nation of Oklahoma I bring greetings to the distinguished 
members of this committee. I am Joy Culbreath. I am the 
Executive Director of Education for the Choctaw Nation of 
Oklahoma, and I appreciate this opportunity to appear before 
this committee.
    There are two priorities today. One of them is health. 
Mickey Peercy is our Executive Director of Health. He could not 
be here today, and so I hope you will read the testimony that 
is here for him. Contract health services and contract support 
costs are priorities for the Choctaw Nation, and we have the 
written testimony.
    The support for Jones Academy is what I would like to visit 
with you about today and keep that afresh and on your minds. I 
am here to express our appreciation to you as the committee and 
the members past and present who supported our efforts to 
reestablish the federal trust relationship for Jones Academy 
education through the Bureau of Indian Affairs, BIE, and, BIA.
    We worked together on this correction for decades. This 
happened back in the 1950s. Since the Federal Government 
unilaterally closed the academic programs at Jones Academy and 
Wheelock, both of those were in the Choctaw Nation, we really 
do not know why, created the Jones Academy Boarding Facility 
which required students to go to the local public school.
    The statutory language to rectify this wrong is included in 
the President's fiscal year 2012 budget request. It was also in 
the fiscal year 2011, House committee-passed Interior 
appropriations bill written by this subcommittee. If enacted, 
it finally brings Jones Academy into compliance with the self-
determination policy of the last 30 years. Strongly supported 
by this subcommittee. Most importantly of all it enhances 
future educational opportunities for our students.
    There are so many people here to thank. The list would be 
endless. Mr. Simpson, Mr. Moran, and of course, our own 
Representative, Tom Cole from Okalahoma. I also would like to 
mention Representative Dan Boren, who has, no, not a member of 
this committee, but he has provided extensive guidance and 
support, and then, of course, representatives of the 
Administration, particularly Assistant Secretary Indian Affairs 
Larry EchoHawk. He considered our situation with an open mind 
and an open heart, and he looked at the results of the 
subcommittee-directed report on the history of Jones Academy 
and recommended the budget neutral language under consideration 
in this bill.
    This is a prime example of the ancient Choctaw philosophy 
that issues should be resolved openly and fairly by people of 
goodwill working together. With a new Jones Academy we built a 
brand new facility and opened it just a few years ago totally 
with tribal funds and the dedication of our Choctaw staff. We 
will work tirelessly to affirm your faith in us and especially 
in our students. With your support we look forward to 
continuing the unprecedented achievement record of our 
extraordinary students at Jones Academy.
    We were found to be two years in a row academically the top 
four elementary schools in the State of Oklahoma at Jones 
Academy.
    So on behalf of the Choctaw Nation of Oklahoma and our 
chief we are honored to provide our tribe's views on these 
priorities and respectfully urge your consideration and support 
of these program funding requests in the 2012 budgets for the 
BIA and the IHS.
    [The statement of Joy Culbreath follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.034
    
    [GRAPHIC] [TIFF OMITTED] T6982B.035
    
    [GRAPHIC] [TIFF OMITTED] T6982B.036
    
    Mr. Cole. Thank you for your testimony.
    Ms. Culbreath. Yes.
    Mr. Cole. Harold.
                              ----------                              

                                              Tuesday, May 3, 2011.

                 NATIONAL JOHNSON-O'MALLEY ASSOCIATION


                                WITNESS

HAROLD DUSTY BULL

    Mr. Dusty Bull. Chairman Simpson, Ranking Member Moran, 
Congressman Cole, Congressman Calvert, I am the Director of the 
Blackfeet Johnson-O'Malley Program in Browning, Montana on the 
Blackfeet Indian Reservation. I am here representing the 
National Johnson-O'Malley Association, which is based out of 
Oklahoma. I am the Vice President, and I also have with me the 
President, Virginia Thomas, who is sitting back here.
    We educators in Indian Country are always happy to be in 
your company. If it were not for Congress supporting the 
Johnson-O'Malley Program and the appropriation process, we 
would not be here today. I want to acknowledge Congressman Cole 
from the State of Oklahoma for the many, many years he has 
supported this program. Congressman Cole knows the purpose and 
scope of JOM and how vital and how great the need is in the 
country and throughout this Nation.
    I am here to tell you a little bit about the JOM Program 
and give you an update on our 2012 request and recommendations. 
It has been a very interesting year for JOM at the current 
funding year program. Like many who testified and will be 
testifying before you, it is very hard to plan for the future 
when you do not know what you currently have.
    Johnson-O'Malley was enacted in 1934, to allow the 
Department of Interior to provide assistance to Indians in the 
areas of education and other needs but including relief and 
distress and transition from Indian settings to the general 
population. Seventy-six years later this program is still 
providing this vital, critical service to Indian children who 
most of them live in impoverished communities where their 
unemployment rate runs as high as 70 percent, especially during 
the school year when children need the assistance the most.
    JOM grads provide Indian tribes, school districts, tribal 
organizations, parent committees with supplemental funds to 
provide special educational needs for their children who attend 
public schools, non-sectarian schools from ages three years to 
grade 12. Without JOM dollars Indian children of all academic 
standings would not be able to afford such things as college 
counseling, athletic equipment, after-school tutoring, 
transition programs, musical instruments, scholastic testing 
fees, school supplies, and other basic needs such as cap and 
gowns for graduation.
    Other federal programs such as the Department of Education, 
I want to reiterate this, other federal programs such as the 
Department of Education does not allow for these types of 
activities within their funding. Our program on the Blackfeet 
Reservation funds the basic needs to keep our children in 
school and to keep our parents involved in the education of 
their children.
    If you go back in history, you will understand that the 
education of our children was taken away from our parents. Kids 
were housed in boarding schools and so forth and so on. And so 
that responsibility was taken away. So we are still 
reintroducing that responsibility to our parents.
    Seven percent of the Indian children go to boarding 
schools. Ninety-three percent go to public schools, so it is a 
big job.
    Nationally we are requesting a new student count and to 
lift the freeze on the student count that was enacted in 1995. 
Along with our partners, the National Indian Education 
Association, we are requesting the JOM Program be restored to 
24 million, the amount that was appropriated when the BIA and 
the BIE froze the account in 1995. They froze the account in 
1995, but they did not freeze the money. I wish they would have 
froze the money and not the account. We would be in better 
shape today.
     But last but not least, we want the JOM position to be 
restored here in Washington, DC, so that Indian tribes and 
Congress will have a process to provide the proper information 
we both need to move this program forward and to continue the 
success this program has had for 76 years.
    I am very grateful to be here to testify before you. We 
have submitted written testimony. We are asking for your help 
in regard to our requests and recommendations, and if you have 
any questions, I will be more than happy to answer them at this 
time.
    [The statement of Harold Dusty Bull follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.037
    
    [GRAPHIC] [TIFF OMITTED] T6982B.038
    
    Mr. Cole. Thank you very much for your testimony. I want to 
make a couple of comments, and then we will move because we are 
running behind schedule, and that is more my fault than anybody 
else's, I can assure you.
    Madam Secretary, I just want to thank you for bringing up 
the concept of joint ventures. Again, Mr. Simpson is going to 
be visiting Oklahoma I think some time later this year and a 
number of other members, and that is one of the things we are 
going to make sure he has an opportunity to see. As you know 
Choctaws have a joint venture hospital as well. All our tribes 
have really done a good job when they have got money to match, 
and you will be impressed, Mr. Chairman, when you see how far 
they can stretch the healthcare dollars and bring additional 
things in here.
    So I think this is a real way forward to break some of 
these deadlocks, and honestly, potentially a godsend for the 
tribes that are not fortunate enough and have to rely more 
heavily on Indian healthcare funding. It is very impressive 
what some of these tribes are doing. Certainly what the 
Cherokees are doing is very impressive.
    Ms. Culbreath, I am glad you made the point which I always 
like to make, the Jones Academy deal did not cost the Federal 
Government a dime. This was simply a matter of going back and 
Congressman Boren worked very hard on this, going back and 
recognizing the relationship as it should have been and should 
have never been changed, and it was correcting a historical 
wrong at no expense to the Federal Government. And the Choctaws 
are really to be commended for that.
    And finally, I want to just agree from the chair with what 
you had to say, Harold, about the need to get a new student 
count. The idea that we stopped having students in 1995 and the 
number never changed is a rather convenient budget fiction out 
here, and I also particularly appreciate you making the point 
of how many Native children are not in BIE schools. The reality 
is the vast majority, nine out of ten, are in the public school 
system, and Johnson-O'Malley is one of the few programs that 
actually gives you some flexibility to help those kids where 
they are going to school as opposed to simply BIE schools who 
would certainly have their own needs and need additional 
funding as well.
    But this is one of those programs that is absolutely 
invaluable, and you get a lot of bang for the buck because you 
are building on top of a state appropriation, local 
appropriations that are already there. So I appreciate your 
advocacy and everything you and Virginia have done in this 
regard. It is has just been exceptional.
    Ms. Culbreath. And most of those programs, there is not 
enough money for JOM. I know with the Choctaws with Johnson-
O'Malley that the Nation is putting in like 50 percent of what 
goes to the Johnson-O'Malley students, because we had to either 
cut the program out or cut it in half, and so we use our 
federal funds, and then the Choctaw Nation puts in the other 
half.
    Just like you were talking about our early childhood 
programs, we are second to none. Matter of fact, we have the 
best programs in the State of Oklahoma. We just received the 
award that we met 100 percent of all of the mandates of the 
Federal Government in our Head Start Programs which are 1,700. 
Well, that cannot be met with federal funds. That is totally 
impossible. The tribe puts more money in Head Start than the 
Federal Government does in the Choctaw Nation.
    So those are things that need to be mentioned. I asked the 
lady that came and did our report this past year, audited us, 
do not compare us with other tribes. That is unfair because the 
tribes that cannot put the money into their programs should not 
be compared to a tribe that can have more money from their 
tribe than they do from the Federal Government. We met those 
1,700 requirements 100 percent. Only two tribes in the United 
States. The other tribe had 20-something students. We have 310. 
So that is why I am telling you that the tribes that can, we 
are stepping up to the plate. We are not asking the feds for 
everything, but we are also having to do that, to meet the 
mandates of the Federal Government, which is totally unfair to 
the other tribes.
    Mr. Cole. Now, this goes to a point that Mr. Shelly, 
President Shelly of the Navajo Nation made earlier, how 
important it is for tribes to have sources of revenue beyond 
the Federal Government, and that is hard to do, you know. That 
is very hard to do, but when tribes are able to do that, they 
always take the money and reinvest it back in their people.
    So the things this committee can do beyond just money are 
to try and assist them to be entrepreneurial because I can tell 
you they make money like a private business, and they invest it 
like a government right back in their people.
    So I am sorry, Ms. McCollum, I was kind of on my high horse 
there and so I can turn it over to you for your questions.
    Ms. McCollum. I just echo what you said and the comments 
that you made about reinvesting in people and not comparing 
tribes to tribes, and I know that two leadership tribes in 
Minnesota are successful in gaming but they are also 
diversifying, the Mille Lacs Band and the Shakopee Mdewakanton 
Sioux not only help their own people but they help, as they 
say, their brothers and sisters and cousins in surrounding 
areas, and I know especially in the Dakotas and throughout 
Minnesota, so the reach-out is great.
    I would just like to ask a question about Impact Aid. The 
other appropriations subcommittee I serve on is veterans and 
military construction, which deals with some of the Impact Aid. 
Questions about that also go to the heart of Johnson-O'Malley. 
Would you, for this committee, because I am trying to cobble 
some information together as you can tell through Head Start 
and that, that impact as well, for this committee?
    Mr. Dusty Bull. Well, the Impact Aid Committee was actually 
designed for the military bases at one time because there were 
large military bases, and they were educating students on the 
military bases, and they had no tax base. So that is how that 
came about. Then all of a sudden they realized Indian tribes 
fell under the same category because they had no tax base. They 
had no way to generate revenue to educate the Indian children.
    Okay, and that is how Impact Aid came about, so it is not 
just for Indians on Indian reservations. It is for anybody in 
trust, where the government has land and trust and people live 
there, and they have children to educate. So that is how Impact 
Aid came about.
    The Johnson-O'Malley Program is a simple mental education 
program that is designed to meet the specialized and unique 
educational needs of Indian children, and these funds go 
directly to Indian tribes, and it is kind of a way of us 
practicing our sovereignty in a way, of promoting the education 
of our children, where Impact Aid funds go directly to the 
school districts and to the state process.
    Ms. McCollum. Thank you, and Impact Aid both for our 
military families and for Native American children has not kept 
up with inflation, so that is a cost factor to school districts 
that sometimes have extra transportation costs, and at times if 
Head Start has not been provided, intervention costs.
    Thank you.
    Mr. Dusty Bull. I just wanted to make one more point. 
Impact Aid is in lieu of taxes for those areas.
    Ms. McCollum. Yes.
    Mr. Cole. Absolutely true. Mr. Chairman.
    Mr. Simpson. Thank you. Thank you for your testimony. I 
look forward to seeing you in August. We questioned whether 
August was the right time to go to Oklahoma. Nevertheless, we 
will be there in August, so I look forward to that.
    Harold, let me ask you a question. I do not mean to throw a 
bomb out to you or anything like that, but I have wondered this 
and some people have asked me this. Should the BIE be under the 
Department of Education instead of the Department of the 
Interior?
    Mr. Dusty Bull. Well, because of the trust responsibility 
and the treaties that we have with the United States 
Government, in my opinion I think it should stay where it is.
    Mr. Simpson. Where it is?
    Mr. Dusty Bull. Uh-huh.
    Mr. Simpson. Because those trust responsibilities would not 
diminish. It is how we deliver it. Some people have asked me, 
you know, why is the Department of the Interior trying to run 
Indian schools instead of the Department of Education, which is 
supposed to be the education experts. I do not know. I do not 
have an answer for them, do not know how it originated this way 
or what, and I am not suggesting that that ought to happen. I 
just would like to answer the questions sometimes.
    Mr. Cole. Mr. Chairman, if I may, just a point of 
reference, part of the problem, I do not know if it is a 
problem or not, but just there was no Department of Education 
when Indian schools were set up.
    Mr. Simpson. That is true.
    Mr. Cole. So they were located where Indian affairs were 
administered.
    Ms. Culbreath. If you ask three people, you will get four 
different answers.
    Mr. Simpson. And they do not even have to be attorneys, do 
they?
    Ms. Culbreath. No.
    Mr. Simpson. Thank you.
    Ms. McCollum. Mr. Chair, to that point the Department of 
Education does not build and maintain facilities, so that would 
be a whole new addition onto them. I think what we need are 
better operation and memorandums of understanding that are 
clear as to who has responsibility for what so that people 
cannot walk away from their responsibilities.
    Mr. Cole. Well, the one advantage you would have is to move 
towards some sort of formula funding. I mean, I think the big 
problem always is the disparity between reservation schools and 
the surrounding schools. I have never seen a situation where a 
reservation school was remotely funded as well, and again, that 
is a federal responsibility. So I think there ought to be some 
sort of linkage that requires the Federal Government to match 
in the area what states and localities.
    Then you actually would be providing on a dollar-for-dollar 
basis the kind of education in a given state that the average 
kid is getting, and honestly, the kid on the reservation school 
or BIA school quite often is not getting, through no fault of 
their own.
    Mr. Simpson. You are right, and if the argument is we want 
to do it under the Department of the Interior because they get 
better service, that has not proven to be the case if you are 
looking at it in terms of the quality of schools and stuff.
    Ms. Culbreath. We wrote a letter to Congress. I serve on 
the No Child Left Behind. We wrote a letter to Congress saying 
that you need a better working between BIE and BIA. You might 
want to look at that. We found that one of our biggest problems 
was they did not know whose job it was to do certain things.
    Mr. Simpson. Well, we are never going to help Indian tribes 
across this country address the unemployment, poverty, the 
things that they uniquely face on the reservations if we do not 
do something about the quality of education that they have.
    Mr. Cole. Madam Secretary.
    Ms. Knight. I just wanted to mention that in the 
reauthorization of the education bill, there has been some 
discussion of considering tribal education agencies on the same 
basis as local education agencies for the purposes of formula 
funding from the Department of Education, and I think that 
would be a very positive step, to consider tribes that operate 
education programs in very much the same way as other local 
agencies.
    Mr. Cole. Thank you. Mr. Calvert.
    Mr. Calvert. We should just match the District of Columbia. 
I thank the gentlelady.
    You mentioned the large boarding school. I have one of them 
in my congressional district; the Sherman Indian Institute has 
been there for well over 100 years now. I guess it is only one 
of, what, four or five left in the country of significant size.
    I want to get your feeling about--I, you know, as Mr. 
Simpson, I do not want to throw a bomb but they have changed 
somewhat over the years, and it has certainly been an integral 
part of our community. One of the frustrations for me has been 
that they do not allow flexibility in funding. I have talked to 
Chairman Cole about that where we could bring in outside 
possibilities of income to help offset their operation, 
maintenance accounts, and it seems that they are not falling 
down like a lot of the problems within Indian education 
throughout the country.
    But what is your philosophy about these institutes or these 
boarding schools?
    Mr. Dusty Bull. Well, first of all, boarding schools are 
still necessary across Indian Country because of the ruralness 
and the remoteness of Indian tribes, and you have heard, no 
roads and no access to the educational facilities, so they are 
still necessary, and that is probably why only 7 percent 
attend. Okay? But yet those 7 percent are probably most likely 
students that perhaps would have a hard time getting to a 
regular public school if they were not in place.
    But another thing, too, is that a lot of times we have a 
lot of children who do not have a family base, you know, to 
support them through education. This is why this program is 
important.
    The only problem I have with this program is that it needs 
to go further than just education. It also needs to meet the 
social situations that these children face when they get to 
that school and to keep them there and complete the process of 
their education. That is what I would like to see them do.
    But as far as saying they are totally not needed no more, 
that would not be the case, not at this time and probably not 
in the near future. They are still necessary.
    Mr. Calvert. And that is what I wanted to hear, Mr. 
Chairman, because it seems that the difficulties of these young 
men and women that are going through these large boarding 
schools are still necessary, the few that we have left, and I 
wish we did a better job of operating them, and I think that 
the flexibility that we talked about before we ought to look 
into.
    With that, thank you, Mr. Chairman. Appreciate it.
    Mr. Cole. Thank you very much for your testimony.
    Mr. Coochise, I believe you are next up. It is good to see 
you again.
    Mr. Coochise. Thank you.
    Mr. Cole. Welcome back.
    Mr. Coochise. Good to see you again.
                              ----------                              

                                              Tuesday, May 3, 2011.

                INDEPENDENT REVIEW TEAM ON TRIBAL COURTS


                                WITNESS

ELBRIDGE COOCHISE

    Mr. Coochise. With me is one of my team members, Mr. Ralph 
Gonzales, of the Independent Court Review Team. We have eight 
members of retired judges, attorneys, and court reporters and 
administrators who are in this project to do assessments of 
tribal court.
    First of all, I want to thank you. My name is Elbridge 
Coochise but easier to say Coochise.
    Mr. Cole. I apologize.
    Mr. Coochise. No, but one thing I do want to say, thank you 
very much to the committee for FY '10, increase of $10 million 
added to the courts in Indian Country.
    Just as a kind of summary, there are 300 courts in Indian 
Country right now; 184 are funded by the Bureau of Indian 
Affairs under Interior and BIA. The funding up to now with that 
last increase is 24.7 million. Prior to that it was only about 
11.4 and then the committee added 2.4 in '08, and 2.4 in '09, 
then '10, and fiscal year 2010.
    So but in our five years we have been on the road assessing 
courts that only still means 26 percent federal dollars to 
tribal courts through the system, where we found as low as 
10,800 in one court and then as high as 2.3 million who was 
successful gaming in funding their court system.
    The other issue now is the new law that Congress passed in 
'10 the Tribal Law and Order Act, and that did two things. It 
requires for enhancements in the judges, the prosecutors, and 
attorneys have to, public defenders have to be attorneys who 
are also barred, and most tribes cannot afford that with the 
funding that they get. And it also increased the maximum 
penalties from one year and $5,000 to three years and a little 
higher on the money.
    So we are here to request an additional 10 million be added 
to the fiscal year 2010 base that you had appropriated for, you 
know, $10 million which was a real welcome sight. We were in 
Nevada last week, and we still have courts that do not have 
recording systems that cannot afford judges but maybe every 
three months or a prosecutor who is an attorney or public 
defenders, and so the cost is still there and the other was our 
request for tribal code development in fiscal policy manuals.
    Those are the two areas that we found in the five years 
that we are having to go back and assist, put together court 
procedures manuals to comply with their codes and fiscal policy 
manuals. Those are the two top items that we have had to go in 
and help them draft up in written form.
    So our request is still, again, a second 58.4 million that 
Congress passed in December of 1993. It has never been funded, 
and the only funds is the piece meals that has happened, and 
like I said, now we are 184, and we have another year on the 
contract to assess the 184. The assessments are only those 
courts that get money from BIA through the Department of the 
Interior.
    Then there are other issues that OMB added in there. That 
is the speedy trial issue, and we are finding that that is not 
really a problem because most of them are complying with that.
    And for the tribal courts to maintain their staff they need 
to get increases in salary. So that is our request here. We do 
not work for any particular tribe or court. We are just here to 
help the tribal courts in trying to get resources to operate 
their institutions on the reservations.
    [The statement of Elbridge Coochise follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.039
    
    [GRAPHIC] [TIFF OMITTED] T6982B.040
    
    [GRAPHIC] [TIFF OMITTED] T6982B.041
    
    [GRAPHIC] [TIFF OMITTED] T6982B.042
    
    Mr. Coochise. Mr. Gonzales is here with me as a team 
member, but he also was a former bureaucrat and did a couple of 
surveys while he was in the BIA to try to get resources to 
tribal courts.
    Ralph, do you want----
    Mr. Gonzales. As Judge Coochise points out, there is a 
major shortage of funding on Indian reservations, and it is 
three-tiered. One is 26 percent of the total funding needed 
comes from the Federal Government. The other 74 percent comes 
from tribal governments. But that is not the total need that 
tribal courts have. That is not 100 percent. They still need 
more in order to operate, so whatever you are giving is very 
helpful, but it falls short of what is totally necessary.
    Mr. Cole. Judge, if I could, I just have one question 
before I defer to my colleague. I agree with you. The need for 
funding is very great here. Now that we have had a little bit 
of operation of the Tribal Law and Order Bill and starting to 
see it, do you have any suggestions? None of these things are 
ever perfect. They are also part of a compromise.
    Are there things legislatively in addition to extra funding 
that we ought to be looking at in the tribal law and order area 
from your standpoint?
    Mr. Coochise. Well, I think other than money any act that 
is passed, how to implement it, and that it be done with 
assistance of tribes. The Law and Order Act put some new 
requirements that realistically today cannot be done. There is 
only 70 jails in Indian Country with 300 court systems, so even 
if they wanted to enhance sentencing, you just heard about the 
attention and other issues that there are, I think, four new 
detentions out there that are built, but there is no staffing, 
and they say they do not have the funds to operate those.
    And so it is more or less following up on what has already 
been done and then getting the money to the tribal governments 
to run their justice systems.
    Mr. Cole. Thank you. Ms. McCollum.
    Ms. McCollum. Thank you. We had a discussion about a month 
ago about mutual aid between law enforcement and that can 
really affect a chain of evidence and all the other information 
that come in front of the court.
    To Mr. Cole's question, is this something that we should be 
looking at to help create more opportunities, more trusts, more 
work in the mutual aid between law enforcement agencies, both 
tribal and non-tribal?
    Mr. Coochise. Yeah, I think especially in fiscal year 2010 
when there was appropriation, the new money, the $10 million 
which was really welcome. There was an additional 50 million 
went to law enforcement. They are constantly going--there is a 
disparity. If you increase law enforcement and do not increase 
court, you have a bottleneck situation. So that is what is 
happening with Indian Country.
    And the other issue with Department of Justice funding, 
they are giving grants for cops program and for drug courts. 
And I believe it was GAO just did a report which we looked at 
and said those federal agencies need to talk because we found 
in South Dakota when we did an assessment, one tribe received 
three grants from DoJ, and none of them knew that they had the 
other. You know, each department did not know they gave money. 
So there is no coordination, and that needs to happen between 
the BIA and DoJ so that those funds, whatever they are, can 
work better to the benefit of the tribal justice system.
    Ms. McCollum. Do you have a record of your backlog? I 
actually have my Blackberry out to make a note to get a copy of 
the CRS report if there is one. I haven't read it yet. And any 
GAO reports, and you alluded to one.
    Mr. Coochise. Yeah, the GAO, I submitted it.
    Ms. McCollum. Is that----
    Mr. Coochise. I do not know if you got it. Our last year's 
report and the two places I will have you check is page 2, page 
5 and 21. Two is the 18 courts we reviewed, the assessment and 
their scores, how they are doing. Page 5 is the corrective 
action where we go back in. Those that scored below a certain 
level and help them, and it is on the right-hand column. It 
tells what we have done for them. And then the last two pages, 
21 to 22, is a list of the 79 courts that we have done thus 
far, and we have done 10 of the 18 that we contracted for this 
year already. And so that is what the team has done to date is 
not on the back. And I submitted a copy to Grace so all of you 
guys could get it. Here is just on the last two pages, it looks 
like this.
    Ms. McCollum. Yeah, I am looking at them. So these are only 
the courts that you have had an opportunity to survey?
    Mr. Coochise. Yes, to do assessments.
    Ms. McCollum. This probably is not fair because everybody 
is in a different spot where they are with the tribal courts 
and the tribal justice and the cooperation between state and 
federal, everyone is different. But would you say on average, 
for percentage of population, that there is a 15 percent 
backlog, 25 percent backlog?
    Mr. Coochise. I think the larger courts have a backlog 
problem of around 20 percent. The smaller ones, even though 
they can only hold court like--last week in Nevada, they only 
hold court like maybe every second or third month because they 
do not have the funds to pay a judge to come in. Then they have 
to do all of it in one day, and they have a higher backlog, and 
then there are others who do not have because they just put it 
through and whoever the prosecutor or public defender seems to 
work it out so that not as many cases get hung up on it.
    Ms. McCollum. Okay. Thank you.
    Mr. Cole. Thank you very much for your testimony.
    Mr. Coochise. Well, thank you again. Again, to Mr. Simpson, 
we really thank you for the additional $10 million you 
appropriated last year to tribal courts. It is helpful and we 
know that our court systems out there need the financial 
assistance. Thank you very much.
    Mr. Cole. Thank you. Next I am going to call on 
Representative Berg, if I can. I understand you are going to 
introduce the next panel for us, so please, all of you from the 
Dakotas that are testifying, come on up, and Rick is kind of 
the Master of Ceremonies here I guess.
    Welcome, and if I can, I am going to recognize you, Rick, 
first so you can make the appropriate introductions.
    Mr. Berg. Well, thank you, Mr. Chairman. Really, it is a 
great honor here today to introduce some fellow North Dakotans, 
and I would like to start with Dr. David Gipp. Since 1977, he 
served as the President of the United Tribes Technical College, 
and he has really become a leader. Maybe everyone does not want 
to hear me. He has become a leader really in North Dakota in 
the Native American community. One message that he has gotten 
to people in North Dakota that I want to share, and these are 
his quotes, ``We must do for ourselves what no one else can do 
and take control of our own destinies by making our own 
decisions and taking action to improve our lives.'' So Dr. 
Gipp, I admire your passion and all your efforts for building 
up what you have done with UTTC in North Dakota. Dr. Gipp is a 
former student, so I will introduce Russ and then also I want 
to recognize Dave Archambault from Standing Rock. Also thanks. 
You are admitted by many, and I appreciate your being out here, 
so thank you.
    Chairman Yelbert, I guess we have not had a chance to get 
to know each other in South Dakota, but there is a bond between 
North Dakota and South Dakota. So I will give Kristy Nome a 
hard time for not being here to introduce you guys. Thank you, 
Mr. Chairman.
    Mr. Cole. Rick, thank you, and I just want to tell all of 
you here, thank you for the great member you sent us from North 
Dakota. He is very knowledgeable on Indian Country and Indian 
affairs. That is not always the case with new members. He has 
been a terrific help and a great ally on a lot of these issues. 
So just again, thank you for sending us a member of such great 
quality and honestly, great interest in these issues.
    I suppose the easiest thing is to start at one end and work 
through on the testimony. So Chief, if we could begin with you 
and if you would pull the microphone down there toward you so 
we can all hear your testimony, we will go through and then we 
will open it up for questions.
                              ----------                              

                                             Tuesday, May 3, 2011. 

                    INTER-TRIBAL BISON COOPERATIVE 


                                WITNESS 

ERVIN CARLSON

    Mr. Carlson. Good morning, Mr. Chairman, and members of the 
Committee. Thank you for this opportunity you have given me to 
provide testimony today on behalf of the Inter Tribal Buffalo 
Council. I have also submitted the written testimony.
    My name is Ervin Carlson. I am a member of the Blackfeet 
Tribe in Montana. I am the President of the Inter Tribal 
Buffalo Council. Just a little history on ITBC, ITBC consists 
of 57 tribes across 19 states, and recently we reorganized as a 
federally charted Indian organization under Section 17 of the 
Indian Reorganization Act.
    In 1991, ITBC was established by seven tribes with less 
than 1,600 animals, collectively, for the purpose of restoring 
buffalo to the Indian lands. With federal assistance, tribes 
now have grown to 52 herds with over 17,000 buffalo on our 
lands. As you know, buffalo historically sustained Indians on 
this continent, and ITBC believed that reestablishing this 
cultural and spiritual connection would benefit both buffalo 
and Indian tribes.
    I am here today to request $3 million to allow ITBC to 
continue with buffalo restoration and herd maintenance, pursue 
economic development through marketing initiatives and 
implement health initiatives that will restore buffalo to the 
diets of Indian people.
    ITBC is one of the few federally funded programs that 
actually passes the money directly out to tribes. Our unmet 
needs are $10 million-plus, and these needs that we have is for 
our infrastructure, fencing, water development, staff for our 
tribes.
    Presently ITBC is in the 2012 budget for $1.4 million. A $3 
million increase will restore ITBC back to the 2006 levels that 
we were once at, and that was not where we need to be but it 
sure helped the tribes a lot more at that level, and we have 
recently gone down.
    Restoration and herd maintenance, today ITBC members have 
52 herds that are of various sizes and various stages of 
sustainability. Federal funding is very critical to continue 
buffalo restoration to Indian lands and to successfully 
maintain herds.
    Indian lands are native to buffalo and tribes, and tribes 
have been successful at restoration. However, ITBC provides 
critically needed technical assistance such as range 
management, management plans, buffalo health assessments and as 
I mentioned before, all the infrastructure needs.
    Buffalo have developed a new Indian Country industry. ITBC 
grants to tribes for buffalo management, creates jobs on 
reservations with extreme unemployment. Additionally, tribes 
are utilizing buffalo for economic opportunities.
    With additional funding ITBC could assist tribes in 
establishing markets, develop marketing techniques and 
strategies. ITBC had to end its previous efforts through health 
initiatives due to funding cuts. Additional funding will allow 
ITBC to undertake efforts to restore buffalo into the diets of 
the Indian populations. ITBC would provide education to 
reservation populations on the health benefits of buffalo and 
also promote local slaughter and processing opportunities.
    Presently, few opportunities for local slaughter exist in 
Indian Country. With funding ITBC hopes it might obtain a 
mobile slaughter facility to allow field slaughter and the use 
of buffalo products by local communities.
    The buffalo were real important I guess to our diet. We 
were doing a health initiative with the additional funding that 
we had I guess in 2006 and reeducating our people back to the 
health benefits of eating buffalo. At one time, that is all we 
had for our diets, and we were free from diabetes. As you know, 
diabetes is rampant in Indian Country nowadays, heart disease, 
and we have gone away from eating those healthy foods. We were 
I guess brought away from that, and now we are teaching our 
people to come back to that, along with the restoration of 
buffalo to the Indian Country.
    Economic opportunities, you know, buffalo is becoming very, 
very popular nowadays. So there are some economic opportunities 
also for tribes. And I will say that, you know, our tribes are 
at different stages right now. Some are looking toward the 
herds big enough for economic development, some are just 
sustaining with the land base they have. But they can help our 
Indian people in a whole new way as they did in the past. In 
the past, they were everything for Indian people. They were our 
clothing, our lodging, our tools, and today they help us in a 
different way.
    So ITBC is here to help tribes in whatever way they can 
prosper from the buffalo herds that are within the Indian 
nations.
    So with that, I thank you for your careful and diligent 
consideration of, you know, additional funding for ITBC and 
restore back to where we were once before, and it would be I 
guess a kind of waste for the prior funding if we couldn't 
continue and enhance the programs that we have built with the 
tribes, you know, until now.
    [The statement of Ervin Carlson follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.043
    
    [GRAPHIC] [TIFF OMITTED] T6982B.044
    
    [GRAPHIC] [TIFF OMITTED] T6982B.045
    
    [GRAPHIC] [TIFF OMITTED] T6982B.046
    
    [GRAPHIC] [TIFF OMITTED] T6982B.047
    
    Mr. Cole. Thank you, Mr. President. I am sorry about the 
misidentification a moment ago. If you guys can, there is a 
clock there to sort of keep an eye on. It is tough when you are 
as far away as you are. So we will try and make that a little 
bit more visible for everybody.
    Mr. Carlson. Well, we just kind of operate on Indian time 
anyway.
    Mr. Cole. You were pretty close on. You were not very far 
off.
    Mr. Carlson. Last time I was here testifying I walked up 
and I put my hat over the----
    Mr. Cole. Simpson usually makes cracks about Indian time, 
and I do not allow any of those when I am in the chair.
    Mr. Carlson. Well, I noticed anyway because we were way 
behind. It is kind of back to this time where it should have 
been when we were first going to have the hearing, so now they 
said 10:30 so I guess we are all----
    Mr. Cole. We are going to blame it on Representative Berg. 
He was late showing up.
    Mr. Carlson. So if you have any questions, you know, I am 
happy to answer those.
    Mr. Cole. We will. We are going to go through the testimony 
first so we make sure everybody has an opportunity to say what 
they want to, and then we will go to questions, okay?
                              ----------                              

                                             Tuesday, May 3, 2011. 

                          OGLALA SIOUX TRIBE 


                                WITNESS 

JOHN YELLOW BIRD STEELE

    Mr. Steele. My name is John Yellow Bird Steele. I am the 
President of the Oglala Sioux Tribe in South Dakota. I came, 
Congressman, to tell you a little bit about the relationship 
between the United States Government and our Indian nations. I 
know, Mr. Cole, you are a member of the Chickasaw Nation. Ms. 
McCollum, you are very well-versed on our Indian issues. Mr. 
Simpson, I know you are pretty close to us there, but I would 
like to address some of the stuff that I heard a little before. 
The veterans. I was in Vietnam for 2 years, Vietnam veteran. 
And we do have a veteran clinic on Pine Ridge and a veteran 
homeless shelter that is full. We need more veteran homeless 
shelter space.
    But I would say that the veterans coming from Iraq and 
Afghanistan are quite similar to the Vietnam veterans. The 
drugs that are there, not knowing who the enemy is, situations 
happen there. And it is very heavy on the mental part of it and 
coping afterwards. So those Iraqi and Afghanistan veterans are 
really going to need some help.
    I am here today to let you know that the Pine Ridge Indian 
Reservation, we are quite unique. We are rural. IHS says they 
are the last resort, but they are our only resort. Very 
difficult. We have, through the past decades, been the poorest 
per capita income, the second poorest. In 2010, we made it up 
to the third poorest per capita income.
    And I look at our treaties with the United States 
Government, this unique relationship, this political 
relationship, not a special interest, not a minority like Mr. 
Stossel says that we are freeloaders, no way. I know that you 
people sitting here know the difference. But I really am 
disturbed at being responsible for a people who just cannot 
make it to the healthcare facilities, and once they get there, 
it is very poor healthcare. And these were promised in our 
treaties, especially the 1868 treaty. It made all the promises, 
1868 treaty that said until the grass stops growing and the 
river stops flowing that the Black Hills, which are sacred to 
us, would be ours, and then the United States Government took 
them.
    In 1980, the United States Supreme Court says the most--
case in the history of the United States is the illegal taking 
of the Black Hills. And I have seen where trillions of dollars 
worth of uranium, gold and timber have been taken out of those 
stolen lands. I would like to debate up to today what has 
happened with the Black Hills. I would like some sort of equity 
there. The people I represent have problems putting food on the 
table and doing business on reservation which is quite rural. 
The roads, the responsibilities the Federal Government have in 
education, in healthcare, in economic development, all of these 
are in our treaty which comes from the Constitution of the 
United States. They were put into law by the ratification of 
the Senate, two-thirds ratification. And I do not think that 
the United States has to date been honoring their word to those 
treaties because of the conditions that people in these United 
States have to live under. You should see my daughter's living 
conditions. They are deplorable. One little room that they have 
made to live in in a 2-inch wall trailer house have to hold 
water in to cook and drink, use an outhouse, raise four kids 
that way.
    The United States, I say, I termed a phrase, inherent 
federal neglect. When they built up the infrastructure across 
the United States, they forgot about this large land base 
called Pine Ridge. They said that was Indian Health Service and 
BIA responsibility. I do not have the infrastructure there for 
any development to happen. It is very, very difficult. Our IRA 
government has been trying to work on this infrastructure for 
the past several, several, several decades. I am optimistic 
that we are going to try to catch up a little bit with the rest 
of America when we get this infrastructure in place, and I am 
optimistic that our children will have a better life than we 
have because we are working on all of the basics that the 
United States Government forgot to do or did not want to do, I 
do not know which. But we do need some help. And I just wanted 
to come say, and I know I do not have to say it to yourselves, 
that we have this unique relationship through the treaty that 
word must be honored. We go do our duty for the United States, 
for our country. We fight for freedom. But when we look at our 
people, we say the United States Government says it is 
deplorable how the Indians were treated in the past. They say 
it is not the past, it is today that they are being treated 
that way. Why?
    Thank you for holding this hearing. I would like to have 
one more point is that National Congress of American Indians, 
National Indian Health Board, who you call to represent us and 
speak for us, do not know our issues back home with the large 
land base, with the larger populations, with the isolation, 
with all of our circumstances. They do not know our issues to 
speak to them. So we would like a place at the table, one of us 
from North Dakota, South Dakota, Montana, Idaho, to speak to 
our issues. They do not have treaties, they do not have our 
issues knowledgeable to speak to them.
    We did form an organization called COLT. It is very, very 
new. It is the Coalition of Large Tribes we call ourselves. We 
did not say land-based, but we are going to try to get similar 
tribes together that have the same issues to address here to 
let yourselves know what they are.
    [The statement of John Yellow Bird Steele follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.048
    
    [GRAPHIC] [TIFF OMITTED] T6982B.049
    
    [GRAPHIC] [TIFF OMITTED] T6982B.050
    
    [GRAPHIC] [TIFF OMITTED] T6982B.051
    
    Mr. Cole. Thank you for your testimony. I am sure we will 
be back to visit.
    Mr. Steele. Thank you for your time.
    Mr. Cole. Thank you.
                              ----------                              

                                             Tuesday, May 3, 2011. 

                       STANDING ROCK SIOUX TRIBE 


                                WITNESS 

DAVE ARCHAMBAULT II

    Mr. Archambault. Thank you, President Steele. I just want 
to thank the Committee for giving me the opportunity to testify 
in this federal process. It is needed, and I hope that this 
continues so that you can hear the words such as President 
Steele's.
    What I see today is kind of a movement in Indian Country 
towards this decolonization, but the only way that we can 
achieve this is if we can continue to get the adequate funding. 
Currently we are inadequately funded in several areas.
    I will just start by introducing myself. I kind of got 
ahead of myself. My names is Dave Archambault. I am a member of 
the Standing Rock Sioux Tribe, and I am honored to provide 
testimony for the Standing Rock people.
    Our tribe is approximately 2.3 million acres. That is about 
the size of Connecticut. We straddle both North and South 
Dakota, one of the unique tribes that has two states that we 
deal with. Our lands are along the Missouri River, and some of 
our best lands were taken from us in the past, just recently, 
in the 1944 Flood Control Act, relocated us from our precious, 
our best grounds along the river to hilltops. And it is hard to 
describe the impact that it had on us. There is a lot of social 
issues as a result. There is high unemployment rates, there is 
high poverty, just several problems relating to this man-made 
event.
    There is a lot of benefits from this though also, and the 
people who benefit from this are the U.S. citizens in the area, 
how they benefited from it, from the low cost power supply that 
they get from Western Area Power Association. But you have to 
remember, in order to gain that benefit, there was a cost paid, 
a sacrifice made, and it is still paid today.
    We do have a lot of representation in our military 
throughout the country. There is a high population in there, so 
I just want to remind you of these occurrences. We are a treaty 
tribe. We do have treaties, and we did uphold our end of the 
treaties for almost 200 years now since we entered into these 
contracts. Our end has been upheld with great sacrifices, and 
the reason why I am here is to ask that you take that into 
consideration and remember that as you go through this 2012 
budgeting process.
    I just want to say that we at Standing Rock support the 
education needs that need to be met, public safety needs. And 
you have been hearing testimony about that, throughout Indian 
Country, the healthcare needs and the infrastructure needs that 
are there. And if you can provide the adequate funding that is 
needed, then you will see this development that is desired 
throughout Indian Country. And it is a movement toward the 
decolonization that we have been experiencing for a time now.
    We support the United Tribes Technical College. It is an 
exceptional institution that provides education for our young 
adults once they finish high school. We support Johnson-
O'Malley. We have public funded schools, and we have tribal 
grant schools. We have both within our boundaries, and we need 
that continued funding for those students who attend the public 
schools through Johnson-O'Malley.
    For public safety and law enforcement, we have experienced 
an increase with the help--of police officers, but we are 
feared that we do not want to take resources from other tribes. 
And we are feared that we are going to lose that public safety, 
the police officers, with budget cuts. There is a need 
throughout Indian Country of 1,800 police officers, and we need 
to assure that that is attained.
    We support everything for IHS, our healthcare services. 
Throughout Indian Country we experience high diabetes, heart 
disease, as the gentleman has said earlier. But it is very 
personal for each and every one of us. It is in our households, 
our relatives, our families all see it. And we do provide 
healthcare, but at Standing Rock we only provide the minimal 
services, and we depend a lot on contract services. So I ask 
that you make sure that the contract dollars and the request 
that the Administration made of $408 million be preserved.
    Infrastructure, roads, we do not have the infrastructure in 
order for the economies to flourish. So we ask that you keep 
the infrastructure in place.
    And I just want to thank you for your time in allowing me 
to testify.
    [The statement of Dave Archambault II follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.052
    
    [GRAPHIC] [TIFF OMITTED] T6982B.053
    
    [GRAPHIC] [TIFF OMITTED] T6982B.054
    
    [GRAPHIC] [TIFF OMITTED] T6982B.055
    
    Mr. Cole. Thank you very much.
                              ----------                              

                                              Tuesday, May 3, 2011.

                    UNITED TRIBES TECHNICAL COLLEGE


                               WITNESSES

DAVID M. GIPP
RUSSELL M. SWAGGER

    Mr. Gipp. Thank you, Mr. Chairman and members of the 
Subcommittee. We appreciate the opportunity to be here. My name 
is Dave Gipp, President at the United Tribes Technical College 
in Bismarck, North Dakota, as Congressman Berg pointed out. I 
have been coming here for a number of years, and we appreciate 
the past and hopefully the continued support of the 
Subcommittee, the Committee and the Congress.
    I am a Hunkpapha Lakota from the area where my colleague 
and councilman from Standing Rock just presented. I am also 
President of United Tribes, and with me is Dr. Russell Swagger 
who is a graduate from United Tribes, went on and got his not 
only 2-year there but a 4-year master's and has completed his 
doctorate degree last year, and he is the Vice-President of our 
Institution for Campus and Student Services where we serve 
about 1,000 students and about 400 to 500 children on our 
campus as well, which I will get into later on. I would like 
him to perhaps also add about a minute within my time just to 
give you an idea of some of those things that we do.
    I would just point out that many of the things that 
Councilman Archambault pointed out, the pillars of a good, 
sound community, that of education and training, economy, 
business, public safety, health and infrastructure needs are 
all the kinds of things that we are trying to do at United 
Tribes and have been trying to do and have been contributing 
back to Indian Country for the past 42 years.
    We occupy an old military fort, at one time Fort Abraham 
Lincoln. And so we took that over. It is close to over 110 
years old. And it is always very historic, of course, and we 
since, of course, have added other facilities to it. But we 
serve the American Indian family, children and adults there, 
about 1,000 adults, and we have three early childhood centers 
and we have a K-8 elementary school that we do within our whole 
effort.
    Our effort then is to provide training and education to the 
whole family as well as the individual Indian adult who comes 
there, and we serve up to 87 different tribes from across the 
Nation. Those are the kinds of things that we do.
    We just completed 10 years of accreditation by the Higher 
Learning Commission, and we just had a very successful visit 
with them, informally, I cannot announce it publically as they 
say, but we look forward to some of the very sound 
recommendations that they are going to give us for the next 10 
years.
    We anticipate that we will move also and keep the existing 
25 or so 2-year and 1-year certificate and degree programs but 
also will add several 4-year programs. And I mention things 
like sound economy. Business administration is one of those 
degrees we are doing right now. The severe need for teachers in 
our communities throughout Indian Country. Elementary education 
is one of those 4-year degrees. We already do a 2-year early 
childhood degree program, and we are in the area of public 
safety, criminal justice. Our request then speaks to three 
different things, about $6.4 million for United Tribes and 
Navajo Technical College which is located on the Navajo Nation. 
Those two schools share and appropriation that comes through 
the Department of Interior.
    Second, one-time forward funding for those two 
institutions, which would be about $5 million if we were able 
to do that to get us in a more advantageous position of being 
able to have continuity in our operations.
    Third, I mentioned the issue of public safety, and that is 
an issue that we have garnered from our various tribes, the 16 
tribes in a three or actually a four- or five-state area 
supporting us for doing an American Indian Northern Plains 
academy in the area of law enforcement because of the severe 
shortages that Councilman Archambault pointed out, nearly 1,800 
slots that are unfilled in law enforcement throughout the 
Bureau of Indian Affairs and throughout Indian Country. We 
think we can provide more training and education that is so 
crucial for good, sound public safety in our tribal 
communities. You cannot have a good, sound community unless you 
have good assurances of that safety in community. You are not 
going to attract good business if you do not have public 
safety. The same with education and on down the line.
    Those are the three fundamental things that I would speak 
to, Mr. Chairman. We have a very important role in our 
community, and we work very closely with our tribes. Our board 
is comprised of tribal chairs and others who sit on our board 
and directly control and direct what we do as far as our 
curriculum goes.
    I am going to ask Dr. Swagger to at least summarize some of 
the things that I think are so crucial to what we do.
    [The statement of David Gipp follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.056
    
    [GRAPHIC] [TIFF OMITTED] T6982B.057
    
    [GRAPHIC] [TIFF OMITTED] T6982B.058
    
    [GRAPHIC] [TIFF OMITTED] T6982B.059
    
    Mr. Swagger. Thank you. Mr. Chairman, I think just briefly, 
if it were not for a place called United Tribes, I would not be 
in the situation that I am in right now. And I can speak for 
many students who come to United Tribes, too. These tribal 
leaders have sacrificed a lot over the years to make sure that 
students like myself had a place, and we continue to offer that 
same quality service to students. These students come from 
conditions where there are many hardships, and they do not even 
think about college as an opportunity for their future, and a 
place like United Tribes offers that opportunity to them. So 
thank you.
    Mr. Cole. Thank you very much. Mr. Gipp, I just have a 
quick question for you, and I am sure others will have many 
questions. But out of curiosity, your students, as they 
graduate, how many remain working in Indian Country, how many 
go do other things? Nothing inappropriate about going someplace 
else, but I am just curious. We have such a challenge in terms 
of human capital all across Indian Country, so how many folks 
actually are able to stay and sort of bring their skills back?
    Mr. Gipp. I would say about 70 percent have a desire to go 
back, and a good number of them do go back into their tribal 
communities. Our placement rate is about 87 to 90 percent 
placement, by the way. One of the realities, though, is that 
they need a place to go back to where there are jobs and where 
there is going to be a place where they can, you know, support 
themselves and their families. And that is why it is so 
important I think with some of the earlier remarks by our 
previous testifiers.
    Mr. Cole. You sort of anticipated my follow-up which is in 
addition to those who go back, how many would like to but run 
into exactly the problem you just laid out? There just simply 
are not sufficient opportunities for them to return to?
    Mr. Gipp. I think tribal government needs better support 
just in the arena of things like economic and business 
development, and our role is to provide those kinds of people 
with the training in business or small business management 
which we do on our campus. Sitting Bull College where Mr. 
Archambault is from is doing much of that kind of thing. 
Entrepreneurship and playing up those kinds of things are so 
crucial if we are going to have successful kinds of developing 
economies.
    I look at our tribes in many respects, domestic Third World 
countries that need a lot of foreign aid, if you want to call 
it that.
    Mr. Cole. I do not think it is foreign aid. Ms. McCollum.
    Ms. McCollum. Thank you, and thank you all, gentlemen, for 
sincere, heartfelt testimony which really speaks to the 
responsibility that we have to work together on to make sure 
that all of our peoples live up to their commitments and more 
so on the Federal Government's side. Your commitment is, I have 
to say, never give up, and so I really appreciate that.
    I wanted to just make one observation and then ask a 
question. I have been to Rosebud but I have not been to Pine 
Ridge. I have been looking to revisit. It has been a while, so 
you have kind of given me a loop around to leave the Twin 
Cities and visit many of the places where my mother was from in 
both the Dakotas. I will be visiting. But I do not know if I 
will get all the way over to Montana, so I have got a question 
for you. Although I have been to Glendive, Sidney and Fairview 
a lot and a lot of fishing in Fort Peck. But a couple of 
questions, so I understand better what you are working on with 
the Bison Cooperative. I grew up in a meat packing town, okay, 
so people used to bring cattle into South St. Paul to 
slaughter. And I am going to do a lot of questions together. So 
you have mobile facilities. Has there been any discussion 
within the cooperative to transport? Maybe you do not have 
access to rail. Bison are a lot bigger than cattle. I would not 
want to be trying to get too many of them on a truck. So maybe 
that is why it is a mobile facility, and I just want to 
understand that better. And then tying in what they do at the 
Technical College, I know there are issues in the deer and the 
moose population in Wisconsin and Minnesota, and I do not know 
if it is spread over where you are, maybe it is an issue having 
chronic wasting disease and the moose are dying from some brain 
infection. We have no idea. So it leads me to the question of 
veterinary science, veterinary technicians, training for them, 
job opportunities.
    Then the last thing I will toss at you as with these mobile 
slaughter vehicles, what is your relationship with FDA 
inspectors and all that? And so I will be seeing you gentlemen 
later at the schools and at your tribal areas, and I will come 
visit the veterans.
    Mr. Carlson. Yeah, one of the things as you know as you say 
was real hard to, you know, bring the animals to a slaughter 
facility, so we do not have presently a mobile slaughter 
facility. In the past there was one, it could not pass the 
federal requirements. So we had to make it stationary.
    So it is a lot easier if we can get a mobile facility that 
will go out to every tribe and have them do their field kills.
    I guess one of the other areas and I would refer to--to 
help me answer some questions on, we have had problems with the 
USDA inspection fee. I guess that is one of the issues that we 
are continuing--you know, tribes are you know, strapped for 
dollars anyway, and the inspection fee is one of the areas that 
we kind of have a problem with. We are trying to not only have 
the mobile slaughter facility but a regional permanent facility 
is kind of one of our long-term goals as to all of our tribes. 
And I have Majel Russell with me who is our legal person and 
helps in every aspect of ITBC, and I would like to have her 
talk to you about the inspection.
    Ms. Russell. Just real quickly----
    Mr. Cole. And your name also for the record.
    Ms. McCollum. And can you tie in how you use the funding to 
accomplish some of these challenges that you are describing 
right now?
    Ms. Russell. I am Majel Russell, and I am legal counsel for 
the Inter-Tribal Buffalo Council. The reason the mobile 
slaughter facility is important is that it will allow tribes to 
do field kills of the animals and maintain the cultural 
significance of killing the animals out in the field. And we 
are hoping that if we can get a mobile slaughter facility that 
USDA will approve, then it will allow us to harvest animals in 
the field in the cultural manner that the tribes desire and yet 
still have the meat approved so that we can provide it to 
schools and provide it to other facilities with the USDA 
approval.
    Presently we have to transport animals to USDA facilities, 
and generally they want to finish those animals in the feed 
lot. When you finish a buffalo in a feed lot, then that is the 
kind of buffalo you are going to eat downtown at one of these 
restaurants where it is all fatted up. And you have basically 
diminished the health benefit of the buffalo because it has 
been grain fed, corn fed, and it no longer maintains the value 
of a healthy food.
    So a mobile slaughter facility is very important to 
maintain the integrity of the animal that we are providing, 
which is a healthy grass-fed animal and also maintains the 
cultural slaughter for the tribes.
    Let's see, you had a question about----
    Ms. McCollum. That vet training because that will also tie 
in.
    Ms. Russell. Yes.
    Ms. McCollum. So how would having the funding help with 
these issues?
    Ms. Russell. Having the funding would critically help us 
grow the buffalo industry for Indian Country. I mean, right now 
we are very limited, and it seems like we cannot get over a 
threshold where we can create more jobs. We have some jobs. We 
actually have been as successful with U.S. Department of Labor 
to have a new position of a buffalo manager. So we now have 
created that position. We actually have created an official 
position, but we need to work with the tribal colleges on 
training. We just have so limited funding that we provide only 
about $70,000 to tribes that are part of our program just for 
herd development, infrastructure, water, so forth. We cannot 
get over that threshold. So we think with additional funding we 
can strategize and meet with tribal colleges to try to promote 
jobs and training programs and basically grow the industry.
    Mr. Steele. We wanted to get buffalo from Yellowstone Park 
who wants to get rid of them. They are not a brucellosis-free 
herd. And so they have to be quarantined for 30 days. And we 
are brucellosis free so that is an expense that it is very 
difficult for us to access those.
    Mr. Cole. Mr. Chairman.
    Mr. Simpson. Just a couple things. President Steele, thank 
you for your testimony. Very important that we hear that. And 
Councilman, you mentioned the issues that you face on the 
reservation, transportation being one of them. Just out of 
curiosity, do you share in the state gasoline tax for 
transportation needs on your reservation? And the reason I ask 
that, when I was in the state legislature, I was always trying 
to get the Department of Transportation to share those gasoline 
tax revenue with the tribes and let them do in terms of 
employment and stuff the maintenance on the roads and so forth.
    Mr. Archambault. Yes, we do, but it is still inadequate. We 
do have a compact with the state so that we can share in those, 
but rather than having a compact, we would like to learn how 
and that is why we depend a lot on our educational 
institutions. But we would like to learn how to take the taxing 
duties of the state and do it ourselves so that we do not have 
to share and we do not have to have a compact and there would 
be more realization of benefits to the tribes rather than 
having a compact. Or if that cannot be achieved, then we would 
like to not have a tax on a fuel within our boundaries, but 
that is difficult to do also.
    So there are a lot of things that are brewing that we would 
like to pursue to probably help us with a lot of these 
transportation requirements and needs, maintenance of roads. We 
struggle all the time, and we have to depend on the Bureau 
through formula funding, and as a large land-based tribe, it is 
just not enough. And the revenue generated from the sharing of 
taxes by the state is not enough, and we have a shortfall every 
year. When a tribe does have to somehow come up with money to 
subsidize the maintenance of our roads, that is not always--we 
have to sacrifice other areas in order to just open up roads. 
And we live in North Dakota where we just had a snowstorm 
Saturday.
    Mr. Simpson. We had one in Idaho Friday. Fortunately it was 
gone in about two days. You get it just after we do.
    Were you going to say something?
    Mr. Steele. Yeah, we went to court with the State of South 
Dakota. We collect all the--tax on Pine Ridge, but it needs to 
go into people's driveways they call them. They can be anywhere 
from 100 feet to 3 miles. They have never seen a blade on them 
themselves. An Indian car is minus a muffler because the road 
has never had a blade on it. They knock out transmissions. It 
is very difficult. So that all goes in to trying to do these 
driveways to people's homes.
    Mr. Simpson. Well, thank you all. We plan on getting out to 
North and South Dakota for a visit later this year.
    Mr. Steele. I do not like when Congress paints the whole 
United States with this Indian brush. We are unique in 
different ways. In South Dakota, we went through the state 
courts up to the State Supreme Court. The State Police cannot 
come onto the reservations in South Dakota, contrary to Hicks 
v. Nevada out of the Supreme Court. They tried to bring it to 
the Supreme Court, but the Supreme Court did not hear it, would 
not take it, and so in South Dakota, the state law enforcement 
tells us before they come onto our territories, and if they do 
not and they come try to do business, we will arrest them. That 
is illegal for them to do that.
    But it is difficult having the full responsibility for all 
law enforcement, all courts, all prosecutions within our area 
and then not have the funding to do it.
    Mr. Simpson. Thank you.
    Mr. Gipp. Thank you, Mr. Chairman, and we certainly would 
appreciate any of you coming to visit us out there.
    Mr. Cole. Actually, we look very much forward to doing 
that. I want to thank again and I want to associate myself very 
much with Chairman Simpson's remarks. I appreciate some of the 
pointed comments. They need to be made and they need to be 
heard, and they are certainly very, very appropriate. So thank 
you. My dad was a pretty old tough master sergeant. He used to 
have a wonderful saying that your friends are the people that 
tell you what you need to know, not what you want to hear. So 
you all said some things that needed to be said and certainly 
the Congress needs to hear, and we appreciate that very much.
    We reconvene at 1:00, and I am going to actually try to 
move it along on time, but we will see. Thank you.
    [Recess.]
    Mr. Cole. In the interest of time so we can get back on 
schedule, and we apologize, the votes came very inopportunely. 
We are going to call folks up kind of at a panel at a time. So 
if we could have McCoy Oatman, Chairman of Nez Perce, Tracy 
``Ching'' King, the President of Fort Belknap Indian Community 
and Roxann Smith, the Vice Chair of the----
    Mr. Oatman. Mr. Chairman.
    Mr. Cole. How are you?
    Mr. Oatman. Good to see you.
    Mr. Cole. Good to see you. If we can, we will just move 
from our left to the right, so if you would identify yourself 
and then go ahead and we will take all the testimony, and then 
we will open it up for questions.
    Mr. Oatman. Is the microphone on?
    Mr. Cole. If you will press the button down there. If it 
has got that red light, it is on.
    Mr. Oatman. Okay.
                              ----------                              

                                              Tuesday, May 3, 2011.

                  NEZ PERCE TRIBAL EXECUTIVE COMMITTEE


                                WITNESS

McCOY OATMAN

    Mr. Oatman. Good afternoon. My name is McCoy Oatman. I am 
the Chairman of the Nez Perce Tribal Executive Committee. I 
would like to first off start by thanking the Committee for 
hearing our testimony here today.
    Today on behalf of the Nez Perce Tribal Executive 
Committee, I am here to address the Committee as it evaluates 
and prioritizes the spending needs of the United States 
regarding IHS, BIA, EPA, the Forest Service, the Fish and 
Wildlife Service, and I know Mike Simpson is not here but I 
would like to give a special thanks to him. He is from our 
State of Idaho for holding these important hearings. Simpson 
has seen in person the variety and the quality of work that the 
tribe does.
    Mr. Moran. We will pass that on to Mike.
    Mr. Cole. We will indeed.
    Mr. Oatman. I appreciate it. So you guys have our written 
testimony from the tribe, and so due to time I will summarize 
some of the major points that we have and issues that we have.
    First off, the tribe recommends increased funding for 
Indian Health Service including monies for contract health 
services and contract support costs. The tribe supports the 
request for at least 4.6 billion which would be an increase of 
14 percent over the fiscal year 2010 funding for IHS and 
contract health services, and contract support costs should be 
funded at $615 million. The tribe's shortfall last year for the 
contract support costs was 152,546, and the shortfall for all 
Idaho tribes is $1.27 million.
    At this time, our tribal clinic is facing a potential $1 
million to $1.5 million shortfall for this year's budget. That 
is with the 5 percent budget cut that the tribe has done itself 
on its facility. The clinic has been in priority one status for 
the last three months which, as you know, means life and limb 
are the only claims approved for treatment. With the low level 
of current funding provided by IHS, the tribe would have to 
double the amount normally received to its third-party billing 
to fill that gap, and only 35 percent of the 4,500 patients 
that we service have insurance.
    One thing that I would like to share, too, is that I spoke 
with our executive director for our clinics, and one of the 
statements that she made to me is that our people are 
chronically ill. So that is something that I would like to pass 
along to you guys.
    The tribe also requests approval for 650,000 in funding 
requested in fiscal year 2011 budget, BIA budget for survey 
work that was supposed to be done under the Snake River Basin 
Adjudication which the tribe, as you know, settled. This money 
would go to the BIA and BLM to do the survey work which is part 
of the agreement under the transfer of land from the Bureau of 
Land Management.
    The tribe also recommends funding contract support costs 
for BIA at $228 million for programs that the tribe administers 
such as law enforcement, to supplement its law enforcement 
program by 600,000 for the last fiscal years to compensate for 
the budget shortfall from BIA. The tribe recommends proper 
funding for BIA Endangered Species Fund, Rights Protection Fund 
and Tribal Management and Development Program Fund. 
Particularly, the Rights Protection Fund is very critical for 
the tribe because it helps our harvest management and also 
funds our conservation enforcement. It also helps the tribe 
work on protection--resources for on and off reservation 
hunting and fishing and fish production. The tribe is a natural 
resource tribe and has made a commitment to work to preserve, 
enhance those resources where funding is needed.
    We also support the funding for the BIA, wildlife parks, 
travel priority allocations which will be covered later on in 
more detail by the Columbia River Inter-Tribal Fish Commission 
which the tribe is part of. We would also like to emphasize the 
tremendous amount of positive work that is done through that 
program. Also we request support for the Fish and Wildlife 
Service, travel wildlife grants which has been proposed to be 
eliminated under some funding scenarios. The grants are the 
only source of funding for many tribal wildlife programs and is 
only one of funding sources for the research that the tribe 
does on the big horn sheep.
    We also request support for the work of the Forest Service, 
the Fish and Wildlife Service and the National Parks Service on 
the buffalo hunt and the Gallatin National Forest near 
Yellowstone National Park.
    Finally, we request continued support and funding for work 
with the tribe with EPA through its Federal Air Rules for 
Reservations, more commonly known as FARR. As you may, I am not 
sure if you are aware, but the tribe has received a couple of 
awards for this program. It has been a model program through 
EPA, through the partnership. And the tribe continues to work 
on its efforts to improve water quality on the reservation, and 
so we would like continued funding for that through the state 
and travel partnership.
    Lastly, as you know, the NCAI has produced a comprehensive 
budget request outline for Indian Country which my tribe 
supports, and with that I would like to thank the Committee for 
hearing my testimony today, and I look forward to continue the 
good working relationship that we have. Thank you.
    [The statement of McCoy Oatman follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.060
    
    [GRAPHIC] [TIFF OMITTED] T6982B.061
    
    [GRAPHIC] [TIFF OMITTED] T6982B.062
    
    [GRAPHIC] [TIFF OMITTED] T6982B.063
    
    Mr. Cole. Before we move on, just so you know, Mr. 
Chairman, Mr. Oatman said wonderful things about you before you 
arrived, but Mr. Moran and I moved that that be stricken from 
the record. But he did stick up for you.
    Mr. Simpson. Thank you. I appreciate that. Good seeing you 
again.
    Mr. Cole. If we could go on, Ms. Smith.
                              ----------                              

                                              Tuesday, May 3, 2011.

       ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION


                                WITNESS

ROXANN SMITH

    Ms. Smith. Good afternoon, Mr. Chairman. Good afternoon. My 
name is Roxann Smith, and I am the Vice Chairman of Assiniboine 
and Sioux Tribes of the Fort Peck Indian Reservation in 
Montana. Our reservation is located in the northeastern part of 
the State, and we have had so much snow this winter, you would 
not believe. We had over 80 inches of snow in my little area, 
and we have gone through so much money in the area of snow 
removal. And so it has tapped into our reserves at the tribe. 
So everybody is telling me, if you can put a plug in there for 
any emergency funding for snow removal, please do so.
    With that being said, our reservation is approximately 43 
percent of our people live at below poverty which is not 
unusual for Indian reservations. And with that comes some of 
our requests.
    We are asking that Congress would increase appropriations 
for the IHS for healthcare for Native Americans, especially in 
the area of mental health funding, hospitals and clinics 
funding and contract healthcare.
    During the 2009-2010 school year, five of our school 
children committed suicide, and that is a plague that we have 
had at Fort Peck. I was out here earlier this year with Senator 
Dorgan, and he had a summit on suicide. And I myself have lost 
a son to suicide, and so I know the trauma and the devastating 
effects it has on families. And so with that, I implore you 
that, you know, if you could continue to put funding behind IHS 
because that will in turn help in the area of mental health.
    Another scourge that plagues our community is diabetes, and 
in the previous funding request, Fort Peck had asked for an 
appropriations in the area of dialysis, and that got scratched. 
It was I think considered an earmark, and we would like to see 
if Congress would please help us to build upon the existing 
dialysis unit that we have. Currently we are at capacity with 
the idea we are guessing that we have an additional 73 to 100 
pre-renal diabetics that are going to be needing dialysis. And 
we not only serve our native population but we serve all of 
northeastern Montana. So it serves everybody, and it is not 
just a Native American service.
    I am trying to rush through this, too. Health status of the 
community is directly related to the quality of water which is 
why Fort Peck tribes took the lead in building the Fort Peck 
Reservation Rural Water System where we are--I just had a tour 
of it recently with Mr. Echo Hawk came out to visit our tribe, 
and we took him out on a tour and things are going along very 
well. However, one of the areas that we are wishing to ask for 
assistance on is the O&M charges for bringing the water to 
Poplar. One of the wells actually was contaminated now with the 
brine water, and we have shut down those wells, and we are 
actually piping in water from some external wells. So we are 
really in dire need there for funding that water will bring--we 
are concentrating on Poplar initially and then eventually it is 
going to reach all of the northeastern part of the state. We 
are needing about an additional $800,000 to operate the 
project.
    Another critical area is the public safety on our 
reservations. I want to support the $11.4 million request to 
fund operations of the newly constructed detention facilities. 
The Fort Peck tribes received $1 million from the Department of 
Justice to rebuild our detention facilities, and this is 
critical in our ability to operate this facility. We actually 
broke ground last fall, and they are in the process of working 
on that, all of the construction, now.
    Finally I would like to end by talking about economic 
development and the need to improve and streamline oil and gas 
development on the reservations. Specifically I urge the 
Committee to find efforts to plug abandoned wells on trust 
lands. Currently there are five wells on the Fort Peck 
Reservation that need to be plugged at an average of $80,000 a 
well. The BIA failed to fulfill its trust responsibility to 
ensure that the operators plugged these wells. Now we are left 
with this environmental threat.
    Finally, I urge the Subcommittee to support efforts to 
streamline oil and gas development efforts on the federal trust 
land. Due to the ridiculous bureaucratic maze that oil 
development companies face, they elect to avoid important oil 
development opportunities on reservations for less certain 
opportunities off reservations. And with that, that concludes 
my report.
    [The statement of Roxann Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.064
    
    [GRAPHIC] [TIFF OMITTED] T6982B.065
    
    [GRAPHIC] [TIFF OMITTED] T6982B.066
    
    [GRAPHIC] [TIFF OMITTED] T6982B.067
    
    Mr. Cole. Thank you very much. Mr. King.
                              ----------                              

                                              Tuesday, May 3, 2011.

                     FORT BELKNAP INDIAN COMMUNITY


                                WITNESS

TRACY ``CHING'' KING

    Mr. King. Thank you, Mr. Chairman, members of the 
Committee. My name is Tracy ``Ching'' King. I serve as the 
President of the Assiniboine and Gros Ventre in Northcentral 
Montana where, like Vice President Smith said, we had a hard 
winter. I think the past 3 years we started the end of October, 
first part of November and upwards of 50 to 60 below zero with 
wind chill factor of 66 to 70 below. And so our resources have 
been drained that helps our people keep warm, like the low 
energy assistance. And our tribes have thrown in helping people 
to heat their homes, and it is very important to keep their 
homes. Many of them are veterans of the war, like myself. I 
come from a war veterans--tribal leaders, and I had a daughter 
that was capturing insurgents back in 2004, and a nephew who 
was wounded over in Iraq in '03, and then my daughter was--I 
did not know if she was dead or alive when Mosul was hit back 
before Christmas.
    So my family proudly served this country and my brother was 
left for dead in Vietnam and an uncle killed in World War II. 
So there is a lot of history of veterans that probably served 
our country. And so we still have a code talker from the 
Assiniboine Tribe that is still alive today and many prisoners 
of the wars. And so we are very proud that their people have 
served, and it is a big honor for me to be part of that.
    With that, we have many issues like the Vice President 
said, you know, suicide is rampant, and it has to do with a lot 
of the historical trauma and with the--many of us know what 
the--are being sued, and so my brother is part of that suit, 
you know. It is not fun to be part of that because he has to 
expose what his suicidal thoughts were. He now is an alcohol 
counselor for our CDC program and helps people go through that.
    But education is very important to us as well, but in the 
State of Montana, through the impact aid, in my lifetime I will 
say I have never seen a child fail. But it is us who fail 
children, and so we really need to look at overhauling the 
educational system that impacts Indian Country. And I had some 
of those who had failed and worked on a program with some young 
ladies and young men that were ready to be locked up. And we 
had this program through the Department of Justice that was 
alternatives to incarceration. And the success of that is they 
went off to war, to Iraq and Afghanistan and became war 
veterans. And so there are proven ways to work with many of our 
youth to become successful in any job opportunities out there.
    So I am hoping that we could have some mental health like 
Lusamsa and others that would help us to get our youth and 
their families help. Many of our veterans suffer from post-
traumatic stress, and so we really need to look at beefing up 
that more to look at ways to have them have a better life, you 
know, because many of them are veterans that have been in the 
field of World War II, Korea, and just about every conflict 
that there is, we have veterans there.
    We also are looking at gas and oil development that we need 
to create jobs and look at our natural resources and ways to 
make some dollars through that. Our budgets through the 638 
program through BIA, it appears that once the 638 contract, 
that the money kind of goes away or it stalemates, and we never 
get the increase. The distance factor, the weather factor are 
not really factored into the budget formulation process, as 
well as the cost of living and inflation are not, either. So we 
are actually always behind with the budgets we receive. We also 
are looking at a water compact settlement just like the Black 
Feet and the Crow Nations have settled with the Congress, we 
have been working on ours for a number of years and are looking 
at introduction of a bill. And some of those lands that were 
taken away from us back in 1896 were, according to the 
documents of the Cornell Agreement, that a lot of our people 
had a choice to starve or cede the land back to the government. 
As a result, a lot of people became rich off of that, and now 
there is pollution that comes on our reservation. State-of-the-
art water treatment plants on the waters that go through the 
towns off the reservation, but there is no water system in 
place on Fort Belknap. So our waters are being polluted, there 
is a high rate of cancer and other diseases that are impacting 
the people of Fort Belknap. So that is a huge concern with us.
    Like I said, we have our testimony here, but I want to 
thank the Committee for allowing us to be here and to listen to 
us. Thank you.
    [The statement of Tracy ``Ching'' King follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.068
    
    [GRAPHIC] [TIFF OMITTED] T6982B.069
    
    [GRAPHIC] [TIFF OMITTED] T6982B.070
    
    [GRAPHIC] [TIFF OMITTED] T6982B.071
    
    [GRAPHIC] [TIFF OMITTED] T6982B.072
    
    Mr. Cole. Thank you. I have got two sets of quick questions 
if I may, one relates to the oil and gas that both of you 
mentioned, and two questions under that category I have that I 
would like you to address. Number one, we hear this quite often 
that it is much more difficult to develop oil and gas reserves 
or energy reserves of any kind of tribal lands than it is 
either even other kinds of federal lands but certainly 
privately held lands in the vicinity.
    What are the specific things that make it more difficult 
bureaucratically, number one, so we could sort of begin to get 
at that so you could use your resources in the way you choose 
to. And number two, you mentioned five or six wells that had 
not been appropriately capped by the people that were operating 
them. Are those companies that are still in existence that we 
could go back on? Honestly, they have a responsibility once 
they are finished with the production to do that themselves, 
and certainly that is something the BIA or somebody ought to be 
able to force them to do.
    Ms. Smith. As far as the capped wells, the Bureau takes a 
bond, you know, the part of the--are given to the Bureau, and 
then after so much time has elapsed, then you give it back. And 
what happened, there was not anybody monitoring those wells on 
the BIA side, so they just gave the money back to the company. 
So now there are these abandoned wells hanging out up in Fort 
Peck.
    And then the first question that you had regarding the 
streamlining is what I am asking for is that we have EPA 
regulations. There is like the BLM, MMS, they all require a 
certain permit process, and what we are asking for is if they 
can somehow streamline it like they did in North Dakota. They 
had a one-stop-shop, and we are hoping that, you know, they can 
do the same sort of thing at Fort Peck because they are 
knocking on our doors. I mean, if you look at our map of the 
oil companies, they are all around the reservation. All they 
have to pay is $25 to go on a non-Indian piece of land, and 
they have to pay $7,500 to go onto tribal lands.
    Mr. Cole. That is certainly something we ought to look at. 
It is not appropriate.
    The other question I have, do you all have a school on your 
reservation, your BIE school? Okay. I'm just curious. So it is 
an impact aid issue with you strictly. Okay. Thank you very 
much. Mr. Moran.
    Mr. Moran. It is interesting, but I think you covered. I am 
fine.
    Mr. Cole. Thank you. Mr. Chairman.
    Mr. Simpson. No, I am fine. Thanks for being here, 
Chairman. I appreciate it. Sorry I missed the first of your 
testimony, but we get a chance to talk frequently.
    Mr. Cole. Ms. McCollum.
    Ms. McCollum. Thank you. Could you just elaborate a little 
more on the need for dialysis? I also have something for Mille 
Lacs Band for dialysis, especially in a rural area, and how you 
serve. Do you serve all the way down into Sidney, Fairview?
    Ms. Smith. We have some people that come from Circle, that 
area.
    Ms. McCollum. Oh, my gosh.
    Ms. Smith. And they drive up--need to drive up every week, 
you know, for their dialysis. They come up--to poplar.
    Ms. McCollum. Is the North Dakota Department of Health, are 
they--I mean, some of this is it is tribal but it is also a 
public health issue. Is the State of North Dakota trying to do 
anything to----
    Ms. Smith. Dialysis unit in Williston, and it is a 70-mile 
drive for our people to Williston to have their dialysis.
    Ms. McCollum. That is where my grandmother went was 
Williston. And then when the weather is bad on top of it. And 
how often do some of the elders have to go in for dialysis, 
twice a week? And they are there for four to six hours?
    Ms. Smith. And then what we are looking at if we continue 
to see an influx of people, we are going to have to open up for 
a second shift of dialysis because, you know, we will have to 
hire more people.
    Ms. McCollum. And was part of the dialysis center--I know 
the nations have been talking together about how to address 
this epidemic. Was part of what the dialysis center was going 
to be part about was prevention, monitoring and doing other 
things besides just the dialysis? It was going to have a, 
holistic is the wrong word, but a very broad approach to it?
    Ms. Smith. Well, just feel we need to expand our dialysis 
as far as I know--expand the----
    Ms. McCollum. Okay. And then one other question, Mr. Chair. 
Some dialysis places now have almost two shifts, but the 
machines have to be maintained, there is cleaning in between, 
things like that. Is it more than one shift at your dialysis 
unit?
    Ms. Smith. She goes Monday through Saturday and the 
holiday. I think she opens at 6:00 in the morning until 6:00 at 
night, all day long.
    Ms. McCollum. So she is at capacity. Thank you.
    Mr. King. Mr. Chairman, as far as Fort Belknap, our 
enrolled members have anywhere from 150-mile to 500-mile round 
trip, and my nephew gets up about 3:00 in the morning and 
probably gets done about 6:00 in the evening, and that is one 
of the things we were looking at is the change of diets as well 
as using buffalo meat to feed our people. But unfortunately, we 
have to pay a $40-per-hour USDA fee, and that kind of holds us 
back a lot.
    Mr. Cole. Well, thank you very much for your testimony, and 
I appreciate that. It is very helpful. If we can, we are going 
to move by just calling groups of people up. If we could have 
Mr. Whitebird, Mr. Zorn, President Maulson, Chief Rodgers and 
Chairman Billie.
    Okay, welcome. If we can we will start at the far end and 
again, if you could identify yourself before you deliver your 
testimony, that will make it a lot easier on the clerk. Yeah, 
if the red light is on, it is on.
    Mr. Whitebird. Can you hear me?
    Mr. Cole. Yeah, keep it close, though.
                              ----------                              

                                              Tuesday, May 3, 2011.

                       LEECH LAKE BAND OF OJIBWE


                                WITNESS

EUGENE ``RIBS'' WHITEBIRD

    Mr. Whitebird. Thank you Chairman Simpson, Ranking Member 
Moran, representative McCollum and Congressman Cole for 
allowing me to testify today. My name is Ribs Whitebird. I am a 
member of the tribal council of Leech Lake Band of Ojibwe. Our 
reservation is located in northern Minnesota. My reservation 
has numerous needs, but today I will focus solely on the band's 
need to replace its high school facility at the Bug-O-Nay-Ge-
Shig School. The School is administered and funded by the BIA. 
We estimate that the cost to replace our high school is about 
$25 million. We do not understand why the U.S. can spend 
billions and billions of dollars on wars and foreign aid like 
Pakistan and Iraq but cannot build a school for Indian kids.
    Under our treaty of 1855, the Leech Lake Reservation was 
established. The band gave up millions of acres of land. In 
return, the U.S. is supposed to provide for band welfare which 
includes providing our kids with decent and safe schools. 
Further, the U.S. Congress passed the Nelson Act of 1889, the 
Dawes Act for Minnesota, and other federal laws specific to 
Minnesota to take more of our land.
    Logging companies wanted our--and homesteaders wanted our 
land for farming. In return, proceeds from land and timber 
share were supposed to be used for our schools. The U.S. has 
never met these obligations.
    The school serves nearly 300 Indian children in grades K-
12. The students commute to the school from working communities 
within a 70-mile radius. The school had won many awards for its 
academic achievement which is native language programs. I have 
also provided you with pictures of students at the school.
    The elementary and middle-school facilities are in 
satisfactory condition, but the high school needs to be 
replaced. The current facility is a metal-clad pole barn. One-
third of the facility was destroyed in a gas explosion in 1992. 
The facility has serious structural and mechanical deficiencies 
and lacks proper insulation. This facility does not meet 
safety, fire and security standards. Also, the facility has 
electrical problems and lacks alarm systems. Further, the 
building lacks a communication intercom system, telecom 
technologies and safe zones which puts everyone at the greatest 
risk during emergencies. Also, the facility jeopardizes the 
health of the students--indoor air quality from mold, fungus 
and faulty HVAC system. The facility suffers from rodents in 
it. Roof leaks, sagging--uneven floor, poor lighting, sewer 
problem, lack of handicap access and lack of classroom and 
other space--facility's numerous deficiencies.
    Due to unsafe and undesirable condition of the high school, 
many students leave after middle school to attend other 
schools. Students are embarrassed about the condition of the 
high school resulting in a negative image of the school in the 
community and the lower enrollment rate. The high school is on 
the BIA list of schools in need of replacement. The BIA has 
acknowledged that the school has exceeded its life expectancy 
by decades. By BIA categories, the high school facility has 
been in poor condition.
    The high school is among more than 70 schools funded by the 
BIE that are in poor condition. BIE construction backlog is at 
least $1.3 billion. There needs to be sustained funding to 
adjust the backlog.
    We appreciate that times are tough financially. We know 
that $1.3 billion is a lot of money, but our kids should not be 
the ones forced to shoulder the burden. $1.3 billion is a drop 
in the bucket compared to what the U.S. spends every day 
overseas. The Administration's fiscal year 2012 budget request 
does not even come close to making a dent in the backlog. The 
administration proposes only $52.1 million toward BIE school 
construction which is a cut of $61 million from last year's 
enacted level. You cannot build much with that.
    These funding levels are unacceptable. In fiscal year 2005, 
funding of BIE school construction is $263 million. We urge the 
BIA to increase funding for BIE school construction, not 
decrease it. The lives of our children are at stake.
    In conclusion, we pledge and urge the committee to help us 
replace our high school. The fact is simple, that the high 
school is not safe and should not be a place where kids go to 
school. With all due respect, I doubt that anyone sitting at 
this table will allow their children in school in this type 
of--facilities that our children go to school in. Chairman 
Simpson, if it is okay with you, I would like to provide you 
with a booklet of information about the school. Thank you.
    [The statement of Eugene ``Ribs'' Whitebird follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.073
    
    [GRAPHIC] [TIFF OMITTED] T6982B.074
    
    [GRAPHIC] [TIFF OMITTED] T6982B.075
    
    [GRAPHIC] [TIFF OMITTED] T6982B.076
    
    Mr. Cole. Thank you very much.
                              ----------                              

                                              Tuesday, May 3, 2011.

             LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA


                               WITNESSES

TOM MAULSON
LARRY WAWRONOWICZ

    Mr. Maulson. I said I was Lac Du Flambeau, Wisconsin, 
northern part of the State where things are cold, just as cold 
as Minnesota.
    Mr. Chairman, madam, gentlemen, I come here as a treaty 
tribe, and I come here to identify that as really important 
that it is your obligation to me and my people back home and 
all the other tribal leaders that are sitting here in this here 
room that there is something far greater than just appropriate 
and making sure that our dollars are going to be affordable to 
us. I come here looking like we were begging you people for 
those particular dollars that is owed to us as Indian people. I 
brought with me my Natural Resource Director, Larry 
Wawronowicz, in reference to some of the things that he has 
done on our reservation in the last 25 years. You have heard 
the horror stories of Indian Country--and education. There is 
not enough dollars out there to continue that type of movement 
to bring our children to the forefront, to make them just as 
qualified or better than some people are there. We have the 
Bureau of Indian Affair dollars that are needed. We got 
conservation programs. We have programs in our housing where we 
have got people standing in line almost 100 waiting for homes 
on our reservation. We have these same major problems in 
reference to making sure that our people back home in the 
wintertime have ample heat. We have many shortfalls. We have 
come to Congress many times, spent hundreds of thousands of 
dollars as we come in the past years to come and sit at these 
here tables and come to visit you all in your offices and 
identify our needs back home.
    So I definitely as a tribal chairman of my people, I ask 
you to support these here endeavors that a lot of these leaders 
are requesting of this organization, this Congress, to make 
sure that, you know, that things are in place for us as Indian 
people out there, your fiduciary responsibility, you know, 
according to treaty rights.
    [The statement of Tom Maulson follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.077
    
    [GRAPHIC] [TIFF OMITTED] T6982B.078
    
    [GRAPHIC] [TIFF OMITTED] T6982B.079
    
    [GRAPHIC] [TIFF OMITTED] T6982B.080
    
    Mr. Maulson. I want to give my time to my Executive 
Director of our Natural Resources so he can identify some of 
the needs back home. We need jobs. We are putting people to 
work under these type of programs. Larry.
    Mr. Wawronowicz. I am Larry Wawronowicz, Natural Resource 
Director for the Lac du Flambeau Band. One of the things that 
the tribes in the Midwest area are blessed with very good 
natural resources. We have a lot of water, and we have a lot of 
land. And we have both on- and off-reservation treaty rights 
which we need to protect. Jim Zorn is here with the Great Lakes 
Indian Fish and Wildlife Commission and will talk a little bit 
more about the off-reservation stuff. But on-reservation 
management is very, very important. A lot of the Midwest tribes 
require to have clean air, water and land to be able to support 
their hunting, fishing and gathering rights. It is absolutely 
imperative that we do have clean air, water and land in order 
for us to be able to exercise treaty rights, culture, our way 
of life, the way we view things as native peoples. It is just 
so important.
    Our testimony gets in specifics. Indian education is very, 
very important, but conservation, law enforcement funding as 
well as funding for EPA programs seems to be--I mean, it gives 
us the opportunity to have environmental presence on the 
reservation. In order for us to be able to develop 
economically, we are going to have clean air, water and land. 
So it is very, very important that we tie the natural resources 
and the ability to have clean air, water and land for us as a 
nation, a tribal nation, as well as a federal Nation to be able 
to provide economic opportunities for our citizens. I mean, it 
is imperative, absolutely imperative that we have those three 
resources, clean air, water and land.
    So with that, I hope that, you know, you take the time to 
read our testimony. We have some specific needs and specific 
requests. But the bottom line is this. If we do not have clean 
air, water and land, we are nothing as a nation. Thank you very 
much for your time.
    Mr. Cole. Thank you for your testimony.
                              ----------                              

                                              Tuesday, May 3, 2011.

                 MICCOSUKEE TRIBE OF INDIANS OF FLORIDA


                                WITNESS

COLLEY BILLIE

    Mr. Billie. I am Chairman Colley Billie from the Miccosukee 
Tribe of Indians of Florida. Chairman Simpson, Ranking Member 
Moran, and Subcommittee members, on behalf of the Miccosukee 
tribe of Indians of Florida, thank you for the opportunity to 
appear before this Subcommittee. I also wish to thank 
Congressman Cole and the other Members of Congress with whom I 
have met recently for their efforts to enact a legislative fix 
to address the harmful effects of the Supreme Court's decision 
in Carcieri v. Salazar. I strongly urge the Congress to take 
immediate action to enact a clean remedy. The longer the delay, 
the more Indian Country will suffer.
    I have two general matters to briefly discuss this 
afternoon that are included in my prepared remarks, dispelling 
the myth that federal tribal assistance programs are no longer 
needed because of gaming and raise awareness about an 
environmental catastrophe in the making in our home, the 
Florida Everglades.
    There is a misperception that federal tribal programs are 
welfare. This is not the case. Rather, they are designed to 
enable the Federal Government to honor its trust 
responsibilities arising from numerous treaties, laws, 
policies, agreements and practices. Without the special 
relationship, it would be difficult, and in the case of some 
types, impossible to provide assistance for the young, elder 
and infirmed as well as manage tribal judicial systems. Some 
tribes, like the Miccosukees, have gaming. Through these 
businesses, many tribes have been able to defeat the vicious 
cycle of poverty that plagues Indian Country. They help achieve 
significant improvements in the area of health, housing and 
education. Yet, even those tribes that have successful gaming 
businesses have been severely impacted by the global economic 
crisis.
    I urge you to take a close look at these Federal Government 
commitments and make sure that they are not defunded or 
underfunded. If you are looking to save federal tax dollars, 
the Miccosukee people have the ideal project for you, a very 
expensive and scientifically unsound bridging project that will 
cause great harm to the Everglades and the Miccosukee. We must 
honor the Earth from where we are made is a central tenant of 
the Miccosukee people. Our efforts to protect the Everglades 
are well-documented, and our future commitment unwavering. When 
it comes to Everglades restoration, however, our tribe has 
struggled for decades to have an equal place at the table.
    In 2008, the Interior Department and Army Corps of 
Engineers decided to build a one-mile bridge alongside U.S. 
highway 41. The initial price tag was $233 million, and more 
bridges are supposedly planned for the Tamiami Trail. We 
immediately realized that this project was fiscally and 
scientifically unsound. Because of the lack of fulsome 
consultation, we were forced to go to federal court. The Judge 
called it, and I quote, ``an environmental bridge to nowhere'' 
and issued a temporary injunction to stop construction until 
all federal laws were complied with. Our victory, however, was 
short-lived. Unfortunately, Congress was misinformed about this 
decision and was mistakenly led to believe and to intervene the 
following year by inserting language in the 2009 Omnibus 
Appropriation Act that said, ``Notwithstanding any other 
provision of law'' the one-mile bridge was to be built. This 
section of the law violates several statutes and our 
Constitutional rights. We were not consulted on this matter 
back then, but you can do something about it today. Do not 
approve additional bridges. You should also order a halt to any 
further work on the Tamiami Trail one-mile bridge until all the 
federally required studies are completed and our concerns 
afforded meaningful consideration. By stopping construction of 
these Department of Interior and Army Corps skyway bridges, you 
would be saving the taxpayers approximately $400 million.
    There is a less expensive, safer and scientifically viable 
alternative supported by the tribe and experts such as the 
Formal Regional Commandant of the Army Corps of Engineers. This 
approach focuses on clearing existing culverts located 
underneath the road to increase water flow. Clearing the 
culvert is simple, cost-effective and should be tried before 
costly bridges damage the Everglades we are trying to restore, 
as well as destroy Miccosukee ancestral and sacred lands. This 
method is consistent with the Comprehensive Everglades 
Restoration plan.
    Finally, the Miccosukee Tribe thanks for allowing me this 
opportunity to share our thoughts with you. We look forward to 
working with this Congress--in my language, that means thank 
you.
    [The statement of Colley Billie follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.081
    
    [GRAPHIC] [TIFF OMITTED] T6982B.082
    
    [GRAPHIC] [TIFF OMITTED] T6982B.083
    
    [GRAPHIC] [TIFF OMITTED] T6982B.084
    
    Mr. Cole. Thank you, Mr. Chairman. Chief Rodgers.
                              ----------                              

                                              Tuesday, May 3, 2011.

                         CATAWBA INDIAN NATION 


                                WITNESS

DONALD RODGERS
    Mr. Rodgers. Good afternoon. I am Chief Rodgers of the 
Catawba Indian Nation in South Carolina, so I thank you all for 
allowing me to be here.
    I first want to begin my testimony by expressing my 
appreciation for the support that this Subcommittee itself has 
provided the Catawba Tribe on budget and audit issues that I 
had to address almost 3\1/2\ years ago when I took my tenure as 
Chief.
    With the support of Chairman Simpson, Ranking Member Moran, 
and Congressman Cole and the Subcommittee as a whole, the 
Bureau of Indian Affairs took action that allowed the Catawba 
to receive several millions of dollars of funds that had been 
allocated to the tribe we could not access, and only a month 
ago we were notified that a debt to the BIA that we simply 
could not repay was forgiven, and I want to thank you 
personally for that. Thank you so much.
    We now have clean audits, and we are free from crippling 
financial liabilities. Your support then and now means a great 
deal to the Catawba people as a whole, and on their behalf I 
would like to say a heartfelt thank you for all that.
    I also want to thank this Subcommittee for last year's 
support in seeking passage of the Carcieri fix. Early on there 
were suggestions that the Catawba was one of the tribes that 
would no longer be able to take land in the trust because of 
the Supreme Court's bizarre decision in Carcieri v. Salazar. 
However, Interior has recently made clear in writing that it 
believes the Supreme Court's decision does not directly affect 
the Catawba. Nonetheless, the Court decision is unfair, is 
already generating a growing mountain of litigation and will 
create jurisdictional uncertainties throughout Indian Country, 
and I applaud the Subcommittee's action last year to move the 
Carcieri fix legislation and ask that you continue to strongly 
advocate for this and seek for its final putting to rest this 
year.
    As we had discussed before, the Catawba Nation is one of a 
handful of federally recognized tribes that do not enjoy the 
range of sovereign powers possessed by most federally 
recognized Indian nations. Under the terms of our Settlement 
Act, we possess what I would term second-class tribal 
sovereignty. For example, in the area of gaming, we are not 
authorized to establish gaming operations pursuant to the 
Indian Gaming Regulatory Act. Instead, we are limited to two 
bingo halls which only enjoy a modest advantage over bingo 
halls already established in the State.
    For this reason I am here today to urge the Subcommittee to 
invest federal dollars in programs that support economic 
development for smaller tribes that have limited resources but 
like the Catawba are committed to becoming economically and 
self-sufficient to help us move forward in the future.
    In the 2000 census the Catawba Indian Nation had a per 
capita income of just a little over $11,000. The estimated 
current unemployment rate among the Catawba is more than double 
that of the State of South Carolina which itself is very high 
unemployment.
    The tribe currently has no operating economic development 
ventures. I have highlighted in my written testimony four 
projects we are working to begin the process for developing a 
tribal economy. The first one is the Catawba market, a gas 
station that will create jobs and improve services on the 
reservation to provide much-needed assets and necessity for 
tribal members there located. A major road extension to provide 
decent and safe access to our reservation so we can open up 
other economic development opportunities. We had a young child 
go blue on our reservation about six months ago. It took an 
ambulance 45 minutes to get to our reservation. It is horrible 
thing, so this road extension is much needed.
    A ride-share program to get members of our nation to jobs 
located throughout the surrounding area to help and assist to 
do that. And a summer youth program to engage in education and 
prevention activities for our young.
    I want to also give a plug for Indian Health Service. Much-
needed services are needed there, contract support and these 
issues. But I want to take this opportunity to thank you for 
allowing me to talk on behalf of Catawba Indian Nation and your 
support for our people and indeed for all native people is 
greatly appreciated and truly in the best traditions of the 
government relationship. And again, I say--thank you very much.
    [The statement of Donald Rodgers follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.085
    
    [GRAPHIC] [TIFF OMITTED] T6982B.086
    
    [GRAPHIC] [TIFF OMITTED] T6982B.087
    
    [GRAPHIC] [TIFF OMITTED] T6982B.088
    
    Mr. Cole. Thank you very much, Chief. Mr. Zorn.
                              ----------                              

                                              Tuesday, May 3, 2011.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

JAMES ZORN

    Mr. Zorn. My name is James Zorn. I am the Executive 
Administrator of the Great Lakes Indian Fish and Wildlife 
Commission, and on behalf of our 11 tribal nations located in 
Wisconsin, Minnesota and Michigan, including Mille Lacs and Fon 
du Lac in Minnesota and Chairman Maulson, Lac du Flambeau, we 
extend our appreciation for being here. And on behalf of their 
38,000 tribal members who continue to enjoy the rights to hunt, 
fish and gather on lands that the courts have ruled were sold 
to the United States in various treaties but on which the 
tribes might continue their life ways to meet their 
subsistence, their economic, their cultural, their spiritual 
and medicinal needs, that is the nature of the Great Lakes 
Indian Fish and Wildlife Commission program that this body has 
funded for over 25 years with the support of all 
administrations, all Congresses of the Rights Protection 
Implementation program. So we are here to talk about that as 
well as the EPA Great Lakes Restoration Initiative.
    The Commission is grateful for the fiscal year 2011 
appropriations for these types of programs. They were held 
pretty harmless from some drastic potential cuts and the 
contract support increases. We greatly appreciate that, and we 
will do what we can to help you in fiscal year 2012 to try to 
achieve the same result.
    And so we are here today to help remind the Committee as to 
why these programs are important to the tribal communities, the 
real-world benefits they achieve and why these are really good 
examples of good government programs that get the money into 
the hands of the tribes, where that money should go, that 
produce not only healthier people because they are eating 
traditional foods, they are engaging in traditional exercises; 
we are trying to get the kids off their butts and out into the 
woods and on the lakes to do some real activities; reviving 
language; support tribal economic enterprise, not only of 
commercial fishermen but of folks who sell wild rice, maple 
syrup and so on. The cost of food is high now. These foods are 
very expensive, and so to be able to fish, hunt and gather is 
very important. And the relationship to diabetes as we heard a 
former chair talk about for example and other diseases in 
tribal communities, getting back to the natives' food is very 
important.
    So we strongly support the $30.5 million for the Rights 
Protection Implementation program. I know you will hear from 
the Columbia River folks and Billy Frank tomorrow. They will 
say the same. Do not let Billy steal too much, please. GLIFWC 
gets about $5.6 million of that, and you know, that is really 
important money because it provides the base on which we can 
leverage other money, including the Great Lakes Restoration 
Initiative. You know, that $5.6 million grows into $8 million 
for us. We supply about 70 full-time jobs, about 140 seasonal 
jobs in areas that are chronically under- or unemployed. This 
is really important for our member tribes. We operate a 
comprehensive natural resource management program of 
biologists, of conservation officers, that provide benefits not 
just to the tribal communities but to the surrounding 
communities. For example, and we are grateful to the 
Administration for highlighting this in their department 
highlights, I think on page 64, where two of our conservation 
officers stumbled upon during their routine patrol duties, 150 
pot plants in a state forest in northern Wisconsin. Well, you 
call up the local drug task force, and their line was, wait a 
minute. You guys know the woods. You go back out there and sit 
on that until the people come. Okay. So we have fully trained 
certified officers. We are the ones who busted the guy that 
came back to harvest the pot.
    And so just the notion that these tribal programs benefit 
only Indians is fallacious. It benefits the surrounding 
communities. Our officers are there for everybody. They respond 
to auto accidents, medical emergencies. Our biologists provide 
fish for everybody, protect habitat for everybody.
    So that is the nature of our Rights Protection 
Implementation program. In terms of the Great Lakes Restoration 
Initiative, the $300 to $350 million is fantastic. Thank you. 
We would like to push for some money there for tribes, perhaps 
$25 million that is funneled through the Indian Self-
Determination Act. That got to the ground quicker before the 
field season before any other money got out from any other 
agency. Let's see if we can beat that up and do better.
    The youth, final sum-up. Our tribes are very committed to 
trying to figure out how to get Indian kids into careers, 
natural resource management conservation officers just out 
there to reconnect with their grandma and grandpa doing the 
things that Indian families should do. We have initiated a 
conservation internship program this year. We are trying to get 
kids out to camps early on in their lives so that they 
appreciate the outdoors again. We are trying to get kids back 
in the language programs.
    So any help that you can provide in this type of area, you 
know, there are all sorts of initiatives we are being asked to 
get involved in. But the capacity for tribes to do so is 
greatly stretched. We have a hard enough time doing our basic 
job, let alone dealing with a whole bunch of new initiatives.
    Thank you very much. We really appreciate the opportunity 
to be here.
    [The statement of James Zorn follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.089
    
    [GRAPHIC] [TIFF OMITTED] T6982B.090
    
    [GRAPHIC] [TIFF OMITTED] T6982B.091
    
    [GRAPHIC] [TIFF OMITTED] T6982B.092
    
    Mr. Cole. I thank all of you for your testimony. Let me 
make a couple of points, and then we will get into questions. 
Number one, a number of you mentioned the Carcieri issue and I 
could not agree more. But I would be remiss not to point out 
that we would not have gotten it through the House last year if 
it had not been for then-Chairman Moran and now Chairman 
Simpson who worked together for us to do something on this 
Committee. That is very unusual. That stretches our rules. I am 
sure we never would have violated them by legislating on an 
appropriations bill. But that was a very bi-partisan issue 
here. It was a 14 to 0 vote. I know everybody on this Committee 
is still committed to doing that. Mr. Kildee has a bill out 
there, I have got a bill that is out there, I think Mr. Young 
is here later today and I suspect the subject will come up, and 
I think he is committed. Our biggest problem quite honestly 
tends to be in the United States Senate on this as opposed to 
the House because it did get through the House, and the 
Administration has been very good on this. They very much want 
to deal with this as well. So hopefully we can have a real 
bipartisan effort and get that done.
    I also want to point out a number of you mentioned that you 
had been shielded a little bit from the 2011 budget cuts. The 
gentleman to my right is solely responsible for that and has 
scars to show it. And again, Chairman Simpson and this 
Committee's commitment in this area on the bi-partisan basis is 
genuine. A number of you made really compelling cases about the 
education of Indian children. I do want to ask one question on 
that, and I could not agree more. That is a federal 
responsibility and it is a trust responsibility. There is no 
way that we have come anywhere close to fulfilling our 
obligations in those areas, and I do not know if you would have 
these figures, but I am increasingly interested any time I can 
to find out if you can tell us what is the expenditure per 
child roughly or per student in the schools that you represent. 
They are usually BIE schools but whatever your local school is, 
and then I would love to see the contrast of that with schools 
in the States because if there is a federal responsibility, I 
would think we ought to be roughly doing for the children in 
Indian Country what the surrounding states are doing for their 
children. Otherwise, I do not see how the educational 
opportunity can be remotely comparable.
    So if you have that data, I would be very interested in you 
sharing it with the Committee.
    Mr. Whitebird. I do not know exactly what it is, but we are 
going to find out what it is and stuff like that because it is 
different from state to state and children. I think a lot of it 
has to do with enrollment and stuff like that in areas that we 
are in.
    Mr. Cole. Yeah, I think it will and I think Ms. McCollum 
made the point earlier, taking out the transportation 
component, or separating it, because a lot of what you 
encounter on some of our reservations, obviously, the 
transportation expenses are enormous, and they really should 
not be counted directly toward the educational cost. But I am 
going to ask the staff on this Committee to do what they can to 
help us get that information because I think it is going to be 
quite striking when we see again how far behind the Federal 
Government is in its responsibilities to Indian children versus 
the state and local governments in the neighboring areas. 
Thanks for bringing that up. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. First of all, Chairman 
Billie, it is interesting that you spoke about a bridge. I have 
a mayor from Minnesota, and we are going to be talking about a 
bridge and some legislation to override some of the federal 
protections for the St. Croix River. So thank you for your 
comments, and local government officials from the areas that 
are impacted should be consulted, and it is a shame that you 
were not listened to.
    Mr. Billie. Yes, that is all we have been asking for, to 
give us an opportunity to be heard and to be given serious 
consideration to some of our concerns.
    Ms. McCollum. I have one question for council member 
Whitebird. Ribs, when you were talking about people not wanting 
to attend school there and the importance of a school 
reflecting how we value our youth, I have had an opportunity to 
be at the school. Can you elaborate a little more as a council 
member what you hear from parents, what you hear from students 
and how that affects your enrollment because then when you go 
to count the number of students, you do not have as many 
students as normally would be attending a school that was in 
good repair.
    Mr. Whitebird. I go to both schools. I go to Catholic, be 
in a public school and talk a lot and then I go to the Bug 
School to associate with the students out there, like those 
graduations coming up now. You are hearing students talk about 
ashamed of the high school that is out there, you know, due 
to--like I said in here, we get academic awards and stuff, you 
know, and then they are scared to go on to any other schools, 
like any other kid would. You know, I would want a top-notch 
school instead of a pole barn building. You know, that is 
terrible out there.
    And then I share it out into my local Indian council 
meetings, and I got the District II rep who is here today that 
he can tell them the same thing, you know, we definitely need a 
new high school. When other people come in there and play 
sports--and they got to go to that school? You know, our kids 
get talked about, I mean, run down at other schools. And it 
gets back into the community, and when it gets back into the 
community, it gets back to me, and how do you think I feel? 
There is something that has got to be done, and that is why you 
know, I am here testimony on hopefully that we can get 
something done, a new school in the near future.
    And you know, we have been working on this now for about 2 
years, and you know, it seems like--I want to make one point in 
here that I did make. You know, I think it is very important 
for the Appropriation Committee to look at and that is, you 
know, we spend billions and billions of dollars on war. If you 
take a good look at it, you know, I hear other Indian leaders 
around Indian Country say this, if we had $1 billion of this, 
you know, that would help solve a lot of the Indian program, 
not every program, but across Indian Country.
    You know, I think it is very important for the 
Appropriations Committee to look at, and that is, you know, we 
spend billions and billions of dollars on war. You know, if you 
take a good look at it, you know, other Indian leaders around 
Indian culture say this. If we had $1 billion of this, you 
know, that would help us all, a lot of the Indian program, not 
every program but across Indian Country. Take a good look at 
how much goes to the war, people we are helping out in tsunami, 
Japan, whatever, you know, but we are left out.
    You know, we are definitely put on the back burner when we 
were the first ones here and I do believe, you know, that we 
should be treated like first-class citizens like we are 
supposed to be. Our treaties are broken, you know, I hear this 
all the time at the big meetings, NCAI and NIGA, you know, it 
is just a tough battle. We are one battle after another, all 
the Indian leaders across the Indian nation; we are all 
together on one. You know, we want to be back up here where we 
belong. Thanks for listening. Thanks for your comments, 
Congressman Cole, Congressman McCollum, and Simpson. You know, 
I heard a lot of good things here today and I hope you help us 
all.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Simpson. Just a couple quick things. One, Ribs, how do 
you pronounce the name of that school?
    Mr. Whitebird. Bug-O-Nay-Ge-Shig.
    Mr. Simpson. And what does it mean?
    Mr. Whitebird. All in a day.
    Mr. Simpson. Okay.
    Ms. McCollum. Which is named after--I will tell you later 
more about the school.
    Mr. Simpson. Okay.
    Mr. Whitebird. All in a day.
    Mr. Simpson. I am trying to figure it out.
    Mr. Zorn. Betty could tell you.
    Mr. Simpson. Jim, you mentioned the Great Lakes Restoration 
Project, the geographical program.
    Mr. Zorn. Right.
    Mr. Simpson. We have got several of those: Puget Sound, 
Chesapeake Bay, Great Lakes, San Francisco Bay now. Do you get 
money from that program for projects for the tribes to do on 
the reservations and other types of things?
    Mr. Zorn. Yes, reservation and treaty-seated territory.
    Mr. Simpson. One of the complaints--I do not know if this 
is true--actually from people around the region up there, 
around the Great Lakes--is that there is--what was the 
appropriation for that last year? Do you remember, Darren?
    Darren Benjamin. Four hundred seventy-five, was it not?
    Mr. Simpson. Four hundred seventy-five was the year before. 
$350 million this year under the last year.
    Darren Benjamin. Three hundred eleven, was it not? I think 
it was $311 million.
    Mr. Simpson. Okay.
    Darren Benjamin. Yeah. Yeah.
    Mr. Simpson. All of the geographic programs took somewhat 
of a hit.
    Darren Benjamin. Right. Exactly.
    Mr. Simpson. Which means we did not have to go after BIA or 
any health services or some of those other ones. Some of those 
other programs took a hit. But some of the complaints I hear--
and I do not know if they are necessarily complaints or some of 
the concerns, I guess, is a better word--is that this $311 
million or whatever it is goes out to all these little things 
and there is not an overall big plan about how we are going to 
clean up the Great Lakes and that they need a plan and to be 
able to do this on a grander scale than what they are currently 
doing. Do you find that true or----
    Mr. Zorn. Well, the balance there is if you over-
regionalize the Great Lakes, you tend to miss certain things. 
Like Lake Superior tends to be the cleanest of the lakes, and 
if you focus on restorations, say, like down in Lake Eerie, 
what do you have to do to Lake Superior before you are eligible 
for dollars? And so there is this effort to find a way to 
quarterback it through, say, Camp Davis or someone else in the 
administration while also having the diversity of each of the 
Great Lakes and some of these successful existing structures. 
So I do not find that necessarily to be true because I think if 
you over-centralize it, you are going to create this hourglass; 
you are going to lose your chance to accomplish good things and 
preserve things that need to be preserved. I do agree that 
there has been probably too much talking and not a lot of 
action and I think people are trying to correct that. And I 
think the whole issue of trying to get that initial 475 out 
into the field, how long it took----
    Mr. Simpson. Um-hum.
    Mr. Zorn [continuing]. Compared to what it took to get the 
tribal dollars out through the Indian Self-Determination Act. 
That is something we would like to have looked at because we 
think we can get the dollars out there quicker to do more on-
the-ground good. That is the continuing concern. I think we 
have to be concerned about over-governance, though, because 
then it is all talk, all around the table instead of going out 
and doing things.
    Mr. Simpson. Well, the other side of the argument, and it 
is probably just as valid is that pollution does not come out 
of one great big pipe.
    Mr. Zorn. Exactly.
    Mr. Simpson. It comes in small things, and you clean it up 
in those areas that happen to cause the problems. I do not 
think anybody on the committee is opposed to these geographical 
programs and what we are doing because we all want to maintain 
the greatest body of fresh water----
    Mr. Zorn. Right.
    Mr. Simpson [continuing]. In North America and these other, 
Puget Sound and Chesapeake Bay. We want to do whatever is 
necessary to clean those up. We just want to make sure that the 
dollars that we are spending are actually achieving a goal.
    Mr. Zorn. And we are on board with you. Please keep looking 
over our shoulder because the accountability is important. If 
we cannot show results, this is not going to keep coming.
    Mr. Simpson. I appreciate it. What were you going to say?
    Mr. Wawronowicz [continuing]. Management plan that is 
basically council-driven, people-driven where the research----
    Mr. Simpson. Turn on your mike.
    Mr. Wawronowicz [continuing]. What are the resources of 
values to the tribal members and the non-Indian community that 
is living within the boundaries of a reservation. And we 
utilize the Great Lakes Restoration Initiative this year for 
fiscal year 2011 we are going to have $300,000 that is going to 
be working within the Basin in order to provide, like I 
indicated in testimony earlier, clean air, water, and land. 
Lake Sturgeon Restoration is one project, Wetland Enhancement 
projects that we have going on the res, Wild Rice Enhancement, 
a lot of those ecosystem approaches that if you, you know, take 
care of your ecosystem at home, you know, that will, you know, 
just regionally be a benefit to the Great Lakes region.
    Mr. Simpson. Let me just ask you, on your reservation, do 
you have your own clean air standards, clean water standards, 
or do you have----
    Mr. Wawronowicz. We have federally-approved clean water 
standards.
    Mr. Simpson. These are your standards----
    Mr. Wawronowicz. Our standards, yes.
    Mr. Simpson [continuing]. That have been federally 
approved?
    Mr. Wawronowicz. Correct.
    Mr. Simpson. And do you enforce those or does the EPA 
enforce those?
    Mr. Wawronowicz. EPA will enforce those.
    Mr. Simpson. Okay.
    Mr. Wawronowicz. We have federally-approved water quality 
standards. We are working on air standards as we speak. The 
other thing that we are also utilizing is Department of Energy 
money to come up with an energy plan in order for the 
reservation to reduce its use of fossil fuels by 25 percent by 
the year 2025. So, you know, that is all with an integrated 
resource management plan that we have that is council-driven, 
that gives us the opportunity to go after federal dollars, you 
know, tribal dollars in order to maintain that clean air, 
water, and land. You know, and to be quite honest with you, 
like I indicated I mean without that, economic development will 
not be possible with an Indian Country or within the United 
States of America because that is the basic supply follow it. I 
mean, we just cannot cut corners in that area as a Nation. We 
just cannot.
    Mr. Simpson. Thank you.
    Ms. McCollum. Mr. Chair, on this point I am glad you 
mentioned, you know, is it pollution that we are measuring? Is 
it invasive species that we are measuring? Is it restoration of 
wetlands so that a Great Lake does not become further polluted? 
So it is a lot of things and so a regional board needs to 
oversee that we are reaching our goal, but the objectives need 
to be embraced for each one of the lakes, and in Lake Superior, 
with such a large shoreline, even within that. But the question 
I wanted to ask, because you mentioned the Circle of Flight----
    Mr. Wawronowicz. Um-hum.
    Ms. McCollum [continuing]. And I know that that is 
something that I have heard from our tribes back home, which 
also not only affects--you talk about the greater good--it is 
not only for tribal areas but it also supports conservation. I 
mean, Ducks Unlimited supports, and you have wide, wide support 
on that. Could you talk a little bit about your interaction 
with Fish and Wildlife and how cuts to those dollars, how it 
impacts you?
    Mr. Wawronowicz. Well, Circle of Flight, you know, it is an 
initiative that has been in Indian Country for a long time and 
the Great Lakes region, was 20 years or so now. And we are able 
to utilize those dollars for leverage. In other words, the 
money that, you know, that Congress appropriates, you know, the 
President puts in his budget, Congress appropriates it, we are 
able to use that money to, you know, to work with Ducks 
Unlimited. For our example, on our reservation we have the Pall 
Marsh in which we were able to provide monies to the State of 
Wisconsin in order to do some work on their side of the marsh 
in order to enhance waterfall production, be able to, you know, 
move some water around to where it is not having a negative 
impact on another ecosystem. So, you know, there is that 
cooperation there with those dollars that are, you know, 
benefitting the non-Indian community on and off the 
reservation. We are a checkerboard reservation, which means 
that we have fee land, allotted land, and tribal land that, you 
know, helps protect those resources for both the tribal and 
non-tribal in utilizing those resources. And that is just 
important. Just to mention, the Circle of Flight program did 
receive an award from the Department of the Interior. I always 
cannot remember the--it is the Conservation----
    Mr. Simpson. Partners in Conservation Award. Yeah.
    Mr. Wawronowicz. So in order to do that, you know, I mean 
we have done some good things in Indian Country over the years 
both in Wisconsin, Minnesota, and Michigan. So it is a good 
program and we definitely appreciate continued support from 
this committee, as well as, you know, the administration that 
puts it in there, so thank you very much.
    Mr. Cole. Before we let you all go, I would be remiss not 
to recognize Chairman Billie because I want to tell you, he is 
the only person that has ever appeared before this committee 
that said do not build a road and take the money back. I think 
that alone means we ought to really look at this very 
carefully. He made a very good point and a very good case. And 
if we could, we will let you all go and we will bring our next 
panel up. Ms. Jackie--Ms. Johnson I guess I should say 
formally, Mr. Barnett, Mr. Secatero, Dr. Neary, Dr. Deters, and 
Mr. Miller. It is fine and just what we will do is just start 
at the far end if you would introduce yourself and we will work 
through, give everybody an opportunity to make their testimony 
and then we will open it up for questions and response from the 
committee. So whenever you would like. Please.
                              ----------                              

                                              Tuesday, May 3, 2011.

                      AMERICAN DENTAL ASSOCIATION


                                WITNESS

MATT NEARY

    Mr. Neary. Begin my testimony?
    Mr. Cole. Yes.
    Mr. Neary. Chairman Simpson, Committee Member Cole, I am 
Matt Neary, Chairman of the Council on Government Affairs of 
the American Dental Association and a practicing dentist in New 
York City.
    The ADA thanks the committee for its support for the Indian 
Health Service Dental Program. Your support has expanded the 
dental division's recruitment efforts, maintained an adequate 
level of dentists with advanced training, and initiated an 
electronic dental records system.
    The level of early childhood caries, tooth decay, among the 
American Indian and Alaska Native children has reached epidemic 
proportions. Tooth decay is 400 percent higher in this 
population than for all U.S. races. The disease is so extensive 
that between 25 and 50 percent of preschool children require 
full mouth restoration under general anesthesia. Aside from the 
medical risk to the child, this is the most expensive way to 
treat dental disease. It costs thousands of dollars to treat a 
child in a hospital, primarily due to anesthesia-related tests 
and recovery management compared to a couple of hundred dollars 
if the tooth decay is caught at an early stage or a few cents 
per day to prevent it.
    We are very pleased that the IHS is pursuing its Early 
Childhood Caries Initiative as a cost-effective way of 
addressing and preventing tooth decay. The American Dental 
Association shares IHS's concerns about the tooth decay 
epidemic and supports research that will afford us a better 
understanding of the disease. Last year, we hosted our second 
symposium on the subject. Participants included caries 
researchers, tribal health officials, pediatric dentists, and 
dental public health staff.
    During the past year, the American Dental Association and 
four state dental associations established a Native American 
Oral Healthcare project to address the imbalance and access to 
quality healthcare among Native Americans. We have held 
numerous visits with tribal leaders to discuss collaborative 
ways of improving oral healthcare in Indian Country and 
anticipate the development of long-term partnerships to achieve 
those goals.
    For several years, the ADA has come before the committee 
and shared our concerns regarding the number of dental 
vacancies in the IHS. Three years ago, there were over 140 
dental positions open. Today, there are 45. Several factors 
have contributed to reducing this number, including the IHS 
Summer Student Extern program. The IHS has been able to place 
nearly 500 dental students during the past two summers. These 
students become IHS ambassadors when they return to school and 
contribute to more dentists applying for IHS residencies upon 
graduation. This has proven to be a highly effective program, 
which we look forward to continuing into the future.
    Two other areas of high priority are reinstating the 
funding to replace modular dental units at $1 million per year 
and continuing to install the electronic dental health records 
system for $12 million. As a periodontist, I can tell you that 
untreated adult oral disease significantly complicates the 
management and inflates the treatment cost associated with 
diabetes and heart disease, two conditions with extremely high 
incidence among tribal peoples. The eight dental support 
centers funded by the IHS focus on preventing and treating oral 
disease for all age groups. We have learned from tribal leaders 
that these centers are highly valued and we recommend funding 
the increase by $2 million so that they can service each 
geographic area.
    Oral disease among Native Americans can be significantly 
reduced with a strong prevention program and a sufficient 
workforce. We cannot drill and fill our way out of this dental 
disease epidemic. That approach will not result in any disease 
reduction or cost savings. But by focusing on prevention and 
timely treatment for all ages, we can accomplish our goals. I 
want to thank you for allowing ADA to testify. We are committed 
to working with you, the IHS, and the tribes to aggressively 
reduce the disparity in oral disease and care that currently 
exists in Indian Country. Thank you.
    [The statement of Matt Neary follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.093
    
    [GRAPHIC] [TIFF OMITTED] T6982B.094
    
    [GRAPHIC] [TIFF OMITTED] T6982B.095
    
    [GRAPHIC] [TIFF OMITTED] T6982B.096
    
    Mr. Simpson. Okay.
                              ----------                              

                                              Tuesday, May 3, 2011.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

LESTER SECATERO

    Mr. Secatero. Mr. Chairman, members of the subcommittee, my 
name is Lester Secatero. I serve as the Albuquerque area 
representative to the National Indian Health Board and the 
chairman of the Albuquerque Area Indian Health Board. Thank you 
for inviting me and the NIHB here today to provide testimony 
regarding the fiscal year 2012 budget for the Indian Health 
Service.
    The NIHB was pleased to learn that for the fiscal year 2012 
HIS budget, the administration recommends a $571 million 
increase over the fiscal year 2010 enacted IHS appropriations. 
We acknowledge that this 14.1 percent increase is quite 
significant in this budget climate, yet this increase is needed 
to address the critical health needs of our tribal communities. 
This increase also represents a continued commitment to honor 
the Federal Government's legal obligation and sacred 
responsibility to provide healthcare to American Indians and 
Alaska Natives.
    The trust obligation to provide healthcare is paramount, 
and it is upon this foundation that the IHS National Tribal 
Budget Formulation Workgroup built its recommendation for the 
fiscal year 2012 IHS budget. This Workgroup recommends 
preserving basic healthcare programs currently being funded. 
Current services increases are the lowest budget increments 
needed to enable the Indian Health System to continue operating 
at its current level of service. This category contains such 
items as pay cost increases, inflation, contract support costs, 
funding for the population growth, and facilities construction 
and staffing. Without these increases to base funding, the 
Indian health system would experience a decrease in its ability 
to care for the current service population.
    Second, significant program increases are required to 
address the overwhelming health needs in Indian Country. The 
recommended increases are made in key IHS budget accounts to 
enable programs to improve and expand the services they provide 
to Indian patients. As you know, the IHS has been plagued by 
woefully inadequate funding, which has made it impossible to 
supply Indian people with the level of care they need and 
deserve and to which they are entitled by treaty obligation.
    In addition to the Workgroup recommendation, I would like 
to provide additional recommendations regarding the IHS budget. 
First, the President's proposed budget for IHS includes 
proposed cuts of the small grant programs, but the impact of 
eliminating these programs in Indian Country is enormous. All 
of these small grants serve and target very vulnerable native 
populations such as children, elders, and women, and their 
purpose is to strengthen and build capacity for the long-term 
health of the tribes in such areas as public health, wellness, 
fighting childhood obesity, and working to end domestic 
violence against native women. In addition, the proposal also 
includes cutting the small grant to the tribes' primary 
healthcare resource for information and coordination of the 
national tribal voice, the National Indian Health Board. We ask 
that you do not implement any cuts to this organization, which 
is vital to improving the health status of all tribal people.
    Second, as a discretionary budget line, the IHS budget 
falls target to across-the-board cuts to discretionary funding. 
Such across-the-board cuts are detrimental not only to a 
federal agency's budget but to the lives and well-being of 
Indian people. Today, the IHS budget is funded approximately at 
half the level of need. Any budget cuts in any form will have 
harmful effects on healthcare delivery to Alaska Natives and 
American Indians. The NIHB asks the committee to exempt the 
Indian Health Service from any cuts, freezes, or rescissions.
    Lastly, we ask that a plan be put into place to fully fund 
IHS. Developing and implementing a plan to achieve funding 
parity is critical to the future of Indian health and to 
fulfilling the United States' trust responsibility to AI and AN 
people. The funding disparities between the IHS and other 
federal healthcare expenditure programs still exist in 2010. 
IHS spending for medical care was $2,741 per user in comparison 
to the average of federal healthcare expenditures of $6,909 per 
person. On behalf of all the tribes, please move forward 
towards full funding of the IHS budget. On behalf of the 
National Indian Health Board, thank you for the opportunity to 
address this subcommittee on these important matters.
    [The statement of Lester Secatero follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.097
    
    [GRAPHIC] [TIFF OMITTED] T6982B.098
    
    [GRAPHIC] [TIFF OMITTED] T6982B.099
    
    [GRAPHIC] [TIFF OMITTED] T6982B.100
    
    Mr. Simpson. Thank you.
                              ----------                              

                                              Tuesday, May 3, 2011.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

JACQUELINE JOHNSON PATA

    Ms. Johnson Pata. Good afternoon. My name is Jacqueline 
Pata. I am the executive director of the National Congress of 
American Indians. I am also a councilmember for the Tlingit-
Haida Tribes of Alaska. My testimony today is on behalf of the 
National Congress of American Indians. And first I would like 
to thank you, Chairman Simpson, for holding it and the staff 
for holding this hearing. It is such an honor to be able to 
come and sit with the witnesses back here and listen to tribal 
leader after tribal leader have this one-on-one dialogue with 
Members of Congress, and I appreciate the history of allowing 
this to continue. I also want to thank you and the members of 
this committee for the extraordinary work that you did at this 
budget debate cycle and for the respect of being able to 
protect the treaties and other legal instruments that are 
really our relationship with the Federal Government and 
honoring that.
    We know, as this Nation deals with very difficult issues 
around the deficit and tightening the belt and being able to 
address the ongoing challenges of the budget deficit, that the 
dialogue will continue to be difficult and we want to let you 
know that we stand with you to be able to help shore you up in 
any of those areas. We also recognize that there will be many 
proposals to deal with those budget reductions and certainly to 
make the government work more efficiently and effectively and 
we stand with you for looking for those ways as tribal leaders 
and tribal communities to also deal with what we can do to 
contribute, but want to recognize and remember that we should 
not balance those budget deficits on the backs and the expense 
of the treaty and trust obligations and those solemn 
agreements.
    I want to also say that we are very appreciative as we go 
forward in looking into the next budget cycles of, obviously, 
the ``Carcieri'' fix, the language that has been included, and 
certainly was included from the present fiscal year 2012 
budget. We believe and we hope that this is the year that we 
will get it through.
    But in addition to that, I want to just bring your 
attention to the overall BIA budget and certainly, you know, 
even with the protected funding for fiscal year 2011, there has 
been an effort to address the prior 2012 is we are concerned 
about the ongoing trend of appropriation levels to the 
Department of the Interior and the various agencies. Even in 
the last nine fiscal years, the budgets for Fish and Wildlife 
Service have grown by 30 percent, the National Park Service by 
28 percent, and the U.S. Geological Survey by 19 percent. 
Meanwhile, BIA has only seen a increase of 8 percent, which 
barely covers any cost-of-living or inflation factors. And we 
have seen this historical trend. So even though we feel like we 
are raising the bar and protecting tribes, in relationship to 
the other departments within the Department of the Interior, we 
are sorely lagging behind. And so we ask you to take a look at 
that and to be able to help us address this disproportionate 
funding trend that seems to be arising throughout Indian 
Country.
    Another area that, of course, we have strong united support 
from tribes across the country is funding for the contract 
support costs. I looked at some of my other panel members here; 
I am sure they will speak to it. But with IHS and BIA and 
tribally-operated schools, which are funded by tribal grant 
support costs, we recommend that the contract support costs be 
increased to $615 million and the BIA contract support to $228 
million, the tribal grant support to $70.3 million. And this 
really would provide full funding. Now, full funding means 100 
percent funding, which means that the government would actually 
pay the contracts as they pay any other contract that they 
engage in across the Nation with other contractors at 100 
percent.
    As far as natural resources programs such as Rights 
Protection Implementation, fish hatcheries, forestry, water 
services, the last panel spoke to a lot of those issues. They 
have been identified as critical to Indian tribes in the budget 
and we have offered specific recommendations that you will see 
in our written testimony. But natural resources, of course, are 
an important part to our tribal economies, as well as our 
cultural values.
    And talking about tribal economies, the last thing I want 
to touch on in my brief moment here is that the Tribal 
Guarantee Loan Guarantee Programs of 5.1 million, these 
guarantees may have been unused but it was not the fault of the 
tribal leaders that it went unused. It was the fault of the 
Agency for not getting them out. This does not mean that we do 
not need them. And this leveraged dollars 10 to 1 means 
important financing to tribes and actually will help spur our 
future economic opportunities. So we hope that you restore 
those loan guarantee funds and look at helping to provide that 
oversight to the federal agencies to ensure that they are being 
properly used.
    So once again, I thank you for the ability to be able to 
testify here today and provide our brief opinions. Thank you.
    [The statement of Jacqueline Johnson Pata follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.101
    
    [GRAPHIC] [TIFF OMITTED] T6982B.102
    
    [GRAPHIC] [TIFF OMITTED] T6982B.103
    
    [GRAPHIC] [TIFF OMITTED] T6982B.104
    
    Mr. Simpson. Thank you. You notice how I just moved right 
down----
                              ----------                              

                                              Tuesday, May 3, 2011.

                        FRIENDS OF INDIAN HEALTH


                                WITNESS

PAMELA DETERS

    Ms. Deters. Good afternoon, Chairman Simpson and other 
committee members. I am Dr. Pam Deters. I am an American Indian 
of Cherokee and Choctaw heritage. I am a clinical psychologist 
practicing in Louisiana and Mississippi. I am also currently 
the president of the Society of Indian Psychologists whose 
mission is to advocate for the mental well being of Native 
American people. And I am a proud member of the American 
Psychological Association.
    My expertise is in trauma among Native American children, 
families, and communities with an emphasis on cultural 
revitalization and resilience. My people have experienced an 
extensive history of intergenerational trauma and oppression, 
including numerous atrocities such as forced assimilation, 
genocide, compulsory enrollment in boarding schools, 
involuntary relocations of entire tribal populations, and the 
resulting loss of culture and traditional practices.
    As a professor at the University of Alaska, my research 
entailed visiting remote Alaska Native villages and witnessing 
the devastation of families and communities due to youth 
suicide, alcohol and substance abuse, poverty, and the loss of 
traditional ways and culture. But I have also witnessed the 
emergence of wellness programs where communities work to 
restore and revitalize native culture, language, dance, and 
traditional healing practices. I have served as a statewide 
director of Alaska Natives into Psychology, which is a training 
program supporting American Indian and Alaska Native students 
pursuing careers in psychology. I am committed to and I am 
passionate about the importance of training native students to 
return to their own reservations and their villages to heal the 
physical and mental ills of our people.
    Today, I am representing the Friends of Indian Health, 
which is a coalition of health organizations dedicated to 
improving the health of American Indians and Alaska Natives. 
The Friends thanks the committee for the additional funding in 
the 2010 bill and for maintaining these levels in the 
continuing resolutions. The increased support will help provide 
care without interruptions or reductions. The Friends supports 
the administration's proposed 2012 funding level for the Indian 
Health Service of over $4 billion. This level recognizes the 
need to close the health disparity gaps experienced by native 
people.
    However, there are priority areas that, if not addressed, 
will continue to overwhelm IHS. The most urgent of these is 
contract health services. In 2010, over 168,000 contract health 
services were denied. The root cause of this issue lies in the 
IHS and Tribal delivery system. The IHS and Tribes operate at 
over 600 locations, the majority of which provide primary 
medical care but depend on the private sector for secondary and 
tertiary care. This situation is not going to change. 
Therefore, the request for contract health services funds needs 
to be realistic. The administration's request for over $948 
million is significant but a more realistic amount would be 
over $1 billion.
    The Friends strongly supports prevention and early 
treatment programs to reduce the need for contract health 
services, but that depends on a sufficient workforce. Filling 
vacancies through loan repayment has proven to be the best 
recruiting and retention tool for IHS. The average retention 
period for IHS loan repayment recipients is over seven years. 
Therefore, the Friends have concerns about the administration's 
loan repayment request, which is $178,000 less than current 
funding and will result in 33 fewer contracts. Before loan 
repayment can be offered, dedicated and qualified healthcare 
professionals have to be recruited. A year ago, the IHS 
director commissioned a report on recruitment and retention. 
The Friends strongly believe that if the recruitment process 
were improved, it would have a positive effect on filling 
vacancies. We urge the committee to encourage the service to 
put into action recommendations from the director's report.
    IHS also needs a strong network of both clinical and 
support staff. These positions are usually filled by tribal 
members providing a very important cultural link to patients. 
However, the salaries for some of these needed positions are so 
low that facilities cannot attract sufficient staff. The 
Friends urges the committee to seek a report on the effect of 
the outdated 600 series pay scale on employee recruitment and 
retention and what actions need to be taken to finalize a new 
pay scale.
    The Friends are encouraged by the administration's request 
because it will help eliminate health disparities faced by 
Native Americans, but we also encourage the committee to go 
beyond the administration's proposal to ensure that IHS is 
fully staffed so that it can raise the physical, mental, 
social, and spiritual health of American Indians and Alaska 
Natives to the highest levels possible.
    The Friends thanks the committee for the opportunity to 
testify today and we look forward to working with you on these 
issues. Thank you again.
    [The statement of Pamela Deters follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.105
    
    [GRAPHIC] [TIFF OMITTED] T6982B.106
    
    [GRAPHIC] [TIFF OMITTED] T6982B.107
    
    [GRAPHIC] [TIFF OMITTED] T6982B.108
    
    Mr. Simpson. Thank you. Go ahead.
                              ----------                              

                                              Tuesday, May 3, 2011.

            NATIONAL TRIBAL CONTRACT SUPPORT COST COALITION


                                WITNESS

LLOYD B. MILLER

    Mr. Miller. My name is Lloyd Miller. I am with the Sonosky, 
Chambers Law Firm, but I am here today as counsel to the 
National Tribal Contract Support Cost Coalition. You have heard 
a lot of testimony today about contract support costs. That 
issue is relevant because over one-half of the Indian Health 
Service and over one-half of the Bureau of Indian Affairs has 
been turned over to tribal operation under Indian Self-
Determination Act contracts.
    Now, I have been practicing law for 33 years. I have been 
practicing government contract law for over 30 years. I can 
tell you without fear of contradiction that there is no other 
area in government contract law where the government can 
underpay a fully-performed contract. It does not exist. But 
somehow, when it comes to Indian affairs, a contract with an 
Indian tribe is underpaid regularly by the Indian Health 
Service or by the Bureau of Indian Affairs and there is no 
recourse. This was not supposed to be the way the act would be 
implemented.
    In 1988, there had been hearings in Congress about how the 
act was being run and these contracts were, at that time, being 
viewed as grants, which would fairly describe the situation I 
just described. And Congress was frustrated with the process 
and amended the act to require that these instruments would 
thereafter be contracts, that they would be binding under the 
Contract Disputes Act. Over 400 times in this statute the word 
``contract'' was used. They were made enforceable. The 
secretaries were told they have to add the full amount of the 
contract support cost to the contract. And in 2006, the Supreme 
Court and the Cherokee Nation and Shoshone-Paiute Tribes case 
ruled in favor of the Shoshone-Paiute Tribes, and the Cherokee 
Nation held the Indian Health Service liable for underpaying 
the contracts saying no other government contractor would be 
treated this way, neither should the tribes.
    Now, there are two reasons why we are here. One is that 
there is a line-item cap in the Appropriations Act which you 
never see anywhere else when it comes to government contracts. 
You do not see a line-item cap capping the amount of a contract 
to supply food to our troops in Afghanistan to the ABC 
Corporation that is providing food on a particular base. You do 
not see that. But when it comes to Indian tribes, there is a 
cap in the Appropriations Act. And in fact the first solution 
would be to remove that line item.
    Secondly, of course, as Jackie alluded to and testified in 
support of the amount has to be budgeted correctly. And the 
full amount that the Indian Health Service tells us is required 
is $615 million. What is really quite shocking in the Indian 
Health Service budget justification is the statement that at 
the funding level requested, there will be $153 million 
shortfall in paying the contracts. This, too, is unheard of. 
You will not find any place in the government contracting 
regime, which is largely Defense Department oriented, where an 
agency comes to the appropriators and says, by the way, we are 
asking you for a dollar amount that will lead to $100 million 
less than what we owe Boeing or General Electric. It is just 
the opposite. They budget fully and if they end up short, they 
ask for a supplemental appropriation. Never in the history of 
the Indian Self-Determination Act has the BIA or the IHS ever 
come to Congress and asked for a supplemental appropriation.
    The Indian Self-Determination Act has had the most profound 
effect on the growth of tribal governments, improvement in 
Indian healthcare, improvement in local employment, providing a 
base for future economic development, and it is true all over 
the country, whether where I hail from now in Alaska or where I 
came from this week and on the Chickasaw Reservation, all 
across Indian Country. The single greatest impediment to the 
success of that act has been the failure to pay contract 
support costs. That is actually a quotation from Senator Inouye 
in 1987 and it is still a true statement today.
    The National Contract Support Cost Coalition respectfully 
urges that the committee finally end this abuse of contract 
rights by fully funding these contracts. If that is done, I can 
tell you three things that will happen. First of all, the 
programs that are transferred to hospitals and the clinics that 
are transferred to tribal operation will not be cut on account 
of a contract being awarded to a tribe. Remember, if you have a 
million-dollar clinic being run by the Indian Health Service 
and a million-dollar clinic run by the tribe next door, the 
tribe has $800,000 to run the clinic. The Indian Health Service 
has $1 million. That is not right. And the only reason that is 
so is because the contract support costs are not being paid in 
full, and therefore, the tribe has to take it out of their 
programs. These costs are fixed costs.
    Removal of the line-item limitation and full budgeting at 
$615 million are the solutions to the contract support cost 
dilemma for the Indian Health Service. As for the Bureau of 
Indian Affairs, Mr. Chairman, you are a hero. What you were 
able to do in the fiscal year 2011 process is remarkable and it 
may be that contract support costs over there are $220 million 
from BIA contracts ends up being short, but if it is, it will 
be short by $8 or $10 million. We have never been that close to 
full funding since the act was passed in 1975, so thank you 
very much, Mr. Chairman.
    [The statement of Lloyd B. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.109
    
    [GRAPHIC] [TIFF OMITTED] T6982B.110
    
    [GRAPHIC] [TIFF OMITTED] T6982B.111
    
    [GRAPHIC] [TIFF OMITTED] T6982B.112
    
                                              Tuesday, May 3, 2011.

                NATIONAL COUNCIL OF URBAN INDIAN HEALTH


                                WITNESS

D'SHANE BARNETT

    Mr. Barnett. Good afternoon. My name is D'Shane Barnett. I 
am a member of the Sapushgo Hutay Clan of the Mandan Tribe of 
the Mandan, Hidatsa, and Arikara Nation of Fort Berthold, North 
Dakota and I am currently serving as the executive director of 
the National Council of Urban Indian Health, also known as 
NCUIH. On behalf of NCUIH's 36-member organizations and the 
150,000 urban Indians that our programs serve each year, I 
would like to thank the committee for this opportunity to 
provide testimony addressing the urban Indian priorities for 
the fiscal year 2012 budget.
    This year, NCUIH has five budget recommendations. First, 
NCUIH supports the National Indian Health Board's budget 
recommendation that the Indian Health Services funding be 
increased by $735 million. We are encouraged by President 
Obama's proposed increase of $571 million. However, if the 
Native American health delivery system is to truly fulfill the 
Federal Government's trust responsibility to native people, the 
Indian Health Service must be fully funded.
    Second, NCUIH strongly advocates for a $9 million increase 
to the Urban Indian Health program line item to address several 
years of near-flat funding due to the previous administration's 
attempts to zero out the program. In order to meet rising need, 
cost inflation, and to remain competitive in leveraging federal 
dollars with other private grants and funding opportunities, 
Urban Indian Health programs must receive an increase to our 
base funds.
    Third, NCUIH opposes the proposed elimination of the IHS 
Small Grants programs. These competitively awarded grants 
provide our communities with essential health services that 
cannot be duplicated through other means. I will discuss the 
significance of these grants in just a moment.
    Fourth, NCUIH opposes recent attempts to cut funding for 
community health centers. Community health centers provide 
comprehensive, culturally competent, quality primary healthcare 
services to medically underserved communities and vulnerable 
populations. Many of our member programs receive a significant 
portion of their funding through these 330 grants. Recent moves 
to slash funding for community health centers by nearly 60 
percent would have a devastating impact on the most vulnerable 
members of our American Indian communities in urban communities 
at a time when they can least afford it. Already woefully 
underfunded, further cuts to our health centers would leave 
countless individuals with no other health options.
    Finally, NCUIH opposes the recent moves to eliminate 
funding for the National Indian Health Board's cooperative 
agreement. NIHB is a vital partner in providing healthcare 
guidance and education to American Indian and Alaska Native 
people.
    Regarding the Small Grants programs that I mentioned, the 
Indian Health Services fiscal year 2012 budget justification 
calls for the elimination of nine Small Grant programs. These 
programs provide our communities with preventative health 
services which reduce the cost of healthcare in the long run by 
addressing threats to health before they result in the need for 
more expensive acute care. The elimination of these competitive 
grants has been justified on the basis of unsatisfactory 
results, but the evaluation report provided by IHS indicates 
that many of these programs have been successful and can serve 
as national models for future recipients of these grants.
    Furthermore, many of the urban Indian grant recipients will 
have their funding eliminated halfway through the grant period, 
long before any evaluation of their effectiveness has actually 
been conducted. The elimination of these grants amounts to a $1 
million decrease in funding for Urban Indian Health programs, 
completely eliminating the President's net proposed increase in 
funding for Urban Indian Health programs over the fiscal year 
2011 proposed levels.
    These cuts undermine our ability to promote health and 
wellness, to prevent disease, sexual assault, and domestic 
violence, and to care for the elderly, women, and children in 
our community. With Urban Indian Health programs unable to 
provide these critical services, the burden will fall on the 
medical system where the costs to treat are far more expensive 
than for providing education and information. We need to 
maintain these grants so that we can help provide services to 
the most vulnerable members of the American Indian and Alaska 
Native population.
    Regarding NIHB's cooperative agreement, the National Indian 
Health Board advocates on behalf of all tribal governments and 
American Indians and Alaska Natives in their efforts to provide 
quality healthcare. The IHS budget justification proposes 
eliminating the NIHB cooperative agreement, which would result 
in marginal savings while making it even more difficult to 
achieve IHS's stated goal of eliminating health disparities. In 
order to share resources and reduce costs, NCUIH and NIHB have 
concluded a memorandum of understanding which provides for the 
sharing of time and resources between the two organizations. 
Eliminating support for NIHB will therefore have negative 
consequences for NCUIH, hindering our efforts to work with a 
crucial partner in providing guidance and education regarding 
the provision of healthcare to American Indians.
    In conclusion, I would like to thank all of the committee 
members for this opportunity to testify on the budget 
priorities for urban Indians. Congress has long supported the 
Urban Indian Health program since its inception in 1976 with 
the original Indian Healthcare Improvement Act. While we are 
encouraged by the bipartisan support we have received during 
the past appropriations cycles, ongoing economic hardship, as 
well as demographic factors have placed an increased demand on 
our health programs. It is the position of NCUIH that the Urban 
Indian health line item should receive an increase, the 
competitive small grants should continue to be made available, 
that funding to HRSA should be protected and maintained, and 
that our partner, NIHB, should continue to receive the critical 
funding provided by their cooperative agreement. The time has 
come to seriously invest in the health of all Native Americans. 
And we thank you for this opportunity.
    [The statement of D'Shane Barnett follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.113
    
    [GRAPHIC] [TIFF OMITTED] T6982B.114
    
    [GRAPHIC] [TIFF OMITTED] T6982B.115
    
    Mr. Simpson. Thank you. Lloyd, you mentioned in your 
testimony eliminating the line item of contracts for--would you 
eliminate the line item entirely or you would eliminate the cap 
on the line item?
    Mr. Miller. Eliminate the cap on the line item. By taking 
out the capping language, then the contracts would be paid out 
of the lump sum appropriation like all other government 
contracts are paid. In fact, all of the Indian Health Service's 
other contracts because they have many other contracts are paid 
out of their lump sum appropriation. And that is the situation 
that prevailed until about the year 2000, 1999 when the cap 
started coming into play. So they came into play because courts 
had held the Indian Health Service liable for failing to pay 
the contracts.
    Mr. Simpson. Are they--the contract support, is it not met 
because of duration of payment or amount of payment? Do you 
understand what I am getting at?
    Mr. Miller. I am not sure. It is not met because of the 
amount of payment. The contract support costs themselves are 
actually set by the government. It is set by a different 
agency; usually the National Business Center sets the indirect 
cost rates. Then, the tribes have to incur at that rate. If 
they do not, they owe the money back to the government. And 
these are fixed costs. These are property insurance, liability 
insurance, audit costs, and so forth. So they have to be 
incurred. They are fixed costs. The sum does not change from 
year to year. They are fixed. Pretty much 25 percent of the 
program amount is the amount owed in contract support costs.
    Mr. Simpson. There is a saying that, I think I read an 
article by Tom Coburn that said if you are going to get sick in 
Indian Country, get sick before June----
    Mr. Miller. Yeah.
    Mr. Simpson [continuing]. Something like that? Interesting. 
I am glad we were able to do something about that this year and 
we will continue to work on it because it is very important. We 
do have obligations that I think we have to meet. Jacqueline, 
you mentioned the overall appropriation for Interior----
    Ms. Johnson Pata. Um-hum.
    Mr. Simpson [continuing]. And you are right. I agree with 
you fully. I think the allocation for the Interior Department 
has been insufficient over a number of years, and then when you 
look within the different bureaus within the Department of 
Interior, that is an amazing little graph where Fish and 
Wildlife Service has gone up 30 percent in the last eight 
years, the National Park Service, 28 percent or so, and BIA is 
down there at 8 percent. In the last couple of years, we have 
done a pretty good job of trying to catch up, but that means it 
must have been really ugly prior to that.
    Ms. Johnson Pata. We do have some other graphs that we 
would be glad to share with you where we have charted out like 
just cost-of-living increases and what it has looked like for, 
you know, the last decade or so for BIA and Indian funding I 
think would be very helpful for you to see.
    Mr. Simpson. Good. Well, I appreciate it. Dr. Neary, now, 
something I know something about having been a dentist in the 
real world. Four hundred percent higher decay rate in Native 
American tribes than in the general population?
    Mr. Neary. Yes, that is correct.
    Mr. Simpson. What does the research show on that? Why is 
that? I mean the molecular makeup of the enamel has got to be 
fairly similar, is it not?
    Mr. Neary. It is not.
    Mr. Simpson. Really?
    Mr. Neary. The early childhood caries studies--there were 
two symposia because the first one was so confusing that 
everybody had to take a hard look at it. But there is a 
congenital defect in the enamel of many Native American 
children. It is probably acquired in the third trimester of 
pregnancy or immediately after birth. So they have increased 
enamel hypoplasia.
    Mr. Simpson. Really?
    Mr. Neary. It is a common occurrence in malnourished 
populations, fetal trauma, maybe even birth trauma, so it 
affects the development of incisors and first molars typically, 
you know, which primary teeth would be developing at that time. 
You take those predisposing factors, the hypoplastic enamel 
becomes a culture medium for strep mutans, so they start 
growing increased numbers of known cariogenic pathogens. Once 
the established colonies are formed, they start to dominate, so 
you get a much higher incidence of strep mutans in these 
children who are affected than you do in the general 
population. What you superimpose on that, then, is dietary 
factors and things.
    Mr. Simpson. Right.
    Mr. Neary. Aside from native populations, the military is 
finding that non-Indian caries-resistant U.S. troops who go to 
the desert in Iraq consuming a great deal of Dr. Pepper and 
Mountain Dew in particular, so they are 20-year-olds who were 
caries-resistant for their whole lives and one-year deployment 
in Iraq they start getting tooth decay.
    Mr. Simpson. Really?
    Mr. Neary. So you have the dietary thing, increased 
consumption of sugar beverages because you are in desert 
environment superimposed on this high susceptibility which is 
perinatally acquired--probably--susceptibility. So there is 
more to it than just negligence or, you know, careless 
maintenance.
    Mr. Simpson. That may be more than any of you want to know 
about dental care, but I find it kind of interesting because I 
happen to know a little bit about it. But thank you for the 
work that the ADA does in trying to make sure that Indians have 
access to dentists. And that is, as we have talked about in the 
past, a problem on many reservations and particularly in 
Alaska, as Don and I have talked about, trying to get dentists 
out to some of these tribes that are in very, very, very remote 
places is sometimes very difficult. And I know the ADA has 
worked hard to make sure that we have qualified and quality 
dentists out in those areas, and we will continue to work with 
the ADA. But I appreciate the work that the Association has 
done in trying to address that problem.
    Mr. Neary. Thank you very much.
    Mr. Simpson. Thank you all for your testimony. I appreciate 
it very much. Now, we have the Honorable Don Young here and 
Jerry Isaac, Ted Mala, and Andy Teuber. Is it like tuber?
    Mr. Teuber. Yes.
    Mr. Simpson. Well, that is like an Idaho spud. We call them 
tubers. This is what we will call the Alaska panel.
    Mr. Young. Mr. Chairman, thank you. And it is my honor to 
introduce the three witnesses who will be here today. First, we 
have Jerry Isaac, President of the Tanana Chiefs. The Tanana 
Chiefs Conference is a traditional tribal consortium of 42 
villages. President Isaac has been active in the Tanana's 
tribal and community affairs, served as the president Tanana 
Tribal Council from 1980 until he was elected as TCC president 
in 2006. Jerry Isaac was born and raised traditionally by a 
family teaching him essentials in culture and language in 
Tanacross, Alaska, which also produced some of the finest-
looking ladies in the country, too.
    Dr. Ted Mala, Director of Tribal Relations, Traditional 
Healing Clinic, Southcentral Alaska; Southcentral Foundation. 
Southcentral is an Alaska Native Health Consortium that serves 
the Anchorage area as well as 55 villages. Dr. Mala received 
his Doctor of Medicine and Surgery (MD) from the Autonomous 
University of Guadalajara in 1976, has a Master's Degree in 
Public Health from Harvard University in 1980. He actively 
pursued his career in public health and health administration 
both in Alaska, as well as internationally in the circumpolar 
countries. Dr. Mala is an Alaska Native Inupiat Eskimo enrolled 
in the Village of Buckland, as well as the Northwest Arctic 
Native Association.
    We now have Andy Teuber, Chairman and President of Alaska 
Native Tribal Consortium. The consortium serves 138,000 Alaska 
Natives and American Indians residing in Alaska through the 
partnership in Alaska Native Medical Center, Alaska's Level II 
Trauma Center. The Consortium employs nearly 2,000 people and 
operates over $400 million in annual resources to deliver care 
as well are rural infrastructure development and engineering. 
And he serves as the president and CEO of Kodiak Area Native 
Association.
    Mr. Chairman, may I say this is one of the finer groups of 
people representing health in Alaska. We have made great 
progress. We have a lot further to go. And Mr. Chairman, may I 
say, thank you, too, for your work on the 2011 budget and our 
work for American Indians and Alaska Natives I think is 
crucially important. You have a great challenge ahead of you 
but I will back you up anywhere you can when it comes to trying 
to make sure health is provided to the American Indian and the 
Alaska Native because I think it is crucial. They do a good 
job. We can do a little better job with a little more 
understanding of what their intent is. So Mr. Chairman, with 
that, you have the panel.
    Mr. Simpson. Well, thank you, Don. There is no more serious 
of an advocate for Native Americans, Indians, both in the lower 
48 and Alaska than Don Young. And it has been my pleasure to 
work with you over the years to try to address some of those 
issues, and he is the one that keeps telling me we have 
responsibilities. We have treaty responsibilities and 
everything else. And a great Nation does not ignore those, so 
that is why I think we have done some of the things that we 
have been able to do in this last health bill. So thank you, 
Don. I appreciate it.
                              ----------                              

                                              Tuesday, May 3, 2011.

                        TANANA CHIEFS CONFERENCE


                                WITNESS

JERRY ISAAC

    Mr. Isaac. Thank you, Mr. Chairman and members of the 
committee. Thank you for the honor of presenting testimony 
today. I also would like to thank Congressman Young for the 
introduction. I appreciate that.
    As Congressman Young has introduced me, my name is Jerry 
Isaac and I am the president of the Tanana Chiefs Conference. 
The Tanana Chiefs Conference in an intertribal consortium of 42 
Alaska Native Tribes located in the interior of Alaska. Our 
tribes occupy a largely road-less area of 235,000 square miles 
stretching from Fairbanks clear up to the Brooks Range and over 
the Canadian border. Our area is almost the size of Texas. Our 
tribes have authorized TCC to contract with the Bureau of 
Indian Affairs and with the Indian Health Services to operate 
their large number of federal programs and services for our 
tribal members. TCC does this under the authority of the Indian 
Self-Determination Act, contracting to operate federal programs 
which IHS and the BIA would otherwise operate for our tribes. 
We honor our bargain with the government by operating these 
federal programs and facilities year in and year out, but the 
government does not keep its bargain.
    Specifically, the Indian Health Services does not honor its 
duty under our contracts to reimburse the fixed contract 
support costs that we incur in carrying out these contracts for 
the government. We work for so many tribes in such a high-cost 
environment, but every year the government shorts us by several 
million dollars in fully audited fixed costs.
    The result is that we must cut into our programs to make up 
for the IHS's contract support costs shortfalls. In fact, even 
after our shortfall was reduced in fiscal year 2010 thanks to 
the President's and the committee's commitment to addressing 
this problem, IHS still left TCC short by $3.2 million. That is 
$3.2 million that we had to take out of the federal healthcare 
programs that we operated. That is $3.2 million worth of 
desperately needed and already underfunded healthcare services 
that our tribal members had to go without. That is $3.2 million 
that came out of our programs but not out of the IHS's 
bureaucracy or agency-operated programs, and this year, IHS 
will fail to pay us another $3.2 million. For us, $3.2 million 
could translate into 70 positions because we strive to leverage 
each dollar with another dollar from Medicare, Medicaid, or 
private insurance. This is an enormous amount of healthcare 
employment and services that we must cut from our IHS contract 
just to make up for the IHS's failure to pay us what it owes 
us.
    IHS should not be able to short a contract that it has 
awarded and that we have performed. And the Agency should not 
be able to hide behind appropriations-backed language as an 
excuse for not honoring its contracts. It pays other contracts. 
It should pay our contracts, too.
    TCC asks that the committee finally complete the work it 
began in fiscal year 2010 and clear the way toward full payment 
of contracts we operate for IHS. The limitations in the 
appropriations acts should be removed and $615 million should 
be budgeted for this activity. In this way, these IHS contracts 
will at long last be paid in full, just as the committee's work 
this year will permit the BIA in 2011 to pay its contracts in 
full for the first time in 15 years.
    Thank you, Mr. Chairman, for the opportunity to present 
testimony today on the contract support cost crisis facing 
tribes and tribal organizations that contract to operate 
federal facilities and programs for the IHS and the BIA.
    [The statement of Jerry Isaac follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.116
    
    [GRAPHIC] [TIFF OMITTED] T6982B.117
    
    [GRAPHIC] [TIFF OMITTED] T6982B.118
    
    Mr. Simpson. Thank you. Go ahead.
                              ----------                              

                                              Tuesday, May 3, 2011.

                        SOUTHCENTRAL FOUNDATION


                                WITNESS

TED MALA

    Dr. Mala. Hello. My name is Ted Mala. Thank you. I am an 
Alaska Native and citizen, past president of the Association of 
American Indian Physicians, and served as commissioner of 
health for Governor Hickel on his cabinet. Today, I come before 
you as director of tribal relations for Southcentral 
Foundation, as well as director of the Traditional Healing 
Clinic. And I want to thank you both for your service. You guys 
are just legends and we really appreciate you.
    Southcentral Foundation is the lead tribal organization in 
southcentral Alaska. We provide a full range of medical, 
dental, optometric, behavioral health and substance abuse to 
45,000 people, both Alaska Native and American Indians living 
in Anchorage, the Matanuska-Susitna Borough, and a number of 
villages nearby. We also serve 13,000 Alaska Native people in 
55 villages, and it is all over an area of 100,000 square 
miles. So I know you are looking at the map so you can relate. 
We employ 1,400 people to do this. The core of our service 
delivery system is our self-governance contract with Indian 
Health Service. In fact, we are one of the largest tribal 
health contractors in the country, along with Oklahoma and 
Navajo.
    We are here today because the government has repeatedly 
broken its contract to Southcentral. It has failed to pay us 
the contract support costs, which our contract and the law 
dictates are supposed to be paid in full. You know this very 
well. We just add our voice to the others saying that we have 
the same problem. We discussed this issue with Congress and 
were told the problem was the administration. We go to the 
administration and they tell us Congress did not appropriate 
enough. And when you go to the Agency, they say that yes, it is 
very important but they have other competing needs. So I am 
sure it sounds familiar.
    So at Southcentral, we do not understand a lot of the 
finger-pointing because to us a contract is a contract and a 
contract is not a matter of balancing priorities but doing what 
the contract says to do. Besides the competing priorities as a 
false issue, when IHS underpays our IHS contract, we are forced 
to cut programs and the administration wants to protect them. 
We have to cut mental health and substance abuse, as well as 
dental, optometry. It is a zero-sum game.
    The fact is that the budget is balanced by cutting only 
funds that go to tribally-administered parts of the IHS system. 
When that happens, Congress and the administration discriminate 
against and punish the very part of the system that has proven 
most effective in delivering healthcare. So at SCF we do not 
ask to be treated any differently or any better than part of 
IHS, but we do not want to be treated worse either. So for the 
first time in many years, we are hopeful. It is clear that 
Congress and the administration now understand that an 
underpaid dollar in contract support costs means a $1 reduction 
in tribal healthcare. Congress and the administration 
understand that these are contracts that really have to be 
paid. Congress especially seems to appreciate that 100 percent 
of every contract support cost dollar goes right into tribal 
health and not one penny of it goes into the federal 
bureaucracy.
    We are hopeful today for the first time in over a decade. 
Last year's SCF's shortfall was substantially reduced. As a 
result, SCF opened 97 new positions to fill multiple healthcare 
provider teams and support staff. These positions provide 
covered services. We are billing anywhere we can, Medicaid, 
Medicare, private insurers, and we hope that our revenues will 
allow us to bring on 100 more additional positions.
    In short, we are proving every day that reducing contract 
support cost shortfall--that contract health is a sound 
investment, both in tribal employment and tribal health 
services.
    Finally, in Congress in 2012, once the government's 
contract support costs, if Congress funds and closes that, we 
will be able to fill at least 100 positions. I am sure it is 
true across America. So as Congress was able to eliminate the 
stark BIA shortfalls as part of 2011 budget compromise, we ask 
today that Congress in fiscal year 2012 finally end all of the 
IHS support cost shortfalls that have plagued us for over 15 
years. Thank you for the privilege of testifying on behalf of 
Southcentral Foundation and the 58,000 Native Americans we 
serve. Mr. Chairman and Congressman Young, you are legends. 
Thank you.
    [The statement of Ted Mala follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.119
    
    [GRAPHIC] [TIFF OMITTED] T6982B.120
    
    [GRAPHIC] [TIFF OMITTED] T6982B.121
    
    [GRAPHIC] [TIFF OMITTED] T6982B.122
    
    Mr. Simpson. Thank you. Andy.
                              ----------                              

                                              Tuesday, May 3, 2011.

                 ALASKA NATIVE TRIBAL HEALTH CONSORTIUM


                                WITNESS

ANDY TEUBER

    Mr. Teuber. Thank you. Good afternoon, Chairman Simpson. My 
name is Andy Teuber. Thank you, Congressman Young, for the very 
flattering introduction. I am the president and chairman of the 
Alaska Native Tribal Health Consortium, which serves 138,000 
Alaska Natives and American Indians across the great State of 
Alaska, a state which comprises 650,000 square miles and has a 
population of only 700,000 people, 20 percent of which are the 
Alaska Natives and American Indians that we serve in the Alaska 
Native Tribal Health Consortium.
    I also have the distinct pleasure to serve as the president 
and CEO of the Kodiak Area Native Association, which delivers 
primary and social services to the population of Kodiak Island 
in the Gulf of Alaska. And in that capacity I deliver services 
to seven of the communities around Kodiak. If you look at the 
State of Alaska, you can see, it kind of looks like this here. 
Kodiak is going to be right down here in the Gulf. It is nice 
to have a Congressman to serve as your assistant. Yes, thank 
you, Congressman. It is, in fact, the largest island in the 
United States by coastline and second to the large island of 
Hawaii, State of Hawaii, for distance or area.
    What I was going to talk about today, and I do not want to 
articulate anything that has already been said better than I 
can say it in what Mr. Lloyd Miller has said for contract 
support costs and what Dr. Matt Neary has said on behalf of the 
ADA, but I did want to talk about a couple of issues that have 
not been addressed yet. And the first one is IHS Village Built 
Lease program. It is the first issue that I want to bring to 
the chairman's attention today.
    And the foundation of the Alaska Native Tribal Health 
system is kind of built on the VBC program or the Village Built 
Clinic Lease program. The VBC program provides funding for 
rent, utilities, insurance, janitorial, maintenance costs, 
healthcare facilities throughout rural Alaska. Despite an 
increase in the number and size of clinics throughout Alaska 
and the rapidly increasing costs of operating these clinics, 
the funding for the VBC lease program has barely increased 
since 1996. Current funding for leases covers less than 60 
percent of the costs of operating these clinics.
    Without additional funding, the VBC lease program, Alaska 
villages will be forced to further reduce clinic operations for 
primary, tertiary care for dental services and behavior health 
services in and around all of our rural communities. And they 
will be forced to defer long-term maintenance and improvement 
projects. This situation not only reduces healthcare 
availability in villages. It also threatens nearly $200 million 
worth of rural infrastructure in the state that the Federal 
Government has already funded.
    So the solutions that I propose today are, number one, to 
have the VBC lease program listed as a separate line item in 
the IHS budget. And number two, provide an increase of $7 
million in funding for the VBC lease program to be added in the 
current program base for the 2012 budget.
    This funding is needed to sustain the VBC lease program and 
cover the expected operating cost in fiscal year 2012 and to 
establish funding for the long-term maintenance and 
improvement, and without this funding, many Alaska villages 
will not be able to continue supporting local clinics, which 
will lead to serious negative consequences for the health and 
safety of Alaska Native people.
    As I stated earlier, Mr. Miller's testimony was informative 
for me. I am certain that it was for the committee as well. And 
the information that Dr. Neary had provided on the dental 
health for American Indian and Alaska Native people, I did want 
to touch on the oral health as it relates to the Dental Health 
Aid Therapy program in Alaska. And with just a minute, Indian 
Country--in Alaska in particular--faces considerable oral 
health disparities, and American Indians and Alaska Natives, 
especially children, continue to be plagued by oral health 
disparities. Alaska Native children suffer a dental caries rate 
two-and-a-half times the national average and for American 
Indian and Alaska Native children ages two to four, the rate of 
tooth decay is five times higher than the U.S. average. An 
astonishing 79 percent of Alaska Native and American Indian 
children ages two to five have tooth decay, 60 percent of which 
are severe cavities.
    With that, on behalf of the Alaska Native Tribal Health 
Consortium and the Kodiak Area Native Association, I want to 
thank the chairman for the time and the opportunity to testify 
here today. Thanks to Congressman Young, and I will look 
forward to providing any additional information requested by 
the committee.
    [The statement of Andy Teuber follows:]

    [GRAPHIC] [TIFF OMITTED] T6982B.123
    
    [GRAPHIC] [TIFF OMITTED] T6982B.124
    
    [GRAPHIC] [TIFF OMITTED] T6982B.125
    
    [GRAPHIC] [TIFF OMITTED] T6982B.126
    
    Mr. Simpson. Thank you. I appreciate all of your testimony. 
Alaska is a big country, is it not?
    Mr. Teuber. It is.
    Mr. Simpson. That is one of the places I have never been 
and always wanted to go, and Don said I cannot go until he says 
it is okay. So he has invited me up there a few times and we 
were talking earlier with my staff and some other people about, 
you know, you have got some beautiful national parks, you have 
got some issues with Alaska Natives and healthcare and other 
things, and we need to get up there and see some of that.
    Mr. Young. And Mr. Chairman, you are definitely invited and 
we could work on that with you and really see the area without 
working too hard but see the people in Alaska. I can say only 
one other thing as a guideline. You brought up the point about 
the level of funding under the Department of Interior, and if 
you want to spend money on people, take it out of the parks and 
spend it on the people. And I am dead serious. Do you see the 
staffing and you see the--and the Forest Service, I do not know 
if you handle the Forest Service or not----
    Mr. Simpson. We do.
    Mr. Young [continuing]. Well, they have got the same thing. 
I was in Ketchikan the other day. There are 27 brand new trucks 
sitting there. There are three boats with six motors sitting 
there. There are 28 kayaks and we are not cutting any trees in 
southeast Alaska. And the agencies that are being funded are 
not for people. And I am not saying the agencies are not people 
themselves----
    Mr. Simpson. Yeah.
    Mr. Young [continuing]. But the money should be spent, 
especially in healthcare, for what I think is a commitment. 
This was done many years ago under treaty and I do think they 
own it and they deserve it, and this contracting concept that 
Mr. Miller and other people have talked about is, to me, a 
disgrace. It is a contract with the government, and if there is 
a shortage of money, I know where we can find it. We will not 
take the parks away, but we do not need Taj Mahals. We do not 
need boats on the river that they have. We do not need all of 
the fancy quarters that they live in. We need to take care of 
the people. That is what I am asking.
    Mr. Simpson. There is one area you can take it away.
    Mr. Young. And Mr. Chairman, I am dead serious about it and 
I hope you will listen to me very carefully and read the 
documents----
    Mr. Simpson. I am listening to you.
    Mr. Young. All right. I appreciate it.
    Mr. Simpson. I appreciate it. I was surprised, actually, 
when we learned that half of the tribes in America are located 
in Alaska, I was kind of shocked when I heard that, 260 some 
odd or something?
    Mr. Young. Two hundred twenty-nine.
    Mr. Simpson. Two hundred twenty-nine out of the 500 or so 
that we have. So it is stunning. But I do need to get up there 
and see it. And you have unique problems because of the size of 
Alaska and the remoteness of it. And it is issues, as I said 
earlier, that we have tried to work out with the ADA and others 
to try to make sure that you have access to dentists and those 
types of things. And it is an issue that I know that the ADA 
takes very seriously in trying to make sure that, you know, it 
is remote. So anyway, I look forward to coming up there and 
seeing what you do and as we have heard today in this testimony 
that, you know, Don has told me for the 12 years I have been 
here that we have responsibilities, tribal responsibilities, 
and you are right, we need to maintain those things.
    And that is why in the CR we cut some areas that were 
pretty tough to cut but we went in and did it so that we did 
not have to cut Indian Health Services or some of the other 
things. And if you talk to Dr. Rubidoux at Indian Health 
Services, she was showing me the difference in what we spend 
per person in Indian Country for healthcare versus what the 
average American gets and it is substantially different. If you 
want to see poverty in this country, go out to an Indian 
reservation or go to some of the villages up in Alaska. We have 
got to address that, and I will tell you this committee is 
committed to addressing it.
    So I appreciate you all being here today and thank you for 
your testimony and coming down to beautiful Washington, D.C., 
from that ugly Alaska up there. Thank you.
                                            Wednesday, May 4, 2011.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                   PUBLIC WITNESSES--NATIVE AMERICANS

    Mr. Cole. Okay. We will go ahead and open proceedings, and 
we will invite our witnesses up in a group of panels, so if we 
could have Chairman Bear, Chairman Melendez, Chairman Small, 
Chairman Joseph, and then Representative Richardson will be 
joining us when she arrives at the table, as she has got things 
to tell us as well.
    Probably the easiest thing once you get settled is, we will 
just start here and work our way across. Each person has got of 
course about 5 minutes and then we will have time after that to 
ask questions or comments from the members. If you would, as 
you begin your testimony, if you would just simply introduce 
yourself so that we have got that clearly for the record. That 
would be extremely helpful. And we can begin whenever you want 
to start to testify. Press the button. If it is red, it is on.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

      SHOSHONE-PAIUTE TRIBES OF THE DUCK VALLEY INDIAN RESERVATION

                                WITNESS

ROBERT BEAR, CHAIRMAN

    Mr. Bear. Thank you for that. Good morning, Mr. Chairman 
and everyone here today. I just want to thank you for giving me 
this opportunity.
    First of all, Mr. Chairman and members of the committee, my 
name is Robert Bear. I am the Chairman of the Shoshone-Paiute 
Tribes of the Duck Valley Indian Reservation. I asked to 
testify today so that I could talk about the crisis in unfunded 
contract payments that the Indian Health Service and the Bureau 
of Indian Affairs owe my tribe under our self-governance 
contracts. From the very beginning, these agencies have broken 
their contract obligations to my tribe. Let me just talk about 
IHS.
    In 1995, my tribe negotiated a contract with IHS to operate 
the government's hospital in Owyhee. The contract required IHS 
to pay us $1.7 each year in fixed contract support costs. These 
were our fixed costs that we had to incur by law to run this 
federal contract. Think of the costs as mandates to do things 
like carry insurance, complete federally required audits, to do 
our daily accounting and similar fixed costs. We did not set 
those costs. Some were set by IHS and the rest were set by the 
Interior Department, all based on our annual audit report, but 
IHS never paid us a dime, not in 1996 and not in 1997.
    What happened? Since those costs that IHS failed to pay 
were our fixed costs, we had no choice but to reduce hospital 
operations and hospital employment in order to pay those costs 
and make up for the shortfall. The next thing we knew, the 
Joint Commission on Accreditation of Hospital Organizations 
came in and told us that it was considering revoking our 
certification to operate. Why? Because we had so many vacancies 
in critical positions. So eventually we went to court, and 10 
years later in 2005, we were vindicated by a Supreme Court 
decision in the case known as Cherokee Nation and the Shoshone-
Paiute Tribes v. Leavitt. The court said it was illegal for IHS 
to underpay us and the court awarded my tribe damages against 
IHS.
    Mr. Chairman and members of the committee, this should have 
never happened. These are government contracts and the 
government should have kept its word. In fact, the very reason 
why we won the Supreme Court case is because the court ruled 
unanimously that the government has no more right to break a 
contract with an Indian tribe than it has to break a contract 
with anyone else. Yet here we are years later and IHS is again 
failing to pay us our contract amounts. I do not understand how 
this is possible. Every other federal contractor gets paid in 
full yet we do not.
    Is it because we are an Indian tribe? The Supreme Court 
already said that shocking excuse was no excuse at all. Is it 
because our appropriation act now limits how much the agency 
will pay tribal contractors? There never used to be a limit and 
contract payments just came out of the agency's general 
appropriation. If there is such a limit, why not eliminate it? 
Why not go back to the system where the agency pays us out of 
its general appropriations just like all other government 
contractors.
    The line item for contract support costs was never put into 
law to protect the tribes and our contracts. It was put into 
law to protect the agency. I say take it out. Why? Because 
after losing in the Supreme Court, IHS still comes here and 
asks for protection to underpay its federal contracts with 
Indian tribes, next year by about $153 million including 
protection to underpay my tribe about $615,000. That is just 
not right. The law should not protect an agency when it 
underpays a fully performed contract.
    We are doing our part by providing health care in the 
government's Owyhee hospital. Now the government must do its 
part to pay us in full for the work that we are doing. The 
government should not come her and ask permission to force us 
to reduce these contracted health programs and contracted 
positions so that the government can get away with not paying 
us.
    As for the BIA, I cannot offer enough thanks to this 
committee and to you, Mr. Chairman, for last month's action in 
raising the BIA level of contract payments. At long last, the 
BIA will now be able to fully pay its contract obligations to 
my tribe, to the other tribes in Idaho and to the other tribes 
across the country. This funding level must not roll back in 
2012. But when it comes to IHS, much more needs to be done.
    I do applaud the President for recommending a very 
significant increase in the IHS contract support cost line, but 
until these IHS contracts are fully paid just like all other 
government contracts, justice will not have been done.
    Thank you for the opportunity for me to testify today.
    [The statement of Robert Bear follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.001
    
    [GRAPHIC] [TIFF OMITTED] T6982C.002
    
    [GRAPHIC] [TIFF OMITTED] T6982C.003
    
    Mr. Cole. Thank you for your testimony.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

          FORT HALL BUSINESS COUNCIL, SHOSHONE-BANNOCK TRIBES

                                WITNESS

NATHAN SMALL, CHAIRMAN

    Mr. Small. Good morning, Chairman Simpson and Congressman 
Cole. I would like to thank you for the opportunity to testify 
this morning. My name is Nathan Small. I serve as Chairman of 
the Fort Hall Business Council, the governing body of the 
Shoshone-Bannock Tribes in southeastern Idaho. Our community 
faces tremendous needs in a variety of areas but I am here to 
speak on behalf of the children of Fort Hall Reservation.
    Native American youth are among the most vulnerable groups 
in America. They suffer the highest dropout rates in the 
Nation, and tragically, also suffer the highest rates of 
suicide. There are two reasons for the suffering: one, a broken 
juvenile justice system, and two, an underfunded Indian 
education system. Juvenile justice in Indian Country like the 
broader tribal justice system has been crippled by federal laws 
and court decisions handed by Washington, D.C., for more than a 
century. Our tribe endures many of the same public concerns 
that plague other tribes. However, we face the added pressure 
of dealing with Public Law 280.
    In 1963, the State of Idaho without the consent of the 
Shoshone-Bannock Tribes assumed jurisdiction over juvenile 
crimes on the Fort Hall Reservation, and for almost 50 years, 
the state has ignored its responsibility under Public Law 280 
and our youth in our community have suffered as a result. With 
no help at the state level and little help at the federal 
level, the Shoshone-Bannock Tribes took matters into its own 
hands. Last year, we completed construction of a new criminal 
justice center which houses our police department, courts and 
an adult-juvenile corrections center. Basically this is what it 
looks like right now, and if you would like, we can get a copy 
of this for you to look at later on.
    We built that juvenile center with a vision of having it 
serve as a regional juvenile center. Detention is often the 
final opportunity at turning around the life of a young person. 
As a result, they deserve our best efforts. This means 
providing strong education, mental health and substance 
treatment and services to our youth in custody. However, the 
BIA budget proposes elimination of the juvenile educational 
funding and the BIA has refused our request to use correction 
program funding to provide these services to our juveniles.
    To address these critical needs, I am making two requests. 
Neither request will cost the taxpayer additional money but 
will permit commonsense use of existing funds and allow tribes 
to stretch existing dollars where they are needed. First, I ask 
you to direct the Administration to designate our juvenile 
center as a region correction center, and second, I ask that 
you direct the BIA to authorize the use of correction program 
funding for education and mental health services to tribal 
youth in custody. As I just noted, in spite of the shortfalls 
in the education of Indian juveniles, the President's budget 
would eliminate the educational services to Indian youth in 
custody. I urge you to reject the President's proposed 
elimination of this program and instead increase funding for 
juvenile education.
    I have one final request in the area of tribal justice, and 
that is to urge you to work with Chairman Frank Wolf's 
Commerce, Justice and Science subcommittee to fully fund 
programs reauthorized in the Tribal Law and Order Act of 2010 
at the requested levels in the fiscal year 2012 Interior and 
Justice Department budgets.
    I will now briefly discuss some concerns about educating 
our young people. The United States in hundreds of treaties 
including the Four Bridges Treaty of 1868 promised to provide 
for the education of Indian youth as well as other services and 
in return taking hundreds of millions of acres of our tribal 
homeland. Sadly, these promises have not been kept and again 
our children in our community suffer as a result. Unhappy with 
the level of education provided in the United States, the 
Shoshone-Bannock Tribes contracted to operate the Shoshone-
Bannock Junior and Senior High School locally. However, in 
order to make this effort work, we rely on tribal grant support 
costs. These programs provide administrative costs that would 
be incurred by the BIA and the Federal Government continue to 
provide direct education services. The fiscal year 2012 budget 
requests flat funding for school support costs, which would 
meet less than two-thirds of the tribal needs. I ask that the 
tribal support costs be funded at $72.3 million to meet 100 
percent of the need. Also, with regard to Indian education this 
school year, we added a 6th-grade program to our tribal school. 
This 6th-grade program fills a gap in educational services on 
the reservation and will provide students with a consistent 
learning environment.
    Despite this need, the BIA has refused our request to use 
school support cost funding for our new 6th grade. To overcome 
this bureaucratic barrier, I would ask you to include report 
language to direct the BIA to permit tribal grant support cost 
funding to be used for our expansion to the 6th grade and 
include 6th-grade students in our annual funding formula.
    Finally, my written testimony provides additional details 
for a request to provide funding for a dormitory to provide our 
homeless children stable housing, meals on campus and an 
opportunity to learn and a chance at a brighter future.
    Mr. Chairman, I want to thank you for your recognition of 
the Federal Government's treaty obligations to the Indian 
tribes and your efforts to hold tribal programs harmless as 
Congress works to bring the federal deficit under control. As 
you know, the need to meet these solemn obligations is 
especially critical for our Native youth, and again, thank you 
for this opportunity to testify.
    [The statement of Nathan Small follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.004
    
    [GRAPHIC] [TIFF OMITTED] T6982C.005
    
    [GRAPHIC] [TIFF OMITTED] T6982C.006
    
    [GRAPHIC] [TIFF OMITTED] T6982C.007
    
    Mr. Cole. Thank you.
    I see we have been joined by Representative Richardson. 
Would you like to join us at the table? And I do not know what 
your schedule is--just grab that chair right there, that would 
be great--and you may need to testify, you may have a committee 
meeting or something, and so we would be happy to take your 
testimony whenever you would like to deliver it. We are moving 
in order, but again, I recognize you may have a committee to 
get to, so we are delighted to have you here.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                         NATIVE AMERICAN ISSUES

                                WITNESS

HON. LAURA RICHARDSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Ms. Richardson. First of all, good morning. Good morning to 
all of you. Thank you for having me, allowing me to be here to 
share my priorities and thoughts within the Native Americans 
and Alaska Natives in this country.
    I am a member of the Native American Caucus and I represent 
the 37th Congressional district in California. California is 
home to over 100 federally recognized tribes, so being a member 
of this community and providing the support is something we all 
believe in, but in California in particular, that is my 
commitment.
    Particularly, I want to cover four areas: health, 
education, transportation and economic development. In the 
111th Congress, we permanently reauthorized the Indian Health 
Care Improvement Act, and while this was a step in the right 
direction, we still have a responsibility to ensure that there 
is adequate funding for the Indian Health Service's section.
    I want to highlight a few statistics that stick out in my 
mind. American Indians, Alaska Natives have the lowest life 
expectancy across all races in the United States. Diabetes in 
particular has a high rate for Native Americans and Alaska 
Natives, 177 percent higher than the general U.S. population. 
Now, you on these committees know these statistics far better 
than I do, and I respect that, but I think you need to know 
that I lend my full support as you approach these issues and 
need members to step up to add to that voice.
    Years of underfunding of Indian health care have led to 
overcrowded facilities, outdated facilities and equipment and 
delayed maintenance of facilities that are on average over 30 
years. The Indian Health Service reports that many Indian 
health facilities use equipment that is over twice its useful 
lifespan. So when we consider this, I support President Obama's 
fiscal year 2012 budget request which increases funding for the 
Indian Health Service by 14.1 percent.
    Education--education in our Native American communities is 
another crucial area that needs a substantial investment. There 
was a report done in February 2010, a study by the Civil Rights 
Project of the UCLA Graduate School of Education and Informal 
Studies. Now, I am a graduate of both UCLA and USC so I watch 
these studies carefully. And in that study, they found that 
less than 50 percent of American Indian and Alaska Native 
students graduated from high school. That is lagging from our 
national average of 69 percent. So when we consider this, the 
Indian school equalization formula is the primary source of 
funding that we have for the elementary and secondary schools, 
and I urge when we look at how it is being very severely 
underfunded in fiscal year 2009 and 2010, it is something that 
warrants our attention. I also support the Johnson-O'Malley 
Act, the act that was implemented in 1934 to provide the 
supplemental funding.
    Transportation--I serve on the Transportation Committee and 
the Homeland Security Committee, and when you look at the 
Bureau of Indian schools, they often incur significant costs in 
transporting students. Many have to travel from reservations. 
Buses travel very long routes on unpaved roads, and it is 
critical that there is adequate funding. So therefore with the 
increasing fuel costs, the President's fiscal year 2012 budget 
slightly reduces funding for this program over the 2010 levels, 
and I think certainly that should be preserved or increased.
    And then finally, my last section, which is economic 
development and job training. In California, although we have 
had very successful gaming places in my area surrounding and it 
has served as an excellent opportunity for many people to work, 
not just working in the general casino area but working as 
accountants, working in many aspects of the business, but 
unfortunately, not all areas have the ability to have those 
types of businesses or have not grown to that point as of yet. 
So it is important that we invest and we assist in making sure 
that there is adequate job training available for everyone. So 
when we look at the division of capital investment within the 
Office of Indian Energy and Economic Development that overseas 
the Indian loan guarantee program, this program enables 
eligible borrowers for Indian businesses to be able to get 
money that they otherwise would not receive. Unfortunately, the 
President's fiscal year 2012 budget cuts this program by $5.1 
million, and I would not be supportive of that.
    As I close, there is a national ironworkers training 
program. I have a very strong relationship with the ironworkers 
in my district. This is a program that has not been funded for 
2011 or 2012. It was only seeking $750,000. This program was 
actually an 11-week program where after that program the 
candidates would be able to participate in the apprenticeship 
program and go on and have a very decent job, so I would urge 
you to consider that.
    And lastly, when you look at the Carcier----
    Mr. Cole. Carcieri.
    Ms. Richardson. Thank you. Versus Salazar----
    Mr. Cole. We are looking at it.
    Ms. Richardson. I am sure you are.
    Mr. Cole. We are very familiar here.
    Ms. Richardson. Well, I look forward to standing with you 
and helping in that area as well.
    So thank you for the opportunity to speak. Thank you for 
sitting here with my brothers and I am sure sisters as well in 
the audience and just look forward to counting on my help. Even 
though I have not had an opportunity to serve on your 
committee, count me as a full committed one to help on your 
issues.
    [The statement of Laura Richardson follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.008
    
    [GRAPHIC] [TIFF OMITTED] T6982C.009
    
    [GRAPHIC] [TIFF OMITTED] T6982C.010
    
    [GRAPHIC] [TIFF OMITTED] T6982C.011
    
    Mr. Cole. Thank you very much. Thank you for your 
testimony. You are free to go, or you are free to stay. We will 
have questions. We have two more sets of testimony, so it is up 
to you. Again, your schedule is----
    Ms. Richardson. Unfortunately, I have two committees at the 
exact same time.
    Mr. Cole. I assumed that was going to be the case, but 
thank you very much for coming. I appreciate it.
    Ms. Richardson. Thank you, sir, and thank you, gentlemen.
    Mr. Cole. Again, thanks for your indulgence for allowing 
the Congresswoman to make her points, so if we can, we will 
just resume regular order.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                RENO-SPARKS INDIAN COLONY TRIBAL COUNCIL


                                WITNESS

ARLAN MELENDEZ, CHAIRMAN

    Mr. Melendez. Good morning, Mr. Chairman and committee 
members. My name is Arlan Melendez. I am Tribal Chairman of the 
Reno-Sparks Indian Colony, Washoe, Paiute and Shoshone people, 
located in Reno, Nevada. I am also the Vice President of both 
the Indian Health Board in Nevada and also the Intertribal 
Council in Nevada, which are the 27 tribes in the State of 
Nevada.
    First, I want to thank Chairman Simpson and Mr. Cole for 
listening to us this morning, and I am very appreciative of Mr. 
Simpson's comments that were circulated a few months ago 
indicating the importance of protecting the funding for the 
programs from the budget cuts.
    Today I wish to address--first of all, I also want to 
introduce our consultant here in D.C., Mr. George Waters, who 
is in the audience, and George also said not to mention the 
Nevada-Boise State game.
    Mr. Simpson. Yeah, there might be some funding problems 
there.
    Mr. Cole. You are clearly very well represented.
    Mr. Simpson. Yes, I was going to say, he is from Oklahoma, 
you know, and we did have a problem with Oklahoma.
    Mr. Cole. You know, there is an old saying in Oklahoma: it 
is hard to be humble when you are a Sooner. Unfortunately, not 
when I talk to my chairman, who delivers regular doses of 
humility on what is now, I must say, a five-year-old game.
    Mr. Melendez. Well, today, I wish to address three main 
topics here. First of all, Contract Health Service and also an 
increasing problem with pain management, and I will talk about 
that, and also, the third topic is the need for detention 
facilities in the State of Nevada.
    Because my tribe consists of approximately 1,100 tribal 
members and we are one of the few urban reservations in the 
country, we not only provide health care to our tribal members 
but we have to comply with the Indian Health Service open-door 
policy requiring us to provide service to any federally 
recognized Indian person. The urban Indian population in 
proximity to our health center is approximately 8,000 and 
growing.
    Four years ago, my tribe constructed a new health center at 
our own expense due to the fact that we could not wait any 
longer for the Indian Health Service to replace our old, 
dilapidated facility. Since then, our caseload has really 
grown. There are 27 tribes and bands, 16 federally recognized 
tribes in the State of Nevada, and we are part of the Phoenix 
area. The other area tribes are from Arizona and Utah. There 
are also two main service units in the State of Nevada, the 
western Nevada service unit and the eastern Nevada, and there 
is also field station in southern Nevada. We are part of the 
Schurz service unit along with six other tribes. Schurz, 
Nevada, is approximately 90 miles southeast of Reno, Nevada, 
and it is where our old Indian hospital was located until the 
Indian Health Service closed its doors in 1986. Since that 
time, the tribes who use that hospital have greatly seen more 
dependence on Contract Health Service, and there is a 
correlation between not having an Indian Health Service 
hospital and the need for Contract Health Service. Without a 
hospital, Nevada tribes are totally CHS dependent. The Contract 
Health Service formula needs to be changed to give more weight 
to tribes that do not have access to Indian hospitals. Due to 
the lack of CHS funding, Indian Health Service is only allowing 
priority level one life-or-limb referrals, and so far only 30 
percent of the referrals for patients to use CHS have been 
approved. Basically, our patients are being denied health care.
    Furthermore, the Indian Health Service is not paying 
patients' Contract Health Service medical bills in a timely 
manner. Thus, patients are receiving letters from collection 
agencies and they are not paying also the providers, the 
outside providers who provide those services. Therefore, the 
relationship is not good and some providers are denying to work 
with the Indian Health Service. Any budget savings due to the 
adherence to priority level one, which has happened with the 
new Indian Health Service director, has resulted in some 
savings. That savings should go back into opening up priority 
level two and not be disbursed elsewhere within the Indian 
Health Service.
    One recommendation would be to create centers of excellence 
like our brand-new facility that we built ourselves. A center 
of excellence would provide services that they do not have 
right now, X-rays, and therefore that would help not sending 
people out for X-rays, and there is a lot of specialty service 
that we could have within our health facility. Rather than 
building a new hospital, maybe we could create centers of 
excellence that would offset sending people out, which 
decreases the use of Contract Health Service.
    I would like to briefly talk about the increasing concern 
having to do with pain management or the lack of, which has 
resulted in patients being addicted to certain medications, 
painkillers. This issue is also a CHS issue whereby referring a 
patient outside our health clinic to a pain specialist is also 
not in the approved category of priority one, so referrals for 
this are also being denied. We believe IHS should address this 
ever-growing problem. This situation has resulted in security 
guards being placed at our health centers due to the irrational 
outbursts by patients who demand medication. A demonstration 
project would be something that would help.
    And finally, our detention facility need in Nevada is 
really something that is critical there. Right now, we are 
desperately in need of regional detention facilities to hold 
those Indian people who have broken the law. You may be 
surprised to hear that there is not a single detention facility 
anywhere within the jurisdiction of Bureau of Indian Affairs 
western Nevada agency. This lack of detention facilities for 
adults and juveniles along with great distances that need to be 
traveled to access detention facilities that we contract for 
has been identified as the single most significant issue that 
our tribal justice systems face. Tribes in our region are 
presently contracting with five different counties. For longer-
term sentences, prisoners are being sent out to facilities in 
Colorado and Wyoming. We are working jointly----
    Mr. Cole. We are going to need to wind up pretty quickly.
    Mr. Melendez. Okay. We would ask this committee to work 
with the BIA and perhaps with the Commerce, Justice and Science 
Subcommittee to ensure that there is a coordinated approach and 
that staffing and overall operation and maintenance for a 
western Nevada tribal detention center is funded.
    So I want to thank you very much for listening to me.
    [The statement of Arlan Melendez follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.012
    
    [GRAPHIC] [TIFF OMITTED] T6982C.013
    
    [GRAPHIC] [TIFF OMITTED] T6982C.014
    
    [GRAPHIC] [TIFF OMITTED] T6982C.015
    
    Mr. Cole. Thank you.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

ANDREW JOSEPH, CHAIRMAN OF THE BOARD

    Mr. Joseph. Good morning, Chairman Simpson, Ranking Member 
Moran and Honorable Mr. Cole. My name is Badger. I am Andy 
Joseph, Jr. I chair the Health and Human Services Committee for 
the Confederated Tribes of Colville and also the chair for the 
Portland Area Indian Health Board, 43 tribes of Washington, 
Idaho and Oregon, and as an executive member of the National 
Indian Health Board. I have submitted my testimony for the 
record and will summarize our recommendations.
    Let me begin by underscoring the federal trust 
responsibility to provide health care to Indians and the 
significant health disparities that affect our people. There is 
no question that Indian people suffer the highest rates of 
disease for most health indicators. My written testimony 
documents these glaring health disparities. This fact along 
with the trust responsibility makes it a requirement that 
Congress provide an adequate level of funding for IHS budget. 
In fiscal year 2011, we estimate that it would take at least 
$400 million to maintain current services. I hope the 
subcommittee recognizes that the $25 million increase was less 
than adequate funding in fiscal year 2011. We urge the 
subcommittee to support the level of funding requested in the 
President's fiscal year 2012 budget request. The President's 
2012 request will help to preserve services by restoring lost 
funding to inflation, population growth, pay costs, contract 
support costs that were not funded in the fiscal year 2011 
budget. We recognize that this might seem like a sizable 
increase given the current fiscal estimate. However, I hope you 
will balance the request with the principles of the federal 
trust relationship and the fact that Indian people have the 
highest health disparities of any group in the United States.
    Our specific budget recommendations include, one, we 
recommend the subcommittee restore funding eliminated in the 
President's request for tribal pay costs. We estimate this 
funding to be at least $13.4 million based on fiscal year 2011 
IHS Congressional justification. These costs were eliminated in 
the President's fiscal year 2012 request due to the 
administrative policy to freeze federal pay increases. If the 
tribal health system does not maintain pay cost requirements, 
it will be difficult to remain competitive, to recruit and 
retain health care professionals.
    Two, we recommend an additional $50 million be provided for 
the contract services program. The contract health program 
comprises 34 percent of Idaho, Oregon and Washington tribes' 
budget. Since we do not have hospitals, we must rely on CHS 
programs for all specific inpatient care.
    Three, we do not support the $6 million increase for 
business operation support. If the IHS cannot effectively 
utilize the resources it has now, then provide it with the 
additional funding to address material weaknesses in processing 
the billing CHS claims dealing with business office practices 
and address weaknesses in the united financial management 
system will only result in the same dysfunction. Tribes have 
effectively managed these same growth challenges as IHS. If it 
is truly to address CHS needs, then the $6 million should be 
reprogrammed to the CHS budget line item.
    Four, we further recommend the subcommittee provide an 
additional $53 million to fund past years contract support cost 
shortfalls that are owed to tribes under Public Law 93638. The 
achievements of Indian self-determination have consistently 
improved services delivery, increased services levels and 
strengthened tribal government services for Indian people. 
Every Administration since 1975 has embraced the policy and 
Congress has repeatedly affirmed it through extensive 
amendments to strengthen the Self-Determination Act.
    Five, we urge the subcommittee to include bill report 
language that directs the IHS Director to fund innovative 
approaches for facilities construction in Indian Country. Over 
15 years, the Portland area developed----
    Mr. Cole. I do not mean to interrupt, but we are going to 
need to wrap up the statement pretty quickly, please.
    Mr. Joseph. The small ambulatory construction program--this 
program has been very beneficial for addressing facilities 
construction needs throughout Indian Country. Once again, the 
Portland area tribes have developed a new regional referral 
specialty care center concept that holds great promise to 
innovative approach to addressing health facility needs. Our 
proposal has been shared with the IHS Director, who equally 
believes it holds great promise.
    We appreciate this opportunity to meet with the committee 
staff to understand our proposal and how we might be able to 
move this concept. Thank you, and I am happy to take any 
questions.
    One of the things I would like to say is, today one of my 
comrades is being buried, and his service is in White Swan. His 
family is related to me from the Yakima Nation, and he was a 
young soldier that gave his life, and he swore an oath to 
uphold the Constitution of the United States, and I expect the 
Congress here to remember that oath and to remember our 
soldiers that swore to protect that for us as I did myself. 
Thank you.
    [The statement of Andrew Joseph follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.016
    
    [GRAPHIC] [TIFF OMITTED] T6982C.017
    
    [GRAPHIC] [TIFF OMITTED] T6982C.018
    
    [GRAPHIC] [TIFF OMITTED] T6982C.019
    
    Mr. Cole. Thank you, and thank you for your service. I note 
with a great deal of satisfaction the emblem you have for the 
United States Army, so we very much appreciate your service as 
well.
    I am going to go directly to you, Chairman, particularly 
since we have somebody from your home state, and I will ask my 
questions after Mr. Moran asks his.
    Mr. Simpson. Thank you.
    Let me first ask, Robert, you and the Cherokee Nation sued 
the Federal Government over contract support, right?
    Mr. Bear. Yes, we did.
    Mr. Simpson. And the Supreme Court said essentially that 
the government was in default by not paying the contracts, that 
we have to pay the contracts, right?
    Mr. Bear. That is correct, Chairman.
    Mr. Simpson. And then we started paying but not the full 
cost of the contract support. Has a lawsuit followed up 
anywhere that I am not aware of that is suing the government 
over not paying the full cost of the contract support?
    Mr. Bear. Not that I am aware of currently, but that is our 
situation with IHS right now. We do have a self-governance 
compact but there is still a shortfall, though.
    Mr. Simpson. Well, as you know, that is one of the things 
that we focused on during this last budget was trying to get 
the funding up for contract support because last year during 
the testimony from tribes, what we heard from almost everybody 
that testified was the issue of contract support and not 
covering those costs, and so we made a substantial effort to 
address that last year when we wrote the C.R., and I will tell 
you, since Mr. Moran is here, he was a great chairman when he 
was in charge in terms of Indian Country and making sure that 
we put the resources in there to do what is necessary to meet 
our obligations. The same was true with Mr. Dicks when he was 
chairman of it, so I think the committee has shown some 
bipartisan support in trying to make sure that we meet these 
obligations that we have. It is going to be more difficult 
under reduced budgets that we had in our Continuing Resolution 
and in next year's budget but we will do everything we can to 
make sure that we need those contract support obligations that 
we have, not just because it is right thing to do; we have an 
obligation to do it. So I appreciate that.
    Nathan, welcome and thanks for being here today. Where are 
we with the regional detention facility? Because we had put 
language in directing the department to look at that 
possibility, and if you look at the number of tribes across the 
country, 560 something or whatever it is, you are not going to 
be able to build a detention facility like Fort Hall built in 
every one of these locations, and it makes sense to start 
looking at some regional sorts of facilities, and have we come 
anywhere with that?
    Mr. Small. Last word I got was I think there was tribes in 
Wyoming and in Nevada and possibly Utah that are looking at 
possibly using our place as a regional jail, but there has not 
been a lot of talk and there has not been a lot of anything to 
really get that nailed down, and we feel that there is even 
other places that could utilize our area as a regional jail, 
especially in northern Nevada and the eastern part of Nevada.
    Mr. Simpson. Has the department done anything to look 
across Indian Country and say, you know, where could regional 
detention facilities be built that make sense, that would be 
usable and accessible? You mentioned western Nevada. You know, 
we do not want to transport people all across the country, but 
to do it within a region where they would have access to their 
families, their families would have access to them and those 
types of things makes some sense.
    Mr. Small. Yes. I think they were--last I heard, they were 
looking at anywhere from a five- to an eight-hour drive from 
the regional facility to the outlying areas, and that is just 
what I have been hearing. However, I am not absolutely sure on 
a lot of that stuff.
    Mr. Simpson. Well, your tribe did a great job, and you went 
out and built this with your own funds, and the only thing you 
are asking of the BIA is to help the operational costs of it, 
and we have done the same thing. I know Tom has mentioned in 
Oklahoma where tribes have used their own funds to build a 
hospital, and you mentioned the same thing too, that tribes are 
stepping up to the plate and building these facilities that are 
necessary. The BIA needs to step in and make sure that they 
have the people to operate these facilities that the tribes are 
putting their resources into, so we look forward to seeing you 
in August, and we will be out there, and Tom, you will get a 
firsthand view of this.
    Mr. Cole. I am looking forward to it, Mr. Chairman.
    Mr. Small. Okay. Great. I welcome you guys there.
    Mr. Simpson. I do not know if you know this yet. We are 
trying to put together a plan. We want to visit several areas 
across the country on probably two or three different trips.
    Mr. Cole. The chairman said he could probably get me there 
in time to watch Boise's August training.
    Mr. Simpson. And I want to say, it was a great football 
game with Boise State and Nevada, and I love good football 
games regardless of who wins.
    Mr. Cole. Do not believe that. He cares very much about who 
wins.
    Mr. Moran.
    Mr. Moran. Thanks, Mr. Chairman. These issues are a classic 
case in point where I think the tribes' best interests are 
served if I follow the leadership and judgment of you and 
Chairman Simpson, and so at this point I am just going to 
listen and learn and, as I say, follow your lead. But thank 
you, Mr. Chairman.
    Mr. Cole. Well, thank you very much, and again, I am going 
to make the point, I have made it before, it needs to be made 
frequently, we made a lot of progress in the last few years, 
and Chairman Simpson and Chairman Moran are two of the big 
reasons for that. This is actually one of the committees that 
really does work exceptionally well on a bipartisan basis and 
takes these responsibilities seriously, and quite honestly, the 
Administration has done a good job here in the last couple 
years stepping up in a lot of different ways as well, and so we 
appreciate that.
    I have one comment I wanted to make and then I have a 
couple quick questions. A comment, I am interested for any of 
you that are involved in gaming. This really was sparked by 
something Representative Richardson said. It made me begin to 
think. I know that she mentioned gaming and how important that 
was, and just for the record, the difference in taxation rates 
between gaming facilities is dramatic, and some states look on 
tribes as an asset and keep that relatively low. They make 
money. Oklahoma, I think our compacts are around 6 percent, but 
we try to keep the tax rate roughly where it is for industry. 
Other states, it is higher, it is way higher than any other 
industry would pay. It might be 25 percent of the gross in some 
places like that. That is something maybe sometime we ought to 
take a look at, because when they do that, what they are 
effectively doing is taking money out of a tribe's hand that 
would otherwise be spending it on, guess what, health care, 
education, services and that sort of thing. There ought to be 
some sort of federal limitation that you cannot take more from 
a tribe than you would from a business in your own state. I do 
not know if we have that ability or that power because 
compacting is pretty much a negotiation, but there is a big 
difference in some states where the state has really a hammer 
over the head of the tribes and uses it as a cash cow.
    I am particularly interested, a couple of you made the 
remarks about education, so I think you mentioned that, Mr. 
Small, and I think you did as well, Mr. Bear, although most of 
yours was on health care. Do you actually have a BIE school?
    Mr. Small. Yes, we have a school that was built here 
probably about 10, 15 years ago after about 30 years of 
lobbying for it and we finally got the school built for us and 
it houses our junior and senior high schools. One of the 
reasons why we have that is because the surrounding school 
district that has been educating our youth has somewhat been a 
failure to a lot of our people. There are a few success stories 
out there but the majority of them were not getting the 
educational thing, so the tribes felt at that time it would 
need to be building our own school and let us capture those 
people before it is too late. Well, I also mentioned that we 
added a 6th grade. Well, a lot of our students that are at our 
junior and senior high school right now, they come from the 
outside districts where they are a failure so they come to the 
tribal school to try and catch up, and it takes a lot of effort 
on our schoolteachers and staff to bring them back up to speed 
and sometimes it just does not quite get there, so we thought 
we would go a little lower and capture the 6th grade and see if 
we can follow up with the 6th grade all the way to the time 
that they graduate, they would have a better educational 
opportunity to have that happen.
    Mr. Cole. On the funding, is the funding that the Federal 
Government provides for the school comparable on a per-pupil 
basis with what is provided in the surrounding school 
districts?
    Mr. Small. I believe right now they are only funding at 
about $3,000 per student.
    Mr. Cole. So quite a bit less, I would think.
    Mr. Small. It is a lot less. It is almost half of what is 
on----
    Mr. Cole. I am going to keep making this point, but I 
think, again, as a committee, we ought to begin to look at 
that. We have a federal trust responsibility. I do not see how 
in the world you fulfill it if we are not funding students at 
the same level that they are being funded in the state around 
it. There does not have to be the same level nationally but we 
ought to be providing kids comparable economic support with 
what they are getting locally.
    Mr. Small. Yes.
    Mr. Cole. One other quick question, if I can direct it at 
you, Mr. Melendez. I was very interested in what you had to say 
about the challenges you have with an urban reservation and 
health care, and we see a lot of this in Oklahoma as well. Do 
you get any particular extra money because you are taking care 
of a much larger population than your tribal population?
    Mr. Melendez. Not really. It is pretty much the same budget 
that we have every year. It increases slightly because of the 
overall--you know, I think the President increased Indian 
Health Service across the board but it was not really----
    Mr. Cole. But there is no special provision for--I know in 
Oklahoma we have urban Indian health care facilities that again 
deal with large populations. Oklahoma City is not even in 
Indian Country. Most of the state is. And so we have one there. 
It is a special one to take care of the Native population. In 
Tulsa, we have overlapping jurisdiction. There is tribal 
jurisdiction but there is also a separate Indian health care 
facility that is really non-tribal affiliated to help with 
exactly this sort of thing so that the tribes are not picking 
up beyond, really their own membership. But is there no BIA 
program? I mean, you are clearly in a very special situation. 
We are mandating you take care of a very large population and 
we do not provide you any extra resources to do that?
    Mr. Melendez. Not really. Right now, of every four people 
that comes to the door of our health center located in an urban 
setting, only one is a tribal member, so it is a four-to-one 
ratio, and the urban population, because the State of Nevada is 
also a Contract Health Service delivery area, the whole state, 
that does not really help the situation because more people are 
gravitating to the city for jobs and so we get that increased 
number of people that we cannot turn away, because the 
crossover. Other tribes 30 miles away come to our brand-new 
facility. We cannot turn them away either so they think we have 
better services, they come to our facility, saving their own 
money and basically using our doctors, and we can only see so 
many at one time. So it is a problem for urban tribes.
    Mr. Cole. That is something we really need to look at 
figuring out what we can do. That is a very unfair burden on 
your tribe.
    Ms. McCollum.
    Ms. McCollum. Representative Cole, you have me thinking of 
doing more research on how school-aid formulas are put 
together, and I am looking in Minnesota in particular.
    But sir, do you know if it is just a state match or if 
there is property taxes that are levied that are part of the 
blend for the per-pupil dollars that go towards children in 
public school?
    Mr. Small. The state does not provide anything to our 
tribal school.
    Ms. McCollum. To your tribal school, but to the public 
school district? Because Representative Cole has been making, I 
think, an interesting and a very valid point that at least 
children in the same state should have an expectation of a 
level playing field. For example, in Minnesota, it is in the 
constitution so the state has the responsibility, be there 
additional property taxes that can be levied so there are 
disparities even within the state as to how much children are 
receiving, and I think you are looking to go towards an 
aggregate. But I am wondering if you know in your state besides 
what the state puts in towards the state public school, do 
communities levy property taxes and levy money for bonding? You 
might not know living where you do, so I do not mean to put you 
on the spot.
    Mr. Small. Well, no, they do have local levies that they 
have for specific, many for construction, but as far as putting 
extra money into the actual curriculums and those kinds of 
things, I do not think that is occurring there as far as extra 
taxes and those kinds of things that go on on the outside. And 
Public Law 874 I think provides some of that funding to the 
outside school district for the students that do attend there.
    Ms. McCollum. Thank you.
    Mr. Cole. Well, thank you very much, gentlemen, for your 
testimony. Once again, we are running behind. It is always my 
fault. But thank you very much for what you had to say. I 
appreciate it.
    If we could, we will call our next panel, and I hope I do 
not mispronounce anybody's name: Mr. Suppah, Ms. Pigsley, Ms. 
Brigham, Mr. Blythe. Do we have two Ms. Brighams? No, you are 
just down twice. I guess you get extra time. And Chairwoman 
Kennedy.
    Okay. If we could, we will proceed as we did with the last 
panel. We will just start on our left, your right, and if you 
would identify yourself and then you have got five minutes, and 
obviously we try to be generous. I think there is somebody here 
who is representing two constituents so we will give you a 
little bit of extra time if you need it. If we can, we will go 
ahead and get started.
                              ----------                              

                                            Wednesday, May 4, 2011.

     CONFEDERATED TRIBES OF THE WARM SPRINGS RESERVATION OF OREGON


                                WITNESS

RON SUPPAH, VICE-CHAIRMAN

    Mr. Suppah. Good morning, Mr. Chairman. I am Ron Suppah, 
Vice-Chairman for the Confederated Tribes of Warm Springs 
Reservation of Oregon. I thank you for this chance to testify 
today. We did submit our written testimony, and I will just 
summarize briefly what the testimony states.
    I also want to express the Warm Springs Tribes' 
appreciation for your efforts to maintain the BIA and IHS 
budgets serving the Indian people. In these times, we thank you 
for your courage and your dedication.
    We wish the economic picture could be brighter, Mr. 
Chairman, because there are still many areas in the BIA and IHS 
budgets that need attention. Below, I want to set out the Warm 
Springs tribes' priorities for fiscal year 2012 increases.
    First, Warm Springs is a timber tribe with approximately 
250,000 commercial forest acres, and we ask that the BIA's 
forestry and forestry project budgets be increased 
substantially. Since fiscal year 2004, the forestry budget has 
fallen behind inflation by more than 40 percent. This loss of 
forest management capacity could be testing the bureau's 
ability to fulfill its trust responsibilities. Regarding the 
forest projects budget, we ask that it receive a $5 million 
increase for reducing the backlog of commercial forest acres in 
need of forest development treatment throughout Indian forests 
across the country.
    The Warm Springs Reservation also must manage for northern 
spotted owl, spring Chinook salmon and steelhead, all ESA 
listed species, with inadequate resources. For the owl, we 
receive less than half of what we received more than 12 years 
ago. To help the BIA endangered species budget meet its 
mandates, Warm Springs requests that it be funded at $5 million 
with $2.3 million of that dedicated to northern spotted owl and 
marbled murrelet.
    Warm Springs supports the increases provided for law 
enforcement in recent years. That has put more law enforcement 
personnel in tribal communities but they remain unfortunately 
low paid and personnel turnover is a big problem. Therefore, we 
are encouraged that portions of the fiscal year 2012 
investigations and police services increase and a portion of 
the detention and corrections fiscal year 2012 request are to 
help boost tribal base budgets which can help address this low-
pay problem.
    We also support the conservation law enforcement officer 
initiative. Such personnel are needed on our reservation where 
they are patrolling our forests and waterways and protecting 
our natural resources and allow our Warm Springs police to 
focus on community safety.
    In education, for fiscal year 2012, we urge that you double 
Johnson-O'Malley funding to $27 million. Johnson-O'Malley is 
the only elementary and secondary education support provided by 
the BIE for the more than 85 percent of Indian children who are 
in public schools. Its funding has declined to just $13.4 
million for fiscal year 2012 and it really should be at least 
doubled to preserve a semblance of BIE commitment to those 
Indian public school students.
    In the Indian Health Service, Warm Springs requests you 
round up the $89.6 million increase for Contract Health 
Services to a full $100 million to simply underscore your 
commitment to addressing the $1 million backlog in deferred 
services. In the Northwest, where there is no IHS hospital, 
Contract Health Service remains a critical issue. Also in IHS, 
we request that $50 million be added to contract support costs, 
specifically for new contracts, and that those funds be used 
for that purpose. Today, IHS directs all contract support funds 
to existing contracts, basically shutting out any new 
contracts. Simply equity demands that we change.
    Finally, we ask that the subcommittee check to make sure 
the IHS northwest regional office's distribution of 
discretionary funds fairly and fully includes the direct 
service tribes. It seems altogether too often that those funds 
go to self-governance tribes, and direct service tribes just 
want to make sure we are treated fairly.
    That concludes my testimony, and I would like to thank the 
subcommittee for its time and attention.
    [The statement of Ron Suppah follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.020
    
    [GRAPHIC] [TIFF OMITTED] T6982C.021
    
    [GRAPHIC] [TIFF OMITTED] T6982C.022
    
    [GRAPHIC] [TIFF OMITTED] T6982C.023
    
    Mr. Cole. Thank you very much. If we could, we will move 
along.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

         CONFEDERATED TRIBES OF THE UMATILLA INDIAN RESERVATION


                                WITNESS

N. KATHRYN BRIGHAM, SECRETARY, BOARD OF TRUSTEES

    Ms. Brigham. Good morning. My name is Kathryn Brigham. I go 
by Kat Brigham. I am a member of the Confederated Tribes of the 
Umatilla Indian Reservation. I am also the elected official for 
the tribe and serve as the board of trustees' secretary, and I 
am here today on behalf of the tribe supporting the Indian 
Health Service to approve the administrative IHS budget in the 
amount of $4.6 billion, which includes much-needed increases in 
the Contract Health Service of $89.6 million, catastrophic 
health emergency funds, $10 million, and contract support of 
$63.3 million. The other thing we support is the BIA public 
safety adding $30 million to the tribal courts for public 
defenders and related extension costs and BIA rights 
protection, restoring the 2,101,000 elimination of litigation 
support attorney fees.
    We appreciate you guys stepping up for the fiscal year 2011 
and 2012 and we are hoping, we know this is tough times and we 
are hoping that in these tough times you are able to step up 
again to help us in this funding crisis. I was really pleased 
to hear, you know, you have accepted the trust responsibility 
to the tribes and the obligations that you have. We signed 
treaties. The Federal Government has a trust responsibility to 
the tribes and we are continuing to ask that the Federal 
Government live up to that trust responsibility in seeking the 
funding that we have been asking for for some time. I think we 
have made substantial improvements through the gaming but we 
also need assistance as well. Our Contract Health Service is 
establishing priorities and saying yes or no, you can have 
contract health, and this is early in the year, I mean, so this 
is something that we all have to face.
    And I just also want to add, you know, you brought up 
education. Our tribe has a charter school that was developed. 
This is our seventh year. That charter school has been 
supported by the Pendleton School District, and with that 
charter school, we are able to--we have increased our 
graduation rates. It used to be down to 40 percent. Now we are 
up to almost 97 percent.
    Mr. Cole. Wow.
    Ms. Brigham. So it is a substantial increase, and while 
these students are not only learning, they are learning their 
grades, keeping their grades up, but they are also learning 
their language, culture and history, so we are really pleased 
with our charter school but we want to increase that as well. 
We are looking for a building too because right now it is in 
one of our old buildings that, you know, we vacated and so they 
are in there.
    I think also we have real concerns with the enforcement. We 
are really glad with the law enforcement act that was passed 
but we also need to have the trained judges and the training 
that is needed to implement the law enforcement act.
    I guess, again, you know, I thank you for this opportunity 
and I support everything that was basically said this morning. 
I think it is something that is needed.
    Do you want me to go on to CRITFC?
    [The statement of N. Kathryn Brigham follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.024
    
    [GRAPHIC] [TIFF OMITTED] T6982C.025
    
    [GRAPHIC] [TIFF OMITTED] T6982C.026
    
    [GRAPHIC] [TIFF OMITTED] T6982C.027
    
    Mr. Cole. Sure.
                              ----------                              

                                            Wednesday, May 4, 2011.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

N. KATHRYN BRIGHAM, SECRETARY

    Ms. Brigham. Again, this time I am the Secretary of the 
Columbia River Inter-Tribal Fish Commission, a commission that 
has been formed since 1977, and this is an organization to 
provide technical assistance to the four member tribes: the 
Yakima Nation of Washington, Warm Springs and Umatilla of 
Oregon and Nez Perce Tribe of Idaho, and so we coordinate our 
actions through this body in providing technical assistance to 
the four tribes, and we are known as CRITFC.
    You know, our base budget is through the BIA rights 
protection implementation account. Our programs are carried out 
pursuant to the Indian Self-Determination and Assistance Act. 
We conduct comprehensive treaty rights implementation programs 
and attempt to remain compliant with court orders such as U.S. 
v. Oregon, regional intergovernmental agreements such as the 
accord that was signed with the federal agencies, and the 
Pacific salmon treaty, an international treaty. Together, the 
tribes' managers and co-managers, we are about the size of 
Georgia in the area in which they cover. We also have taken a 
lead in ecosystem management. We are looking at watershed to 
watershed. We are looking at water quality, and we are also 
working with five states plus the federal agencies and some 
private individuals in trying to develop a coordinated, 
collaborative approach in addressing the salmon restoration.
    Our principals in the region are first to halt the decline 
of the salmon, and I wanted to show you this graph, and this 
graph is important to us simply because it shows this is what 
has been happening under the federal and state leadership. When 
the tribes start taking leadership, we started seeing a trend 
of increases. We went down here and went back up here. Twenty 
ten is up here, 2011 is even going to be higher for our fall 
Chinook, and this also shows the trends that we have done with 
natural stocks, with ESA stocks, and so we are working on those 
and we have also been working--and I want to give this to you 
and I also want to let you know that, you know, I know 
Congressman Norm Dicks and I have got into it over tribal 
science, but I wanted to assure him----
    Mr. Dicks. We will always work together.
    Ms. Brigham. Yes, we will. I wanted to assure you, and I am 
sorry Mr. Simpson is gone but we have been working with the 
University of Idaho in trying to develop a really rigorous 
science approach on how to address genetics and rebuilding of 
our naturally spawning fish so we are working hard, and I think 
we have a good approach because one of our goals is to protect 
our first foods, which is in the Pacific Northwest, and each of 
us have our first foods.
    I think with tribal leadership it shows that we are making 
positive steps to rebuilding stocks, and I can remember when we 
did not have any salmon to harvest and now our fishermen are 
glad that they are fishing.
    Specifically, at a minimum, I would like to recommend that 
we restore the entire rights protection implementation account 
to its 2010 level of $30,471,000. This is to meet our current 
needs, and we also request $7,712,000 for the Columbia River 
Fisheries Management, $3 million over the President's budget 
request. We also request a restored level of $4,800,000 to the 
U.S. Pacific salmon treaty, which is $694,000 above the 
President's request, and this is to implement the U.S.-Canada 
treaty that we have signed. We have what we call a triple crown 
in the Pacific Northwest, which is the U.S.-Canada treaty, 
which is a 10-year agreement that we signed in 2008. We have 
the accords that three of the CRITFC tribes have signed which 
is a 10-year agreement that was signed in 2008, and then we 
also have the U.S. v. Oregon management plan, which is a court-
ordered plan that is a 10-year agreement that we also signed in 
2008, and we will be celebrating the accords on May 26th, I 
think it is, so this month, and looking at the progress that we 
have made in signing the accords to help us, you know, rebuild 
some of the natural stocks because one of the things that we 
have seen is that, you know, ESA is out there but at the same 
time, there are other stocks out there as well, and for this 
reason, I would also--and I know, again, Congressman Norm and I 
do not necessarily agree but I think the mass marking issue 
needs to be revisited because those stocks that are on the 
chart that show higher, some of those stocks, and I can give 
examples where the Imnaha tributary, we are killing 600 stock 
fish that are coming back to the tributary, and the only way 
they can tell them apart is because they are mass marked. So we 
think we should be looking at that to determine, you know, how 
we can help rebuild our naturally spawning fish.
    That is all. Thank you.
    [The statement of N. Kathryn Brigham follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.028
    
    [GRAPHIC] [TIFF OMITTED] T6982C.029
    
    [GRAPHIC] [TIFF OMITTED] T6982C.030
    
    [GRAPHIC] [TIFF OMITTED] T6982C.031
    
    Mr. Cole. Thank you very much.
    Larry, we will go to you next.
                              ----------                              

                                            Wednesday, May 4, 2011.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

C. LARRY BLYTHE, BOARD MEMBER

    Mr. Blythe. Good morning, Mr. Chairman, members of the 
committee. I am Larry Blythe. I am the Vice Chief for the 
Eastern Band of Cherokees in North Carolina. I am here today as 
a board member for the Intertribal Timber Council, or ITC, to 
testify on its behalf. Intertribal Timber Council is a 
consortium of about 70 timber-owning tribes across America, and 
we of course advocate for forest management practices. We 
advocate for funding for tribes wherever they are located. We 
control about 10 million acres of property.
    Mr. Chairman, the ITC wants to thank you for protecting 
Indian programs. These are difficult times including for those 
of us in the forestry business, and your support is really 
appreciated.
    As timber tribes, keeping our forest healthy and productive 
is essential. We rely on our forests for physical and spiritual 
sustenance and for governmental revenues and community jobs. To 
help sustain our forests and our local economies, the ITC is 
developing a concept we call anchor forests. An anchor forest 
is a large tract of forestland that is dedicated to being 
maintained as healthy and productive. This must include related 
infrastructure such as sawmills, and the community and its 
workforce, which provide the capacity and resources necessary 
to actively manage and preserve the forest. As sawmills go 
away, the forest markets and communities wither, and the forest 
itself can subside into a poorly managed or unmanaged state 
vulnerable to fire and infestation and disease. As timber 
tribes wedding to our forest homelands, we cannot allow this to 
occur. Our reservation forest operations and communities should 
be viewed as anchor forests. They need to be sustained.
    To that end, we ask the subcommittee to direct the BIA and 
Forest Service to conduct a comprehensive evaluation of anchor 
forests in Indian Country, to examine their role, what is 
needed to preserve tribal forests and their related economies 
and how those needs might be addressed. We would also ask that 
agencies be directed to work with the Intertribal Timber 
Council and timber tribes on such an evaluation.
    Mr. Chairman, in conjunction with a study of anchor 
forests, the Intertribal Timber Council urges the subcommittee 
to consider a range of forestry-related program increases. We 
recognize this is a difficult environment but Indian forestry 
has historically been underfunded. Much of what we request is 
simply urging the tribal forestry-related programs be funded at 
something close to or at least closer to similar budgets in 
other federal agencies. For the BIA forestry program, we 
support the $1 million increase for tribal priority allocation 
and urge that the increase be a total of $5 million. For years, 
independent reports have documented Indian per-acre forestry 
funding at about half of that for the Forest Service, and more 
recently, BIA TPA forestry funding has lagged further and 
further behind other federal forest management agencies.
    It is even worse for BIA forestry projects, which has been 
an outright decline for seven years. To correct this disparity, 
the ITC requests an increase of $8 million, $5 million of which 
is to reduce the 800,000-acre backlog in commercial forests in 
need of replanting and thinning.
    For BIA endangered species, ITC requests a total of $5 
million based on the same per-acre funding as the Bureau of 
Land Management.
    The same goes for cooperative landscape management where 
BIA's total funding for 52 million acres of Indian trust land 
is a mere $200,000. To be treated as an equal among the 
Interior Department's other agencies, the BIA should receive at 
least $17.5 million.
    Mr. Chairman, we support BIA's new and needed conservation 
law enforcement officer program. It will help protect tribal 
trust natural resources and ease the burden on regular tribal 
law enforcement personnel.
    Finally, for the Department of Interior wild land fire 
management, the ITC asks that Interior and Forest Service wild 
land fire funding and accounting be standardized. We also ask 
that $44.6 million be restored to Interior hazards fuel 
reduction. Limiting fuels funding to the wild land-urban 
interface endangers the lives of our people who live all 
throughout the lands and abandons the trust responsibility to 
protect our forest assets.
    Lastly, we ask that $6.8 million be restored to Interior 
burned area rehabilitation. Again, the United States must abide 
by its fiduciary obligation to care for our forest resources 
including stabilizing and restoring burned-over acres.
    Mr. Chairman, that concludes my remarks. Thank you.
    [The statement of C. Larry Blythe follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.032
    
    [GRAPHIC] [TIFF OMITTED] T6982C.033
    
    [GRAPHIC] [TIFF OMITTED] T6982C.034
    
    [GRAPHIC] [TIFF OMITTED] T6982C.035
    
    Mr. Cole. Thank you very much.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                              SILETZ TRIBE


                                WITNESS

DELORES PIGSLEY, CHAIRMAN, TRIBAL COUNCIL

    Ms. Pigsley. Good morning. My name is Delores Pigsley, and 
I welcome the opportunity to be here today and to provide 
testimony. I am the Chairman of the Confederated Tribes, the 
Siletz Indians, and I have served over 32 years on the tribal 
council and 26 of those years as the tribal chairman. We are a 
small tribe on the Oregon coast. I have testified previously 
before this committee and many committees in the past and know 
that you listen and act accordingly.
    The tribe understands the whole Nation is going through a 
tough economic time, and so are we. However, even in good 
times, we are sorely underfunded in critical areas. We are a 
self-governance tribe and have the ability to move funds around 
when it is necessary to cover priority services. We use grants 
from government, tribal resources and private organizations to 
help us cover necessary programs. It is the only way we can 
maintain our services. The Bureau of Indian Affairs has never 
been adequately funded to cover the costs of programs nor allow 
enough money under contract support costs.
    For tribal court, our tribal court budget is $235,000. Of 
this amount, only $21,000 comes from BIA funds. Other funds 
must be used to fully fund the court including Department of 
Interior, Department of Justice and tribal resources. The 
fiscal year 2012 request is for a $1.2 million reduction from 
the $24.7 million that was appropriated last year.
    Education is a very high priority. Every year we see large 
growth in the number of students applying for funds for adult 
education, adult vocational training and higher education. We 
recognize the problem is a good one for us. We have more 
students in college and adult programs than ever before in our 
history. However, our funding for higher education is at the 
same level it was at in 1995. For the years 2004 to 2010, that 
six years, the tribe received $665,000 for AVT, and the actual 
cost was $1.1 million. That is a $454,000 shortfall. And for 
higher education for the same period, the tribe received BIA 
funds of $827,000. Our actual cost was $5.1 million, and that 
is a shortfall of $4.3 million. Education is our highest 
priority. For 2012, the BIA is requesting $32 million, a $1.8 
million reduction, and this is unacceptable to us and it is 
insulting to see such a reduction where within this area we 
have the greatest need.
    Charter schools were mentioned. We have a charter school in 
Siletz, and it was necessary because the state was closing the 
school. We had a 75 percent dropout rate, and it was necessary 
for the tribe to get involved and keep the school in Siletz, 
and today we fund that school along with state funds. Our 
commitment is about a quarter of a million dollars a year.
    Funding for boarding schools such as Chimowa Indian School 
is totally inadequate. Boarding schools are criticized for the 
level of education that students receive, and if additional 
funds were provided for these students, they could reach the 
same potential that we recognize in our students who attend 
public and private schools, and I urge that someone take the 
time to review this situation, perhaps visit Chimowa Indian 
boarding school in Salem, Oregon.
    Contract support costs have been mentioned many times. 
Without adequate contract support fund costs, the promise of 
the 1975 Indian Self-Determination and Education Assistance Act 
to allow tribes to contract and compact to administer programs 
formerly administered by federal agencies such as Bureau of 
Indian Affairs goes unfulfilled. Tribes have increased the 
quality and level of service to our tribal members under self-
governance yet tribes are left to fill the shortfall by having 
to reduce services. A good example is our Indian child welfare 
program where positions cannot be filled because of inadequate 
funds. Workers currently carry workloads two and three times 
higher than that in state programs. Failure to adequately fund 
contract support costs defeats the program's very purpose to 
improve services and the lives of our members. Tribes go to 
extraordinary lengths to pool together resources to meet 
priority needs for our members, often at the expense of 
foregoing or reducing other services.
    I hope that you are convinced by our written testimony that 
increases to these and other programs are essential for tribes 
to create safe, healthy and functioning communities, and I 
thank you for allowing me to share these recommendations.
    [The statement of Delores Pigsley follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.036
    
    [GRAPHIC] [TIFF OMITTED] T6982C.037
    
    [GRAPHIC] [TIFF OMITTED] T6982C.038
    
    [GRAPHIC] [TIFF OMITTED] T6982C.039
    
    Mr. Cole. Thank you very much for your testimony.
    Chairwoman Kennedy.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                   CONFEDERATED TRIBES OF GRAND RONDE


                                WITNESS

CHERYLE A. KENNEDY, CHAIRWOMAN

    Ms. Kennedy. Good morning to you, Chairman Simpson, 
Congressman Cole, Congressman Moran, Congresswoman McCollum and 
Congressman Dicks. My name is Cheryle Kennedy. I am the 
Chairwoman of the Confederated Tribes of Grand Ronde in Oregon.
    Mr. Simpson, it has been a pleasure to have worked with a 
number of your tribes from the great State of Idaho. I served 
as executive director of the Northwest Portland Area Indian 
Health Board, representing 43 tribes in Oregon, Washington and 
Idaho. I am also honored to serve on the Secretary Sebelius's 
Secretary Tribal Advisory Committee, called the STAC. This is 
the first tribal advisory committee established to advise the 
Secretary in the history of the Department of the Health and 
Human Services.
    I want to thank the subcommittee for meeting with Native 
American tribes who have the unique relationship with the 
United States. I want to thank you for your leadership that you 
have taken in addressing concerns and problems of Native 
Americans across the United States. My testimony is also shaped 
as far as the 30-year health career that I had as a health 
administrator for a number of tribes. I also come from a tribe 
that was terminated for nearly 30 years, seeing those effects 
and suffering those injustices. Many of them still remain today 
and we lag far behind other tribes of the United States.
    I want to specifically talk about some of the things that 
have already been addressed so I will take a departure from the 
written comments, but those things are on Contract Health 
Service. As you have heard many tribes mention here today, 
being in an area where we have no hospitals, it is a great 
extra burden on us. We are dependent Contract Health Service 
dollars for all of our hospital care that we receive. The 
Indian Health Service does have a formula whereby CHS funds are 
distributed. We believe it is an unfair formula. There is not 
enough weight given to the areas that do not have hospitals and 
we would like to see that there be another look in another 
committee that is formed to address these important issues.
    Contract support costs are also very important for tribes. 
They are what supports strong governments, and if you do not 
have dollars to support your strong governments, you have one 
of two decisions that you make. One is that you take those 
funds to support your government out of the program costs, so 
when we talk about Indian Health Service and Bureau of Indian 
Affairs, which are so greatly underfunded anyhow for programs, 
our choice and the only choice we have is to take from those 
costs and to support the governmental needs that we do have, 
not a very good choice at all but a choice that is forced upon 
us because of the insufficient funds that are there.
    I want to also mention that Dr. Roubideaux, who is the 
Indian Health Service Director, conducted listening sessions 
with tribes and she talked about many of the disparities that 
are existing in health care. One of the programs that she set 
up was the Contract Health Service's formula, and we discussed 
last year in this listening session the problems that are 
associated, particularly for dependent area tribes, and we want 
to come straightforward with some recommendations that were 
developed under that work group. One is that the alternate 
resources, Medicare, Medicaid, private insurance and changes 
under health reform when making CHS distribution. Two is for 
the contract support services dependency. Three, the use of 
actual medical inflation when allocating CHS funds. Four is the 
unique circumstances of CHS dependent areas that must be 
addressed by IHS and Congress. Otherwise these systems will 
continue to be plagued with chronic underfunding and may not be 
able to capitalize on health care coverage expansions that will 
come with health reform. And five, to address the lack of 
access to the Catastrophic Health Emergency Fund, or CHEF. 
Congress should consider establishing an intermediate risk pool 
for CHS dependent areas.
    In sum, the work group formula does not meet the test of 
fairness in the way it was developed or the results it 
produced. Grand Ronde along with the Northwest Portland Area 
Indian Health Board is ready to work on developing this new 
area. In addition, again, to the CHS formulas, I strongly 
support the IHS budget formulation work group request for a 
$118 million increase to be provided for Contract Health 
Services. Considering the estimated CHS program needs exceed $1 
billion----
    Mr. Cole. If we could, we are about out of time, so if we 
could----
    Ms. Kennedy. I will. Thank you so much.
    The other thing, I will move on to a couple of other areas. 
I want to especially say that there is great underfunding in 
the infrastructure for all tribes, that we want the Congress to 
work with us so that funds are directly distributed to tribes 
rather than going through the middleman, which is the states, 
often that is a very cumbersome policy, and that public safety 
services need to be provided to a much greater degree for 
tribes.
    Again, thank you for this time to present this testimony 
and for your willingness to listen.
    [The statement of Cheryle A. Kennedy follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.040
    
    [GRAPHIC] [TIFF OMITTED] T6982C.041
    
    [GRAPHIC] [TIFF OMITTED] T6982C.042
    
    Mr. Cole. Thank you very much.
    I am going to forego my time. With Mr. Simpson's and Mr. 
Moran's permission, Mr. Dicks obviously is our former chairman 
and the ranking member of the entire committee, I know his time 
is always limited so it is great to have you here, Mr. 
Chairman, and I wanted to recognize you first.
    Mr. Dicks. Well, I just wanted to respond to the questions 
about the Columbia River and why we have moved towards mass 
marking in selective fisheries, and that is because we want to 
protect wild salmon, and one of the things I want to compliment 
the tribes on is their supplementation programs where you take 
wild fish and use them as brood stock so that the hatchery fish 
are as close to wild as possible.
    In California, they did not mark their fish and now they do 
not have a fishery because they are shut down under the 
Endangered Species Act. I just completely disagree with your 
conclusion that somehow not marking these fish is a better way 
to go. It simply is not, and the scientists say all of the 
habitat work that we do is enhanced if you lower the stray 
rates and you have to be able to identify the hatchery fish and 
the wild fish in order to do that.
    So I hope you can get some science. When you do, please 
bring it to my office and we will talk about it. Thank you, Mr. 
Chairman.
    Ms. Brigham. Can I respond?
    Mr. Cole. Absolutely.
    Ms. Brigham. You know, Congressman Norm Dicks and I have 
disagreed on this for quite some time. We have partnered up 
with the University of Idaho and we are looking at the genetics 
of how we can identify, you know, natural stocks, and we are 
really glad, you know, because this is another graph that shows 
some of the work that the tribes have done since we started 
getting into re building naturally spawning fish, and our 
numbers have gone up, but also, you know, if----
    Mr. Dicks. How do you know?
    Ms. Brigham. Look at the graph. I mean, our graph shows we 
have got positive numbers.
    Mr. Dicks. If the fish were marked, then you would 
definitely know they were wild fish. You cannot tell unless you 
do extensive DNA analysis whether they are wild or hatchery 
fish.
    Ms. Brigham. I have asked scientists, a number of them, can 
you tell me if it is a hatchery fish or a natural fish if it 
was not mass marked, and the answer is no. I mean, they cannot 
tell the difference.
    Mr. Dicks. They can with DNA analysis. They can tell that.
    Ms. Brigham. With DNA, you can tell that those supplement 
fish are coming back.
    Mr. Dicks. But we do not ask you to mark the supplemented 
fish because we want you to encourage supplementation of wild 
stocks.
    Ms. Brigham. We are just asking that this be reviewed, I 
mean, simply because we are taking--I mean, one of the Imnaha, 
we had 1,000 fish coming back to Imnaha. We had to take 600 of 
those fish out and destroy them, and they came from the 
supplementation that you are telling us was a success, and we 
had to destroy them because they were mass marked.
    Mr. Dicks. That is not true. The Nisqually Indians got 
11,000 fish back to the hatchery. They gave them to the local 
food banks for hungry people and hungry tribal members. You do 
not have to do away with the fish. The fish are perfectly good. 
You can use them for a socially important purpose, and I will 
be glad to help you on that if you need help.
    Ms. Brigham. Okay. I used the wrong word. By destroying, I 
mean you are not putting it back into the system, and that is 
exactly what happened is, they got put into different areas, 
you know, so people could use them, so they were not buried or 
anything like that, but they were put to human consumption use 
but they could have been put back into the tributaries to help 
rebuild those naturally spawning fish.
    Mr. Dicks. Well, if you have a hatchery, you take a certain 
amount of the fish that you have caught and you take the eggs 
and the sperm and put it in the hatchery and then you use that 
for the next year's run of fish. I mean, this is not rocket 
science.
    Ms. Brigham. We are having a future salmon conference on 
June 1st and 2nd in Portland. We would like to invite all of 
you to come or send some staff people to come to this meeting 
in Portland, Oregon, and we are going to talk about some of 
these things that Congressman Dicks and I are talking about.
    Mr. Cole. I would just say, speaking as a member of a 
Plains tribe, you might want to think about buffalo. It is a 
lot easier to keep track of them.
    With that, let me move to Mr. Simpson.
    Mr. Simpson. The only problem with buffalo is, you do not 
know if they were raised in a pasture that is fenced or in the 
wild.
    Mr. Dicks. That is right.
    Mr. Cole. It does not take long to figure out which they 
are.
    Mr. Simpson. Well, you know, I always love these 
discussions. If I have a look at the DNA of a fish to know 
whether it is something, I question what the difference is, to 
some degree, but we do mark hatchery fish.
    Mr. Dicks. We do, and it is the right thing to do.
    Mr. Simpson. Yeah, they got blunt noses from hitting up 
against the cement.
    Mr. Dicks. Mr. Chairman, it is the right thing to do.
    Mr. Simpson. Never mind. Since I was not here for the 
testimony, I do not really have any questions except to say 
that obviously your testimony is important about what we are 
going to do as we put together the 2012 appropriations bill, 
and we look forward to working with you as we do that, and 
since the subject came up earlier, and it has absolutely 
nothing to do with this, but since the subject came up in an 
earlier panel, I just wanted to bring this down for Mr. Cole.
    Mr. Cole. I will put this--just so you know, Mr. Simpson in 
the spirit of being such a good sport, as you know, we lost to 
them five years ago. He once brought me a pen with the school 
colors, and I thought that was very nice. He said just press 
it, and I did, and it immediately played the last 90 seconds of 
the game so I would not forget it ever. So this will be right 
with my pen, Mr. Chairman.
    Mr. Dicks. Has he shown you his Statue of Liberty play?
    Mr. Cole. I believe I have seen enough Statues of Liberty 
out of Boise State.
    Mr. Moran, I am sorry I have lost control of this meeting 
but you are next.
    Mr. Moran. Well, thank you, Mr. Chairman. I was just 
thinking, you know, I live in an urban metropolitan area right 
here in Washington, DC. Boise State-Nevada, we know those are 
two darn good teams so we watch them for our entertainment. We 
do not care that much who wins as long as it is well-fought, 
but they have established themselves, particularly Boise State, 
over the years, and so we turn on, we put our attention to 
things when we know what they stand for. They stand for good 
football, sportsmanship, whatever. And likewise, we have no 
salmon in northern Virginia but we eat a whole lot of it. We 
consume an enormous amount of salmon because it is frankly the 
healthiest fish there is. But we buy from people and 
restaurants where we know what they stand for, and my concern 
is that if salmon are adulterated, if we cannot trust whether 
they are farm-raised or wild salmon--and obviously there is a 
premium. If you go into any one of these stores, Whole Foods, 
you know, Trader Joe's, wherever you go, you will find a 
discriminating buyer looking for the wild salmon because they 
know there is more protein there, it is healthier, et cetera, 
et cetera, and they pay an enormous premium. It is like two, 
three times what they paid for the farm raised. And my concern 
is if it is adulterated--if we cannot really tell the 
difference between one or the other then certainly the value of 
the wild goes down and there are bound to be articles 
questioning whether they are really wild salmon. You can be 
sure that the paper is going to jump all over it if we cannot 
prove it. And in fact the attraction of buying salmon generally 
goes down. That has an adverse affect on everyone.
    So I have been thinking about this. I--at first when Mr. 
Dicks--we are going to tag, mark all the salmon. You are going 
to what? That is the most bizarre thing. But actually the more 
I look into it, it does not strike me as very bizarre because 
you have got to maintain the integrity of wild salmon because 
it has an enormous value. And it needs to be what you say it 
is. And so just a random comment from somebody and I may be the 
only one who does not have any salmon in my district, but you 
are not going to be raising as many salmon and you are 
certainly not going to be getting the revenue unless my 
constituents continue consuming it and being willing to pay 
very high prices for the best wild salmon. So with that, that 
is all I have to say, Mr. Chairman. Thanks for having the 
hearing.
    Ms. Brigham. Can I share?
    Mr. Moran. Certainly.
    Ms. Brigham. We have this exact--exact what you're talking 
about exactly happened to the Umatilla Tribe. In the Umatilla 
River, we lost our salmon for 75 years. In the Walla Walla 
Basin we lost our salmon for 100 years. This is a graph of the 
work that we have done and we are actually co-managing with the 
State of Washington or Oregon on how to rebuild naturally 
spawning fish in the Umatilla River. And we have been 
successful. We are actually retaining annually over 3,000 fish 
into the Umatilla River that we are harvesting at a 50/50 
allocation. Last year was the first time in 100 years that the 
Umatilla Tribe opened the season in the Walla Walla Basin and 
we are hoping, I mean, we are hoping this year numbers are 
going to show up so that we can have another season. And if we 
are taking the same approach we are taking we are seeing 
hatcheries or nurseries and helping us rebuild our naturally 
spawning fish so that they can be spawning naturally into the 
system and rebuild and continue to come back.
    Mr. Moran. That is all good.
    Ms. Brigham. Yes.
    Mr. Moran. That is all well and good, but when you showed 
us the last chart and it was wonderful that it was going up in 
a very positive incline, but it does not distinguish between 
farm raised and hatchery raised or wild salmon.
    Ms. Richardson. Okay.
    Mr. Moran. And thus distinguish between the value of each, 
nor did the first chart. I mean, the--even though it is a 
smaller share, I suspect that the wild salmon bring in almost 
as much revenue as the much greater share of farm raised. But 
for example, this is a small--the natural versus farm. The 
natural is as pretty much at a plateau, but farm I understand 
is going way up. But these natural salmon may be brining in 
almost as much revenue as the farm. It is another supply and 
demand. Now, I do not want to get into an argumentative 
situation. I am just giving you the perspective somebody that 
you know provides the revenue for a lot of this, but you know 
has a very different perspective than those of you who have 
salmon in your wonderful river systems. So I will not be 
argumentative as they say and I have said it again I--you know 
these things I am just learning and a lot of you, you all know 
much more than I. I just thought I would share that perspective 
that is all.
    Ms. Brigham. Okay. Just for clarification on the Columbia 
River we do not have farm fish. It is hatchery fish. There is a 
real difference. There is.
    Mr. Cole. I think I know why they call you Cat. This is 
kind of a cat fight here. Anyway, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. Thank St. Catherine's 
football team. My college alumni is undefeated. That is because 
we do not have one. So I will put my team up against--you know. 
The issues of economic livelihood--we heard about and I would 
like to kind of shift this just a little bit. We heard from 
some tribes in the Dakotas about buffalo and slaughter and 
access and small business support and doing things with the 
buffalo with the way that they are slaughtered and a way that 
speaks to tribal customs, usage, the spirituality, the 
connection of giving thanks for the buffalo. In Minnesota we 
have buffalo, we have wild rice, we have the issue between 
paddy rice and wild rice which is not even designated. I mean, 
we do not even have in the agriculture area our tribes' wild 
rice--anything can be called wild rice. So it is protecting the 
tribe making economic recovery and jobs off of that and then we 
have walleye. We have the issue of walleye and tribal rights 
protecting stock for that to come back in force. So if you 
could talk about that for just a few minutes the importance of 
schools, vocational training, and then having the ladder up 
with working with the business, the economic growth in your 
tribes.
    Ms. Pigsley. Our tribe is a timber tribe and as we know in 
the Northwest, timber tribes are suffering greatly. If it--to 
be honest with you if it were not for us having a tribal casino 
and using those revenues, we would be in serious trouble with 
all of our programs, our education program and everything that 
we have. We cut 2.5 million board feet of timber a year and 
that does supply the tribe with some income, but it is not 
anywhere near what the revenue we get back from our casino 
operation. And that is how we fund--that is what we use to 
supplement the education program. And I mentioned in our 
testimony it is a good problem to have knowing that in 1995 I 
think we had 35 or 40 students in college and today we have 195 
students in college. But we are paying the price for that by as 
a self-governance tribe we can move funds around, but there is 
not--we do not even--what we paid just in higher education from 
our own resources is more than the money that we get from the 
Bureau of Indian Affairs for all the programs. And so because 
education and because we were a determinate tribe and education 
is such a high priority we--I mentioned we began a charter 
school. It was a great school and it was because the school 
district was closing the school and they were going to bus kids 
from Siletz to you know 10 miles away. And when they did that 
with our high school students we saw a 75 percent dropout rate. 
When they got to high school they just did not go to school 
because of the bussing and because you could not play in sports 
and you could not do all the other extra-curricular activities. 
And so we decided we were going to keep the school in Siletz 
and fund it and we funded it out of timber--or out of gaming 
revenues to keep those kids in Siletz. And we have seen an 
extra-ordinary good result in students achieving, graduating, 
and in meeting the state requirements for whatever level of 
education and attend--school attendance. So termination was 
devastating for the tribe. Restoration was extremely--an 
extremely happy time for the tribe, but we have never been 
able--and I think Cheryle mentioned it. We have never been able 
to catch up with those needs that we see.
    Mr. Blythe. Mr. Chairman, just back to some of my 
testimony. When we talk about gaming tribes and some of us are 
very fortunate with locations that we are in and metropolitan 
areas, major corridors, some tribes are not. And so we have to 
look at the resource that they have to be able to work with. 
And we have to keep Congress and those people that provide 
funding and the managers that do the work are cognizant that 
this is truly a trust responsibility. And whether you have a 
casino on your property or not, that is what makes you the 
unique people you are, that land base and protecting that land 
base, enhancing that land base. And at any opportunity for 
employment I am sure that we can all say that you know if we 
can put a mill back in business with good sustainable forestry 
practices then if it is 50 jobs that is real, that is real to a 
lot of communities and economies. So you know our--the 
testimony from the Inter-Tribal Timber Council is please look 
at what we need in those areas whether it is Navaho or Warm 
Springs or Yakama, or Menominee to enhance and to grow those 
businesses that are going to enhance and grow the spin off. 
That is when you know a lot of people at home we have a great 
casino. A lot of our people at home do not like that type of 
work. They want to be outdoors doing with their hands as they 
have always done and getting that sense of satisfaction. So you 
know if we put people in the woods thinning and planting and 
growing the future then they have a legacy, their children have 
a legacy and it builds on and continues to build. So you know 
now it is a lot of philosophy I guess, but it is real. It is 
real to our people that live and work and maintain our lives 
every day. And you know whether it is fire suppression dollars 
or whether it is forest development dollars or whether it is 
mil enhancement dollars that is what we need. The casinos 
hopefully will be here forever. We do supplement a lot of our 
programs as some of the committee here is aware, but we still 
have those folks and we still have that need. We are a high 
tourist destination with needs of insect disease control, fire 
suppression as many of the other tribes across America are. 
So----
    Ms. Kennedy. I would like to provide a comment also. With 
the Confederated Tribes of Grand Ronde Tour stating we were 
terminating it, everything was taken away from us. We had no 
land base. Everything that we got we have to buy back. And so 
we do have some timber--not very much, but we do depend upon 
that. We have a casino that has been, you know I say it is 
divine justice, but it too had its great downturn during this 
economic time and we had to cut our budgets by over $2 million 
for our government services. We provide all of our health care, 
education as many of the tribes of the northwest have, but we 
did hire an economic developer. We are probably one of the 
biggest employers. We employ about 1,500 people for our casino 
and our motto was to keep them at all costs, not to lay off and 
we did not lay off any during this economic down times. We--
with our economic development we are looking at all kinds of 
businesses, but we do have some real estate property that 
provides some jobs. Also an economic boost we have looked at 
the medical industry to start working in that area. The Siletz 
Tribe and us have a partnership for developing a property there 
in Salem by the Chemawa School so we are looking at any kind of 
stimulus that can be added to us. We are good partners as well 
as very wise and astute in building businesses. So we see that 
the future is bright and we certainly look forward to any help 
that we can get along the way and education is of course as you 
hear from all tribes. You know I get amazed sometimes we want 
to build institutions to incarcerate our youth and I--and I, 
too shake my head at that thinking that these are children, 
they need to be taught. They need education. There are some 
that need perhaps that stronger hand, but I really--I am a 
believer in education.
    Mr. Cole. I want to bring us to close because we are 
running way behind schedule and I am going to turn the meeting 
back over to my chairman. I have a meeting upstairs, but I want 
to note I am leaving with my Boise State helmet, my tail 
between my legs and--but I will be planning a rematch for the 
national title game this year because we are going to be very, 
very good, Mr. Chairman. But anyway.
    Mr. Simpson. Thank you very much.
    Mr. Cole. Thank you. Turn it over and call the next panel.
    Mr. Simpson [presiding]. Thanks, Tom. The next panel, 
Joseph Pavel, Lawrence LaPointe, Billy Frank, Jr., and Ray 
Peters. Jim, thanks for having such an interest in wild salmon 
versus hatchery salmon.
    Mr. Moran. I try to learn.
    Mr. Dicks. You know, no I--well it is interesting that what 
you saw here was a little bit about the debate that has been 
going on for about 40 years that things would go on top of 
that. I mean, it is not to say how much of it is land use, 
water usury, storm water, having all of the--and then you add 
all of the--yeah and all for your hands--in blocking the--at 
Manchester, Washington we took the last of the sock-eye salmon 
from Red Fish Lake in Idaho and did a captive breeding program 
and restored that run and it is amazing. You know things--the 
farm fish are in pens and they feed them just----
    Mr. Simpson. It is like the difference between the free 
range chicken and----
    Mr. Moran. There is a difference between wild fish and 
hatchery fish. But you can keep them very close if you take the 
wild fish and use them as brood stock in the hatcheries. So the 
farm fish----
    Mr. Simpson. Is that right, Billy?
    Mr. Frank. That is right. Thank you. We got them coming 
back 22,000. That is right and 11,000.
    Mr. Simpson. Who is first? Who wants to go first?
    Mr. Frank. I will.
    Mr. Simpson. Go ahead.
                              ----------                              

                                            Wednesday, May 4, 2011.

                        SKOKOMISH TRIBAL NATION


                                WITNESS

JOSEPH PAVEL, VICE CHAIRMAN

    Mr. Pavel. All right, thank you, Mr. Chairman, 
Representatives of the committee. It is my pleasure to be here. 
I am Joseph Pavel, Vice Chairman of the Skokomish Tribe in the 
Pacific Northwest. I was here last year and appreciate all the 
support and funding we got. I would just like to make one note 
to the written testimony you received. On the second page it 
says we received a 40,000 increase in our law enforcement base 
funding. I would just like to remind the committee that we 
never had any law enforcement funding in our base. This was law 
enforcement funding put into our base. As a 638 Tribe, the 
Skokomish Tribe never did have an enforcement program well as a 
PL874, that is seated our jurisdiction to the State so as 
through self-governance we have been able to out of that base 
direct money toward law enforcement. So we have built up 
program on Cauble together over the years so this 40,000 
increase to our funding for law enforcement is a first and 
really 
appreciate that entirely--a lot. I am sorry. I would just like 
to emphasize that and we also got a onetime funding for a 
probation officer and that was a great boon to our program. Our 
court system, we utilize an Inter-Tribal, a traveling court 
system: Northwest Indian Court system that provides our court 
and prosecutorial services. And as such without a probation 
officer or somebody to do administrative work within our local 
area every time an offender or violator--they had to go to the 
bench and so we had a huge backlog there. So with this 
probation officer we are able to clear that off. We developed 
a--was able to implement a community service program. We have 
always had community service as part of the penalty, but nobody 
to operate it. So that has been a great resource. I know that I 
also function as a Natural Resources Director for the Skokomish 
Tribe. We have been able to use some of those folks. I think it 
looks good for the community to see these people out there 
doing things. That helps the operations that we have this 
available resourcing to be able to put these guys to work and I 
think it makes them feel a lot better to be able to do that. So 
we also have used some of that funding to get a youth specialty 
in our substance abuse treatment programs. That was one of the 
lacks or gaps that we identified last year is that we need to 
target youth, of course. I think you will see and hear that 
unfortunately law enforcement remains our number one priority. 
Certainly respect and support the Administration's attention 
and the increases that he has offered up for law enforcement. 
It is a resource that we need not only just to enforce, you 
know against violations and criminals and so forth, but in the 
interest of public safety we have endeavored and strived to 
work with our law enforcement, our public safety department to 
think of them--this has got to be a community service. This is 
another community service. We are a service organization. These 
are our clients, our members, and so not--we are trying to 
emphasize that point so that it is important to have these 
people, these resources, these men, these bodies on the ground 
to have some continuity so they get to know their community. 
That is just one of the problems we have had is being able to 
maintain some continuity of staff, some longevity within staff. 
We need the resources to keep these people interest and keep 
them on payroll. Unfortunately I mentioned the probation 
officer. Hired a great guy, but he is gone. He moved on. I 
think our neighbors--I think Chehalis Tribe hired him away. And 
this has been the tribe--as a small tribe I am struggling and 
certainly not having the great amount of resources to put in 
our program. We hire people. We train them. They move on. And 
so it is a constant struggle to maintain some longevity and I 
think that is a component that we need to emphasize so that we 
can have some community relationship between our staff, our 
public safety enforcement staff and the community. That being 
said I think you will note that we do not say much about 
education and social service programs in here, but not that it 
is not a priority, but those are areas that we are able to 
coddle together other resources. There are funding 
opportunities out there and we have been very aggressive and 
worked very hard to get that and meet those particular needs.
    You have heard from some of the other tribes here with BIA 
Schools and so forth. We do not have a BIA School on our 
reservation. We do have a state--a school district with a 
school right in the middle, in the heart of our reservation on 
tribal lands. And 35 percent of the students to that are tribal 
members, so our emphasis is to try to work with those people as 
efficiently as possible and try to develop that relationship. 
It has not been good in the past, but that is the goal of the 
tribal council is to develop that relationship and work with 
those folks.
    Our social services programs as I mentioned we have 
identified the gap with the youth, and the environmental 
natural resource programs we have heard a lot about that here. 
I certainly would anticipate that I could support whatever the 
Northwest Indian Fisheries Commission is going to say there. I 
would just like to remind you that we are on Hood Canal which 
is the Jewel of Puget Sound.
    [The statement of Joseph Pavel follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.043
    
    [GRAPHIC] [TIFF OMITTED] T6982C.044
    
    [GRAPHIC] [TIFF OMITTED] T6982C.045
    
    [GRAPHIC] [TIFF OMITTED] T6982C.046
    
    Mr. Dicks. And it is certainly not a canal. It is a fjord. 
Right in front of the Olympic Mountains, salt water.
    Mr. Simpson. Fjord, well that is a foreign word to me. 
Thank you. Frank, you want to go next, Billy?
    Mr. Dicks. I will call it that.
    Mr. Simpson. Well, do not worry. I watched a program last 
night where Mount Rainier theoretically blows up and when it 
does, Seattle and the whole region--that would be bad.
    Mr. Frank. Mr. Chairman.
                              ----------                              

                                            Wednesday, May 4, 2011.

                NORTHWESTERN INDIAN FISHERIES COMMISSION


                               WITNESSES

BILLY FRANK, JR., CHAIRMAN
MIKE GRAYEM
ED JOHNSTONE

    Mr. Frank. Mr. Chairman, thank you and honorable members of 
the subcommittee. I am Billy Frank, Chairman Northwest Indian 
Fish Commission. It is indeed a pleasure to be here. Northwest 
Indian Fish Commission is one of our natural resource managers 
for the tribes, the twenty tribes that we represent and we come 
back here with one voice. You see all of our tribes in here 
today. And we try to talk with one voice to the United States 
Congress. And we have been doing that for the last--now I just 
had an eightieth birthday, so I have been here for a long time 
and so with me today I have my executive director Mike Grayem 
and my treasurer down here Ed Johnstone from Quinault. And so I 
would like Mike to go through this part of the----
    Mr. Grayem. Thank you one and all. I am--Billy has asked me 
to give you a quick thumbnail sketch of the requests that we 
are making. Our biggest interest in the Bureau of Indian 
Affairs Budget is the rights protection implementation account. 
These are the monies that the government provides the tribes to 
manage and protect and restore the resources that are vital to 
the rights that they reserved under treaty with the United 
States. So our biggest first priority is we want this account 
to be maintained at at least the fiscal year 2010 enacted 
levels. In particular the western Washington Fisheries 
Management Account which is the dollars that come to the tribes 
in the Northwest that are members of our commission. We have 
been asking for a number of years for an increase there of 12 
million. In fiscal year 2010, you heard that plea and increased 
the Rights Protection Account as a whole by 12 million of which 
3.386 was allocated by the Bureau to Western Washington. Those 
dollars are greatly appreciated. They have allowed us to 
maintain some very important programs, but our needs continue 
to be greater. And so we are asking for an increase of 8.643 
which would get that total up to the 12 million that we have 
been asking for in total to meet the natural resource 
management needs of our member tribes.
    This is particularly important right now because the State 
of Washington's budget is being slashed particularly in the 
realm of natural resource management. We just met with the 
governor's staff on Friday and learned in particular where 
those cuts are coming from and in order for the tribes to 
protect these resources that are the basis of their treaty 
right, they are going to have to do more because the State 
simply cannot do what they have been doing. So that is our 
first request.
    We also request that the Washington State Timber Fish and 
Wildlife line in this Rights Protection Account be maintained 
at the fiscal year 2010 enacted levels. We are also asking for 
an increase in the salmon marking line. I do not want to 
reenergize the debate that occurred here a few moments ago 
with--but we, the Northwest Tribes have a--well the whole 
Northwest Fish Hatcher system is the largest in the world 
between state, tribal, and federal. And under the congressional 
mandate to mark hatchery production that is funded by federal 
dollars we are doing that but we--marking is only part of what 
is required. We have got two problems. We are not--we do not 
have the resources to continue marking the increased production 
that is occurring and we need additional money to address the 
issues that result from marking the fish. And so we are marking 
the fish for a purpose. One of those purposes is to be able to 
identify hatchery and wild fish and so you can deal with them 
separately. Another purpose they are being put to is marked 
selected fisheries and those require additional funds to do the 
analysis, do the monitoring, to basically utilize those mass 
marks. And so that is where our request of additional 1.4 
million comes in.
    And then the last issue under Rights Protection is the U.S. 
Canada Pacific Salmon Treaty. We support the request that is 
being made by the Pacific, the United States section of the 
Pacific Salmon Commission for an increase of 694,000 to this 
account which supports the Northwest Columbia River and 
Matlakatla Tribe and Alaska's participation in that treaty and 
the responsibilities.
    The last issue on the BIA is the Fish, Wildlife, and Parks 
Account and particularly the fish hatchery maintenance. We were 
very pleased with the Administration's increase to this account 
and we fully support what the Administration has put into the 
budget. This is a really important account to the tribes to 
maintain their aging hatchery facilities and will be put to 
great use.
    And then lastly EPA--we are generally pleased with what we 
saw in the budget by the Administration. We want to mention our 
support for the Tribal General Assistance Program (GAP). That 
money is used by all the tribes nationwide to support capacity 
building and partnership with EPA. In addition to that, the 
President's budget has a new initiative called a Multimedia 
Tribal Implementation Grant Program. We are very excited about 
this. It is in the budget for 20 million and we fully support 
that. We have been working with EPA to try to identify how we 
move beyond the capacity building and actually implementing 
this environmental program partnership of EPA and we see this 
as the funding avenue to allow us to do that.
    And then lastly but not least is restoring the geographic 
program and clean of Puget Sound to the 50 million level that 
was enacted in 2010. This is an extremely important program to 
everybody in the Northwest to restore Puget Sound, recover 
salmon, and I do not think I need to say more because 
Congressman Dicks----
    Mr. Dicks. Well, the Chairman has been very helpful on 
this, too. We are doing our best. It is very difficult.
    Mr. Johnstone. Thank you, Mr. Chairman. I come here as a 
piece of this delegation. One, as a treasurer of the Northwest 
Indian Fish Commission and two, as an actual Fisheries Manager 
for the Quinault Indian Nation of which I am a member. And I 
just wanted to stress the importance of the Western Washington 
Bold Account and those funds are really the core of the base 
funding for all of our Fisheries Programs. It is a very 
important funding source and it is actually tied to the U.S. v. 
Washington Case. The judge wrote certain requirements in the 
decision and to comply with those decisions the Western 
Washington Account was created by Congress to fulfill those 
court orders.
    So as other decisions have come down since then like the 
Rafeedie Decision, those decisions did not include the funding 
to execute the rights that were affirmed in those court cases. 
So our duties and responsibilities went up tremendously and our 
funding level stayed at 1970's levels. And so this request that 
you see here is an attempt at us to reflect those duties and 
responsibilities in the current inflationary costs and so forth 
that would get us to the basis for being able to just carry on 
the requirements under those court decisions.
    Mr. Frank. Mr. Chairman, I just want to thank you for 
coming and letting us speak today. And we know that it is a 
difficult time for all of you to be looking at this budget. You 
know our--we are the Treaty Tribes throughout the Northwest and 
throughout all of our country, you know and we fought 
determination as you heard here a little while ago and we 
finally got everybody back on line. And you know we are just 
support each other. Thank you.
    [The statement of Billy Frank, Jr. follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.047
    
    [GRAPHIC] [TIFF OMITTED] T6982C.048
    
    [GRAPHIC] [TIFF OMITTED] T6982C.049
    
    [GRAPHIC] [TIFF OMITTED] T6982C.050
    
    Mr. Simpson. Thank you. Next.
                              ----------                              

                                            Wednesday, May 4, 2011.

                             PUYALLUP TRIBE


                                WITNESS

LAWRENCE W. LAPOINTE, VICE CHAIRMAN

    Mr. LaPointe. I am next. Mr. Chairman, thank you for 
allowing me to speak on behalf of the Tribe of Puyallup. My 
name is Lawrence LaPoint, Vice Chairman. Puyallup Tribe, we do 
have an education facility. We represent 4,260 Puyallup Tribal 
members plus about 25,000 relocated members of other tribes--
355, almost half of the tribes of the United States.
    The President's budget increase of 2.4 billion for Indian 
Programs, operations of Indian Programs is 23.7 million above 
2010 levels. Same with 4.6 billion for IHS which is rated 571.4 
billion--million and the Puyallup Tribe would like to see that 
increase looked at as a base funding and start next year. And 
then if that is possible, I do not know. I mean, there are a 
lot of things to be looking at. We are one of 20 tribes that 
received arrow funding to create a correctional facility on our 
reservation but that is like enabled unfunded mandate as far as 
we are concerned because we can build a building but where are 
the funds to operate it? So we are asking Congress to support 
our request for annual budget of 1.3 million to operate the 
facility.
    The natural resources--I do not think I have to reiterate 
what Billy and the rest of them said from Northwest Indian Fish 
Commission. It needs to be maintained. Our education--the 
budget request for 795 million for education is a decrease of 
3.8 million from current levels and we have a population 910 
students in our school system. And it is slowly growing. You 
can say location, location, location as far as the casino. We 
are successful, but I think we are one of the few casinos in 
the country because we did not take an economic hit like 
Wolf's--did. And we are able to supplement a lot of programs.
    But I do not believe there is any tribe in this country 
that is self-sufficient to the point where we can assume 
whatever we receive from the federal government to provide 
services to our membership plus the other natives that are 
within our service area. So and then we have a school that 
was--is not complete yet. The Bureau did not provide funding to 
complete the auditorium which probably now--it was 800,000 at 
the time and I believe it is about 1.4 million now.
    And we, you know there was a mention of education for 
secondary students and we have put approximately 250 tribal 
members through college and they are working throughout the 
country. Transportation--we are recommending that the 
transportation not be changed from the current formula because 
as Congressman Dicks knows we are a very urban tribe. We do 
have access to natural resource areas and we need to be able to 
maintain those access roads with cooperation with the county as 
well as I think Hancock knows where the fish ladder is.
    Mr. Dicks. Ron Puyallup.
    Mr. LaPointe. Ron Puyallup, yeah. I read about boarding. So 
we are recommending that. And the same with contracts for it. 
We would like to see that covered 100 percent so that when we 
get new grants and contracts that we are able to handle them.
    And then last but not least I guess non-BIA Internal 
Revenue Service. And we are getting attacked in all different 
ways from IRS and in regards to--even native made materials 
that we have to send 1099's to our tribal members and most 
native created like hand carvings is not taxable. I do not 
know.
    Mr. Simpson. That is different. We will look into that.
    Mr. LaPointe. Thank you.
    [The statement of Lawrence W. LaPointe follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.051
    
    [GRAPHIC] [TIFF OMITTED] T6982C.052
    
    [GRAPHIC] [TIFF OMITTED] T6982C.053
    
    [GRAPHIC] [TIFF OMITTED] T6982C.054
    
    Mr. Simpson. Our agency. Thank you.
                              ----------                              

                                            Wednesday, May 4, 2011.

                          SQUAXIN ISLAND TRIBE


                                WITNESS

RAY PETERS, INTER-GOVERNMENTAL LIAISON TO THE TRIBAL COUNCIL

    Mr. Peters. On behalf of the Squaxin Island Tribe 
leadership and the citizens of the tribe, I am honored to be 
here to submit our budget request for 2012. Much of the written 
testimony that I am submitting here is detailed, but really 
want to talk about a tribal specific program that the Squaxin 
Island Tribe runs. We are in the lower Puget Sound. We are next 
to our brothers and sisters of the Skokomish Tribe, but we are 
on the Sound, not the--what is that word you used? The refora--
--
    Mr. Simpson. Fjord.
    Mr. Peters. Refera. Yes. The Squaxin Island Tribe is the 
largest employer in Mason County Sixth Congressional District 
and we run the Northwest Indian Treatment Center that is a 
regional facility that is very effective and efficiently run. 
And that base budget was established in a Congressional set 
aside in 1993, and we are at a point where we in the past have 
been able to piece together that budget by using State funds, 
county funds. We are state accredited. We are nationally 
accredited through CARF, but with the climate in the States 
some of those funds are going away and our base budget has not 
been increased since that initial set aside.
    We are requesting an increase in our base budget of $1 
million. It is a program that the tribe has put many resources 
in as well we have been very effective in our capabilities of 
third party billing, going after grants, and other outside 
funding to be able to piece together that budget. But we are in 
a critical need here to be able to continue the services that 
we provide and the efficiency is outstanding. Not only do we 
service the Oregon, Idaho, Washington, but we have tribes 
seeking out and sending tribal members to us across the nation 
as far away as Florida.
    And so that is an area that is at the utmost importance. We 
have been able to increase the treatment in regards to 
behavioral health and also psychiatric services as well. 
Without that increase in funding we will need to start to cut 
back our services and that would be a shame. That would be an 
impact on all the tribes of the Northwest, but also as well to 
the State as well.
    As I said, all the specifics that the other tribes have 
talked about that are very important, the budget detail is in 
the written testimony so I will not take up your time in 
regards to reviewing most of those things that have already 
been discussed today. I will say that we fully support 
affiliated tribes in Northwest Indian's recommendations, 
Northwest Indian Fish Commission recommendations as well as the 
National Congress of American Indians, Northwest Indian Health 
Board, and as well the National Indian Health Board. Thank you 
for your time and I just want to close by saying Norm, we do 
take all of our fish as well as Squaxin Island Tribe. It is 
very important. Our fisheries department and the habitat issues 
are very important to us as well. Thank you.
    [The statement of Ray Peters follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.055
    
    [GRAPHIC] [TIFF OMITTED] T6982C.056
    
    [GRAPHIC] [TIFF OMITTED] T6982C.057
    
    [GRAPHIC] [TIFF OMITTED] T6982C.058
    
    Mr. Simpson. Thank you. I will turn it over to Norm since 
this is kind of a Washington delegation. And let me say for all 
of you that you know that the reason that the budget for BIA 
and Indian Health Services and the Education Department at the 
BIA was the increases that have occurred over the last several 
years have been primarily due to Norm. When he was chairman of 
this committee he did a fantastic job. While I had differences 
with my Democratic colleagues on some things, it is one of the 
areas where I really appreciated the work that he did in 
working with him and we fortunately have been able to continue 
that under both Mr. Moran and under myself to--it is very 
important to all of us, but it started with Norm.
    Mr. Dicks. Well, thank you, Mr. Chairman for that very kind 
remark and Tom Cole, who was chairing here, has been a 
tremendous supporter. And we are faced with some very difficult 
times coming ahead here in terms of having to make some cuts in 
the budget. And you know we tried to minimize the damage this 
year on 2011, but 2012 you know initially is going to be very 
difficult. Hopefully at the end of the process we can work out 
compromises and protect some of these most sensitive programs. 
Who do you apply to? Do you go to the Indian Health Service or 
the Portland Office for this million? Because you know we 
cannot do earmarks now. So you know I do not know if I did this 
earmark. Was it my earmark or was it Senator Murry's or----
    Mr. Peters. Set aside, yes.
    Mr. Dicks. Yeah, so see you are going to have to find a 
program in the department where you can go and apply for 
funding and we will try to help you. So that is really going to 
be the one or if there is an account that we can plus up 
without specificity because they have to make the decisions 
then those are the ways we could help you.
    Mr. Peters. Yeah, and we are hoping--our hope is that the 
increase that the IHS budget is hopefully going to see that 
some of those dollars can be directed to the treatment center. 
And again, we appreciate your help and the influence that you 
have made----
    Mr. Dicks. You are applying though?
    Mr. Peters. Yes.
    Mr. Dicks. Do you know when they have their application 
time frame and all that?
    Mr. Peters. We are meeting with the director. In fact we 
had a conflict. The director is actually at Self-Governance 
Conference right now. And so some of our leadership is there as 
well.
    Mr. Dicks. Well, Pete Modaff can help you on this and again 
we are going to try to do the best we can. I mean, Billy, this 
is as tough a year as I have seen.
    Mr. Frank. Oh yeah.
    Mr. Simpson. So we will just try to work with the Chairman 
and do the best we can and at the end of the day it I--it will 
not be as quite as bad. The House is going to make some very 
serious cuts and we--and but there will be a process. The 
Senate will go in and then we have conferences and you know we 
will do our best to protect these sensitive programs.
    Mr. Frank. Thank you.
    Mr. Simpson. Appreciate it. Thank you all for being here 
today.
    Mr. Frank. Thank you.
    Mr. Simpson. You bet. Sheri Lee Williams, Fawn Sharp, Brian 
Patterson, and Ryland Bowechop, and T.J. Greene. Ready? Who 
wants to start? Would you like to start? Go ahead.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                         QUINAULT INDIAN NATION


                                WITNESS

FAWN SHARP, PRESIDENT

    Ms. Sharp. Sure. I will start. Good morning. Chairman, 
members of the committee. On behalf of the Quinault Indian 
Nation, my name is Fawn Sharp. I am honored and pleased to be 
here today. I would like to begin my remarks by lending our 
support in our written testimony. Many of the issues that have 
been raised already today by other tribes we would like to draw 
your attention to both the IHS and BIA are recommendations that 
we do support before I get into the tribal specific requests.
    Our first tribal specific request relates to the Blueback 
Restoration Project. This is a project that the Quinault Nation 
undertook a number of years ago in terms of planning the Upper 
Quinault Watershed that had been destroyed at the turn of the 
century and we have undertaken an effort to start phase one to 
restore the ecosystem and this is a project that we are 
extremely proud to take the lead in. We have been working with 
the residence of the Upper Quinault, State agencies, the 
counties, and federal agencies, so this is truly an example of 
governmental entities coming together with nonprofits and 
private citizenry to restore habitat that will most certainly 
provide an opportunity for us to bring back the Blueback 
Sockeye Salmon. It is a prized run that is unique to the 
Quinault Watershed. So we are very happy to continue with that 
effort.
    We are moving into phase II of that project and we are 
seeking seven million that we will apply toward phase II. And 
we are pursuing a number of funding sources to reach that goal. 
But we have invested roughly $150,000 at this point into the 
basic planning for that project and we will pursue private 
funding as well as state and federal funding. So we wanted to 
report our success there and I urge this committee to support 
our continued efforts as we get into phase II of that project.
    The second issue that I would like to draw your attention 
to is the Quinault Nation's Comprehensive Strategic Drug 
Strategy. I have been here the last three years talking about 
our drug strategy at the Quinault Nation. This year we have 
added a unique component to that strategy that relates to 
national security and this is an issue that I really want to 
stress to the committee.
    Over the course of the last year the Tribal Council task me 
with putting together a comprehensive approach to address an 
operating budget and strategy to step up enforcement. As I 
began to work into this issue I realized that the level of need 
is much greater than I ever imagined. I had reports that a 
tribal elder was driving from Akai home to Taholah through one 
of the logging roads and noticed a low flying helicopter out in 
the middle of a logging road after midnight with--surrounded by 
cars. And a big spotlight and we know they were not having a 
picnic out in the middle of the woods on an abandoned logging 
road. I also receive reports from our crabbing fleet that they 
notice while crabbing this last year what appeared to be a 
mother vessel and a small high speed vessel traveling four or 
five trips at 45 knots an hour. I am not a nautical person, but 
I am told that 45 knots an hour is quite fast.
    About two weeks ago our general manager of Quinault Land 
and Timber Enterprise who has been working in the woods for 30 
years was in the northern part of our reservation near lands 
held by a non-Indian logging company Anderson and Middleton. 
They own about 11,000 acres to the northern part of our 
reservation. They noticed a newer model Mercedes Benz, black 
Mercedes again out in the middle of a logging road where they 
have no business conducting any activity. And at my last tribal 
council meeting, I stayed after hours and I was there until 
about three o'clock in the morning burning the midnight oil and 
returning from Taholah to Lake Quinault which requires me to 
travel up to the Moclips Highway, and I noticed a two trailer 
semi going into the interior part of our reservation off the 
Moclips Highway at 3:30 in the morning. So again, this is an 
issue that is absolutely critical to the Nation. The law 
enforcement that needs and Border Patrol protection needs that 
we see to effectively combat this problem clearly transcend BIA 
funding. And we are working with the Director of National 
Intelligence, Homeland Security, and the military to see what 
we might be able to do to step up that effort at the Quinault 
Nation.
    So with my last 20 seconds, we do have an emergency 
preparedness request that we have set forth in detail as well 
as funding related to our forest management plan. But the most 
critical need that we have realized this last year does relate 
to drug and security protection issues. We have 27 miles of 
international border that is not being patrolled today by the 
Border Patrol Agency. So thank you.
    [The statement of Fawn Sharp follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.059
    
    [GRAPHIC] [TIFF OMITTED] T6982C.060
    
    [GRAPHIC] [TIFF OMITTED] T6982C.061
    
    [GRAPHIC] [TIFF OMITTED] T6982C.062
    
    Mr. Simpson. Thank you. Sheri.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                     LUMMI INDIAN BUSINESS COUNCIL


                                WITNESS

SHERI LEE WILLIAMS, COUNCILWOMAN

    Ms. Williams. Yes, good afternoon and I am very honored to 
be here today. I am a Lummi Nation Tribal Councilwoman. Also, I 
am the treasurer of the Lummi Commercial Company, and I also 
attend the Department of Interior Tribal Budgeting on a 
quarterly basis, and I am with the Department Area Indian 
Health Board. And so Mr. chairman, I am really honored to be 
here and present to the distinguished group of committee 
members today the appropriation priorities for the Lummi Nation 
for the upcoming 2012 budgets for the Bureau of Indian Affairs 
and the Indian Health Services.
    And bullet points, our specific request of the Bureau of 
Indian Affairs are--we are requesting for $2 million for Phase 
I. This is a new water supply system for our fish hatcheries, 
construction operation, and maintenance. Funding will be 
directed to increase the hatchery production, and make up for 
the shortfall we are experiencing in our wild salmon there in 
the Pacific Northwest. I would like to direct the BIA to work 
with the Lummi Nation and we can work together and increase our 
hatchery construction operations and maintenance funding, and 
direct the Department of Interior to fully fund the Indian 
Energy and Economic Development Workforce Development Division 
to continue its job training, development, work that has 
resulted in jobs.
    Turning to the Indian Health Service we are requesting 
funds for a community based aids and HIV rapid testing system. 
And additionally, I know this is a large amount, but we are 
getting desperate because we are looking--we think it will take 
$4 million and that is what we are requesting to combat the 
drug epidemic not only in the Lummi community but those 
communities around us.
    Regional requests, the Lummi Nation is requesting that this 
committee support the affiliated tribes of the Northwest, 
Department Area Indian Health Board, the National Indian Health 
Board and the Northwest Indian Fish Commission. Nationally in 
the budgeting area the TPA--we are requesting an $82.9 million 
increase, a general increase. And this is just 10 percent over 
the 2010 funding level. I would like to reiterate what those 
before me that sat at this table have said about the contract 
support costs.
    We would like to have provided an additional $50 million 
increase to BIA and $112 million to the Indian Health Service 
to fully fund the contract support costs including the direct 
contract support costs and provide $5 million for the Indian 
Self-Determination Fund. Law enforcement, tribal courts, tribal 
detention facilities provide $30 million over the 2010 levels 
that were funded. And education provides $24.3 million to fully 
restore the Johnson O'Malley Fund. And increase the funding for 
the Office of Self-Governance to fully fund the staff and 
support the requests of NTAI and the National Indian Health 
Board.
    You know our Lummi Nation is located in the Northwest with 
5,200 tribal employees and we have drawn our physical and 
spiritual sustenance from the marine tidelands. And our 
fisheries are trying to survive. Because the salmon are gone 
our fishers are trying to survive on shellfish and that is not 
good because in 1999 we had 700 licenses fishers who supported 
nearly 3,000 tribal members and to date we have about 523. So 
that means that we have lost over 200 small businesses, more 
families because it takes more than one person to fish on a 
boat. We have really lost a significant amount of revenue which 
caused a lot of depression in our community.
    And so specific requests to the Bureau again I reiterate 
the $2 million. This is for the water supply system and that is 
for our hatcheries. $300,000 for the Natural Resources law 
enforcement, and we have 1,846 square miles of marine area that 
our enforcement officers have to serve and 9,100 square miles 
of seeded lands that they serve. And that goes all the way from 
the U.S. Canadian border all the way to Mount St. Helens and 
throughout that whole area. We have to protect everything. That 
is our national resources and there again, I think I have kind 
of summarized it all, and so thank you very much.
    [The statement of Sheri Lee Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.063
    
    [GRAPHIC] [TIFF OMITTED] T6982C.064
    
    [GRAPHIC] [TIFF OMITTED] T6982C.065
    
    [GRAPHIC] [TIFF OMITTED] T6982C.066
    
    Mr. Simpson. Thank you. Ryland.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                          MAKAH TRIBAL COUNCIL


                                WITNESS

RYLAND BOWECHOP

    Mr. Bowechop. First of all, Mr. Chairman, we would like to 
associate and support the comments submitted by the Portland 
Area Indian Heath Board Inter-Tribal Timber Council, Northwest 
Fish Commission, and we would like to touch on three points. 
The first need for assistance for improvements of our jail. Mr. 
Modaff has been there. He knows that it is in pretty rough 
shape.
    Mr. Dicks. To visit.
    Mr. Bowechop. I am going to let that one float. Desire to 
deepen the harbor at Neah Bay for economic development, also to 
utilize that harbor for oil spill prevention on the coast. Any 
assistance from the federal government for helping us close the 
warm-house dump. It is an open landfill that we have been 
working to close for a number of years now and we are going to 
do it with your assistance.
    As I stated, the jail is in pretty bad shape. We understand 
the moratorium that is in place on earmarks and we are working 
closely with staff to start filling out grant applications to 
justice departments, coordinated tribal assistance. And that is 
going fairly well. We always appreciate the letters of support. 
We are committed to improving the harbor in Neah Bay to help 
our economic development efforts. We are interested for example 
in shipping aggregate materials from our sand and gravel pit 
for use in regional construction projects. We were unsuccessful 
in our effort to secure Tiger Grants for waterfront planning 
and for replacing our dock, but we will continue to press our 
efforts.
    We were disturbed to learn that the Administration has 
proposed to cut in half harbor maintenance in low use harbors 
as part of its 2012 budget request. In our case we want to 
deepen our harbor to greatly increase use of our harbor for the 
good of our community and the economy of our region. The 
shallow draft in Neah Bay harbor also poses a threat to marine 
safety. We have rescue tugs stationed in our harbor and other 
response vessels also called there. When the tide is low these 
vessels often are difficult in entering and exiting the marina.
    Makah Tribe has taken aggressive steps to address the 
serious environmental and health risks posed by the warm-house 
beach dump, a decades old landfill located on the reservation 
that was used by the U.S. Department of Defense and other 
federal agencies to dispose of hazardous waste. The dump is 
leeching harmful chemicals into a nearby stream which flows 
into the pristine waters of the Straits of Juan de Fuca, a 
traditional shell fishing location for the Makah people.
    Frequent fires at the dump contribute to air pollution in 
the town of Neah Bay and the reservation community. Closing the 
dump is the Makah Council's top environmental priority. If any 
of those chemicals get into the ocean it will not matter if the 
fish are clipped, unclipped, tagged, or untagged. They will be 
in bad shape. The tribe has documented that the Air Force which 
supported radar operations at Behokah's Peak from World War II 
through 1988 disposed of many hazardous substances at the dump 
since its opening in the 1970s including asbestos, batteries, 
pesticides, paints, and waste oil. Other federal agencies also 
disposed of their waste at the dump.
    As a result of this legacy of waste disposal on tribal 
land, the federal government bears substantial responsibility 
for cleaning up the dump and preventing further exposure of the 
reservation community to the environment. Makah tribe has taken 
action to secure federal assistance for closing the dump 
through negotiations with Defense Department or possibly 
through the Federal Superfund Program. We have waited many 
years and tried many avenues to close this dump. We believe 
that our latest actions are a necessary last resort to protect 
the health of our citizens. We would appreciate this 
subcommittee's support of our efforts.
    My written testimony also discusses other issues including 
the need to provide adequate contract support costs and the 
importance of tribal consultation regarding expansion of the 
Olympic National Park. Thank you, Mr. Chairman and members of 
the subcommittee.
    [The statement of Ryland Bowechop follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.067
    
    [GRAPHIC] [TIFF OMITTED] T6982C.068
    
    [GRAPHIC] [TIFF OMITTED] T6982C.069
    
    [GRAPHIC] [TIFF OMITTED] T6982C.070
    
    Mr. Simpson. Thank you. Brian.
                              ----------                              --
--------

                                            Wednesday, May 4, 2011.

                 UNITED SOUTH AND EASTERN TRIBES, INC.


                                WITNESS

BRIAN PATTERSON, PRESIDENT

    Mr. Patterson. I say those words more for my benefit as I 
sit here with you. It is a greeting for peace, power, and 
righteousness of a good heart and a good mind as we greet the 
day. And so I say it for my benefit because we have been here 
before. I just came from a meeting where I first attended in 
1994 and the issues have not changed and the approach has not 
changed and it is more of the same from Indian Country. At that 
1994 meeting Chairman from the Northwest Ron Alan, who I called 
the Tireless Warrior, was giving a presentation and he was 
begging and pleading to not cut my TPA monies and it is the 
same issue today.
    And so I think it requires a fresh approach from Indian 
Country to establish our agenda and begin to have those 
critical conversations to identify the need to advance those 
leadership to those critical issues. Certainly every issue I 
have heard in the past today--and I thought Indian folks were 
tough because we could sit in our council meetings all day and 
we could sit in ceremonies all day, but you guys I think might 
have us beat. I think you guys are tough. And so it is----
    Mr. Dicks. You should look at H.R. 1.
    Mr. Patterson. I will tell you. I will tell you. And but it 
is good to be in front of you. My English name is Brian 
Patterson. I have served my people for 20 years, Bear Clan 
Representative Oneidas Nation in New York. Congressman Dicks, I 
am in your territory now living in the State of Washington, the 
Northwest. It kind of feels like home, you know, to see this 
home away from home. We are longhouse people there--longhouse 
people. So I represent my people as Bear Clan Representative on 
council for 20 years. I am also President of the United South 
and Eastern Tribes, 26 federally recognized tribes, Texas to 
Florida, up to Maine. Certainly we have our issues. Chairman 
Simpson, I would like to recognize your leadership, the veteran 
leadership of this committee. Where would Indian Country be if 
we did not have that leadership in place?
    But my concern and my thought is Indian Country really 
needs to demonstrate our capabilities to manage these issues 
and move them forward. I think as every issue I have heard 
today is paramount and the key to our survival. Education, 
health care, natural resource stewardship, the care take and 
culture heritage, our sovereignty, are our fundamental 
foundations that Indian Country has identified and advanced the 
need for countless generations.
    So they are all priority issues. There is no one greater 
than the other. For United South and Eastern Tribes our top 
priority remains a clean legislative of--and I wish to 
recognize the work you did and the leadership this committee 
brought forward to push in last year a bipartisan approach to 
that as well as Congressman Cole's continued push and 
introduction this year. So we give our--express gratitude to 
the work the committee is doing to bring a clean resolve to--
that is our top priority.
    As well as joining the rest of Indian Country in myriad of 
issues that are priority issues for us. I would like to just 
take a moment. Last time I sat with you guys--let me wrap on--
has led to historical effort in my opinion--in the work that 
you did with the rest of Indian Country has put together a 
letter and I am going to have this resent to your staff so you 
can take a look at it. Really a historical letter where we have 
25 Inter-Tribal organizations putting their signature on this 
to say this is a priority issue. In my life I have not seen an 
example of that.
    But I think so I want to resend that to you and I kind of 
lost my place. I would much rather have my time in conversation 
with Indian Country and advancing our priorities, but I would 
make this point to you is that when we look at issues such as 
emergency response, those type of issues in my comment to the 
committee the last time I sat before you was that Indian 
Country needs to stand for Indian Country. We will find ways to 
assist and advance Indian Country priorities from within and we 
have begun that process. As an example, ATNI, Affiliated Tribes 
Northwest Indians, and USET signed a covenant. In part of that 
covenant is to address the common areas of priorities. A week 
and a half ago we had a historic tax summit hosted by the 
Miccosuki Band. National tribal leader meeting ATNI joined us. 
We invited them to join us and so we are taking charge of our 
agenda, becoming proactive. I think we owe it to the Joe 
Dellacrus, Divine Delorious, the Wendell Chinos, the Billy 
Franks who said--Billy Frank has a great quote where he says do 
not get tired. There is too much work to be done. We can sleep 
when we leave this earth. Too much work to be done. So I have 
been to every State in the Union.
    I am now living in Washington State for two years. I 
followed my wife out in--we live in Spokane and I must say that 
it is the most beautiful State. And if Mount Rainier is a 
little too much for you, go to Yellowstone. But it is the most 
beautiful State. Quinault, Averred, Nisqually, Makah, it is 
just very awesome territory. And Congressman Dicks, there is a 
great book out by a Pulitzer prize winner that talked about 
your first governor and the atrocities and his approach in New 
York--in Washington State. Bittercreek it is called--an 
interesting read.
    Mr. Dicks. I will get it.
    Mr. Patterson. Yeah, it is an interesting read. But thank 
you. I think Indian country needs to be proactive in our own 
agenda rather than reactive from a D.C. landscape. And USET is 
leading that charge within Indian Country. Thank you for your 
time. Thank you for your veteran leadership.
    [The statement of Brian Patterson follows:]

    [GRAPHIC] [TIFF OMITTED] T6982C.071
    
    [GRAPHIC] [TIFF OMITTED] T6982C.072
    
    [GRAPHIC] [TIFF OMITTED] T6982C.073
    
    [GRAPHIC] [TIFF OMITTED] T6982C.074
    
    Mr. Simpson. Thank you. I am shocked to hear that you have 
been to every State in the Union. You got that close to Idaho 
and chose Spokane. I mean, that--you know you could have been 
like 20 miles over and you could have been in God's country.
    Mr. Patterson. Idaho is right out my picture window.
    Mr. Simpson. I spent last week in Coeur d'Alene, in Spokane 
and did some things in Spokane.
    Mr. Dicks. You can see it where you walk.
    Mr. Patterson. And that is all I want.
    Mr. Dicks. From your front window. From your front door.
    Mr. Patterson. That is all I want.
    Mr. Dicks. No, I did a trail with Speaker Foley that goes 
from Spokane right to the border. So maybe you can just keep it 
going, Mr. Chairman.
    Mr. Simpson. Well, that is what needs to happen. I said I 
spent last week in Spokane and Coeur d'Alene and a little bit 
in Seattle, but beautiful country.
    Mr. Patterson. Beautiful country.
    Mr. Simpson. It really is.
    Mr. Dicks. We did the world's fair in 1974 ``Man living and 
playing in his environment.''
    Mr. Simpson. I went to it.
    Mr. Dicks. I did the staff work for Senator Magnusson on 
that and the railroads gave us some great land. And Spokane has 
got one of the great features is a water fall right in the 
city. Where do you get that? I mean that is pretty neat.
    Mr. Simpson. Do you have questions?
    Mr. Dicks. I just wanted to say this is going to be a very 
difficult year. As you heard what I said before the budget 
resolution calls for more cuts in discretionary spending and we 
are discretionary spending. I am hoping that we can come to 
some agreement before we get to this debt ceiling vote where we 
can lay out a program that includes all aspects of the budget. 
But the other thing I got to tell you is we cannot do earmarks. 
So a lot of these things that we used to be able to do at least 
for the time being we are not able to do. So you are going to 
have to get the Obama Administration to put the critical things 
in they have to be in the President's budget. And that does not 
mean it is going to be enacted, but at least you have a 
fighting chance if it is in the President's budget. And so I 
just give you that advice. You know I have been here a long 
time and I have been on this subcommittee a long time and these 
are important programs. And the Indian Health Service, the BIA, 
law enforcement, education, higher education, you know these 
things are very, very important and the programs for your 
natural resources also are important.
    You know we will do our best, but you know I think we have 
got to pick ourselves up and go find ways to do these things. 
And there are a lot of programs. I mean there is a lot of money 
still there that you can apply for. It is going to take people 
you know instead of just coming to Congress for earmarks. You 
are going to have to go to these agencies and work hard to try 
to get your projects funded that way. That is my advice.
    Mr. Simpson. Well, and I will just echo what Norm said. It 
is going to be a tough year and one of the things we find out 
through all these hearings while there are--you know it is kind 
of like the States. We always say no two States are the same. 
No two tribes really are the same. It is interesting to hear 
from the testimony that there are general issues that affect 
all the tribes, whether it is contract support and fully 
funding that or whether it is some of the other issues, but 
each tribe has unique issues to their tribe and that is what is 
kind of interesting to me. And as we have tried to address them 
in the past as Norm said through some of the earmarking 
process, we do not have that availability. Norm and I have been 
on the other side of that issue and unfortunately we have lost 
so far. But we are coming back. But we are more than willing to 
help you as we can when you have requests from the agencies if 
there are things we can do to help you out be sure and let us 
know because some of those unique issues on--that different 
tribes have are very important obviously.
    Mr. Dicks. I just want to say one thing. The last time the 
Republican Party won the election back in '94, they did away 
with this hearing. I want to complement the Chairman, now that 
they are in the Majority, for having this hearing so that we, 
the members have a chance, and the tribes have a chance to come 
in and really tell us what the situation is. And I complement 
you for doing that.
    Mr. Simpson. Thanks.
    Mr. Dicks. It takes time, but I think it is time well 
spent.
    Mr. Simpson. Thank you. I appreciate that. And it is--as I 
said at the end of last week or whenever it was when we had the 
public witness testimony, other individuals that came in and 
testified on other things within the Interior budget, sometimes 
I suspect people come in and they wonder if this really makes a 
difference. You spend a few minutes talking to us about--and I 
mean it is hard to wrap up everything in five minutes. It does 
make a difference because when we start to write a budget what 
you have said influences what we are able to do or what we know 
the need is. So while you may sometimes wonder how important 
this is, it really is important to us. So we do appreciate you 
taking the time to come in and talk to us and we will be doing 
this again next year and talking about hopefully not the same 
issues, but we will have addressed some of them.
    Mr. Patterson. Did I mention--costs nothing.
    Mr. Simpson. Yeah, it is and I appreciate you bringing that 
up. Mr. Cole was obviously very interested in resolving that as 
are many of us. We had it in the bill last year that just did 
not survive at the end. The CR at the end and----
    Mr. Dicks. Yeah, this has to be fixed.
    Mr. Simpson [continuing]. It has got to be fixed and we are 
going to be working on it, so----
    Mr. Patterson. Indian Country may need an area of 
additional support from you to us. We are looking--we have a 
long term priority to reexamine the trust relationship, the 
trust platform from an Indian country point of view which in my 
hope will lead to Indian Country defining self-determination 
from our expectation and our vantage--our value. And so one 
step in that direction would be to develop an orientation for 
all new members coming in to sit down. You said as interested 
in pursuing this. We have a number of resources at Harvard 
through their executive program. I am an alumni. My nation 
representative is an alumni. We have other chiefs, so we have 
resources. My nation sponsored a $3 million chair for the 
Harvard Indian Law Program. So we have resources and 
relationships there. We would like to work to develop that.
    And why I say that is because this Country should be 
outraged by the usage of the word Geronimo with Bin Laden. You 
know they could have called it anything else, but they equate 
it to one our national heroes and there is tolerance for that. 
Mayor Bloomberg in New York City, get your cowboy hat. He told 
the New York State Governor, get your cowboy hat, get your 
cowboy boots, and get your shotgun, and get on through and get 
those tags from those Indians. The President golfed with him 
two weeks later. Not a word was said. If it was any other 
ethnic group, special interest, minority, there would be an 
outrage. But Indian country in our trust relationship we need 
to develop that relationship where we can have advocates who 
are outraged by this. My Seminole Tribe was equated to Al Qaeda 
tactics. It was silent. There was no response.
    Mr. Dicks. I know. I am very glad you brought that up. I am 
on the Defense Subcommittee----
    Mr. Patterson. Thank you, sir.
    Mr. Dicks [continuing]. And I will raise this with the 
appropriate officials in the department.
    Mr. Patterson. We would welcome that critical dialogue.
    Mr. Simpson. Thank you all for being here today and thanks 
for attending the hearings.

[GRAPHIC] [TIFF OMITTED] T6982C.075

[GRAPHIC] [TIFF OMITTED] T6982C.076

[GRAPHIC] [TIFF OMITTED] T6982C.077

[GRAPHIC] [TIFF OMITTED] T6982C.078

[GRAPHIC] [TIFF OMITTED] T6982C.079

[GRAPHIC] [TIFF OMITTED] T6982C.080

[GRAPHIC] [TIFF OMITTED] T6982C.081

[GRAPHIC] [TIFF OMITTED] T6982C.082

[GRAPHIC] [TIFF OMITTED] T6982C.083

[GRAPHIC] [TIFF OMITTED] T6982C.084

[GRAPHIC] [TIFF OMITTED] T6982C.085

[GRAPHIC] [TIFF OMITTED] T6982C.086

[GRAPHIC] [TIFF OMITTED] T6982C.087

[GRAPHIC] [TIFF OMITTED] T6982C.088

[GRAPHIC] [TIFF OMITTED] T6982C.089

[GRAPHIC] [TIFF OMITTED] T6982C.090

[GRAPHIC] [TIFF OMITTED] T6982C.091

[GRAPHIC] [TIFF OMITTED] T6982C.092

[GRAPHIC] [TIFF OMITTED] T6982C.093

[GRAPHIC] [TIFF OMITTED] T6982C.094

[GRAPHIC] [TIFF OMITTED] T6982C.095

[GRAPHIC] [TIFF OMITTED] T6982C.096

[GRAPHIC] [TIFF OMITTED] T6982C.097

[GRAPHIC] [TIFF OMITTED] T6982C.098

[GRAPHIC] [TIFF OMITTED] T6982C.099

[GRAPHIC] [TIFF OMITTED] T6982C.100

[GRAPHIC] [TIFF OMITTED] T6982C.101

[GRAPHIC] [TIFF OMITTED] T6982C.102

[GRAPHIC] [TIFF OMITTED] T6982C.103

[GRAPHIC] [TIFF OMITTED] T6982C.104

[GRAPHIC] [TIFF OMITTED] T6982C.105

[GRAPHIC] [TIFF OMITTED] T6982C.106

[GRAPHIC] [TIFF OMITTED] T6982C.107

[GRAPHIC] [TIFF OMITTED] T6982C.108

[GRAPHIC] [TIFF OMITTED] T6982C.109

[GRAPHIC] [TIFF OMITTED] T6982C.110

[GRAPHIC] [TIFF OMITTED] T6982C.111

[GRAPHIC] [TIFF OMITTED] T6982C.112

[GRAPHIC] [TIFF OMITTED] T6982C.113

[GRAPHIC] [TIFF OMITTED] T6982C.114

[GRAPHIC] [TIFF OMITTED] T6982C.115

[GRAPHIC] [TIFF OMITTED] T6982C.116

[GRAPHIC] [TIFF OMITTED] T6982C.117

[GRAPHIC] [TIFF OMITTED] T6982C.118

[GRAPHIC] [TIFF OMITTED] T6982C.119

[GRAPHIC] [TIFF OMITTED] T6982C.120

[GRAPHIC] [TIFF OMITTED] T6982C.121

[GRAPHIC] [TIFF OMITTED] T6982C.122

[GRAPHIC] [TIFF OMITTED] T6982C.123

[GRAPHIC] [TIFF OMITTED] T6982C.124

[GRAPHIC] [TIFF OMITTED] T6982C.125

[GRAPHIC] [TIFF OMITTED] T6982C.126

[GRAPHIC] [TIFF OMITTED] T6982C.127

[GRAPHIC] [TIFF OMITTED] T6982C.128

[GRAPHIC] [TIFF OMITTED] T6982C.129

[GRAPHIC] [TIFF OMITTED] T6982C.130

[GRAPHIC] [TIFF OMITTED] T6982C.131

[GRAPHIC] [TIFF OMITTED] T6982C.132

[GRAPHIC] [TIFF OMITTED] T6982C.133

[GRAPHIC] [TIFF OMITTED] T6982C.134

[GRAPHIC] [TIFF OMITTED] T6982C.135

[GRAPHIC] [TIFF OMITTED] T6982C.136

[GRAPHIC] [TIFF OMITTED] T6982C.137

[GRAPHIC] [TIFF OMITTED] T6982C.138

[GRAPHIC] [TIFF OMITTED] T6982C.139

[GRAPHIC] [TIFF OMITTED] T6982C.140

[GRAPHIC] [TIFF OMITTED] T6982C.141

[GRAPHIC] [TIFF OMITTED] T6982C.142

[GRAPHIC] [TIFF OMITTED] T6982C.143

[GRAPHIC] [TIFF OMITTED] T6982C.144

[GRAPHIC] [TIFF OMITTED] T6982C.145

[GRAPHIC] [TIFF OMITTED] T6982C.146

[GRAPHIC] [TIFF OMITTED] T6982C.147

[GRAPHIC] [TIFF OMITTED] T6982C.148

[GRAPHIC] [TIFF OMITTED] T6982C.149

[GRAPHIC] [TIFF OMITTED] T6982C.150

[GRAPHIC] [TIFF OMITTED] T6982C.151

[GRAPHIC] [TIFF OMITTED] T6982C.152

[GRAPHIC] [TIFF OMITTED] T6982C.153

[GRAPHIC] [TIFF OMITTED] T6982C.154

[GRAPHIC] [TIFF OMITTED] T6982C.155

[GRAPHIC] [TIFF OMITTED] T6982C.156

[GRAPHIC] [TIFF OMITTED] T6982C.157

[GRAPHIC] [TIFF OMITTED] T6982C.158

[GRAPHIC] [TIFF OMITTED] T6982C.159

[GRAPHIC] [TIFF OMITTED] T6982C.160

[GRAPHIC] [TIFF OMITTED] T6982C.161

[GRAPHIC] [TIFF OMITTED] T6982C.162

[GRAPHIC] [TIFF OMITTED] T6982C.163

[GRAPHIC] [TIFF OMITTED] T6982C.164

[GRAPHIC] [TIFF OMITTED] T6982C.165

[GRAPHIC] [TIFF OMITTED] T6982C.166

[GRAPHIC] [TIFF OMITTED] T6982C.167

[GRAPHIC] [TIFF OMITTED] T6982C.168

[GRAPHIC] [TIFF OMITTED] T6982C.169

[GRAPHIC] [TIFF OMITTED] T6982C.170

[GRAPHIC] [TIFF OMITTED] T6982C.171

[GRAPHIC] [TIFF OMITTED] T6982C.172

[GRAPHIC] [TIFF OMITTED] T6982C.173

[GRAPHIC] [TIFF OMITTED] T6982C.174

[GRAPHIC] [TIFF OMITTED] T6982C.175

[GRAPHIC] [TIFF OMITTED] T6982C.176

[GRAPHIC] [TIFF OMITTED] T6982C.177

[GRAPHIC] [TIFF OMITTED] T6982C.178

[GRAPHIC] [TIFF OMITTED] T6982C.179

[GRAPHIC] [TIFF OMITTED] T6982C.180

[GRAPHIC] [TIFF OMITTED] T6982C.181

[GRAPHIC] [TIFF OMITTED] T6982C.182

[GRAPHIC] [TIFF OMITTED] T6982C.183

[GRAPHIC] [TIFF OMITTED] T6982C.184

[GRAPHIC] [TIFF OMITTED] T6982C.185

[GRAPHIC] [TIFF OMITTED] T6982C.186

[GRAPHIC] [TIFF OMITTED] T6982C.187

[GRAPHIC] [TIFF OMITTED] T6982C.188

[GRAPHIC] [TIFF OMITTED] T6982C.189

[GRAPHIC] [TIFF OMITTED] T6982C.190

[GRAPHIC] [TIFF OMITTED] T6982C.191

[GRAPHIC] [TIFF OMITTED] T6982C.192

[GRAPHIC] [TIFF OMITTED] T6982C.193

[GRAPHIC] [TIFF OMITTED] T6982C.194

[GRAPHIC] [TIFF OMITTED] T6982C.195

[GRAPHIC] [TIFF OMITTED] T6982C.196

[GRAPHIC] [TIFF OMITTED] T6982C.197

[GRAPHIC] [TIFF OMITTED] T6982C.198

[GRAPHIC] [TIFF OMITTED] T6982C.199

[GRAPHIC] [TIFF OMITTED] T6982C.200

[GRAPHIC] [TIFF OMITTED] T6982C.201

[GRAPHIC] [TIFF OMITTED] T6982C.202

[GRAPHIC] [TIFF OMITTED] T6982C.203

[GRAPHIC] [TIFF OMITTED] T6982C.204

[GRAPHIC] [TIFF OMITTED] T6982C.205

[GRAPHIC] [TIFF OMITTED] T6982C.206

[GRAPHIC] [TIFF OMITTED] T6982C.207

[GRAPHIC] [TIFF OMITTED] T6982C.208

[GRAPHIC] [TIFF OMITTED] T6982C.209

[GRAPHIC] [TIFF OMITTED] T6982C.210

[GRAPHIC] [TIFF OMITTED] T6982C.211

[GRAPHIC] [TIFF OMITTED] T6982C.212

[GRAPHIC] [TIFF OMITTED] T6982C.213

[GRAPHIC] [TIFF OMITTED] T6982C.214

[GRAPHIC] [TIFF OMITTED] T6982C.215

[GRAPHIC] [TIFF OMITTED] T6982C.216

[GRAPHIC] [TIFF OMITTED] T6982C.217

[GRAPHIC] [TIFF OMITTED] T6982C.218

[GRAPHIC] [TIFF OMITTED] T6982C.219

[GRAPHIC] [TIFF OMITTED] T6982C.220

[GRAPHIC] [TIFF OMITTED] T6982C.221

[GRAPHIC] [TIFF OMITTED] T6982C.222

[GRAPHIC] [TIFF OMITTED] T6982C.223

[GRAPHIC] [TIFF OMITTED] T6982C.224

[GRAPHIC] [TIFF OMITTED] T6982C.225

[GRAPHIC] [TIFF OMITTED] T6982C.226

[GRAPHIC] [TIFF OMITTED] T6982C.227

[GRAPHIC] [TIFF OMITTED] T6982C.228

[GRAPHIC] [TIFF OMITTED] T6982C.229

[GRAPHIC] [TIFF OMITTED] T6982C.230

[GRAPHIC] [TIFF OMITTED] T6982C.231

[GRAPHIC] [TIFF OMITTED] T6982C.232

[GRAPHIC] [TIFF OMITTED] T6982C.233

[GRAPHIC] [TIFF OMITTED] T6982C.234

[GRAPHIC] [TIFF OMITTED] T6982C.235

[GRAPHIC] [TIFF OMITTED] T6982C.236

[GRAPHIC] [TIFF OMITTED] T6982C.237

[GRAPHIC] [TIFF OMITTED] T6982C.238

[GRAPHIC] [TIFF OMITTED] T6982C.239

[GRAPHIC] [TIFF OMITTED] T6982C.240

[GRAPHIC] [TIFF OMITTED] T6982C.241

[GRAPHIC] [TIFF OMITTED] T6982C.242

[GRAPHIC] [TIFF OMITTED] T6982C.243

[GRAPHIC] [TIFF OMITTED] T6982C.244

[GRAPHIC] [TIFF OMITTED] T6982C.245

[GRAPHIC] [TIFF OMITTED] T6982C.246

[GRAPHIC] [TIFF OMITTED] T6982C.247

[GRAPHIC] [TIFF OMITTED] T6982C.248

[GRAPHIC] [TIFF OMITTED] T6982C.249

[GRAPHIC] [TIFF OMITTED] T6982C.250

[GRAPHIC] [TIFF OMITTED] T6982C.251

[GRAPHIC] [TIFF OMITTED] T6982C.252

[GRAPHIC] [TIFF OMITTED] T6982C.253

[GRAPHIC] [TIFF OMITTED] T6982C.254

[GRAPHIC] [TIFF OMITTED] T6982C.255

[GRAPHIC] [TIFF OMITTED] T6982C.256

[GRAPHIC] [TIFF OMITTED] T6982C.257

[GRAPHIC] [TIFF OMITTED] T6982C.258

[GRAPHIC] [TIFF OMITTED] T6982C.259

[GRAPHIC] [TIFF OMITTED] T6982C.260

[GRAPHIC] [TIFF OMITTED] T6982C.261

[GRAPHIC] [TIFF OMITTED] T6982C.262

[GRAPHIC] [TIFF OMITTED] T6982C.263

[GRAPHIC] [TIFF OMITTED] T6982C.264

[GRAPHIC] [TIFF OMITTED] T6982C.265

[GRAPHIC] [TIFF OMITTED] T6982C.266

[GRAPHIC] [TIFF OMITTED] T6982C.267

[GRAPHIC] [TIFF OMITTED] T6982C.268

[GRAPHIC] [TIFF OMITTED] T6982C.269

[GRAPHIC] [TIFF OMITTED] T6982C.270

[GRAPHIC] [TIFF OMITTED] T6982C.271

[GRAPHIC] [TIFF OMITTED] T6982C.272

[GRAPHIC] [TIFF OMITTED] T6982C.273

[GRAPHIC] [TIFF OMITTED] T6982C.274

[GRAPHIC] [TIFF OMITTED] T6982C.275

[GRAPHIC] [TIFF OMITTED] T6982C.276

[GRAPHIC] [TIFF OMITTED] T6982C.277

[GRAPHIC] [TIFF OMITTED] T6982C.278

[GRAPHIC] [TIFF OMITTED] T6982C.279

[GRAPHIC] [TIFF OMITTED] T6982C.280

[GRAPHIC] [TIFF OMITTED] T6982C.281

[GRAPHIC] [TIFF OMITTED] T6982C.282

[GRAPHIC] [TIFF OMITTED] T6982C.283

[GRAPHIC] [TIFF OMITTED] T6982C.284

[GRAPHIC] [TIFF OMITTED] T6982C.285

[GRAPHIC] [TIFF OMITTED] T6982C.286

[GRAPHIC] [TIFF OMITTED] T6982C.287

[GRAPHIC] [TIFF OMITTED] T6982C.288

[GRAPHIC] [TIFF OMITTED] T6982C.289

[GRAPHIC] [TIFF OMITTED] T6982C.290

[GRAPHIC] [TIFF OMITTED] T6982C.291

[GRAPHIC] [TIFF OMITTED] T6982C.292

[GRAPHIC] [TIFF OMITTED] T6982C.293

[GRAPHIC] [TIFF OMITTED] T6982C.294

[GRAPHIC] [TIFF OMITTED] T6982C.295

[GRAPHIC] [TIFF OMITTED] T6982C.296

[GRAPHIC] [TIFF OMITTED] T6982C.297

[GRAPHIC] [TIFF OMITTED] T6982C.298

[GRAPHIC] [TIFF OMITTED] T6982C.299

[GRAPHIC] [TIFF OMITTED] T6982C.300

[GRAPHIC] [TIFF OMITTED] T6982C.301

[GRAPHIC] [TIFF OMITTED] T6982C.302

[GRAPHIC] [TIFF OMITTED] T6982C.303

[GRAPHIC] [TIFF OMITTED] T6982C.304

[GRAPHIC] [TIFF OMITTED] T6982C.305

[GRAPHIC] [TIFF OMITTED] T6982C.306

[GRAPHIC] [TIFF OMITTED] T6982C.307

[GRAPHIC] [TIFF OMITTED] T6982C.308

[GRAPHIC] [TIFF OMITTED] T6982C.309

[GRAPHIC] [TIFF OMITTED] T6982C.310

[GRAPHIC] [TIFF OMITTED] T6982C.311

[GRAPHIC] [TIFF OMITTED] T6982C.312

[GRAPHIC] [TIFF OMITTED] T6982C.313

[GRAPHIC] [TIFF OMITTED] T6982C.314

[GRAPHIC] [TIFF OMITTED] T6982C.315

[GRAPHIC] [TIFF OMITTED] T6982C.316

[GRAPHIC] [TIFF OMITTED] T6982C.317

[GRAPHIC] [TIFF OMITTED] T6982C.318

[GRAPHIC] [TIFF OMITTED] T6982C.319

[GRAPHIC] [TIFF OMITTED] T6982C.320

[GRAPHIC] [TIFF OMITTED] T6982C.321

[GRAPHIC] [TIFF OMITTED] T6982C.322

[GRAPHIC] [TIFF OMITTED] T6982C.323

[GRAPHIC] [TIFF OMITTED] T6982C.324

[GRAPHIC] [TIFF OMITTED] T6982C.325

[GRAPHIC] [TIFF OMITTED] T6982C.326

[GRAPHIC] [TIFF OMITTED] T6982C.327

[GRAPHIC] [TIFF OMITTED] T6982C.328

[GRAPHIC] [TIFF OMITTED] T6982C.329

[GRAPHIC] [TIFF OMITTED] T6982C.330

[GRAPHIC] [TIFF OMITTED] T6982C.331

[GRAPHIC] [TIFF OMITTED] T6982C.332

[GRAPHIC] [TIFF OMITTED] T6982C.333

[GRAPHIC] [TIFF OMITTED] T6982C.334

[GRAPHIC] [TIFF OMITTED] T6982C.335

[GRAPHIC] [TIFF OMITTED] T6982C.336

[GRAPHIC] [TIFF OMITTED] T6982C.337

[GRAPHIC] [TIFF OMITTED] T6982C.338

[GRAPHIC] [TIFF OMITTED] T6982C.339

[GRAPHIC] [TIFF OMITTED] T6982C.340

[GRAPHIC] [TIFF OMITTED] T6982C.341

[GRAPHIC] [TIFF OMITTED] T6982C.342

[GRAPHIC] [TIFF OMITTED] T6982C.343

[GRAPHIC] [TIFF OMITTED] T6982C.344

[GRAPHIC] [TIFF OMITTED] T6982C.345

[GRAPHIC] [TIFF OMITTED] T6982C.346

[GRAPHIC] [TIFF OMITTED] T6982C.347

[GRAPHIC] [TIFF OMITTED] T6982C.348

[GRAPHIC] [TIFF OMITTED] T6982C.349

[GRAPHIC] [TIFF OMITTED] T6982C.350

[GRAPHIC] [TIFF OMITTED] T6982C.351

[GRAPHIC] [TIFF OMITTED] T6982C.352

[GRAPHIC] [TIFF OMITTED] T6982C.353

[GRAPHIC] [TIFF OMITTED] T6982C.354

[GRAPHIC] [TIFF OMITTED] T6982C.355

[GRAPHIC] [TIFF OMITTED] T6982C.356

[GRAPHIC] [TIFF OMITTED] T6982C.357

[GRAPHIC] [TIFF OMITTED] T6982C.358

[GRAPHIC] [TIFF OMITTED] T6982C.359

[GRAPHIC] [TIFF OMITTED] T6982C.360

[GRAPHIC] [TIFF OMITTED] T6982C.361

[GRAPHIC] [TIFF OMITTED] T6982C.362

[GRAPHIC] [TIFF OMITTED] T6982C.363

[GRAPHIC] [TIFF OMITTED] T6982C.364

[GRAPHIC] [TIFF OMITTED] T6982C.365

[GRAPHIC] [TIFF OMITTED] T6982C.366

[GRAPHIC] [TIFF OMITTED] T6982C.367

[GRAPHIC] [TIFF OMITTED] T6982C.368

[GRAPHIC] [TIFF OMITTED] T6982C.369

[GRAPHIC] [TIFF OMITTED] T6982C.370

[GRAPHIC] [TIFF OMITTED] T6982C.371

[GRAPHIC] [TIFF OMITTED] T6982C.372

[GRAPHIC] [TIFF OMITTED] T6982C.373

[GRAPHIC] [TIFF OMITTED] T6982C.374

[GRAPHIC] [TIFF OMITTED] T6982C.375

[GRAPHIC] [TIFF OMITTED] T6982C.376

[GRAPHIC] [TIFF OMITTED] T6982C.377

[GRAPHIC] [TIFF OMITTED] T6982C.378

[GRAPHIC] [TIFF OMITTED] T6982C.379

[GRAPHIC] [TIFF OMITTED] T6982C.380

[GRAPHIC] [TIFF OMITTED] T6982C.381

[GRAPHIC] [TIFF OMITTED] T6982C.382

[GRAPHIC] [TIFF OMITTED] T6982C.383

[GRAPHIC] [TIFF OMITTED] T6982C.384

[GRAPHIC] [TIFF OMITTED] T6982C.385

[GRAPHIC] [TIFF OMITTED] T6982C.386

[GRAPHIC] [TIFF OMITTED] T6982C.387

[GRAPHIC] [TIFF OMITTED] T6982C.388

[GRAPHIC] [TIFF OMITTED] T6982C.389

[GRAPHIC] [TIFF OMITTED] T6982C.390

[GRAPHIC] [TIFF OMITTED] T6982C.391

[GRAPHIC] [TIFF OMITTED] T6982C.392

[GRAPHIC] [TIFF OMITTED] T6982C.393

[GRAPHIC] [TIFF OMITTED] T6982C.394

[GRAPHIC] [TIFF OMITTED] T6982C.395

[GRAPHIC] [TIFF OMITTED] T6982C.396

[GRAPHIC] [TIFF OMITTED] T6982C.397

[GRAPHIC] [TIFF OMITTED] T6982C.398

[GRAPHIC] [TIFF OMITTED] T6982C.399

[GRAPHIC] [TIFF OMITTED] T6982C.400

[GRAPHIC] [TIFF OMITTED] T6982C.401

[GRAPHIC] [TIFF OMITTED] T6982C.402

[GRAPHIC] [TIFF OMITTED] T6982C.403

[GRAPHIC] [TIFF OMITTED] T6982C.404

[GRAPHIC] [TIFF OMITTED] T6982C.405

[GRAPHIC] [TIFF OMITTED] T6982C.406

[GRAPHIC] [TIFF OMITTED] T6982C.407

[GRAPHIC] [TIFF OMITTED] T6982C.408

[GRAPHIC] [TIFF OMITTED] T6982C.409

[GRAPHIC] [TIFF OMITTED] T6982C.410

[GRAPHIC] [TIFF OMITTED] T6982C.411

[GRAPHIC] [TIFF OMITTED] T6982C.412

[GRAPHIC] [TIFF OMITTED] T6982C.413

[GRAPHIC] [TIFF OMITTED] T6982C.414

[GRAPHIC] [TIFF OMITTED] T6982C.415

[GRAPHIC] [TIFF OMITTED] T6982C.416

[GRAPHIC] [TIFF OMITTED] T6982C.417

[GRAPHIC] [TIFF OMITTED] T6982C.418

[GRAPHIC] [TIFF OMITTED] T6982C.419

[GRAPHIC] [TIFF OMITTED] T6982C.420

[GRAPHIC] [TIFF OMITTED] T6982C.421

[GRAPHIC] [TIFF OMITTED] T6982C.422

[GRAPHIC] [TIFF OMITTED] T6982C.423

[GRAPHIC] [TIFF OMITTED] T6982C.424

[GRAPHIC] [TIFF OMITTED] T6982C.425

[GRAPHIC] [TIFF OMITTED] T6982C.426

[GRAPHIC] [TIFF OMITTED] T6982C.427

[GRAPHIC] [TIFF OMITTED] T6982C.428

[GRAPHIC] [TIFF OMITTED] T6982C.429

[GRAPHIC] [TIFF OMITTED] T6982C.430

[GRAPHIC] [TIFF OMITTED] T6982C.431

[GRAPHIC] [TIFF OMITTED] T6982C.432

[GRAPHIC] [TIFF OMITTED] T6982C.433

[GRAPHIC] [TIFF OMITTED] T6982C.434

[GRAPHIC] [TIFF OMITTED] T6982C.435

[GRAPHIC] [TIFF OMITTED] T6982C.436

[GRAPHIC] [TIFF OMITTED] T6982C.437

[GRAPHIC] [TIFF OMITTED] T6982C.438

[GRAPHIC] [TIFF OMITTED] T6982C.439

[GRAPHIC] [TIFF OMITTED] T6982C.440

[GRAPHIC] [TIFF OMITTED] T6982C.441

[GRAPHIC] [TIFF OMITTED] T6982C.442

[GRAPHIC] [TIFF OMITTED] T6982C.443

[GRAPHIC] [TIFF OMITTED] T6982C.444

[GRAPHIC] [TIFF OMITTED] T6982C.445

[GRAPHIC] [TIFF OMITTED] T6982C.446

[GRAPHIC] [TIFF OMITTED] T6982C.447

[GRAPHIC] [TIFF OMITTED] T6982C.448

[GRAPHIC] [TIFF OMITTED] T6982C.449

[GRAPHIC] [TIFF OMITTED] T6982C.450

[GRAPHIC] [TIFF OMITTED] T6982C.451

[GRAPHIC] [TIFF OMITTED] T6982C.452

[GRAPHIC] [TIFF OMITTED] T6982C.453

[GRAPHIC] [TIFF OMITTED] T6982C.454

[GRAPHIC] [TIFF OMITTED] T6982C.455

[GRAPHIC] [TIFF OMITTED] T6982C.456

[GRAPHIC] [TIFF OMITTED] T6982C.457

[GRAPHIC] [TIFF OMITTED] T6982C.458

[GRAPHIC] [TIFF OMITTED] T6982C.459

[GRAPHIC] [TIFF OMITTED] T6982C.460

[GRAPHIC] [TIFF OMITTED] T6982C.461

[GRAPHIC] [TIFF OMITTED] T6982C.462

[GRAPHIC] [TIFF OMITTED] T6982C.463

[GRAPHIC] [TIFF OMITTED] T6982C.464

[GRAPHIC] [TIFF OMITTED] T6982C.465

[GRAPHIC] [TIFF OMITTED] T6982C.466

[GRAPHIC] [TIFF OMITTED] T6982C.467

[GRAPHIC] [TIFF OMITTED] T6982C.468

[GRAPHIC] [TIFF OMITTED] T6982C.469

[GRAPHIC] [TIFF OMITTED] T6982C.470

[GRAPHIC] [TIFF OMITTED] T6982C.471

[GRAPHIC] [TIFF OMITTED] T6982C.472

[GRAPHIC] [TIFF OMITTED] T6982C.473

[GRAPHIC] [TIFF OMITTED] T6982C.474

[GRAPHIC] [TIFF OMITTED] T6982C.475

[GRAPHIC] [TIFF OMITTED] T6982C.476

[GRAPHIC] [TIFF OMITTED] T6982C.477

[GRAPHIC] [TIFF OMITTED] T6982C.478

[GRAPHIC] [TIFF OMITTED] T6982C.479

[GRAPHIC] [TIFF OMITTED] T6982C.480

[GRAPHIC] [TIFF OMITTED] T6982C.481

[GRAPHIC] [TIFF OMITTED] T6982C.482

[GRAPHIC] [TIFF OMITTED] T6982C.483

[GRAPHIC] [TIFF OMITTED] T6982C.484

[GRAPHIC] [TIFF OMITTED] T6982C.485

[GRAPHIC] [TIFF OMITTED] T6982C.486

[GRAPHIC] [TIFF OMITTED] T6982C.487

[GRAPHIC] [TIFF OMITTED] T6982C.488

[GRAPHIC] [TIFF OMITTED] T6982C.489

[GRAPHIC] [TIFF OMITTED] T6982C.490

[GRAPHIC] [TIFF OMITTED] T6982C.491

[GRAPHIC] [TIFF OMITTED] T6982C.492

[GRAPHIC] [TIFF OMITTED] T6982C.493

[GRAPHIC] [TIFF OMITTED] T6982C.494

[GRAPHIC] [TIFF OMITTED] T6982C.495

[GRAPHIC] [TIFF OMITTED] T6982C.496

[GRAPHIC] [TIFF OMITTED] T6982C.497

[GRAPHIC] [TIFF OMITTED] T6982C.498

[GRAPHIC] [TIFF OMITTED] T6982C.499

[GRAPHIC] [TIFF OMITTED] T6982C.500

[GRAPHIC] [TIFF OMITTED] T6982C.501

[GRAPHIC] [TIFF OMITTED] T6982C.502

[GRAPHIC] [TIFF OMITTED] T6982C.503

[GRAPHIC] [TIFF OMITTED] T6982C.504

[GRAPHIC] [TIFF OMITTED] T6982C.505

[GRAPHIC] [TIFF OMITTED] T6982C.506

[GRAPHIC] [TIFF OMITTED] T6982C.507

[GRAPHIC] [TIFF OMITTED] T6982C.508

[GRAPHIC] [TIFF OMITTED] T6982C.509

[GRAPHIC] [TIFF OMITTED] T6982C.510

[GRAPHIC] [TIFF OMITTED] T6982C.511

[GRAPHIC] [TIFF OMITTED] T6982C.512

[GRAPHIC] [TIFF OMITTED] T6982C.513

[GRAPHIC] [TIFF OMITTED] T6982C.514

[GRAPHIC] [TIFF OMITTED] T6982C.515

[GRAPHIC] [TIFF OMITTED] T6982C.516

[GRAPHIC] [TIFF OMITTED] T6982C.517

[GRAPHIC] [TIFF OMITTED] T6982C.518

[GRAPHIC] [TIFF OMITTED] T6982C.519

[GRAPHIC] [TIFF OMITTED] T6982C.520

[GRAPHIC] [TIFF OMITTED] T6982C.521

[GRAPHIC] [TIFF OMITTED] T6982C.522

[GRAPHIC] [TIFF OMITTED] T6982C.523

[GRAPHIC] [TIFF OMITTED] T6982C.524

[GRAPHIC] [TIFF OMITTED] T6982C.525

[GRAPHIC] [TIFF OMITTED] T6982C.526

[GRAPHIC] [TIFF OMITTED] T6982C.527

[GRAPHIC] [TIFF OMITTED] T6982C.528

[GRAPHIC] [TIFF OMITTED] T6982C.529

[GRAPHIC] [TIFF OMITTED] T6982C.530

[GRAPHIC] [TIFF OMITTED] T6982C.531

[GRAPHIC] [TIFF OMITTED] T6982C.532

[GRAPHIC] [TIFF OMITTED] T6982C.533

[GRAPHIC] [TIFF OMITTED] T6982C.534

[GRAPHIC] [TIFF OMITTED] T6982C.535

[GRAPHIC] [TIFF OMITTED] T6982C.536

[GRAPHIC] [TIFF OMITTED] T6982C.537

[GRAPHIC] [TIFF OMITTED] T6982C.538

[GRAPHIC] [TIFF OMITTED] T6982C.539

[GRAPHIC] [TIFF OMITTED] T6982C.540

[GRAPHIC] [TIFF OMITTED] T6982C.541

[GRAPHIC] [TIFF OMITTED] T6982C.542

[GRAPHIC] [TIFF OMITTED] T6982C.543

[GRAPHIC] [TIFF OMITTED] T6982C.544

[GRAPHIC] [TIFF OMITTED] T6982C.545

[GRAPHIC] [TIFF OMITTED] T6982C.546

[GRAPHIC] [TIFF OMITTED] T6982C.547

[GRAPHIC] [TIFF OMITTED] T6982C.548

[GRAPHIC] [TIFF OMITTED] T6982C.549

[GRAPHIC] [TIFF OMITTED] T6982C.550

[GRAPHIC] [TIFF OMITTED] T6982C.551

[GRAPHIC] [TIFF OMITTED] T6982C.552

[GRAPHIC] [TIFF OMITTED] T6982C.553

[GRAPHIC] [TIFF OMITTED] T6982C.554

[GRAPHIC] [TIFF OMITTED] T6982C.555

[GRAPHIC] [TIFF OMITTED] T6982C.556

[GRAPHIC] [TIFF OMITTED] T6982C.557

[GRAPHIC] [TIFF OMITTED] T6982C.558

[GRAPHIC] [TIFF OMITTED] T6982C.559

[GRAPHIC] [TIFF OMITTED] T6982C.560

[GRAPHIC] [TIFF OMITTED] T6982C.561

[GRAPHIC] [TIFF OMITTED] T6982C.562



                               I N D E X

                              ----------                              

                            Public Witnesses
                        Day One--April 14, 2011
                          INDEX--ORGANIZATIONS

                                                                   Page
Civil War Trust..................................................    34
Federal Forest Resource Coalition................................    15
Federation of State Humanities Councils..........................    52
Idaho Shakespeare Festival.......................................    86
Interstate Mining Compact Commission.............................     8
Marine Conservation Biology Institute............................   106
National Association of Forest Service Retirees (NAFSR)..........    28
National Association of State Foresters..........................    22
National Humanities Alliance.....................................    59
Outdoor Alliance.................................................    99
Partners in Preservation.........................................    45
Public Lands Foundation..........................................    93
Saving America's Mustangs........................................   117
Seminole Nation, Oklahoma........................................   125

                       INDEX--MEMBERS OF CONGRESS

Burton, Representative Dan.......................................   125
Thompson, Representative Glenn...................................     2

                            INDEX--WITNESSES

Adkins, Trace....................................................    39
Ayers, Ed........................................................    74
Brintall, Dr. Michael............................................    59
Burns, Ken.......................................................    66
Chandler, Bill...................................................   106
Clark, Trent.....................................................    52
Conrad, Gregory..................................................     8
Daly, Elena......................................................    93
Graves, Margaret.................................................    45
Hofflund, Mark...................................................    86
Jackson, Travis..................................................   123
Kashdan, Hank....................................................    28
King, Barbara....................................................   113
Lighthizer, Jim..................................................    34
Looking Horse, Chief Avrol.......................................   125
Nafisi, Azar.....................................................    79
Pickens, Madeleine...............................................   117
Robinson, Brady..................................................    99
Shannon, John....................................................    22
Troxel, Tom......................................................    15
                               __________

                            Public Witnesses
                        Day Two--April 15, 2011
                          INDEX--ORGANIZATIONS

American Society of Civil Engineers..............................   166
American Thoracic Society........................................   136
Bat Conservation International...................................   252
Defenders of Wildlife............................................   246
Environmental Council of the States/MT Dept. of Environmental 
  Quality........................................................   153
Geological Society of America (GSA)..............................   159
Idaho Rural Water Association....................................   131
LWCF Coalition...................................................   173
Multinational Species Coalition..................................   265
National Fish and Wildlife Foundation............................   212
National Parks Conservation Association..........................   193
National Utility Contractors Association (NUCA)..................   143
National Wildlife Refuge Association.............................   231
Partnership for the National Trails System.......................   217
San Bernardino Valley Municipal Water District/Santa Ana Sucker 
  Task Force.....................................................   258
The Conservation Fund, FWS.......................................   206
The Nature Conservancy...........................................   200
The Wilderness Society...........................................   186
.................................................................
The Wildlife Society.............................................   239
Wilderness Land Trust............................................   180
Wildlife Conservation Society....................................   224

                            INDEX--WITNESSES

Anker, Conrad....................................................   173
Beetham, Mary Beth...............................................   246
Bies, Laura......................................................   239
Blomquist, Jim...................................................   180
Calvelli, John...................................................   224
Cassidy, Tom.....................................................   200
Fascione, Nina...................................................   252
Headrick, Doug...................................................   258
Kiernan, Tom.....................................................   193
Natale, Patrick..................................................   166
Oliver, Andy.....................................................   265
Opper, Richard...................................................   153
Roberts, Shelley.................................................   131
Rowsome, Alan....................................................   186
Schiffries, Dr. Craig............................................   159
Schmitt, Ryan....................................................   143
Sorenson-Groves, Desiree.........................................   231
Szema, Dr. Anthony...............................................   136
Trandahl, Jeff...................................................   212
Turner, John.....................................................   206
Werner, Gary.....................................................   217
                               __________

      Public Witnesses--Tribes and American Indian Advocacy Groups
                          Day One--May 3, 2011
                          INDEX--ORGANIZATIONS

Alaska Native Tribal Health Consortium (ANTHC)...................   497
American Dental Association......................................   446
Assiniboine and Sioux Tribes of the Fort Peck Reservation........   396
Catawba Indian Nation............................................   429
Cherokee Nation..................................................   330
Choctaw Nation of Oklahoma.......................................   337
Dzilth-Na-O-Dith-Hle Community School............................   287
Fort Belknap Indian Community....................................   402
Friends of Indian Health.........................................   465
Great Lakes Indian Fish and Wildlife Commission..................   435
Independent Review Team on Tribal Courts.........................   350
Inter-Tribal Bison Cooperative...................................   358
Lac du Flambeau Band of Lake Superior Chippewa...................   417
Leech Lake Band of Ojibwe........................................   411
Miccosukee Tribe of Indians of Florida...........................   422
National Congress of American Indians............................   459
National Council of Urban Indian Health..........................   477
National Indian Health Board (NIHB)..............................   453
National Johnson-O'Malley Association............................   342
National Tribal Contract Support Cost Coalition..................   471
Native American Grant School Association (NAGSA).................   321
Navajo Hopi Land Commission Office of the Navajo Nation..........   300
Navajo Nation....................................................   293
Nez Perce Tribal Executive Committee.............................   389
Oglala Sioux Tribe...............................................   366
Pueblo of Acoma..................................................   273
Ramah Band of Navajo/Ramah Navajo Chapter........................   307
Ramah Navajo School Board........................................   313
Santa Clara Pueblo...............................................   280
Southcentral Foundation..........................................   491
Standing Rock Sioux Tribe........................................   373
Tanana Chiefs Conference.........................................   486
United Tribes Technical College..................................   379

                       INDEX--MEMBERS OF CONGRESS

Berg, Representative Rick........................................   358
Young, Representative Don........................................   485

                            INDEX--WITNESSES

Archambault II, Dave.............................................   373
Barnett, D'Shane.................................................   477
Billie, Colley...................................................   422
BlueEyes, Faye...................................................   287
Carlson, Ervin...................................................   358
Coochise, Elbridge...............................................   350
Culbreath, Joy...................................................   337
Dasheno, Walter..................................................   280
Deters, Dr. Pamela...............................................   465
Dusty Bull, Harold...............................................   342
Garcia, Martha...................................................   307
Gipp, Dr. David M................................................   379
Honyaoma, Todd...................................................   321
Isaac, Jerry.....................................................   486
Johnson Pata, Jacqueline.........................................   459
King, Tracy ``Ching''............................................   402
Knight, Melanie..................................................   330
Mala, Ted........................................................   491
Martine-Alonzo, Nancy............................................   313
Maulson, Tom.....................................................   417
Maxx, Raymond....................................................   300
Mike, Jeff.......................................................   321
Miller, Lloyd....................................................   471
Neary, Dr. Matt..................................................   446
Oatman, McCoy....................................................   389
Rodgers, Donald..................................................   429
Russell, Majel...................................................   358
Secatero, Lester.................................................   453
Shelly, Ben......................................................   293
Smith, Roxann....................................................   396
Steele, John Yellow Bird.........................................   366
Swagger, Dr. Russell M...........................................   379
Teuber, Andy.....................................................   497
Tortalita, Lloyd.................................................   273
Wawronowicz, Larry...............................................   417
Whitebird, Eugene ``Ribs''.......................................   411
Zorn, Jim........................................................   435
                               __________

      Public Witnesses--Tribes and American Indian Advocacy Groups
                          Day Two--May 4, 2011
                          INDEX--ORGANIZATIONS

Columbia River Inter-Tribal Fish Commission......................   554
Confederated Tribes of Grand Ronde...............................   572
Confederated Tribes of the Umatilla Indian Reservation...........   548
Confederated Tribes of the Warm Springs Reservation of Oregon....   541
Ft. Hall Business Council, Shoshone-Bannock Tribes...............   511
Intertribal Timber Council.......................................   560
Lummi Indian Business Council....................................   616
Makah Tribal Council.............................................   622
Northwest Indian Fisheries Commission............................   590
Northwest Portland Area Indian Health Board......................   531
Puyallup Tribe...................................................   597
Quinault Indian Nation...........................................   610
Reno-Sparks Indian Colony Tribal Council.........................   524
Shoshone-Paiute Tribes of the Duck Valley Indian Reservation.....   505
Siletz Tribe.....................................................   566
Skokomish Tribal Nation..........................................   583
Squaxin Island Tribe.............................................   603
United South and Eastern Tribes, Inc.............................   628

                       INDEX--MEMBERS OF CONGRESS

Richardson, Representative Laura.................................   517

                            INDEX--WITNESSES

Bear, Robert.....................................................   505
Blythe, C. Larry.................................................   560
Bowechop, Ryland.................................................   622
Brigham, N. Kathryn..............................................   548
Frank, Jr., Billy................................................   590
Grayem, Mike.....................................................   590
Johnstone, Ed....................................................   590
Joseph, Andrew...................................................   531
Kennedy, Cheryle A...............................................   572
Melendez, Arlan..................................................   524
Patterson, Brian.................................................   628
Pavel, Joseph....................................................   583
Peters, Ray......................................................   603
Pigsley, Delores.................................................   566
Sharp, Fawn......................................................   610
Small, Nathan....................................................   511
Suppah, Ron......................................................   541
LaPointe, Lawrence W.............................................   597
Williams, Sheri Lee..............................................   616
                               __________

               Written Testimony from Members of Congress
                                 INDEX

Representative David Price, U.S. Congress, NC-04.................   638
Representative Pedro Pierluisi, Resident Commissioner, Puerto 
  Rico...........................................................   641
                               __________

          Written Testimony from Individuals and Organizations
                                 INDEX

11 organizations in the fields of conservation, forestry, and 
  horticulture...................................................   644
1854 Treaty Authority............................................   647
Alaska Federation of Natives.....................................   649
Alliance to Save Energy..........................................   652
American Association of Petroleum Geologists.....................   654
American Bird Conservancy........................................   657
American Forest & Paper Association..............................   661
American Forest Foundation.......................................   665
American Forests.................................................   668
American Foundation for Suicide Prevention.......................   672
American Geological Institute....................................   674
American Geophysical Union.......................................   678
American Herds...................................................   682
American Indian Higher Education Consortium (AIHEC)..............   686
American Institute of Biological Sciences........................   690
American Lung Association........................................   694
American Public Power Association................................   697
American Society for Microbiology................................   699
American Society of Agronomy.....................................   703
Animal Welfare Institute.........................................   706
Appalachian Trail Conservancy....................................   710
APS Four Corners Power Plant.....................................   714
Arctic Slope Native Association..................................   716
Association of American Universities.............................   718
Association of Community Tribal Schools Inc......................   722
Association of Fish and Wildlife Agencies........................   727
Association of Public and Land-grant Universities................   728
Association of State Drinking Water Administrators...............   732
Aurora Water.....................................................   736
BHP Navajo Coal Company..........................................   737
Bird Conservation Funding Coalition..............................   739
Center for Plant Conservation....................................   742
Central Council of the Tlingit and Haida Indian Tribes of Alaska.   746
Central Utah Water Conservancy District..........................   750
Cherokee Nation..................................................   752
Cheyenne River Sioux Tribal Council..............................   753
Chippewa Cree Tribe of the Rocky Boy's Association...............   757
Chippewa Ottawa Resource Authority...............................   761
Chugach Regional Resources Commission............................   767
Colorado River Basin Salinity Control Forum......................   770
Colorado River District..........................................   774
Colorado Water Congress..........................................   776
Columbus Metro Park..............................................   778
Confederated Salish and Kootenai Tribes..........................   779
Cook Inlet Tribal Council........................................   783
Cooperative Alliance for Refuge Enhancement......................   787
Copper River Native Association..................................   790
Council of Western State Foresters...............................   793
D.J. Schubert, Wildlife Biologist, Private Citizen...............   795
Denver Water.....................................................   799
Ding Darling Wildlife Society--Friends of the Refuge, Sanibel....   801
Dolores Water Conservancy District...............................   803
Ducks Unlimited, Inc.............................................   805
Emission Control Technology Association..........................   809
Fond du Lac Band of Lake Superior Chippewa.......................   813
Forest County Potawatomi Community...............................   817
Friends of Alaska National Wildlife Refuges......................   821
Friends of Back Bay..............................................   822
Friends of Balcones Canyonlands National Wildlife Refuge.........   825
Friends of Camas National Wildlife Refuge........................   828
Friends of Cape May National Wildlife Refuge.....................   829
Friends of Laguna Atascosa NWR...................................   832
Friends of Rachel Carson NWR.....................................   833
Friends of the Bosque del Apache National Wildlife Refuge........   835
Friends of the Chassahowitzka National Wildlife Refuge Complex, 
  Inc............................................................   838
Friends of the Desert Mountains..................................   841
Friends of the Desert National Wildlife Refuge Complex...........   844
Friends of the Potomac River Refuges.............................   845
Friends of the Red River National Wildlife Refuge, Inc...........   848
Friends of the Savannah Coastal Wildlife Refuges, Inc............   852
Friends of the Tampa Bay National Wildlife Refuges, Inc..........   854
Friends of Turnbull National Wildlife Refuge.....................   857
Friends of Virgin Islands National Park..........................   859
Friends of Wallkill River National Wildlife Refuges..............   862
Gathering Waters Conservancy.....................................   865
Governor of Wyoming..............................................   868
Grand Valley Water Users' Association............................   870
Green Mountain Club..............................................   871
Green Ravens of Rio Grande High School...........................   875
Humane Society Legislative Fund & Doris Day Animal League........   877
Industrial Minerals Association..................................   881
Interstate Council on Water Policy...............................   883
Izaak Walton League of America...................................   886
Jamestown S'Klallam Tribe........................................   890
Jicarilla Apache Nation..........................................   894
Keep Valley Forge Safe...........................................   896
Kevin Vertesch, Private Citizen, Sanibel, FL.....................   898
League of American Orchestras....................................   900
Little River Band of Ottawa Indians..............................   904
Maine Appalachian Trail Land Trust...............................   907
Mandan, Hidatsa & Arikara Nation.................................   911
Mike Dobesh, Private Citizen.....................................   914
Montana Wildlife Federation......................................   918
National Assembly of State Arts Agencies.........................   921
National Association of Abandoned Mine Land Programs (NAAMLP)....   925
National Association of Clean Air Agencies (NACAA)...............   929
National Association of State Energy Officials (NASEO)...........   933
National Conference of State Historic Preservation Officers......   935
National Cooperators' Coalition..................................   939
National Federation of Federal Employees (NFFE) Local 1957.......   941
National Ground Water Association................................   945
National Indian Education Association............................   948
National Institutes of Water Resources...........................   952
National Mining Association......................................   956
National Recreation and Park Association.........................   958
National Tribal Environmental Council............................   962
National WH&B Advocate Team......................................   966
National Wild Horse and Burro Political Action Committee.........   970
National Wildlife Federation.....................................   972
Naturalstep Horse Training.......................................   976
New Hampshire Fish and Game Department...........................   980
New Mexico Interstate Stream Commission..........................   984
Northern Colorado Water Conservancy District.....................   987
Northern Forest Center...........................................   989
Northern Sierra Partnership......................................   992
Northern Virginia Regional Park Authority........................   995
Orchard Mesa Irrigation District.................................   996
Oregon Water Resources Congress..................................   998
Oregon Water Resources Congress 2 of 2...........................  1000
Pacific Salmon Commission........................................  1004
Pennsylvania Fish & Boat Commission..............................  1008
Performing Arts Alliance.........................................  1009
Peter Maier, PhD, PE.............................................  1013
PNC, Inc.........................................................  1016
PNM Resources....................................................  1020
Preservation Action..............................................  1022
Pueblo of Zuni...................................................  1026
Red Lake Band of Chippewa Indians................................  1030
Riverside-San Bernardino County Indian Health, Inc...............  1034
Sac and Fox Nation of Oklahoma...................................  1036
San Juan Water Commission........................................  1040
Sawtooth Society.................................................  1042
SouthEast Alaska Regional Health Consortium......................  1045
Southern Appalachian Highlands Conservancy.......................  1047
Southern Ute Indian Tribe........................................  1049
Southwestern Water Conservation District.........................  1051
St. Marks Refuge Association.....................................  1053
State and Tribal Wildlife Grants program.........................  1055
Steer Clear of Wildlife..........................................  1058
Supporters of St. Vincent NWR....................................  1059
Sustainable Urban Forests Coalition..............................  1062
Taos County Board of Commissioners...............................  1064
The Glacier National Park Fund...................................  1067
The National Association of Abandoned Mine Land Programs.........  1070
The Trust for Public Land........................................  1074
Theatre Communications Group.....................................  1078
Three Rivers Park District.......................................  1081
Timucuan Trail Parks Foundation..................................  1082
Town of Ophir....................................................  1086
Tri-County Water Conservancy District............................  1089
United Sioux Tribes of South Dakota Development Corporation......  1091
University Consortium for Geographic Information Science.........  1095
University Corporation for Atmospheric Research (UCAR)...........  1097
Upper Colorado River Commissioner for New Mexico.................  1099
Upper Gunnison River Water Conservancy District..................  1101
Upper Peninsula Public Access Coalition..........................  1103
USGS Coalition...................................................  1106
Utah Water Users Association.....................................  1110
Washington Wildlife Recreation Coalition.........................  1112
Wilderness Society and the National Association of State 
  Foresters......................................................  1115
Wyoming Water Association........................................  1118
Yakama Nation....................................................  1120
Yukon-Kuskokwim Health Corporation...............................  1123

                                  <all>

</pre></body></html>
